<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2022</title>
<body><pre>[Senate Hearing 117-]
[From the U.S. Government Publishing Office]




 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2022

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
            Prepared Statement of the Accountability Counsel
Dear Chairman Coons, Ranking Member Graham, and members of the 
subcommittee:

    On behalf of Accountability Counsel, thank you for this opportunity 
to provide input on the FY 2022 State, Foreign Operations, and Related 
Programs (SFOPs) appropriations process. In this written testimony, we 
will provide recommendations for the U.S. International Development 
Finance Corporation (DFC), the U.S. Agency for International 
Development (USAID), the U.S. Export-Import Bank (EXIM), the U.S. 
Department of the Treasury (specifically, the U.S. executive directors 
at multilateral development institutions), and the U.S. Department of 
State (specifically, the U.S. National Contact Point for the OECD 
Guidelines).
    Accountability Counsel amplifies the voices of communities around 
the world to protect their human rights and environment from the 
impacts of internationally financed projects, including projects funded 
by development agencies and development finance institutions, private 
banks, and export credit agencies. Despite good intentions and even 
with the best due diligence, projects financed by these actors can 
result in harm to the very communities they are meant to benefit. When 
negative environmental, social, or labor impacts result from these 
projects, the affected communities must be made whole.
    Our requests center on ensuring that local communities most 
affected by U.S. investments have robust avenues to raise concerns 
about any unintended impacts from these investments and receive redress 
when harm occurs. Several institutions, including the World Bank and 
the Chinese-led Asian Infrastructure Investment Bank, have developed 
independent accountability mechanisms (IAMs) \1\ to address 
environmental and social concerns from project-affected people. In 
addition to addressing grievances, IAMs can provide valuable lessons 
learned to their institution for the strengthening of future projects. 
The United States has been a strong champion of IAMs at the 
multilateral development banks and for its own bilateral foreign 
investments, with members of both parties recognizing the benefits of 
these feedback channels.
    The FY 22 SFOPs bill provides opportunities to further strengthen 
accountability for U.S. assistance and international investments. Doing 
so will help ensure that U.S. investments meet their mark and address 
unintended impacts that can undermine sustainability and lead to 
reputational damage for the U.S. government and companies.
    In this spirit, we provide the following recommendations:

    1. Include bill language to allocate at least $750,000 to resource 
the DFC's accountability mechanism.
    Section 1415 of the BUILD Act requires DFC to operate an IAM to 
address environmental, social, and human rights concerns related to the 
DFC's financing. For this mechanism to be effective, it has to have 
dedicated resources to carry out its functions. It is a common feature 
of IAMs at other international financial institutions to have a 
separate budget for the IAM that is controlled by the mechanism. Items 
this budget would cover would include the director and staff's 
salaries, resources for dispute resolution processes, compliance review 
investigations, and advisory notes as well as outreach to project-
affected communities.
    2. Include bill language to allocate at least $500,000 to resource 
USAID's new accountability mechanism, and enact report language to 
ensure that the mechanism contains the key features of an IAM.
    In directing USAID to establish an accountability mechanism in the 
explanatory statement \2\ to the FY 21 appropriations law, Congress 
took an important step to ensure that USAID has an effective avenue to 
address unintended negative environmental and social impacts to 
communities from USAID's activities. To be effective, USAID's 
accountability mechanism must adopt international best practices \3\ 
and incorporate the standard features of an accountability mechanism, 
including dedicated staff and compliance, dispute resolution, and 
advisory functions. As with the DFC's mechanism, the new USAID 
mechanism will need dedicated resources to operate effectively.
    3. Include report language directing EXIM to create an IAM.
    Although it is positive that EXIM has taken steps to increase 
opportunities for feedback from communities affected by its financing 
in recent years, EXIM's current Environmental and Social Project 
Information and Concerns complaint process is inadequate. The complaint 
process is not independent from management and the lines of EXIM's 
operations, which undermines its legitimacy. EXIM should create a fully 
independent IAM that follows international best practices. While EXIM 
has an Office of the Inspector General (OIG), an IAM would serve a 
different function as an IAM can receive complaints related to 
environmental and social harm directly from affected communities and 
can facilitate a dispute resolution process or conduct a compliance 
investigation. In fact, in its 2015 report \4\ on the Sasan Power 
Limited project in India, the OIG recommended that EXIM create a formal 
complaint process to address community concerns. To ensure that the IAM 
is robust and incorporates international best practice, EXIM should 
conduct a notice and comment period and public consultation to design 
the IAM.
    4. Include report language directing the U.S. executive directors 
at each multilateral development institution to use the voice and vote 
of the United States in the respective institution to provide resources 
to remediate unintended negative impacts from the institution's 
activities, including those confirmed by the institution's independent 
accountability mechanism.
    Although the multilateral development institutions have IAMs to 
address grievances related to projects, often resources are not 
immediately available to facilitate full and effective remediation of 
the harms confirmed by the mechanism. Given the U.S. government's 
support for strong environmental and social policies and accountability 
at the multilateral development institutions, the U.S. should support 
initiatives to ensure that remedy is provided for harmed communities.
    5. Include report language directing the U.S. National Contact 
Point for the OECD Guidelines for Multinational Enterprises to issue a 
report to the Committees on Appropriations, Senate Foreign Relations 
Committee, and House Foreign Affairs Committee addressing how the 
National Contact Point has implemented the recommendations received 
during its 2017 Peer Review.
    In addition to championing accountability at development and 
international financial institutions, the U.S. has also championed 
responsible business conduct around the world, including in the 
publishing of the first U.S. National Action Plan on Responsible 
Business Conduct.\5\ The U.S. National Contact Point for the OECD 
Guidelines for Multinational Enterprises (U.S. NCP), housed in the 
State Department, is one of the only non-judicial avenues available for 
people harmed by U.S. multinational corporations to seek redress and 
remedy.
    In 2017, the U.S. NCP underwent an OECD peer review process whereby 
it received feedback from other countries' national contact points and 
various stakeholders, including civil society organizations. Since the 
publication of the peer review report \6\ in 2019, there has been 
little public information on how the report's recommendations and other 
recommendations provided during the peer review have been addressed and 
implemented. Given the importance of promoting responsible business 
conduct and facilitating remedy when harm occurs, the NCP should 
publicly demonstrate how it is incorporating the recommendations to 
strengthen its operations.
    Thank you for your consideration of our requests. We look forward 
to continued engagement with you to ensure that U.S. assistance and 
investments respects the rights and voices of local communities and 
upholds our national commitment to accountability.
---------------------------------------------------------------------------
    \1\ Accountability Office FAQs, Accountability Counsel), https://
www.accountabilitycounsel.org/accountability-resources/accountability-
office-faqs/ (last visited June 28, 2021).
    \2\ Further Consolidated Appropriations Act, 2021, SFOPS Statement, 
https://www.appropriations.senate.gov/imo/media/doc/DivisionK--
SFOPSStatementFY21.pdf--page=94.
    \3\ This includes incorporating the UN Guiding Principles on 
Business and Human Rights effectiveness criteria for non-judicial 
grievance mechanisms--legitimacy, accessibility, predictability, 
equitability, transparency rights-compatibility, and serving as a 
source of continuous learning. Office of the U.N. High Commissioner for 
Human Rights, Guiding Principles on Business and Human Rights: 
Implementing the United Nations ``Protect, Respect and Remedy'' 
Framework, U.N. Doc. HR/PUB/11/04, Principle 31 (2011), http://
www.ohchr.org/Documents/Publications/
GuidingPrinciplesBusinessHR_EN.pdf.
    \4\ OFFICE OF INSPECTOR GENERAL EXPORT-IMPORT BANK OF THE UNITED 
STATES, REPORT ON THE PROJECT FINANCING OF SASAN POWER LIMITED (2015), 
https://www.exim.gov/sites/default/files/oig/reports/FinalSasanReport--
Redacted.pdf--page=44.
    \5\ RESPONSIBLE BUSINESS CONDUCT--FIRST NATIONAL ACTION PLAN FOR 
THE UNITED STATES OF AMERICA (2016), https://2009-2017.state.gov/
documents/organization/265918.pdf.
    \6\ OECD, NATIONAL CONTACT POINT PEER REVIEWS--UNITED STATES 
(2019), http://mneguidelines.oecd.org/United-States-NCP-Peer-Review-
2019.pdf.
---------------------------------------------------------------------------
    [This statement was submitted by Margaux Day, Policy Director, and 
Stephanie Amoako, Senior Policy Associate.]
                                 ______
                                 
                      Prepared Statement of AIPAC
    For FY2022, AIPAC urges the Subcommittee's full support for $3.3 
billion in security assistance for our strategic partner Israel as 
outlined by the 2016 U.S.-Israel Memorandum of Understanding.
    The Middle East is at a crossroads between the current path of 
turmoil and the road to a more peaceful future. On the one hand, just 
last month Hamas and Palestinian Islamic Jihad targeted millions of 
Israeli civilians with over four thousand rockets. On the other, Israel 
and four Arab states last fall signed the Abraham Accords, setting 
aside outdated hatreds to forge new partnerships based on mutual 
acceptance and respect. Despite the pandemic, these states have 
undertaken a flurry of activity to cement budding commercial, trade, 
cultural, and personal relationships. The region's hope for a brighter 
future lies in overcoming rejectionism and embracing normalization with 
Israel--our strongest ally and the region's democratic anchor.
    Congress' strong bipartisan support for Israel's security not only 
helped Israel defend itself last month against the unprecedented rocket 
assault from Gaza, but also made the realization of normalization with 
key Arab states last year possible. There has simply been no better 
return on our foreign assistance dollars than Congress's investment in 
Israel.
    Moreover, Congress has consistently encouraged Israel's neighbors 
to negotiate peace, including key roles securing Israel's peace 
treaties with Jordan and Egypt and encouraging Israeli peacemaking 
efforts with the Palestinians. As President Biden has said, ``The only 
time progress has ever been made in the Middle East is when the Arab 
nations have known that there is no daylight between us and Israel.'' 
America's ironclad support for Israel's ability to defend itself by 
itself has enabled the Jewish state to soundly defeat every attack 
designed to destroy it. Last year's agreements placed before us the 
vision of a Middle East at peace with itself, where Arabs and Israelis 
are mutually invested in each other's economies and futures.
    Actualization of this vision would strongly secure U.S. national 
security interests and make Americans safer at home and abroad. It 
would also benefit Palestinians and open new prospects for peace. 
Investing in peace through economic partnerships and people-to-people 
programs is the model of the Nita Lowey Partnership for Peace Fund. 
This fund was established in last year's bill and authorized for a full 
five years, and we urge the Subcommittee to provide $50 million this 
year. The program enjoys strong bipartisan support and indicates 
Congress' belief that peace between peoples is at the heart of a 
lasting two-state solution.
                 israel's growing defense requirements
    Beyond Hamas, other dangerous actors seek to escalate tensions and 
mire the region in chaos. Foremost among these is Iran, which continues 
its aggressive behavior and pursuit of a nuclear weapon's capability. 
In fact, Tehran has grown more belligerent over the past several years: 
in addition to funding anti-Israel proxies and targeting Israeli-owned 
commercial vessels at sea, it has directly challenged U.S. warships in 
the Persian Gulf. Iranian forces have repeatedly fired missiles at our 
diplomats and troops in Iraq, and Tehran has used its proxies to strike 
crucial oil installations of our ally Saudi Arabia. Jerusalem's 
contribution to containing Iranian mischief and helping U.S. forces in 
the region is more important than ever. As the U.S. looks to reduce its 
regional military presence, Israel's actions constraining Iranian 
activities in Lebanon, Syria, and Iraq help advance American interests.
    Confronting these complex and broad-ranging threats requires Israel 
to invest heavily in its own defense, including procurement of a wide 
range of advanced technologies and maintenance of a ready force that 
can engage in an ongoing low-level ``conflict between wars.'' Spiraling 
defense costs have forced Israel to spend about 5 percent of its GDP on 
security--more than any other industrialized nation. The actual costs 
to the Israeli economy are even higher when considering lost 
productivity and the need for reserve duty, internal security, civil 
defense, and anti-terrorism spending. And Israel is projecting 
significant increases in its defense spending over the next decade.
    Apart from its own efforts, Israel clearly relies on critical 
support from America--Israel's strategic partner in upholding its 
qualitative military edge (QME). In accordance with the President's 
budgetary request, AIPAC strongly urges the Subcommittee to approve 
$3.3 billion to Israel in security assistance for fiscal year 2022, as 
called for in the 2016 U.S.-Israel Memorandum of Understanding, and to 
resist attaching political restrictions to that aid. By doing so, this 
Subcommittee will both enhance Israel's security and the prospects for 
peace.
    In addition, AIPAC supports a robust, bipartisan foreign aid 
program that ensures America's strong global leadership position. At 
just one percent of the federal budget, foreign aid is a relatively 
small cost-effective investment supporting critical U.S. interests and 
enhancing global stability and economic growth. Foreign aid enables the 
United States to support key allies like Israel, spur our job-creating 
exports, stem the spread of diseases, and help countries in turmoil 
avoid becoming breeding grounds for terrorism.
                          regional challenges
    Israel continues to face unprecedented turmoil on its doorstep. 
Beyond the threat it faces from Gaza, Israel must contend with regional 
threats emanating from Lebanon, Syria, Libya, Iraq and Yemen. Sub-state 
actors often dominate the landscape, and one dangerous state actor, 
Iran, is taking full advantage of the changing realities. We urge the 
Subcommittee to maintain longstanding provisions in the bill and report 
that ensure strict oversight and reporting requirements for policy 
affecting Lebanon, Iran, Syria and the Palestinians.
    In this new environment, Israel confronts countless challenges. To 
the northeast, Iran seeks to establish a permanent military presence in 
Syria. Iran's Supreme Leader Khamenei and the IRGC do not conceal that 
they seek Israel's destruction. To the north, Hezbollah effectively 
dominates Lebanon, exploiting Beirut's ongoing crises to tighten its 
hold on the levers of power. With an estimated 150,000 rockets and 
missiles--more sophisticated and accurate than ever and located inside 
homes, schools, and hospitals--Hezbollah poses a dangerous threat to 
Israel. We urge the Subcommittee continue the reporting requirements 
addressing Hezbollah's military buildup, including its efforts to 
acquire an arsenal of PGMs.
    In the Gaza Strip, Hamas- an American and EU-designated terrorist 
organization--has demonstrated conclusively its commitment to its 
terrorist goals. Rather than help its own population, Hamas has used 
its resources to expand its military capabilities and construct an 
elaborate terrorist infrastructure-including a broad network of tunnels 
-to attack Israeli communities. Six million Israelis live within range 
of Hamas' increasingly accurate rocket arsenal, and many of them spent 
days in bomb shelters during the recent conflict. Obviously, the 
international community must do its utmost to prevent Hamas from 
reconstituting this threat. As this Subcommittee considers assistance 
for Gaza, it must ensure-as President Biden has directed-that any aid 
not go to Hamas or strengthen its terrorist infrastructure.
    Further to Israel's south, Iranian-backed Houthis are creating new 
concerns for Jerusalem. In early 2021, an IDF spokesperson reported 
that Israel had intelligence confirming that Iran was sending ``smart 
weapons'' to Yemen that could target Israel.
    Israel also needs to prepare for the possibility of a nuclear-armed 
Iran. Tehran's recent nuclear brinkmanship signals its continued 
nuclear ambitions. In January, Iran announced it had begun enriching 
uranium to 20 percent purity at Fordow. In February, Tehran suspended 
compliance with the Additional Protocol, triggering a crisis at the 
IAEA and forcing the hurried negotiation of an interim understanding 
expiring in June. In March, the IAEA confirmed that Iran had started 
enriching uranium at its underground Natanz plant with a second type of 
advanced centrifuge, the IR-4. Iran has also conducted approximately 20 
ballistic missile tests in defiance of U.N. prohibitions, including 
long-range missiles capable of delivering a nuclear warhead.
    In sum, these threats highlight the unprecedented strategic 
challenges Israel faces today. Whereas Israeli military planners used 
to confront enemies with conventional weapons and armies, today the 
threats to Israel's existence come from a broad array of forces with a 
diverse set of weapons -conventional and unconventional, symmetrical 
and asymmetrical--that are largely aimed at Israel's civilian 
population. It is in America's vital interest for Israel--our sole 
reliable democratic ally in the region -to have the military 
capabilities it needs to decisively defeat these enemies.
           bias against israel in the international community
    Israel's security challenges are compounded by challenges it faces 
at the United Nations and other international fora, where detractors 
have hijacked the process to isolate and demonize the Jewish state. 
U.S. support for Israel at multilateral organizations, especially its 
longstanding vocal leadership at the UN, has been crucial in pushing 
back against an ongoing, systematic attack on Israel. Last month the 
Human Rights Council once again demonstrated its pervasive unfairness 
toward Israel, creating an open-ended international investigation to 
target Israel--this time for defending its civilian population against 
indiscriminate attacks by U.S.-designated terrorists. Israel is also 
facing an unjust and unfounded case against it at the International 
Criminal Court. The toxic anti-Israel environment in these institutions 
is nothing new, and it further poisons Israeli-Palestinian relations at 
a time when reconciliation is crucial. Strong U.S. support and 
continued efforts to promote fairness and fight bias in the 
international arena are crucial. U.S. leadership will also be critical 
to achieve needed changes at the United Nations Relief and Works 
Agency. We urge the U.S. to insist on reforms at UNRWA, especially in 
the organization's education curricula that incite violence and hatred 
and its approach to refugee status that has exacerbated the human cost 
of the protracted conflict.
   u.s. assistance helps maintain israel's qualitative military edge 
                         against mutual threats
    U.S. support for Israel through annual security aid has helped the 
Jewish state maintain its QME, which Congress has defined in 
legislation as Israel's ``ability to counter and defeat any credible 
conventional military threat from any individual state or possible 
coalition of states or from non-state actors.'' This military 
superiority has historically prevented war by deterring regional 
adversaries from attacking Israel. Due to U.S. support for Israel's 
QME, prospective aggressors know they would face a U.S.-backed ally 
armed with the world's most advanced weapon systems-both American and 
Israeli. At the same time, when deterrence has failed, the American-
made defense hardware provided to the IDF has enabled the Jewish state 
to protect itself against the mounting threats. This crucial support 
has also helped create the environment for regional Arab-Israeli peace 
that we have seen begin to unfold. We believe that continued U.S. aid 
to Egypt and Jordan is also important to helping ensure stability in 
the region, as is the strong U.S. commitment to the Multinational Force 
and Observers mission in the Sinai.
                   israel: a vital strategic partner
    As a long-standing pillar of America's Middle East security 
framework, the U.S.-Israel strategic partnership combats common threats 
and furthers U.S. policy objectives. These threats include terrorism, 
regional aggression and destabilization by armed Iranian proxies, 
weapons proliferation, counterfeiting, cyber warfare, and the spread of 
extremism. In this context, Israel's military strength and geo-
strategic location provide a strong deterrent to regional actors 
opposed to the U.S. Coordination between Israeli and U.S. military 
counterparts has expanded considerably as Iran's disruptive behavior 
from Syria to Yemen to Iraq and the Arabian Gulf has metastasized since 
2015. One portent of even stronger U.S.-Israel cooperation with other 
regional allies is the recent transfer of Israel from our military's 
European Command area of responsibility to Central Command.
    Israel's stable, democratic, and reliably pro-American orientation 
ensures that we can consistently rely on our alliance with the Jewish 
state. This has been an enduring constant through Republican and 
Democratic administrations and across a range of Israeli governments.
    For over 30 years, both the U.S. and-Israel have benefitted from 
joint military training exercises and joint research and development 
against common threats-from high-end weapons and cyber-attacks to 
improvised explosive device (IEDs) and terrorist tunnels. Twice each 
year, U.S. Marines conduct desert warfare training with their IDF 
counterparts, and American soldiers and security officials regularly 
visit Israel to study its approach to urban combat. U.S. pilots hold 
simulated combat training with the Israeli Air Force. In addition, 
Israel and the United States have cooperated on a wide range of 
intelligence-sharing programs, including monitoring Iran, Syria, al-
Qaeda, and other terrorist groups and sponsors. In the biennial Juniper 
Cobra exercise, U.S. and Israeli forces practice an integrated defense 
to counter the growing threat from ballistic missiles and long-range 
rockets. Given a U.S. desire to reduce overseas commitments, Israel's 
role as a reliable ally in a critical region is more important than 
ever.
   cooperation produces critical new military, defense and civilian 
                              technologies
    With America's support, Israel has developed an advanced, multi-
layered missile defense shield protecting Israel's population centers 
and providing a degree of protection to deployed American forces. The 
$500 million in annual U.S. missile defense funding support outlined in 
the current MOU is matched by Israel's own investments and in-kind 
contributions for Iron Dome, David's Sling, and Arrow.
    AIPAC also strongly supports the expansion of U.S.-Israel civilian 
cooperative programs. These programs have made America stronger through 
the development and introduction of technologies relating to energy 
efficiency, cybersecurity, and water scarcity. Israel has in recent 
years also brought some of these technologies to the developing world -
furthering sustainability, helping lift millions out of poverty and 
creating enormous possibilities for cooperation between Israel and our 
development agencies. We urge continued funding for the $2 million 
USAID-Israel international development cooperation program.
                               conclusion
    As Congress considers U.S. priorities for the Middle East, one 
thing remains certain: ensuring Israel's security promotes American 
values and vital interests. This Subcommittee-headed ably by Chairman 
Coons and Ranking Member Graham-deserves great credit for its stalwart 
advocacy for the U.S.-Israel relationship and the overall foreign aid 
budget over the years. That includes not only reliably providing the 
full funding that is so vital to keeping Israel secure and strong, but 
also codifying the equally important policy provisions dealing with so 
many aspects of U.S. policy in the Middle East. This bipartisan support 
will remain even more critical as America and Israel continue to work 
together to meet the challenges and opportunities that lie ahead.

    [This statement was submitted by Howard Kohr, CEO.]
                                 ______
                                 
     Prepared Statement of the Alliance for International Exchange
    As Executive Director of the Alliance for International Exchange, I 
appreciate the opportunity to submit testimony supporting funding of 
$1.1 billion for educational and cultural exchange programs 
administered by the U.S. Department of State's Bureau of Educational 
and Cultural Affairs in Fiscal Year 2022.
    As the collective public policy voice of the exchange community, 
the Alliance comprises nongovernmental organizations representing the 
international educational and cultural exchange community in the United 
States. We greatly appreciate our productive working relationship with 
the Subcommittee and its strong and consistent support for exchange 
programs.
    This appropriation will allow the U.S. Department of State to 
reinvigorate and expand educational and cultural exchange programs, a 
cost-effective public diplomacy tool, with unique capacities to adapt 
rapidly and effectively to foreign policy and national security 
priorities, while building relationships with strategic audiences in 
key countries. Exchange programs enable the U.S. to build relationships 
with current, emerging, and future leaders, and provide opportunities 
for engagement with youth, women and girls, as well as program alumni. 
It further allows the U.S. Department of State to provide opportunities 
for young Americans to study and research abroad, equipping them with 
the skill set they need to succeed in today's global marketplace.
    We believe U.S. funding for exchange programs should be balanced 
and strategic by reaching a range of people from many different 
countries. Our country is very well served by supporting initiatives to 
discover and cultivate emerging leaders; language and area studies 
programs that prepare U.S. citizens for the workforce; capacity 
development for women; youth engagement; exchanges of cultural and 
artistic expression; interactions with international athletes; and 
virtual exchanges that connect people who are unable to travel. This 
comprehensive approach to exchanges has been very effective in 
advancing our nation's strategic interests and should be maintained.
                   supporting u.s. national security
    U.S. Department of State exchange programs allow the U.S. to engage 
with wide and diverse audiences and emerging leaders from around the 
world, many of them from countries key to our national security 
interests. American students studying abroad through U.S. Department of 
State exchange programs are ambassadors of the next generation of 
American leaders, highlighting our most promising young people and 
promoting American values around the world. U.S. Department of State 
evaluations repeatedly show that international exchange participants 
who visit the United States complete their programs with a better 
impression of our country, the American people, and our values. U.S. 
ambassadors around the world consistently rank exchange programs among 
the most useful catalysts for long-term political change and mutual 
understanding. One in three current world leaders has participated in a 
U.S. Department of State exchange program. Notable exchange program 
alumni include 583 current or former heads of government, 84 Nobel 
Prize winners, 64 representatives to the United Nations, 31 heads of 
international organizations, and 97 members of the U.S. Congress, 
according to U.S. Department of State data.
    Between the global pandemic, rising nationalism, challenges to 
democracy, climate change, increasing distrust between people, and the 
weaponization of disinformation, it is more important than ever to 
acknowledge the value of exchange programs in supporting national 
security. This educational and cultural exchange programs appropriation 
would help further our foreign policy objectives through more 
initiatives like the following: a youth program connecting U.S. 
community colleges with peers in Jordanian and Iraqi institutions to 
co-develop solutions for sustainability challenges faced by businesses; 
the 2020 Elections Virtual Reporting Tour which convened 214 
journalists from 114 different countries and enabled international 
journalists to generate more than 1,200 media products with credible 
reporting; and, a Virtual Alumni Reunion of the Pan-Africa Youth 
Leadership Program (PAYLP) which engaged over 300 participants from 30 
countries across sub-Saharan Africa and encouraged participants to 
recommit themselves to their community.
    Given the myriad global challenges, it is critical that the U.S. 
both rebuild and construct anew the human networks needed to 
successfully tackle these and future challenges. Building and 
maintaining networks is important for creating sustained connections 
and is also a cost-effective way to enhance the impact of exchanges. 
This appropriation would allow for: rebuilding volunteer and community 
networks which have eroded from the Covid-19 pandemic; providing 
financial incentives for communities and organizations to support 
exchanges once again; and supporting alumni networks through events, 
programs, and administrative costs.
                     strengthening the u.s. economy
    U.S. Department of State exchange programs are a cost-effective 
investment that not only enhance America's long-term competitiveness 
but also provide significant and immediate economic impact in 
communities across the country. Most of the U.S. Department of State 
exchanges budget is spent either on Americans, American businesses and 
organizations, or in the United States. The 430+ EducationUSA Advising 
Centers supported by the exchange program appropriation facilitated 
1,075,496 international students coming to the U.S. in the 2019-2020 
academic year. These students who were enrolled at U.S. colleges and 
universities across the U.S. contributed $38.7 billion to the U.S. 
economy and supported 415,996 jobs, according to NAFSA: Association of 
International Educators. U.S. Department of State exchange programs 
provide opportunities for Americans to build international experience 
and connections, expand their global perspective, and gain foreign 
language and cross-cultural skills that are critical to business and 
national security.
                    increasing mutual understanding
    Exchange programs have a proven track record of building respect 
and increasing mutual understanding between Americans and citizens of 
countries around the world. For example, 94% of exchange students from 
Muslim-majority countries reported having a deeper, more favorable view 
of the American culture after their stay in the United States, 
according to a U.S. Department of State evaluation of the Kennedy-Lugar 
Youth Exchange and Study (YES) Program.
    Support from Congress allows the U.S. Department of State to 
strategically align its programs with key U.S. foreign policy interests 
and to facilitate exchange experiences for more than 55,000 American 
and international exchange participants each year, including:

  --Bringing emerging and future leaders to the U.S. on programs like 
        the Kennedy-Lugar Youth Exchange and Study (YES) Program 
        between the U.S. and countries with significant Muslim 
        populations; the Future Leaders Exchange (FLEX) Program for 
        high school students from Eurasia; the Young Leaders 
        Initiatives in Africa, Southeast Asia, and the Americas; and 
        the International Visitor Leadership Program (IVLP);
  --Expanding opportunities for young Americans to study abroad through 
        programs like the Benjamin A. Gilman International Scholarship 
        Program;
  --Continuing to engage students and scholars through the renowned 
        Fulbright Program;
  --Engaging and training young professionals through programs such as 
        the Congress-Bundestag Youth Exchange (CBYX); and
  --Broadening engagement with youth, women and girls, as well as 
        program alumni.

    Increasing mutual understanding also requires expanding exchanges 
to include new audiences. With this appropriation for educational and 
cultural exchange, program sponsors could achieve objectives like the 
following: expanding programs that prioritize underserved communities 
in the U.S.; expanding domestic outreach and recruitment of host 
families and students; and building relationships with other regions of 
the world to diversify inbound exchange programs.
    Additionally, a critical part of incorporating new audiences is 
successfully integrating technology. Learning from the lessons of the 
COVID-19 pandemic, program sponsors are continuing to incorporate 
virtual elements or fully virtual programs after the pandemic. Although 
virtual programming helps reduce costs for participants, it comes with 
higher administrative costs for program sponsors who must build 
necessary virtual infrastructure, hire and train staff to effectively 
use virtual tools, and acquire reliable virtual platforms. This 
appropriation should allow for virtual activities to successfully 
complement traditional face-to-face exchanges, furthering the reach and 
impact of these programs worldwide.
    Again, thank you for the opportunity to express our support for 
funding of $1.1 billion for U.S. Department of State educational and 
cultural exchange programs in Fiscal Year 2022. We look forward to 
working with the Subcommittee to ensure that international exchange 
programs continue to play a vital role in supporting U.S. national 
security, strengthening our economy, and increasing mutual 
understanding between the U.S. and countries around the world. Thank 
you for your consideration.

    [This statement was submitted by Ilir Zherka, Executive Director.]
                                 ______
                                 
        Prepared Statement of the Alliance for Middle East Peace
Chairman Coons, Ranking Member Graham, and Members of the Subcommittee:

    First and foremost, I would like to thank the members of this 
Subcommittee who have contributed and supported Israeli-Palestinian 
peacebuilding projects throughout the years. Your continued leadership 
saves lives, alleviates suffering, and furthers American values and 
ideas. My name is Avi Meyerstein, and I am the Founder and President of 
the Alliance for Middle East Peace (ALLMEP), the region's largest 
network of peacebuilding organizations.
    On behalf of our coalition of over 150 organizations building 
partnerships, cooperation, and peace between Israelis and Palestinians, 
I urge this Subcommittee to continue its longstanding support for 
critical people-to-people and peacebuilding programming in Israel and 
the Palestinian Territories by providing funding of at least 
$50,000,000 for the Nita M. Lowey Middle East Partnership for Peace Act 
in the Fiscal Year 2022 State, Foreign Operations, and Related Programs 
bill, with at least $35,000,000 of this amount provided for the new 
People-to-People Partnership for Peace Fund at USAID.
    In the last month, Israelis and Palestinians have suffered horrific 
violence. Over 200 Palestinians lost their lives, including 6 members 
of an ALLMEP staff member's family. More than 3,000 rockets were 
launched into Israel, terrorizing Jewish and Palestinian Israeli alike, 
and killing over 15 people. In the West Bank, at least 20 have lost 
their lives due to unrest. In mixed Jewish-Palestinian cities in 
Israel, violence peaked with an unprecedented and disturbing wave of 
mob violence, with Arabs and Jews attacking the ``other.'' We saw 
communities coming apart at the seams as dehumanization runs rampant.
    This wave of violence leads us to one important conclusion: we 
cannot allow a return to a familiar and unstable status quo which 
repeatedly increases violence and animosity while rendering a final 
resolution of the conflict impossible. The ceasefire should not 
encourage complacency from the United States Government. All the tinder 
that led to this explosion not only remains but is rapidly continuing 
to re-accumulate.
    We must address this situation head-on, and Congress has the unique 
opportunity to support the Administration in creating a new strategy 
that takes a long-term approach and tackles realities and attitudes on 
the ground that will either determine whether we create the conditions 
for peace or else see further bloodshed.
    Last year, Congress delivered a game-changing tool that, if fully 
implemented and leveraged, has the potential to radically change these 
dynamics on the ground: the Nita M. Lowey Middle East Partnership for 
Peace Act (MEPPA). ALLMEP would like to thank all the sponsors who 
pushed for this pioneering legislation that helps set a new standard 
for international support, in terms of both strategy and capacity. In 
particular, we would like to commend Congresswoman Nita Lowey, whom the 
bill is named after, Congressman Jeff Fortenberry, Senator Lindsey 
Graham, Senator Chris Coons, and Senator Tim Kaine for their leadership 
in advancing this legislation.
    MEPPA offers the one thing that has always stood between proven 
civil society initiatives and widespread change: the promise of 
sufficient peacebuilding resources to operate at the same scale as the 
conflict itself. MEPPA creates the opportunity to do for the Middle 
East what the International Fund for Ireland did in Ireland, where the 
US and other governments created and funded the IFI to deliver and 
sustain peace.
    Rigorous analyses and evaluations conclusively and consistently 
demonstrate that people-to-people and reconciliation programs work--
creating greater trust; enhanced cooperation; increased ``conflict 
resolution values;'' decreased aggression and loneliness; and fewer 
hazardous environmental and health conditions between project 
participants from opposing sides of the conflict. Equally important, 
these projects give participants tangible ways to work toward a better 
future, embedding a win-win paradigm that challenges the zero-sum 
narrative that risks further destabilization in the region.
    In a July 2019 program evaluation by USAID, participants in US-
funded people-to-people activities in Israel and the West Bank had an 
increased belief that peace is possible, compared to their peers, and 
came away with positive feelings about their counterparts.\1\ The 
evaluation also found that a significant percentage of participants 
stayed connected with one another despite violence, social stigma, and 
the challenges of meeting in person regularly.\2\
    In 2014, researchers evaluated the impact of the Parents Circle 
Families Forum Dual Narrative Project, History through the Human Eye. 
The program was designed for bereaved Palestinian and Israeli families 
to attend multiple dialogue sessions, where they share their own 
stories, as well as get the opportunity to hear the firsthand 
experience of Holocaust survivors and Palestinian refugees. The program 
concludes with an exercise that challenges the other to ``stand in the 
other's shoes'' and represent the other's stories with empathy. 77% of 
participants reported an increased belief in the possibility of 
reconciliation, 71% reported improved trust and empathy for the other, 
and 68% reported increased levels of acknowledgment and knowledge of 
their counterpart's narrative.\3,4\
    A similar study was conducted on participants of the Near East 
Foundation's Olive Oil Without Borders program. The project consists of 
3,400 Israeli and Palestinian olive producers working together to 
export 4,500 tons of olive oil from the West Bank to Israel, producing 
over $25 million for Palestinian farmers. 90% of participants reported 
increased trust in ``the other'' and 77% indicated an intention to 
continue cross-border cooperation.\5\
    While the case for peacebuilding has been made with the passage of 
MEPPA, it is important to return to this data and remember just how 
transformative an impact the future could hold. Indeed, the network of 
organizations and participants engaged in this work played a critical 
role in calming the recent crisis, mobilizing thousands of people--both 
Jews and Palestinians--to march together for peace and unity in the 
face of unprecedented street violence.
    People-to-people peacebuilding is one of the few proven tools for 
addressing ethnic and territorial conflict. Especially with a conflict 
as deep-seated and mired in mistrust as the Israeli-Palestinian 
conflict, it is incumbent on us all to deploy this tool with 
seriousness and rigor.
    We know it is effective in disrupting some of the most firmly 
embedded attitudes mentioned earlier, which conflicts thrive upon. 
Repeated studies cited in this testimony, by the United States 
Institute of Peace, and by USAID demonstrate that these programs are 
effective, and that their results can be transformative and long-
lasting. We see all around us the alumni of these programs being 
disproportionately represented as leaders and activists in the 
movements and campaigns to end the conflict.
    If we know it transforms individuals and families, then we have a 
responsibility to work to ensure it can do the same with entire 
communities and societies. The single-biggest impediment is the 
availability of adequate resources. As such, we urge this Committee to 
allocate $50,000,000 towards the Nita M. Lowey Middle East Partnership 
for Peace Act. MEPPA offers incredible promise, not only because it 
makes the single largest investment ever in Israeli-Palestinian 
peacebuilding, but also because it promises to bring a new kind of 
investment--one that can take a coordinated, holistic, field-wide view 
to deploy resources strategically for maximum impact.
    Our entire sector is deeply grateful for Congress's continued 
support and leadership in peacebuilding programs. I thank you for all 
your previous support for the passage of the Nita M. Lowey Middle East 
Partnership Fund for Peace Act and look forward to working together on 
the FY22 appropriations package.
---------------------------------------------------------------------------
    \1\ Brown Guzman, Danice & Khatiwada, Lila. ``Expanding the Reach 
of Impact Evaluations in Peacebuilding: A Retrospective Evaluation of 
CMM P2P Activities in Israel/West Bank,'' USAID (United States Agency 
for International Development, July 2019), https://pdf.usaid.gov/
pdf_docs/PA00TVV3.pdf, 4.
    \2\ Ibid, 20.
    \3\ Ned Lazarus. ``A future for Israeli-Palestinian 
peacebuilding.'' Britain Israel Communications Research Centre (2017), 
48.
    \4\ Anat Reisman-Levy & Jamal Atamneh. ``Evaluation Research: 
Narrative for Change.'' Parents Circle- Families Forum (2014-2017), 13.
    \5\ Charles Benjamin. ``Near East Foundation Annual Report 2016.'' 
Near East Foundation (2016), 11.

    [This statement was submitted by Avi Meyerstein, Founder and 
President.]
                                 ______
                                 
           Prepared Statement of the American Bar Association
Chairman Coons, Ranking Member Graham, and Members of the Subcommittee:

    My name is Patricia Lee Refo and, as President of the American Bar 
Association (ABA), I am pleased to submit this statement on behalf of 
the association. Thank you for this opportunity to reiterate the 
importance of continuing U.S. leadership and support for the promotion 
of democracy, human rights, and the rule of law around the world. The 
ABA appreciates that there is wide bipartisan agreement in Congress 
that programs to promote the rule of law internationally are valuable 
and cost-effective investments of U.S. taxpayer dollars that enhance 
both the national security and economic prosperity of our nation. 
Support for these programs is also consistent with our values as a 
nation. The ABA supports increased funding for Democracy, Human Rights, 
and Governance (DRG) programs for Fiscal Year 2022, including no less 
than $2.5 billion for Democracy Programs.
    Specifically, the ABA supports a renewed commitment to promoting 
rule of law programming within the DRG sector. Countries with weak or 
deficient respect for the rule of law invariably suffer a variety of 
ills, and the lack of rule of law leaves the constituent population 
without the tools to address these challenges. Properly understood, 
rule of law is akin to an immune system of governance. When it is 
healthy and robust, government can systematically address a wide array 
of issues-corruption, cybersecurity, terrorism, and climate change to 
name a few. When the immune system is compromised, the converse is 
true, and the ability of a government to fully utilize foreign 
assistance for sustainable development is in doubt. Funding for rule of 
law assistance is a force multiplier for the U.S. government because, 
when countries increase rule of law, the constituent population is 
empowered to enforce their own rights, grow their own economy, and 
effectively utilize the assistance they receive.
    As a long-time implementer of rule of law programs, the ABA can 
attest that the U.S. receives significant returns on this investment. 
For more than 30 years and in more than 100 countries, the ABA, through 
our Rule of Law Initiative (ABA ROLI), Center for Human Rights (CHR), 
and International Law Section (ILS), works to protect human rights, and 
promote justice, economic opportunity, and human dignity through the 
rule of law. Founded just after the fall of the Berlin Wall, ABA ROLI's 
early efforts focused on assisting Eastern European countries to draft 
constitutions and laws. The program also helped embolden judges, 
prosecutors, lawyers, and legal educators to take the lead in 
establishing--or in some cases re-establishing--the rule of law after 
decades of communism and repression. The early model of American 
lawyers offering pro-bono services to their colleagues in developing 
democracies remains at the heart of our global programs. In fact, 
lawyers, law firms, and other experts have contributed more than $300 
million in pro bono support for our programs.
    Through ABA ROLI, CHR, ILS, and other initiatives, the ABA has a 
framework in place to respond to requests for assistance from every 
region of the world and can provide expertise in virtually every area 
of law, including such areas as advancing women's rights, combating 
trafficking in persons, fighting corruption, reforming judicial 
systems, ensuring access to justice, and defending human rights. Our 
programs work in close cooperation with government institutions and 
civil society organizations, including bar associations, judicial 
training institutes, ministries of justice, law schools, police, United 
Nations missions, and an array of non-governmental organizations. In 
2020, ABA ROLI executed more than 100 programs in 50 countries in every 
region of the world with funding from the U.S. Department of State, 
U.S. Agency for International Development, and other multilateral 
donors and private foundations.
                     aba roli in sub-saharan africa
    In 2020, ABA ROLI supported 24 programs in nine Sub-Saharan 
countries including Burkina Faso, the Central African Republic, 
Democratic Republic of Congo, Eswatini, Liberia, Niger, Somalia, 
Southern Africa, Tanzania, Uganda, Sudan, Zambia, and the African 
Union. Our work in Sub-Saharan Africa seeks to promote accountability 
for human rights violations, strengthen justice sector institutions, 
and increase access to justice for historically marginalized 
populations, particularly the rights of women and the poor. We 
emphasize a multi-disciplinary approach to the provision of assistance, 
using information and communications technologies to overcome weak or 
absent justice infrastructure, and empower individuals and communities 
to defend their rights and advocate for their futures.
                    aba roli in asia and the pacific
    In Asia and the Pacific, ABA ROLI implemented country-specific 
programs in the Philippines, Pakistan, Sri Lanka, Maldives, Malaysia, 
and Vietnam, as well as a South-East Asia regional program to combat 
corruption. The division has previously operated country programs in 
Afghanistan, Cambodia, China, Fiji, India, Indonesia, Laos, Mongolia, 
Nepal, Papua New Guinea, Solomon Islands, Thailand, and Timor-Leste. 
The division's programs include substantive areas such as: anti-
corruption, human trafficking, wildlife trafficking, access to justice, 
freedom of expression and religion, child rights, business and human 
rights, counter-terrorist financing, strengthening law-related 
institutions, and improving the skills and cooperation of legal actors 
such as prosecutors, judges, and lawyers.
                     aba roli in europe and eurasia
    Originally known as ABA CEELI, the Europe and Eurasia Division has 
worked in 28 countries across the region. Today, we implement country-
based and regional programs in Albania, Armenia, Bosnia & Herzegovina, 
Belarus, Georgia, Hungary, Kosovo, Macedonia, Moldova, Kazakhstan, 
Kyrgyzstan, Romania, Russia, Serbia, Tajikistan, and Ukraine. These 
programs have: increased access to justice and transparency of the 
judicial process; educated populations about their rights and 
responsibilities; supported efforts to combat trafficking in persons, 
cybercrime, drug trafficking, and other transnational crimes; and 
strengthened legislation and legal institutions in countries seeking 
European Union accession.
              aba roli in latin america and the caribbean
    ABA ROLI's Latin America and the Caribbean Division operates 
programs in El Salvador, Mexico, Peru, and a regional program covering 
El Salvador and Guatemala. Our work in the region includes a wide array 
of rule of law thematic areas: strengthening LGBTQ organizations; 
supporting legal education in transitions to accusatorial criminal 
justice systems; strengthening the investigation and prosecution of 
transnational organized crime, corruption, illegal gold mining and 
related crimes, money laundering and drug trafficking, hate crimes, 
feminicide and trafficking in persons; assisting institutions to 
strengthen judicial oversight; bolstering the capacity of forensic 
laboratories and of justice institutions to use forensic evidence in 
criminal cases; and providing technical support to legislative and 
policy reform in substantive areas.
              aba roli in the middle east and north africa
    Currently, the Middle East and North Africa Division maintains 
offices or operates bilateral programs in Jordan, Lebanon, Morocco, 
Libya, and Tunisia. It also conducts regional programs involving other 
MENA countries. These programs focus on judicial development, women's 
rights, the role of women in the legal and judicial profession, legal 
education reform, legal profession reform, human rights and access to 
justice, governance, and anticorruption. Since initiating work in the 
region in 2004, ABA ROLI has conducted nearly 150 programs in 17 
countries, including dozens of assessments of legal systems and related 
issues.
                  aba roli's global thematic programs
    Two of ABA ROLI's global thematic programs include the Criminal 
Justice Collaboration and Partnership (CJ-CAP) and the International 
Justice Sector Education and Training (IJET) programs, both funded by 
the Department of State's Bureau of International Narcotics and Law 
Enforcement Affairs. CJ-CAP empowers small groups of criminal justice 
actors to develop a coordinated, interagency approach to tackling 
cross-cutting criminal justice problems that cannot be addressed by one 
agency alone. The IJET program brings small groups of justice-sector 
professionals to the U.S. for month-long fellowships to empower them to 
implement strategic reform in their home country's justice sector. Each 
IJET fellowship includes a combination of seminars and training, peer-
to-peer exchange, institutional visits, and an embedded mentorship with 
a leading U.S. professional. Following the IJET fellows' return to 
their country, ABA ROLI and their mentors continue to support the 
implementation of their change plans by providing expertise and 
material resources.
    Focused on enhancing collaboration and strengthening evidence-based 
programming among justice sector practitioners in the U.S. government 
and beyond, JusTRAC+ fosters opportunities for information sharing and 
dialogue and supports learning by improving access to evidence-based 
practices. In 2020, ABA ROLI coordinated the efforts of the JusTRAC+ 
thematic communities of practice on Justice Sector Measurement and the 
Nexus of Transnational Organized Crime and Corruption to develop two 
knowledge products. Both tailored as practical guides for practitioners 
in the field, one focused on court performance measurement, and the 
other focused on countering corruption-enabled transnational crime. The 
JusTRAC+ Knowledge Portal (www.justracportal.org/) being built by ABA 
ROLI's team, which features curated resources and discussion boards, 
will be debuted in 2021.
    Women and Girls Empowered (WAGE) is a global consortium to advance 
the status of women and girls, led by ABA ROLI in close partnership 
with the Center for International Private Enterprise, Grameen 
Foundation, and Search for Common Ground. WAGE works to strengthen the 
capacity of CSOs, private sector and semi-private sector organizations, 
including micro finance institutions in target countries to: 1) improve 
the prevention of and response to gender-based violence; 2) advance the 
women, peace, and security agenda; and 3) support women's economic 
empowerment. In this context, WAGE provides direct assistance to women 
and girls, including information, resources, and services they need to 
succeed as active and equal participants in the global economy. WAGE 
also engages in collaborative research and learning to build a body of 
evidence on relevant promising practices in these thematic areas.
                    the aba center for human rights
    The ABA Center for Human Rights, established a decade after ROLI, 
promotes and protects human rights worldwide by defending advocates who 
face retaliation; rallying thought leaders on crucial issues; and 
holding abusive governments accountable under law. Through its Justice 
Defenders Program, funded since 2011 by a grant from the Department of 
State's Bureau of Democracy, Human Rights, and Labor, CHR supports 
lawyers, journalists, and advocates protecting human rights, anywhere 
in the world. To date, the program has leveraged more than $2 million 
in free legal assistance to more than a thousand advocates worldwide. 
CHR recently has enhanced this program with significant funding from 
the Clooney Foundation for Justice.
    CHR also combats impunity by helping to strengthen U.S. and 
international law to ensure that people who commit mass atrocities are 
held accountable. CHR also fights modern slavery by working with the 
Uniform Law Commission to fortify state law to ensure that human 
traffickers find no haven in the U.S., and works to protect LGBTQ 
persons, advance global health by shaping a human rights framework for 
confronting public health challenges, and improve international 
standards to protect human rights from harmful business practices.
        modes of delivery and choice of implementing instrument
    We urge the Subcommittee to continue to recognize the benefits of 
assistance delivered through non-profit NGOs. We note that previous 
bill language directs USAID to implement civil society and political 
competition and consensus building programs abroad in a manner that 
recognizes the unique benefits of grants and cooperative agreements, 
and request that the Subcommittee expand the language to include rule 
of law programs. Non-profit organizations funded through grants and 
cooperative agreements are more likely to develop long-term 
relationships that build capacity and allow for sustainable assistance 
efforts. In addition, NGOs are more likely to leverage U.S. assistance 
dollars through the contributions of volunteers and additional sources 
of funding. Independent U.S.-based NGOs are best positioned to work as 
true partners with local leaders to make sure the outcomes are owned 
locally but are operated under the oversight of experienced 
implementers that also serve as fiduciaries of American taxpayer 
dollars.
                               conclusion
    The U.S. has been able to play a critical leadership role in the 
world because it has, over multiple administrations of both parties, 
maintained a values-based foreign policy that advances the conditions 
for a peaceful and prosperous world. Failure to sustain and fund that 
policy risks ceding our leadership position to those who would remake 
the global order in ways that will certainly not serve U.S. interests. 
Establishing governments, legal structures and institutions based on 
the rule of law are necessary prerequisites to establishing resilient 
democratic societies and successful market-based economies. Programs 
such as those outlined above are cost-effective means through which to 
advance both the interests of individuals in participating countries 
and U.S. foreign policy, and we urge you to continue to support them 
for Fiscal Year 2022.

    [This statement was submitted by Patricia Lee Refo, President.]
                                 ______
                                 
     Prepared Statement of the American Councils for International 
                         Education: ACTR/ACCELS
    Mr. Chairman, Thank you for the opportunity to provide testimony to 
the Subcommittee on behalf of American Councils for International 
Education. I am requesting that the Subcommittee recommend funding in 
the fiscal year 2022 State, Foreign Operations bill of at least $1.1 
billion for programs under the Department of State's Bureau of 
Educational and Cultural Affairs (ECA). Further, I ask that funding 
within ECA be provided at the current amount of $113.86 million for 
Citizen Exchange Programs and that the Critical Languages Scholarship 
program be funded at a level of $15 million. I also ask that funding of 
at least $3 million be recommended for Research and Training for 
Eastern Europe and the Independent States of the Former Soviet Union 
Program.
    As President of American Councils for International Education, I 
have the privilege of overseeing one of the leading nonprofit 
organizations administering U.S. Government and privately funded 
exchange and educational development programs in areas critical to U.S. 
interests around the globe. I am also the President of the National 
Council for Eurasian and East European Research, created in 1978 to 
develop and sustain long-term, high-quality programs for post-doctoral 
research on the social, political, economic, environmental, and 
historical development of Eurasia and Central and Eastern Europe.
    American Councils is among the administering organizations for the 
State Department's programming to increase mutual understanding between 
the U.S. and the world. The past year has posed monumental challenges 
to the critical international exchange and educational development 
efforts, bringing international mobility to a standstill due to the 
COVID-19 pandemic. The ability for organizations like American Councils 
to convene in-person activities in the U.S. and countries that are 
crucial to our foreign policy objectives was severely impacted. 
Although much good and effective work was done on virtual platforms to 
promote region-to-region and people-to-people connections that are of 
the utmost importance to the United States, valuable time and 
opportunities for engagement have been lost.
    Creating an increased sense of urgency are the efforts of countries 
such as Russia and China to continue promoting competing outreach 
initiatives around the world. Significantly, as the implementation of 
people-to-people programs between the U.S. and these two countries has 
become increasing difficult, Russia and China have stepped up efforts 
to build ties in critical areas like Central Asia, Central and South 
East Europe, the Middle East, and Africa. It is crucial that the U.S. 
strengthen its outreach efforts wherever possible and close the gap 
that has been created by the pandemic.
    The United States Congress has always played a vital role in 
defining our national goals for countries and regions of strategic and 
national security importance to the United States, and the Subcommittee 
is to be thanked for embracing these activities. Innovative programs in 
education, research, and training, as well as activities promoting 
critical thinking and media literacy, not only serve national security 
interests, but highlight the role of the U.S. as a leader in these 
areas and demonstrate the unmatched effectiveness of the U.S. education 
system.
    No instrument of ``soft power'' is more cost-effective than 
American outreach to the rising generation of young leaders and 
professionals through congressionally funded programs. They provide a 
significant long-term multiplier effect at relatively low cost, as 
alumni later rise to increasingly important roles in government, the 
private sector, and the NGO community.
    It is also important to acknowledge that resources used on 
effective public diplomacy reduce the amount of funding required for 
defensive action.
    Without a doubt, these programs benefit not just the countries on 
which they focus; they also benefit the U.S., which must strategically 
engage with the global community.
                educational and cultural exchange (ece)
    To be effective, U.S. public diplomacy must reach beyond the 
English-speaking citizens in foreign capitals. The non-Fulbright side 
of the State Department exchanges account does precisely this. It 
provides for some of the most cost-effective and universally admired 
international education programs in public diplomacy today.
    The Future Leaders Exchange (FLEX) program for Eastern Europe/
Eurasia and the Youth Exchange and Study (YES) program for nations with 
substantial Muslim populations were created by the U.S. Congress and 
boast today over 40,000 active alumni, most under the age of 40. Most 
recently, American Councils was proud to facilitate the expansion of 
the FLEX program into several Central European countries, where the 
U.S. needs to maintain a strong voice in the increasingly competitive 
global landscape.
    Programs like FLEX and YES are critical to U.S. interests, as are 
counterpart programs like the Critical Language Scholarship Program and 
the National Security Language Initiative for Youth that place similar 
numbers of U.S. high school and university students overseas to learn 
critical languages like Arabic, Chinese, Korean, and Russian, as well 
as less-commonly taught languages like Hindi, Persian, Turkish, and 
Urdu.
    These programs provide access to students who would not otherwise 
have the means to study abroad and, in doing so, help to build national 
capacity by preparing a generation of diverse citizens who will be 
better able to deal with the economic and cultural complexities of the 
21st century. They also deliver professional development support to 
early career teachers and researchers in the U.S. and overseas, and 
provide vitally important immersion language training, internships, and 
field work support for U.S. students and graduate students in a dozen 
languages and regions of the world that are deemed critical by the U.S. 
government.
    For that reason, I ask that the Subcommittee include in this 
legislation language in support of the following exchange programs:

    Future Leaders Exchange Program (FLEX)
    Youth Exchange and Study Program (YES)
    Teachers of Critical Languages Program (TCLP)
    Professional Fellows Program (PFP)
    Young Southeast Asia Leadership Initiative (YSEALI)
    Educational Advising Centers (Education USA)
    National Security Language Initiative for Youth (NSLI-Y)
    Critical Language Scholarships Program (CLS)
                   eurasia/south east europe programs
    The U.S. currently supports a number of relatively new and 
unusually important assistance programs in the Eurasia/South East 
Europe region, which, based on my own experience, deserve particular 
consideration as models of focused U.S. assistance.
    Each contributes to meeting the challenges of preparing a new 
generation of citizens for the demands of the globalized economy and 
the concomitant needs for stronger workforce development, professional 
education, reduction of corruption, and greater social cohesion.
    These programs include the support of merit-based testing for 
university admissions in Ukraine and the support of collaborative 
research and language training for U.S. and Eurasian scholars under the 
State Department's highly respected Title VIII Program. Without this 
support for American scholars, the U.S. risks a future without area 
specialists who can help us navigate these complicated relationships.
    I ask that the Subcommittee provide support for the following 
programs:

    Research and Training in East European/Eurasian Regions (Title VIII 
program)
    Ukraine: Knowledge Transfer Initiative for Ukrainian Public 
Diplomacy
    Academic Integrity and Quality Initiative (AcademIQ)
                               conclusion
    Mr. Chairman, as you proceed with decisions on the fiscal year 2022 
bill, I request that you continue to provide strong funding for the 
Department of State's Bureau of Educational and Cultural Affairs and 
Foreign Assistance programs, particularly the programs mentioned in 
this statement. Thank you very much for your consideration.

    [This statement was submitted by Dr. David Patton, President.]
                                 ______
                                 
 Prepared Statement of The American Foreign Service Association (AFSA)
    The American Foreign Service Association (AFSA) is grateful that 
Congress voted to increase the Fiscal Year (FY) 2021 International 
Affairs Budget and, once again, reject proposed cuts to diplomacy and 
development funding. In FY22, AFSA hopes to build on the momentum of 
FY21's funding increases by increasing the amount of Foreign Service 
positions and shifting more positions back to the field. We have 
recently seen that field work in action-when Foreign Service members 
spearheaded the successful effort to bring more than 100,000 Americans 
home during the global COVID-19 pandemic. In the FY22 SFOPS 
Appropriations bill, AFSA is seeking: A $30 million increase above the 
FY21 enacted level to the State Department's ``Overseas Programs'' 
account and the following report language that specifies the 
restoration of at least 100 mid-level FSO positions from Washington to 
posts overseas: ``The Secretary of State shall increase the Department 
by at least 100 Foreign Service positions, specifically mid-level 
Foreign Service officer positions (grades FS-03, FS-02, and FS-01), at 
overseas posts.'' Also, additional funds to the State Department's 
``Human Resources'' account for the creation and filling of 1,000 new 
Foreign Service positions and additional funds to USAID's ``Operating 
Expenses'' account for the creation and filling of 650 new Foreign 
Service positions.
    AFSA has made the case that maintaining a robust diplomatic 
capability is vital to preserving America's global leadership role. Our 
leadership was built on a foundation of military might, economic 
primacy, good governance, tremendous cultural appeal-and the diplomatic 
prowess to channel all that power, hard and soft, into global 
leadership that has kept us safe and prosperous at home. A 2019 Chicago 
Council on Global Affairs survey found that seven in ten Americans 
support an active U.S. role in the world, a record high of the past 
five decades.
    We would like to partner with our congressional supporters to 
ensure that today, and years from now, full teams of U.S. diplomats are 
in the field, deployed around the world to promote and protect U.S. 
interests. For a tiny percentage of the overall budget, the Foreign 
Service builds the relationships that enable Americans to conduct 
business all around the world and keep threats at bay, reducing the 
need for military action. If the United States retreats diplomatically, 
we leave a vacuum that will be filled by others. In the face of more 
aggressive competition from China and Russia, the opportunity costs of 
leaving American embassies short staffed is rapidly increasing. Doing 
so erodes our nation's diplomatic power at our own peril.
    Creating and filling 1000 new State Department positions and 650 
new USAID positions will accomplish three major things: create a 
training float so members of the Foreign Service are better prepared 
for their jobs, allow expanded intake from an increasingly diverse U.S. 
population, and enable the foreign affairs agencies to meet expanding 
mission requirements.
    1. Members of the Foreign Service receive quality training on the 
front end and on the basics; before they go to their first assignment-
for language training, for certain leadership positions, etc. For 
example, a mid-level ranked Public Affairs officer may never take 
training on core public diplomacy functions because there is never 
time. The officers are usually shuttled between language training and 
their next post, without the opportunity to simply study and learn how 
to do their jobs better. This training float will enable members of the 
Foreign Service to perform higher quality work and provide temporary 
duty officers to perform jobs while others attend training.
    2. A significant increase in positions also provides the 
opportunity to expand representation to traditionally underrepresented 
groups. Diversity in foreign affairs agencies is not reflective of the 
U.S. population; and general expansion of the Foreign Service while 
targeting underrepresented groups will aid in both the recruitment and 
retention of a more diverse Foreign Service.
    3. Today, the U.S. is facing new threats and issues diplomats did 
not have to reckon with 10 years ago. Russia has resurged as a major 
national security threat, and U.S. diplomats have reported Russian 
foreign policy revolves around simply disrupting liberal democracy. 
China now has a larger diplomatic presence than the U.S., having more 
posts overseas and outnumbering American diplomats five to one in 
African countries. More positions will enable the Foreign Service to 
meet its expanded mission requirements to counter any threats to our 
global leadership and influence.
    Complementing the need for new positions is the need for more 
members of the Foreign Service at posts abroad. Members of the Foreign 
Service recall being asked during the height of the ``civilian surge'' 
in Iraq to identify positions U.S. embassies could sacrifice for the 
cause of ensuring that every position in Iraq was filled with Foreign 
Service volunteers. Well over a decade later, those positions have not 
been returned to the overseas posts from which they originally came. 
The Foreign Service finds itself struggling in short-staffed sections 
at embassies around the world that gave up those same positions 10 
years ago.
    State's Overseas Staffing Board concluded in its most recent report 
that America has too few diplomats in the field. The Overseas Staffing 
Model showed a deficit of almost 200 overseas positions in ``core 
diplomacy,'' (the term used for political and economic officers, as 
well as chief of mission positions). Without those core diplomacy 
positions, the State Department routinely misses opportunities to bring 
business to the U.S., assert the values of democracy, and protect core 
foreign policy interests.
    Our nation needs a full team of diplomats and development 
professionals in the field keeping threats at bay and protecting our 
prosperity-combating the conditions that enable terrorism to take root, 
protecting against pandemics, and promoting the rule of law and open 
systems that allow U.S. companies to compete and thrive. The documented 
deficit in overseas core diplomacy positions needs to be addressed as 
soon as possible if we are to avoid losing further commercial, 
economic, and even political ground to rising great power competitors.
    These three requests-a $30 million increase to the ``Overseas 
Programs'' account and report language specifying the restoration and 
filling of 100 positions in the field, along with 1000 new State 
Department positions to fill for general expansion of the Foreign 
Service, will enable America to have a full team in the field and at 
home.
    AFSA also greatly appreciates congressional bipartisan support for 
foreign assistance as a critical component of America's national 
security. However, long-standing staffing and operational challenges, 
including the hiring of career members of the Foreign Service at USAID, 
remain. USAID is expected to continue making requests for contractors, 
Foreign Service Limited (FSL) appointments, and other non-career staff. 
Many of these non-career hires are not competed through USAJobs.gov-
which raises questions of transparency and propriety. The numbers 
suggest that USAID headquarters will be comprised primarily of short-
term contractors and limited appointees, while employees abroad will 
primarily be career officers.
    Therefore, the field-informed perspectives and Civil Service long-
term trained personnel will dwindle in percentage to the non-career 
high turnover hires. Over time, this lack of career officers will 
seriously reduce the effectiveness and threaten the institutional 
knowledge of USAID. Thus, AFSA would like to partner with our 
congressional supporters to provide additional ``Operating Expenses'' 
funding for 650 additional USAID career Foreign Service positions--our 
fourth request.
    AFSA would also like to point out that career USAID Officers are 
both less expensive than short term contractors or FSL appointments, 
and long term provide field-driven perspectives and expertise which 
enable more effective foreign aid. A clear prioritization and increase 
of career Foreign Service positions at USAID, accompanied by a pause of 
further FSL appointments, would send the signal to our diplomats that 
they will continue to be supported by Congress.
    Thank you for your consideration of these requests.

    [This statement was submitted by Ambassador Eric Rubin, President.]
                                 ______
                                 
      Prepared Statement of the American Hellenic Institute (AHI)
    Chairman Coons, Ranking Member Graham, and Members of the 
Subcommittee, I am pleased to submit testimony to the Subcommittee on 
behalf of the nationwide membership of the American Hellenic Institute 
(AHI) on the Administration's proposed FY2022 foreign aid budget.
    The Administration's budget aims to confront 21st century security 
challenges. The budget's vision for the United States is to ensure it 
``. . . plays a lead role in defending democracy, freedom, and the rule 
of law'' by recommending a significant increase in resources to: 
``strengthen and defend democracies throughout the world; advance human 
rights; fight corruption; and counter authoritarianism.'' \1\
    In keeping with the best interests of the United States, AHI 
opposes: (1) any proposed foreign aid and assistance to Turkey from the 
United States; (2) any proposed reduction in the aid levels for the UN 
Peacekeeping Force in Cyprus.
    Further, AHI recommends an FY2022 funding level of $1.5 million for 
NATO ally Greece's International Military Education and Training (IMET) 
program as authorized for appropriation in The Eastern Mediterranean 
Security and Energy Partnership Act. The Act also authorized $500,000 
for the Republic of Cyprus' IMET program for FY2022, which AHI 
recommends. In 2020, the U.S. Department of State provided, for the 
first time, IMET program funding for the Republic of Cyprus. AHI 
welcomed this policy development, and urges that this policy be 
continued.
    Finally, AHI recommends robust investment for Foreign Military 
Financing (FMF) assistance for Greece, in the amount of at least $10 
million, due to its strategic importance to the United States as the 
Subcommittee will see presented in this testimony. The East Med Act 
authorized appropriations of $3 million for FMF assistance in FY2020.
    U. S. Interests in Southeast Europe and the Eastern 
Mediterranean.--The U.S. has important interests in southeast Europe 
and the eastern Mediterranean. It is in the United States' best 
interest for the region to be politically, economically, and socially 
stable, and for democratic principles to flourish, including adherence 
to the rule of law. Significant commerce and energy sources pass 
through the region. With Greece's close cultural, political, and 
economic ties to the Mediterranean countries, including Israel; Western 
Europe, the Balkans, Eastern Europe, and the Middle East, Greece is 
strategically situated in a vital region to be an ideal strategic 
partner for the U.S.
    America Values Its Alliance with Greece.--Greece is an immensely 
valuable link as ``a pillar of stability'' in the region as several 
high-level U.S. government officials have noted. The U.S.-Greece 
relationship has reached new heights by virtue of an ongoing Strategic 
Dialogue, where avenues for cooperation among many sectors, including: 
regional cooperation, defense and security, and trade and investment, 
among others, are plotted for implementation. Greece is a pivotal and 
dependable NATO ally to advance U.S. interests and is a frontline state 
against terrorism. The Mutual Defense Cooperation Agreement between the 
United States and Greece illustrates the two allies' commitment to 
address over a longer term the security challenges in the region. The 
Agreement currently is under revision. After it is upgraded, it will 
offer more flexibility to deepen cooperation in the defense sector, 
according to Greece's Minister of Defense Nikos Panagiotopoulos. For 
its part, Greece further demonstrates its commitment to the Alliance as 
a top contributor to the defense efforts of NATO. Greece is estimated 
to spend 2.68% of its GDP on defense expenditures in 2020 in accordance 
with NATO standards despite battling economic challenges. By percentage 
of GDP, Greece is second to the U.S.\2\
    Greece is also important for the projection of U.S. strategic 
interests by being home to the most important U.S. military facility in 
the Mediterranean Sea, Souda Bay, Crete. It is a base from where joint 
USN/USAF reconnaissance missions and air refueling support for U.S. and 
NATO operations were implemented successfully, and it continues to be 
immensely important. Military installations located at Souda Bay 
include the NATO Maritime Interdiction Operational Training Centre 
(NMIOTC) and the NATO Missile Firing Installation (NAMFI). To 
illustrate Souda Bay's importance, these figures show the volume of 
operations conducted there:

  --In 2020, at least 90 U.S. and 40 NATO (total 130) ships made a port 
        visit at Souda Bay.

    It also has been noted by U.S. government officials how Souda Bay 
allows United States Navy vessels-especially aircraft carriers-the 
ability to dock, make needed repairs and maintenance, and resupply, all 
within a couple of weeks and without having to return to Naval Station 
Norfolk. According to U.S. Ambassador to Greece, Geoffrey Pyatt, in a 
March, 20, 2021 statement: ``Souda Bay is the jewel in the crown of US-
Greece defense cooperation . . . the unique capacities the Souda 
provides to support US presence in the strategically dynamic East 
Med.'' To further demonstrate that Greece's value extends well beyond 
Souda Bay:

  --NATO Joint-Command HQ: Thessaloniki hosts a NATO Rapid Deployment 
        Corps combined with its Third Army Corps for two years.
  --Operation Atlantic Resolve: Greece enables a substantial portion of 
        the U.S. Army's 10th Combat Aviation Brigade to enter the 
        European theater through the port of Thessaloniki and to depart 
        through Alexandropoulis. Alexandroupolis is being recognized as 
        a city with increased geostrategic importance, which can also 
        contribute to economic development and energy security.
  --The 101st Combat Aviation Brigade of the U.S. Army, from October-
        November 20, 2020, and from February-Mar 21, 2021, stationed 
        and trained at Volos and Stefanovikeio.
  --The U.S. and Greece held a joint military exercise in May 2021 as 
        part of a larger ``DEFENDER-Europe'' program, which, according 
        to the U.S. Army, is ``an annual large-scale U.S. Army-led, 
        multinational, joint exercise designed to build readiness and 
        interoperability between U.S., NATO and partner militaries.'' 
        Greece was one of only four participating countries whose port 
        was used to deploy equipment into Europe and to host a 
        ``DEFENDER-Europe 21'' logistical center.
  --USAF temporarily operated MQ-9 Reaper Drones from Greece's Larisa 
        Air Force Base.
  --Increased aircraft and soldier involvement at Stefanovikio Hellenic 
        Army airbase improves NATO transit capability.
  --The trilateral naval exercise ``Noble Dina'' between the U.S., 
        Greece, and Israel is held annually off of the coast of Souda 
        Bay.

    Greece is also an active participant in peacekeeping and peace-
building operations conducted by international organizations, including 
the UN, NATO, EU, and OSCE. In sum, it is evident Greece contributes 
significantly to U.S. interests. AHI strongly contends these actions 
justify a robust investment by the U.S. in Foreign Military Financing 
assistance to Greece.
    Regional Instability.--The successful projection of U.S. interests 
in the Eastern Mediterranean depends heavily on the region's stability. 
A key to peace and stability in the region is for good neighborly 
relations among NATO members and respect for the rule of law. 
Therefore, the U.S. has a stake in focusing on the problems that are 
detrimental to U.S. interests and to call out those who cause 
instability in the region. Turkey is the fundamental cause of 
instability in the eastern Mediterranean and broader region:

  --Turkey's unilateral claims against sovereign Greek territory in the 
        Aegean which are in violation of international law, and 
        Turkey's refusal to refer its unilateral claims to binding 
        international arbitration.
  --Turkey's aggression against Cyprus which includes its continuing 
        illegal occupation of 37.3 percent of Cyprus.
  --Turkey's numerous incursions into Cyprus' Exclusive Economic Zone 
        (EEZ), illegal drilling in Cyprus' EEZ that were supported by 
        Turkish warships and drones, and demonstrated ``gunboat 
        diplomacy.''
  --Turkey's continuing violations of Greece's territorial waters and 
        airspace, numbering over 7,000 violations in 2020, which are in 
        violation of international and U.S. law, including the Arms 
        Export Control Act (AECA). There were 4,605 airspace and 3,215 
        maritime incidents.
  --Illegal immigration via Turkey that threatens Greece's economic 
        development and the peace and stability of Europe.
  --The Turkey-Libya Memorandum of Understanding (MoU) on maritime 
        borders, which has been resoundingly dismissed by the 
        international community as illegal.
  --Turkey's open support for Hamas, and active role in terror 
        financing, in violation of international and U.S. law, 
        including the Arms Export Control Act (AECA).
  --Turkey's exacerbation of the Nagorno-Karabakh conflict by 
        encouraging Azerbaijan's aggression against Armenia, including 
        transiting Syrian mercenaries with ties to jihadist groups to 
        fight on behalf of Azerbaijan.

    Turkey.--Turkey continues to demonstrate it is not a true and 
dependable U.S. and NATO ally. The U.S. government, both executive and 
legislative branches, rightly sanctioned Turkey for its procurement of 
the Russian-made S-400 missile defense system under Countering 
America's Adversaries Through Sanctions Act (CAATSA) in December 2020. 
Those penalties should be expanded. AHI calls for the continued 
inclusion of appropriations language that direct the suspension of 
delivery or transfer of F-35 aircraft to Turkey until reports detailing 
the impact of Turkey's purchase of the S-400 missile system from Russia 
on U.S. weapon systems such as the F-35s are provided to Congress. In 
addition, Turkey's support for Hamas has been evident. President 
Erdogan has hosted Hamas' top leadership, including individuals 
designated as global terrorists. Hamas' recent attack against U.S. ally 
Israel only further highlights Turkey's role as a malign regional 
influence.
    We oppose any foreign aid for Turkey and any other assistance 
programs from the United States. This includes most favored nation 
trade benefits including textile quotas and the transfer of any nuclear 
related assistance which we oppose as not in the best interests of the 
U.S. AHI applauded the United States' decision to terminate Turkey's 
designation as a beneficiary developing country under the Generalized 
System of Preferences (GSP) program, which became effective May 17, 
2019. AHI has long argued for this type of action by the U.S. 
government, especially in testimony presented to this Subcommittee, 
until the following actions are taken: (1) the immediate withdrawal of 
all Turkish troops from Cyprus; (2) the prompt return to Turkey of the 
over 180,000 illegal Turkish settlers in Cyprus; (3) the Turkish 
government's safeguarding the Ecumenical Patriarchate, its status, 
personnel and property, reopening the Halki Patriarchal School of 
Theology, returning church properties illegally seized, and the 
reversal of Hagia Sophia's status, returning it to a UNESCO-designated 
museum; (4) the cessation of violations against Greece's territorial 
integrity in the Aegean and of its airspace; (5) the cessation of 
illegal interference in the exclusive economic zone (EEZ) of the 
Republic of Cyprus; (6) Turkey must cease its support and promotion of 
a ``two-state'' solution regarding Cyprus, in violation of United 
Nations resolutions and the position of the U.S. government; (7) Turkey 
must cease its egregious violations of important United States laws, in 
particular the Arms Export Control Act & the Countering America's 
Adversaries Through Sanctions Act (CAATSA). Of course, Turkey's ongoing 
human rights, freedom of speech, and religious freedom violations are 
problematic.
    Cyprus.--The illegal military occupation of the Republic of Cyprus 
by 40,000 Turkish troops continues. As long as the Republic of Cyprus 
remains under Turkish military occupation, a strong UN peacekeeping 
force must be maintained on the island. Congress can assist the 
Republic of Cyprus by reaffirming the United States' position that 
assistance appropriated for Cyprus should support measures aimed at 
solidifying the reunification of Cyprus and the unified government in 
Cyprus. It would provide a settlement, should it be achieved, with a 
chance to succeed. Therefore, AHI recommends the following language 
from Title III of the Consolidated Appropriations Act of 2012 be 
included in the FY2022 State, Foreign Operations, and Related Programs 
Appropriations bill:

        Assistance provided to Cyprus under this Act should foremost 
        ensure that the United Nations Peacekeeping Force in Cyprus 
        (UNFICYP) can fully implement its mandate, while remaining 
        available to also contribute to the creation of a conducive 
        environment for the settlement talks under the auspices of the 
        UN Secretary-General's Good Offices. Furthermore, in the event 
        of reunification, further assistance should be used to 
        contribute towards the cost of reunification, including towards 
        monitoring provisions, facilitation for settlement of the 
        property issue, supporting and underpinning the new federal 
        structures of a reunified island and assisting with the 
        construction of a strong unified Cypriot economy able to cope 
        with the new challenges, and strengthening the contacts between 
        the two communities as conducive to reunification, in a way 
        agreed to between the United States and Cyprus.

    The last UN-led attempt, which took place in Crans-Montana in 2017, 
aimed to achieve a just and viable solution to the near 47-year 
division of the Republic of Cyprus, ended without reaching an agreement 
because of Turkish intransigence. Instead of helping to provide 
stability by promoting a just settlement supported by both Greek 
Cypriot and Turkish Cypriot communities, Turkey continued to insist on 
antiquated and obstructive stances, such as its insistence to maintain 
the Treaty of Guarantee with a right of future unilateral Turkish 
military intervention.
    More recently, during the latest 5+1 informal meeting in Geneva at 
the end of April 2021, aiming to assess whether there was sufficient 
common ground for the resumption of the negotiations, Turkey 
fundamentally changed its official position on the form of settlement 
of the Cyprus problem, insisting on a ``two-state-solution'' to 
solidify its occupation of the island, contrary to UN Security Council 
resolutions and the stated position of the United States government.
    Furthermore, Turkey hinders the humanitarian work of the Committee 
on Missing Persons's (a previous recipient of USAID support) by denying 
access to areas under its occupation, including Turkish military zones, 
in order to excavate for the remains of 996 Cypriots still missing 
(including four US citizens) following the Turkish invasion of Cyprus 
in 1974.
    Congress should call on Ankara to constructively support the 
reunification efforts, in accordance with the UN Security Council 
Resolutions calling for a bizonal, bicommunal federation, as well as 
for a solution that embodies the full respect of the principles and 
laws of the European Union, of which Cyprus is a member state. The new 
state of affairs ought to safeguard that a reunified Cyprus would have 
a single international legal personality, a single sovereignty and a 
single citizenship.
    AHI is also concerned with energy security. AHI contends the U.S. 
must continue to support the sovereign rights of the Republic of Cyprus 
to explore and develop the resources within its EEZ free of any third-
party interference. As mentioned, Turkey's threats in Cyprus' EEZ 
endanger U.S. companies.
    International Military Education & Training (IMET)--Greece and 
Cyprus.--AHI recommends FY2022 funding for Greece's IMET program at 
$1.5 million and the Republic of Cyprus's IMET program at $500,000. The 
recommended funding levels are in line with the authorization of 
appropriations passed in The Eastern Mediterranean Security and Energy 
Partnership Act. For Greece, the country experienced 11 fiscal years 
(FY2006-FY2017) of a steady decline of its IMET funding levels. It 
resulted in the drastic decrease in the number of Greek military 
students participating in the program. An investment of $1.5 million in 
FY22 will help address that 11-year decline in funding, but more 
investment is needed to make up for ``lost time.'' For the Republic of 
Cyprus, which received its first IMET program funding in FY21, it is 
critical to continue this investment in FY22. It will be the next step 
in a series of positive developments since the Statement of Intent that 
the U.S. and Republic of Cyprus signed in November 2018. Since then, 
Cyprus has assigned a defense attache to the Embassy in Washington, the 
Cyprus Center for Land, Open-Seas, and Port Security (CYCLOPS), an 
innovative security site that has been partially funded by the U.S., is 
scheduled to begin operations in January 2022; and the U.S. implemented 
a partial lifting of an arms prohibition on Cyprus. The U.S. must fully 
and permanently lift its arms prohibition on Cyprus and remove Cyprus 
from the list of countries to which arms sales are prohibited under 
International Traffic in Arms Regulations (ITAR) and calls for 
appropriations language to direct this of the U.S. Department of State.
    The IMET program advances the professional military education of 
the Greek and Cypriot Armed Forces. It enhances interoperability with 
U.S. forces, and in Greece's case, NATO forces. Through the training of 
Greek and Cypriot military and noncommissioned officers in a multitude 
of professional military education and technical courses in the U.S., 
IMET offers strong U.S.-Greece and U.S.-Republic of Cyprus mil-to-mil 
relations. It is an effective and wise investment toward a key 
component of U.S. security assistance. It also helps the U.S. because 
it contributes toward the strengthening of U.S. security interests in 
an important part of the world by training and promoting the 
professionalization of the Greek and Cypriot Armed Forces.
    Thank you for the opportunity to present them in our written 
testimony to the Subcommittee.
---------------------------------------------------------------------------
    \1\ ``Budget of the United States Government Fiscal Year 2022,'' 
https://www.whitehouse.gov/wp-content/uploads/2021/05/budget_fy22.pdf, 
pages 22 and 23.
    \2\ 2020 estimate. https://www.nato.int/nato_static_fl2014/assets/
pdf/2021/3/pdf/210316-pr-2020-30-en.pdf
---------------------------------------------------------------------------
    [This statement was submitted by Nick Larigakis, President.]
                                 ______
                                 
  Prepared Statement of the American Society of Tropical Medicine and 
                                Hygiene
    The American Society of Tropical Medicine and Hygiene (ASTMH)-the 
largest international scientific organization of experts dedicated to 
reducing the worldwide burden of tropical infectious diseases and 
improving global health -appreciates the opportunity to submit 
testimony to the Senate Appropriations Committee's Subcommittee on 
State, Foreign Operations, and Related Programs (SFOPs).
    The COVID-19 pandemic has made it all too clear that the U.S. must 
invest in research on, treatment for, and surveillance of tropical 
diseases and other infectious diseases. When we invest in preventative 
measures, we save lives and head off pandemics. These investments in 
addition, support strong science and create trusted relationships with 
valued colleagues around the world to respond to these challenges. 
Congress must provide robust funding for global health efforts.
    We respectfully urge you to increase the funding levels proposed in 
the President's FY22 budget for global health programs in the FY22 
SFOPS appropriations bill. Many global health programs have long been 
flat funded and will require additional resources, not only to 
reinvigorate programs that have been put on hold due to the pandemic, 
but to ramp up innovation and impact. We must end once and for all the 
vicious cycle of underinvestment followed by panic.
    We would like to highlight two specific USAID programs.
    Neglected Tropical Diseases (NTDs): NTDs are a group of 20 
infectious diseases and conditions that disproportionately affect poor 
and marginalized populations. NTDs coexist with poverty and thrive in 
places with limited access to clean water, sanitation, and protection 
from the carriers of disease. NTDs remain persistent threats to global 
health and economic viability, killing more than 500,000 each year and 
causing significant morbidity and mortality in more than 1 billion 
people worldwide. Children suffer greatly from NTDs, as NTD infection 
leads to malnutrition, cognitive impairment, stunted growth, and the 
inability to attend school. Every low-income country is affected by at 
least five neglected tropical diseases simultaneously, while there are 
149 countries and territories affected by at least one NTD. Over the 
past year, COVID-19 has made the successful treatment of these diseases 
even more challenging.
    While the global challenge of NTDs may seem daunting, the NTD 
Program at USAID has made remarkable progress in treating and even 
eliminating NTDs. Launched in 2006, the NTD Program as of 2021 has 
leveraged roughly $1 billion in federal funding to secure $26 billion 
in donated drugs and expand to 32 countries. In total, the program has 
distributed 2.8 billion treatments to 1.4 billion people.\1\ The NTD 
Program has successfully curbed multiple NTDs, with 315 million people 
no longer requiring treatment for lymphatic filariasis (elephantiasis), 
151 million people no longer requiring treatment for blinding trachoma, 
and 10 million people no longer requiring treatment for onchocerciasis 
(river blindness). Eleven countries have eliminated at least one NTD 
entirely.
    These figures show the tremendous return on investment that federal 
funding for NTD treatment achieves. Every $1 invested by the U.S. 
government leverages $26 in donated medicines for mass treatment 
campaigns. Combined with the low, 50-cent cost of rapid-impact packages 
of medication that treat an individual for the five most common NTDs, 
NTD treatment is one of the best buys in public health.
    These gains cannot go to waste. While other countries debate 
drastic cuts to their NTD programs, the U.S. has shown how effective 
national NTD programs can be. The U.S. must continue to lead and 
encourage its allies to join in these life-saving efforts.
    We respectfully join the NTD Roundtable in calling for an increase 
to $125 million for FY22 for the USAID NTD program. Funding has been 
near level since 2014. Neglected tropical disease (NTD) activities 
around the globe were halted at the onset of COVID-19 pandemic. Now, 
following World Health Organization (WHO) guidelines, many NTD programs 
are resuming worldwide. Costs to implement NTD programs during COVID-19 
have increased and we are conducting analysis to determine the full 
impact. These costs include infection prevention measures, such as hand 
sanitizer & PPE, but also new modes of working to accommodate physical 
distancing, such as increased venues and number of days for training 
community drug distributors, increasing number of vehicles to transport 
teams to allow some distancing, etc.
    An increased investment could:

  --Advance NTD elimination in priority countries, saving lives and 
        livelihoods.
  --Expand number of treatments in existing areas and add new 
        geographic areas, potentially those listed by WHO as still 
        needing support.
  --Expand urgently-needed investments in research and development--
        including diagnostics and drugs--for NTDs to ensure tools and 
        strategies are available to overcome emerging challenges.
  --Support greater integration with complementary programs necessary 
        for the success of NTD prevention, control and elimination 
        efforts, including WASH, nutrition, education, One Health and 
        vector control.

    Estimates show that with the strong support of programs like the 
USAID NTD program in the next 5 years, 15 additional countries will 
eliminate at least one NTD as a public health problem. This illustrates 
the cumulative impact of the U.S. investment. In the last 15 years, 10 
countries have eliminated one NTD. This is life changing considering 
that these diseases that have been destroying lives for centuries.
    Malaria: While we have seen tremendous success as a result of U.S. 
funded efforts to eliminate malaria, the disease remains a significant 
global health threat. Despite our ability to treat and prevent malaria, 
it is still one of the leading causes of death and disease worldwide, 
with nearly half the world's population living in the 87 countries and 
territories where malaria is endemic.\2\ Malaria poses the most 
significant threat to poor women and children, but it is also a major 
threat to our military and other travelers to the tropics. In 2019, 
there were about 229 million new cases of malaria and an estimated 
409,000 deaths.\3\
    Thankfully, the President's Malaria Initiative (PMI) has made 
remarkable progress since 2005 in lowering these sobering infection 
numbers, distributing almost 400 million nets and providing hundreds of 
millions of treatments and tests. The 22 PMI focus countries have 
successfully lowered child mortality. That said, however, USAID must 
continue to strengthen and invest in these programs and in research and 
development of new tools to maintain progress, especially as COVID-19 
impedes malaria treatment access. Though we have dramatically reduced 
the number of cases of malaria, the effort to ultimately eliminate the 
disease depends on providing adequate funding for the proven 
interventions. In 2019 alone, PMI provided more than 47 million 
insecticide treated mosquito nets, more than 79 million antimalarial 
treatments, and protected 18.6 million people through indoor residual 
spraying.
    Furthermore, malaria efforts at PMI, USAID, and the State 
Department should work hand-in-hand with the CDC's Center for Global 
Health, the NIH, and the malaria research programs funded by the 
Department of Defense.
    We respectfully request Congress provide $902.5 million for the 
President's Malaria Initiative for FY2022. This funding will address 
global supply chain disruptions caused by COVID-19 leading to increased 
manufacturing and freight costs for malaria commodities, support the 
changeover to next generation bed nets necessary to combat insecticide 
resistant mosquitoes. The funding will also increase training and 
support for community health workers to deliver lifesaving commodities 
for malaria and other global health threats including the COVID-19 
pandemic.
    International Partnerships--ASTMH encourages robust funding and 
participation in important international partnerships such as the 
Global Fund, vaccine partnerships, and the World Health Organization.
    Global Fund--The Global Fund is a 21st-century partnership that 
brings together governments, civil society, the private sector, and 
people affected by disease in order to accelerate the end of AIDS, 
tuberculosis, and malaria as epidemics. Investments in the Global Fund 
support local prevention, treatment, and care services that strengthen 
overall local health systems and economies. U.S. investments in the 
Global Fund have and will continue to save lives and fight diseases--in 
endemic countries, where American diplomats and service members are 
also stationed, and at home, by preventing the spread of AIDS, TB, and 
malaria.
    Vaccine Partnerships--U.S. contributions to GAVI, the Vaccine 
Alliance, and other vaccine partnerships like the COVAX facility, which 
is co-led by GAVI along with the World Health Organization and the 
Coalition for Epidemic Preparedness Innovations (?CEPI), multiply the 
impact of USAID programs through coordination and increased cost-
effectiveness. The U.S. should lead by example in support of effective 
international partnerships of this sort and not back away from its 
leadership role.
    World Health Organization--ASTMH is thankful that the U.S. will 
remain a member and valued partner of the WHO. To protect American 
lives, we need the WHO to continue to be on the front line at the next 
outbreak and pandemic. International collaboration is central to 
research, particularly on diseases and pandemics. The WHO plays a key 
role in fostering scientific collaboration. It serves as a surveillance 
system as new diseases and outbreaks emerge and supports the sharing of 
vital information, data, and clinical samples. The U.S. and global 
research community needs this system and the data that is generated to 
develop vaccines and treatments.
                               conclusion
    The vast majority of infectious diseases do not emerge in the U.S.; 
instead, they thrive elsewhere often long before a catalytic event 
occurs that rapidly mobilizes the threat bringing it to the U.S. It is 
our lack of urgency and response to address these threats while they 
exist as remote tropical diseases that allows their spread and 
increases our domestic vulnerabilities. It is not a question of whether 
a new infectious disease outbreak will occur, it is a matter of when 
and what it will be. For this reason, Congress needs to support 
sustainable investments in U.S. global health research and development 
to increase our knowledge, understanding, and tools to confront 
infectious disease. ASTMH appreciates the opportunity to share its 
expertise and we hope you will provide the requested FY22 resources to 
the programs identified above that will help improve the lives of 
Americans and hundreds of millions worldwide.
---------------------------------------------------------------------------
    \1\ USAID NTD Fact Sheet. https://www.neglecteddiseases.gov/wp-
content/uploads/2021/02/USAID-NTD-Fact-Sheet.pdf
    \2\ CDC, Malaria's Worldwide Impact. https://www.cdc.gov/malaria/
malaria_worldwide/impact.html
    \3\ World Malaria Report (2020). https://www.who.int/teams/global-
malaria-programme/reports/world-malaria-report-2020

    [This statement was submitted by Julie Jacobson, President.]
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    Thank you for the opportunity to submit testimony on Fiscal Year 
2022 funding priorities for the U.S. Department of State and to request 
report language regarding the Explosive Detection Canine Program.
    Dogs dying from parvovirus, heat stroke, and renal failure caused 
by tick-borne disease. Dogs infested with fleas and ticks. Emaciated 
dogs living in feces-filled kennels and eating off the floor. The 
latest puppy mill horror? No. These were the conditions endured by dogs 
trained in the United States and given to ``foreign partner nations'' 
to supplement their antiterrorism efforts-under a program financed by 
millions of US tax dollars.
    In 2019, the State Department's Office of Inspector General (OIG) 
released a report documenting the unconscionable mistreatment of dogs 
sent overseas under the Explosive Detection Canine Program (EDCP). This 
situation came to light only after a whistleblower-a veterinarian who 
had worked for the private contractor that trained the dogs-raised 
serious concerns about their health and welfare.
    For over 20 years, the State Department has been sending highly 
trained explosive detection dogs to foreign countries ``to enhance the 
ability of their law enforcement to deter and counter terrorism.'' The 
EDCP, however, failed to properly monitor the recipient countries' care 
of the dogs. In Jordan alone between 2008 and 2016, 10 dogs died 
``while others were living in unhealthy conditions.'' Yet between 2016 
and 2019, the United States supplied an additional 66 dogs to that 
country.
    ``The Department conducts health and welfare follow ups 
infrequently and inconsistently,'' observed the OIG. The report noted 
that the program lacked policies, procedures, and written standards to 
ensure the health and welfare of the dogs, and no written documents 
were produced ``until after a draft of the report was provided in June 
2019.'' No policies were in place for canine adoption or retirement, 
and the OIG expressed concern that dogs may be left in kennels at the 
end of their working lives. Working conditions and the quality of 
nutrition and veterinary care were discovered to be so substandard, in 
fact, that the dogs were unable to perform their jobs and ``had lost 
the will to work.'' Concern was expressed that, if the dogs were in 
such poor physical and psychological health that they could not perform 
their duties accurately, were lives being endangered due to missed 
explosives?
    After the report's release, Sen. Charles Grassley (R-IA), then 
chairman of the Finance Committee, and Sen. Mark Warner (D-VA), then 
vice-chairman of the Intelligence Committee, wrote to then-Secretary of 
State Mike Pompeo expressing deep concerns about the program and asking 
the secretary how he planned to remedy the problems.
    It is shocking that a program this expensive and supposedly this 
critical to antiterrorism efforts has been run so haphazardly. Until it 
can be established that all of the recommendations in this report have 
been implemented, the program should be suspended and all dogs returned 
to the United States. It is time to stop putting highly intelligent, 
trained, and, above all, innocent animals into situations where their 
lives are in danger, not from the work they do but from the poor care 
they receive.
    In light of this history and the apparent lack of follow up, AWI 
requests the following report language stating that the Committee will 
withhold further funding for the program until the State Department 
provides the Committee with a report about the EDCP program:

        ``In September 2019, the State Department's Inspector General 
        issued a deeply troubling report documenting the unconscionable 
        mistreatment of dogs sent overseas through the Explosive 
        Detection Canine Program (EDCP), under which dogs trained in 
        the United States are given to `foreign partner nations' to 
        supplement their antiterrorism efforts-financed by millions of 
        US tax dollars. This situation came to light only after a 
        whistleblower, a veterinarian who had worked for the private 
        contractor that trained the dogs, raised serious concerns about 
        the animals' health and welfare.

        ``According to the report, the EDCP failed to properly monitor 
        the recipient countries' care of the dogs. Special concerns 
        were expressed about Jordan, where between 2008 and 2016, 10 
        dogs died, while others were living in unhealthy conditions. 
        `The Department conducts health and welfare follow ups 
        infrequently and inconsistently,' observed the OIG. The report 
        noted that the program lacked policies, procedures, and written 
        standards to ensure the health and welfare of the dogs, and no 
        written documents were produced `until after a draft of the 
        report was provided in June 2019.' No policies were in place 
        for canine adoption or retirement, and the OIG expressed 
        concern that dogs may be left in kennels at the end of their 
        working lives. Five recommendations were made `[t]o ensure that 
        canines provided to foreign nations by the Department under the 
        Antiterrorism Assistance Program are provided proper care and 
        treatment . . .'

        ``After the report was released, Sen. Charles Grassley (R-IA), 
        and Sen. Mark Warner (D-VA) wrote to then-Secretary of State 
        Mike Pompeo expressing deep concerns about the program and 
        asking the secretary how he planned to remedy the problems.

        ``A second OIG report was issued in December 2019 because `the 
        Office of Inspector General (OIG) received notice of additional 
        canine deaths that warrant[ed] immediate Department action.'

        ``In light of these reports, the Committee will hold further 
        funding for this program in abeyance until the Department 
        provides the Committee with a detailed written accounting of 
        the policies and procedures that have been put in place to 
        implement the OIG's 2019 recommendations, including an 
        assessment from the OIG of the success of these policies and 
        procedures in improving the health, welfare, and retirement 
        options for dogs used in the EDCP, along with an update on the 
        status of every dog currently in the EDCP or retired from the 
        EDCP since June 2019. Moreover, this report should address 
        allegations of `fraud, cronyism, misuse of government funds, 
        and whistleblower retaliation' raised in letters to then-
        Secretary Pompeo from then-Rep. Trey Gowdy, and the late Rep. 
        Elijah Cummings and Rep. Katie Porter.''

    [This statement was submitted by Nancy Blaney, Director, Government 
Affairs.]
                                 ______
                                 
         Prepared Statement of the Armenian Assembly of America
    Chairman Christopher Coons, Ranking Member Lindsey Graham, and 
distinguished Members of the Subcommittee, the Armenian Assembly of 
America (Assembly) welcomes the opportunity to provide the following 
testimony regarding U.S. assistance and policy for the South Caucasus 
region generally and Armenia and Artsakh (also known as Nagorno-
Karabakh) specifically. Today, Turkey and Azerbaijan are working to 
dismember and depopulate Armenia and Artsakh.
    ASSISTANCE TO ARMENIA--Despite undertaking an obligation to resolve 
the Nagorno Karabakh conflict peacefully through the OSCE Minsk Group, 
Azerbaijan launched an unprecedented war against the Armenian people 
last Fall. For six weeks (44 days), the Azerbaijani military, with the 
full and open support of Turkey, and with the use of over 2,500 
jihadist mercenaries transported to and deployed in Azerbaijan, 
attacked and targeted the Armenian people. As a result, Armenians, 
having already faced a genocide in the 20th century, were forced yet 
again to rebuild in the wake of serious human and structural 
devastation. All Americans can be proud of President Joe Biden's April 
24, 2021 statement reaffirming the U.S. record on the Armenian 
Genocide. Upwards of 100,000 people--mainly children, women, and the 
elderly--were forcibly displaced from their homes, while hospitals, 
schools, and churches were destroyed by missiles, cluster and white 
phosphorus munitions, and drone strikes. Given these unprecedented 
developments, Senate Foreign Relations Committee Chairman Bob Menendez, 
while speaking on the floor of the Senate last November, called for ``a 
substantial investment in humanitarian and development assistance along 
the lines of $100 million to make a difference for those on the 
ground.'' We concur and urge not less than $100 million in FY22 for 
Armenia's development and recovery after Azerbaijan's ruthless war, 
which continues today with ongoing border incursions in violation of 
Armenia's sovereignty.
    The Assembly commends the electorate of the Republic of Armenia for 
its continued and consistent commitment to democracy and the rule of 
law during Armenia's June 20, 2021 parliamentary elections. The 
Assembly welcomes the preliminary findings of the International 
Election Observer Mission which were found to be ``competitive and 
generally well-managed'' and that ``fundamental rights and freedoms 
were generally respected,'' as was the freedom of expression, which is 
guaranteed by Armenia's constitution. This positive assessment of the 
democratic elections and established culture of democracy in Armenia 
was shared by the U.S. Department of State: ``The United States is 
committed to strengthening our partnership with Armenia based on shared 
democratic values. We commend Armenia for the progress it has made with 
respect to reforms and anti-corruption efforts and encourage Armenia to 
continue along this path, in line with the aspirations of the Armenian 
people, as expressed in the spring of 2018.''
    ASSISTANCE TO ARTSAKH--The people of Artsakh are facing an ongoing 
humanitarian crisis resulting from the unprovoked 44-day war. The 
Assembly, therefore, urges not less than $50 million in assistance to 
Artsakh. This direct funding, which we strongly encourage USAID to 
oversee from Stepanakert, will help empower the people of Artsakh to 
reconstruct their communities, rebuild their lives, and resettle in 
their homes. It also serves as an opportunity for the U.S. to have a 
presence in the region and sends an important message about America's 
commitment to democratic governance. The Assembly also welcomes the 
initiative by Senators Chris Van Hollen (D-MD) and Todd Young (R-IN) 
who, along with 32 of their colleagues, are calling for $2 million to 
support demining in Artsakh.
    THE PEACE PROCESS--The United States, as a Co-Chair of the OSCE 
Minsk Group, has a vested interest in advancing peace in and bringing 
stability to the South Caucasus region. The Assembly appreciates the 
Administration's recent statement urging all parties to return to 
``substantive negotiations under the auspices of the OSCE Minsk Group 
Co-Chairs to achieve a long-term political settlement to the Nagorno-
Karabakh conflict.'' The governments of Armenia and Artsakh have 
consistently indicated their desire to peacefully resolve the conflict 
and have offered confidence-building measures to help reduce tensions 
and build trust. Azerbaijan, however, chose a different path--one of 
blockade, bellicose rhetoric, and ceasefire violations, leading to the 
deadly war it launched last Fall. In the absence of U.S. leadership, 
the Armenian people found themselves in a dire situation and its 
democratic government was pressured into a one-sided, Russian-brokered 
arrangement with the signing of a trilateral (Armenia, Azerbaijan and 
Russia) ceasefire statement on November 9, 2020, which negates 
America's long-standing role as Co-Chair of the OSCE Minsk Group. In a 
clear sign that Azerbaijan is not serious about establishing peace or 
respecting international human rights conventions to which it is a 
signatory, the Aliyev regime has repeatedly violated the November 9, 
2020 ceasefire, including the holding of an estimated 200 prisoners of 
war (POWs) and captured civilians. In addition, Aliyev marked Armed 
Services Day on June 26, 2021 by saying that: ``Nagorno-Karabakh is the 
land of Azerbaijan'' and that ``there is no territorial unit called 
Nagorno-Karabakh, there is no concept of the Nagorno-Karabakh conflict 
. . . We have destroyed Armenia.'' There is also ample reason to 
believe that the ongoing breaches of the November ceasefire statement, 
as well as the 44-day war itself, have occurred at the direction of 
Turkey's authoritarian President Recep Tayyip Erdogan, whose 
destabilizing actions in Cyprus, the Eastern Mediterranean, and with 
respect to hostilities in Libya and Syria are well-documented, seeks to 
further destabilize the South Caucasus region and circumvent the OSCE 
Minsk Group process. The United States should not allow corrupt and 
authoritarian regimes to sideline U.S. leadership and leave the world's 
first Christian nation and fledgling democracy in peril. The Assembly 
urges the U.S. Co- Chair to the OSCE Minsk Group to uphold the 
fundamental principles of democracy, the right to self-determination, 
and the universal human rights of the people of Artsakh.
    SECTION 907 OF THE FREEDOM SUPPORT ACT--In light of the 44-day war, 
which included the recruitment, transport, and deployment of thousands 
of jihadist mercenaries to Azerbaijan by SADAT, a Turkish private 
security firm whose founder, former Turkish brigadier general Adnan 
Tanriverdi, is a close confidant of Erdogan, the Assembly urges 
Congress to uphold the fundamental tenets of Section 907 of the FREEDOM 
Support Act. Congress took a principled stand against Azerbaijani 
aggression with the adoption of Section 907 of the FREEDOM Support Act 
in 1992, and needs to do so again. Section 907 of the FREEDOM Support 
Act states that U.S. funds ``may not be provided to the Government of 
Azerbaijan until the President determines and so reports to the 
Congress, that the Government of Azerbaijan is taking demonstrable 
steps to cease all blockades and other offensive uses of force against 
Armenia and Nagorno-Karabakh.'' In the aftermath of the September 11, 
2001 terrorist attack on American soil, a national security waiver was 
added to Section 907. The exercise of the waiver is valid so long as it 
``will not undermine or hamper ongoing efforts to negotiate a peaceful 
settlement between Armenia and Azerbaijan or be used for offensive 
purposes against Armenia.'' Given last year's 44-day war, which 
resulted in a death toll of over 4,000 soldiers and civilians, some 
brutally beheaded according to Human Rights Watch and as documented by 
Columbia University's Institute for the Study of Human Rights and its 
``Project on Atrocities in Artsakh,'' nearly 10,000 wounded soldiers, 
upwards of 100,000 Armenians forcibly displaced from their homes, the 
destruction of vital infrastructure including hospitals, and the 
deliberate erasure of Armenian cultural and religious heritage sites, 
providing U.S. assistance to Azerbaijan sends exactly the wrong 
message. The recruitment and deployment of jihadist mercenaries, ISIS-
style beheadings and bodily mutilations, the targeting of cultural and 
religious sites, and the opening of a ``Military Trophy Park'' in 
Azerbaijan's capital, Baku, replete with Armenian mannequins featured 
in a dehumanizing manner and an entrance made with helmets of killed 
and captured Armenian soldiers, is not acceptable and should not be 
rewarded. These are practices that we oppose and must denounce because 
they violate the most basic principles upon which civilized nations 
stand. We urge that no U.S. taxpayer dollars be used to support 
Azerbaijan and that starts with upholding the letter and spirit of 
Section 907 of the FREEDOM Support Act, which if done previously would 
have saved lives. We further recommend that Congress ensure that no 
military assistance be provided to Azerbaijan. In addition, based on 
credible reports that Azerbaijani forces committed gross human rights 
violations during and after the 44-day war, the application of the 
Leahy Law should be seriously considered. Azerbaijan should not be 
rewarded for its blatant and ongoing violations against the Armenian 
people, including the holding of an estimated 200 prisoners of war 
(POWs) and captured civilians. In this regard, the Assembly strongly 
supports the inclusion of report language calling for the immediate 
release and repatriation of all POWs and captured civilians held by 
Azerbaijan.
    ARMENIA IS THE ONLY COUNTRY IN THE WORLD FACING DUAL BLOCKADES--A 
centuries-old nation, Armenia was the first country to adopt 
Christianity as its official state religion in 301 A.D. Throughout the 
centuries, Armenians have maintained their faith, even during 70 years 
of oppressive Soviet rule. Today, despite the dual blockades imposed by 
Turkey and Azerbaijan, Armenia continues to show its resilience. 
According to the World Bank, since independence ``Armenia's economy has 
undergone a profound transformation'' and ``sustained growth, ambitious 
growth, as well as inflows of capital and remittances that have created 
a market-oriented environment.'' Imagine the impact of Armenia's 
democratic and economic reforms if it was not blockaded by two of its 
four neighbors. The United States has spoken clearly about the need for 
Turkey to lift its three decades-long blockade of Armenia and establish 
diplomatic relations, both of which are also required under 
international treaties. The Assembly urges report language requiring a 
full accounting of the steps that the Administration is taking and will 
take to end the only blockade in the world of a democratic country. 
Finally, we believe that the provisions of the Humanitarian Aid 
Corridor Act should be broadened to preclude assistance to Turkey and 
Azerbaijan as long as they continue to blockade Armenia.
    U.S. MILITARY ASSISTANCE--Given Armenia's ongoing support to 
America before and after 9/11, including Armenia's participation in 
multilateral peacekeeping operations in Afghanistan, Kosovo, Iraq, 
Lebanon and Mali, the Assembly supports not less than $10 million in 
military assistance to Armenia for FMF and IMET. Such assistance not 
only further strengthens Armenia's NATO Partnership for Peace 
activities, but also supports NATO interoperability and modernization 
of Armenia's Peacekeeping Brigade. NATO Secretary General Jens 
Stoltenberg welcomed the partnership between the Alliance and Yerevan 
during a meeting at the UN General Assembly and thanked Prime Minister 
Pashinyan for Armenia's strong contributions to NATO's training mission 
in Afghanistan and peacekeeping mission in Kosovo. The Assembly also 
urges Congress to address the significant imbalance in U.S. security 
assistance provided to Azerbaijan compared to Armenia (over $100 
million in security assistance was provided to Azerbaijan in fiscal 
years 2018 and 2019) and prevent any further misuse of U.S. funds.
    ASSISTANCE TO MINORITIES AT RISK IN THE MIDDLE EAST--The Assembly 
has consistently sounded the alarm on this issue and remains deeply 
concerned about the ongoing violence in Syria, Iraq, and across the 
region, and its impact on minority populations caught in the middle, 
fleeing for their lives, and seeking refuge in new lands. The Assembly 
strongly believes that Christian and other minority communities must be 
afforded protection and safeguarded wherever they happen to reside. The 
specter of another genocide today is a very real concern for the 
Armenian people, who were targeted for annihilation in the twentieth 
century. In this regard, the Assembly is deeply grateful for the 
historic passage of Armenian Genocide resolutions in the House and 
Senate in 2019 and President Biden's affirmation of the Armenian 
Genocide this April 24, 2021. President Biden's affirmation of the 
Armenian Genocide, along with Congress, marks a pivotal milestone in 
the arc of history in defense of human rights. By standing firmly 
against a century of denial, the President and Congress have charted a 
new course. Affirmation of the Armenian Genocide enhances America's 
credibility and recommits the United States to the worldwide cause of 
genocide prevention. We commend Administration officials for publicly 
acknowledging the Armenian Genocide and urge Congress to ensure that no 
U.S. funds will be used to deny the Armenian Genocide.
    CONCLUSION--Chairman Coons, Ranking Member Graham, and 
distinguished Members of the Subcommittee, on behalf of the Armenian 
American community, the Assembly would like to express its sincere 
gratitude to Congress for its assistance to Armenia and Artsakh. 
Armenian Americans gratefully remember the support that the U.S. 
provided after the 1988 earthquake in Armenia, as Armenia moved boldly 
toward independence in 1991, during Artsakh's struggle for freedom and 
democracy, and through America's proud record of humanitarian 
intervention during the 1915 Armenian Genocide. The Armenian Assembly 
of America greatly appreciates your attention to these policy matters 
and looks forward to working with you.

    [This statement was submitted by the Armenian Assembly of America.]
                                 ______
                                 
Prepared Statement of the Armenian National Committee of America (ANCA)
    This panel has played a vital role in strengthening Armenia's 
independence and fostering bilateral U.S.-Armenia relations, meeting 
humanitarian needs, providing technical assistance, supporting 
Armenia's aid-to-trade transition, and investing in a durable and 
democratic peace between Nagorno Karabakh (Artsakh) and Azerbaijan.
    Now, more than ever, Artsakh and Armenia are in need of strong 
bilateral relations with the U.S. and a robust aid program to 
rehabilitate it from the devastating impact of the war with Azerbaijan 
and Turkey and the COVID-19 pandemic. On September 27th, Azerbaijan--
led by corrupt dictator Ilham Aliyev--launched a brutal aerial and 
ground attack on the Republic of Artsakh, targeting civilian population 
center, churches, hospitals, and schools, resulting in thousands of 
deaths and forcing Artsakh's women and children to seek safe-haven in 
neighboring Armenia. The 44 day onslaught continued with the military 
support of Turkey, which paid radical jihadist mercenaries from Syria 
and Libya to fight against Armenians, while supplying Azerbaijan with 
military equipment, including U.S. F-16 fighter jets to provide air 
cover for their bombing raids and white phosphorus that permanently 
destroyed Artsakh's verdant forests.
    The illegal use of cluster munitions and white phosphorus are well 
documented by international observes as well as our own Department of 
State. Turkish Bayraktar drones--which include U.S. parts and 
technology--were deployed by Azerbajan in that countless attacks 
against churches, hospitals, schools and other civilian infrastructures 
to destabilize and depopulate Artsakh.
    The joint Azerbaijan and Turkish forces took advantage of the 
COVID-19 Pandemic and U.S. Presidential elections in their timing of 
the attacks. Now it is time for Congress to engage in efforts to 
rehabilitate and prevent another outbreak of war. Thus, our specific 
requests related to the FY22 State, Foreign Operations, and Related 
Programs bill are for the following three provisions:
1) Nagorno Karabakh
    Of the funds appropriated under title III of this Act and prior 
Acts making appropriations for the Department of State, foreign 
operations, and related programs not less than $250,000,000 shall be 
made available for global health, humanitarian, and stabilization 
assistance for Artsakh:

    Refugee Relief: $100,000,000
    Housing: $20,000,000
    Food Security: $20,000,000
    Water/Sanitation: $25,000,000
    Healthcare: $25,000,000
    COVID-19: $25,000,000
    Rehabilitation: $33,000,000
    Demining/UXO: $2,000,000

    Since Fiscal Year 1998, direct U.S. aid to Nagorno Karabakh 
(Artsakh) has provided the people of Nagorno Karabakh (Artsakh) with 
maternal health care, clean drinking water, and life-saving demining by 
the HALO Trust.
    While the exact percentage of territory requiring clearance remains 
uncertain, the HALO has reported that the recent attack on Artsakh has 
resulted in enormous levels of contamination by cluster munitions, 
rockets, and other explosive ordnance. These hazards are still present 
near homes, and litter farms and streets--presenting a grave 
humanitarian risk. Further, the removal of explosives is critical to 
continuing to rebuild infrastructure decimated during the conflict.
    In the wake of last fall's attack on Artsakh, we also encourage the 
panel to support funding for refugee relief and rehabilitation efforts. 
The war caused over 100,000 refugees to flee from Artsakh to 
neighboring Armenia. Approximately 55,000 families have returned to 
Artsakh but many have nowhere to return to because their homes were 
either bombed or has been taken by Azerbaijani forces. The war has also 
left over 1,000 children either orphaned or in a single parent 
household. Lastly, the war has injured thousands of soldiers, many 
required amputations and now are in need or prosthetic limbs and long-
term rehabilitation.
2) Armenia
    Of the funds appropriated by this Act, not less than $100,000,000 
shall be made available for assistance for Armenia.
    Armenia--a Christian nation deeply rooted in Western democratic 
values--has, despite the crushing economic impact of Turkish and 
Azerbaijani blockades, stepped forward as an ally and partner for the 
United States on a broad array of complex regional challenges. The 
Armenian military has been among the highest per capita providers of 
peacekeepers to U.S.-led deployments, including those in Afghanistan, 
Iraq, Lebanon, Kosovo, and Mali.
    We commend the Subcommittee's commitment to American Schools and 
Hospitals Abroad, and encourage continued support through this program 
for the American University of Armenia and the Armenian American 
Wellness Center. We also ask the panel to prioritize supporting 
Armenia's role as a regional safe haven for at-risk refugees.
3. Azerbaijan
    No funds appropriated or otherwise made available under this Act 
may be provided to the Government of Azerbaijan until the President 
determines, and so reports to the Congress, that the Government of 
Azerbaijan is taking demonstrable steps to cease all blockades and 
other offensive uses of force against Armenia and Nagorno-Karabakh.

        AND

        EUROPE AND EURASIA SEC. 7046. (a) Azerbaijan

        INSTRUCTION.--The Secretary of the Treasury shall instruct the 
        United States executive director of each international 
        financial institution to vote against any extension by the 
        respective institution of any loan or grant to the Government 
        of Azerbaijan, except to meet basic human needs or to promote 
        democracy, unless the Secretary of State certifies and reports 
        to the Committees on Appropriations that Armenian Prisoners of 
        War have been returned home safely and that war crimes, 
        including but not limited to beheadings of Armenian civilians 
        and soldiers have been fully investigated by an independent 
        third party.

    We remain troubled that the Administration's waiver of Section 907 
of the Freedom Support Act and the $100 million security package to 
Baku that adds equipment, tactical abilities, and offensive 
capabilities to the Azerbaijani arsenal, while freeing up its own state 
resources for renewed cross-border action against Artsakh and Armenia. 
The Administration should cease sending military aid to Baku.
    As the Subcommittee considers issues related to Azerbaijan, we draw 
your attention to how its government has, in the last year, failed key 
Congressional tests of its commitment to peace:

    1) Azerbaijan launched military war games in late May of 2020 with 
the assistance of Turkey, violating the OSCE peace agreements.
    2) Following these military exercises, Azerbaijan launched a 3-day 
attack on the northern border of Armenia, targeting civilian 
infrastructures, including a PPE facility.
    3) In September 27, 2021 Azerbaijan, aided by Turkey launched a 
surprise offensive attack against Artsakh.
    4) On June 3, 2021, Azerbaijan, directly violating the peace 
agreement signed between Armenia and Azerbaijan on November 7th invaded 
Armenia in the southern border area of Syunik and continues to take 
soldiers in that region prisoner, shoot at civilians, and cause injury 
and death.
    5) Over 7 months after the fighting has ceased, Azerbaijan 
continues to illegally hold over 250 known Armenian civilians and 
servicemen as prisoners of war, torturing them and killing many of 
those who are held captive.

    In closing, we would like to emphasize, once again, the necessity 
for the U.S. to assist in Armenia and Artsakh's economic and 
humanitarian efforts and to immediately stop all military assistance to 
Azerbaijan.
    The ANCA, as always, thanks you for your leadership and looks 
forward to working with the Subcommittee to strengthen the U.S.-Armenia 
alliance, promote regional stability, and advance American interests 
and our shared democratic values.

    [This statement was submitted by Tereza Yerimyan, Government 
Affairs Director.]
                                 ______
                                 
            Prepared Statement of The Asia Foundation (TAF)
Chairman Coons, Ranking Member Graham & Members of the Subcommittee:

    I am honored to submit this testimony as President of The Asia 
Foundation (TAF). We are deeply grateful for the confidence the 
Committee has shown in the Foundation. For 67 years, the Asia 
Foundation has advanced the interests of the United States in 
supporting stable democracies, good governance, the political and 
economic rights of women, climate action and free markets in the Indo-
Pacific. Established in 1954, The Asia Foundation is a private, non-
profit, nongovernmental organization headquartered in San Francisco. An 
annual appropriation is authorized under The Asia Foundation Act of 
1983 (22USC4402). The Act acknowledged the importance of sustained 
funding for TAF and endorsed its ongoing value and contributions to 
U.S. interests in the Indo-Pacific. We pledge to you that with your 
continuing support, the Asia Foundation will sustain its work across 
the Indo-Pacific. In order to build on Congress' investment in the 
Foundation, The Asia Foundation is asking for $20,000,000 for Fiscal 
Year 2022, the same level as enacted in FY2021 and consistent with the 
President's FY2022 request. During the COVID-19 pandemic,TAF's work 
with governments and local communities proved to be more in demand than 
ever. The flexibility of appropriated funding has made it possible to 
immediately address needs identified by partners, including combatting 
the upsurge in gender based violence, public information campaigns on 
Covid-19 with government and civil society groups to address 
misinformation and disinformation efforts, and planning for economic 
re-birth for many communities affected by unemployment, economic 
displacement, challenges to inclusion and other consequences of the 
pandemic. During the crisis, most importantly, TAF has found ways to 
maintain its ongoing programs and have impact.
    In FY2022, TAF will expand new technology driven programs to expand 
economic empowerment, and address the future of work in the region, 
particularly as it affects women. TAF will also increase its program 
activities in Pacific Island nations important to U.S. interests, to 
bolster democratic institutions, address disinformation in a post-Covid 
period, build civil society and expand opportunities for women. TAF 
will also expand climate resilience initiatives in one of the most 
vulnerable regions of the world.
    TAF operates through 18 country offices in Asia. Through those 
offices, we identify and establish relationships with reform-minded 
individuals and organizations that merit our help as they seek to 
advance shared goals and interests. We believe that those we nurture 
today will ensure future security cooperation, development 
partnerships, rule of law, and fair trade between the U.S. and vital 
nations of the Indo-Pacific.
    Appropriated funding is critical to TAF's ability to continue 
operating as a unique American asset across the Indo-Pacific region. 
TAF is an especially cost-effective investment for the Congress in a 
time of budget constraints. TAF's hallmark is its ability to respond 
rapidly during unexpected crises. The challenges and opportunities 
presented by the COVID-19 pandemic have shown that TAF's close 
relations with partners, minimal bureacracy and ability to leverage 
funds have enabled it to address immediate needs, especially related to 
gender based violence and economic dislocation causes by shutdowns and 
curfews throughout Asia. As second and third waves of Covid hit areas 
of the Indo-Pacific, TAF remains active and prepared to continue to 
move quickly. TAF has conducted a series of rapid assessments on the 
impacts of Covid, including specifically on women and in the Pacific. 
Making the most of taxpayer dollars, TAF continues to diversify its 
funding, raising roughly four dollars from non-USG sources for every 
dollar of direct appropriation it has received for the past decade.
    Sufficient appropriated funding is essential to maintaining TAF's 
strong presence across the Indo-Pacific, specifically in countries of 
priority interest to the U.S. No other organization has the long 
history and presence of the Asia Foundation in critically important 
countries such as Afghanistan, Myanmar, Malaysia, Thailand, Vietnam, 
China, Philippines and Indonesia. Trust is built on continuity, and it 
is because of TAF's consistent local presence throughout the region 
that it has become such a trusted partner to local civil society 
organizations and individual reformers in advancing democratic reform 
and free markets in the region.
    At a time when the U.S. is working to support democracy, human 
rights, address climate change and ensure a prosperous, rule-based 
order in the Indo-Pacific, TAF's ability to advance these goals on the 
ground is more important than ever. New challenges to American 
interests in the region and TAF's unique ability to respond to those 
challenges justifies the request for an appropriation of $20 million.
how is the asia foundation unique amon g other organizations operating 
                                in asia?
    The Asia Foundation is first and foremost a field-based 
organization. Through a cost-effective combination of grant-making and 
direct program operations managed by our 18 permanent offices in Asia, 
TAF maximizes program impact while keeping costs low. Through its 
network of offices, TAF undertakes action-based research to inform 
activities across the region, including perception surveys, surveys of 
conflict and violence and gender equality, economic scorecards and 
rapid assessments on the pandemic, natural disaster relief and other 
critical issues facing the region. The most well-known is the annual 
Survey of the Afghan People, which has been conducted for 15 years. 
With this baseline information and evidence based data, TAF delivers 
programs to meet local needs, improving the lives of Asia's citizens 
and contributing to cooperative U.S.-Asia relations. This has 
especially been true during the pandemic, as travel is restricted, but 
TAF offices have remained in place.
    TAF promotes reform by providing training, technical assistance and 
seed funding to hundreds of established and emerging Asian partner 
organizations, reform-minded individuals and future leaders. These 
longstanding investments in human capital have paid off. TAF has 
important relationships with Asian governments and leaders and at the 
same time maintains links to local communities built on decades of 
trust and ongoing engagement.
    As country specialists, TAF country representatives act as a 
substantive resource for program partners and implementers. TAF also 
acts as a resource on political and economic trends and issues for U.S. 
Embassies across Asia, especially as U.S. officials' movements and 
outreach have been more circumscribed due to security concerns. TAF 
often responds to Embassy requests to provide books for American 
Centers through TAF' s flagship Books for Asia program, and sent a 
shipment to the U.S. Embassy in Fiji as recently as May 2021. TAF 
continues to work with U.S. Embassies in complementary ways on 
sensitive issues that cannot be addressed by the USG directly.
 how does the asia foundation contribute to u.s. interests in the indo-
                            pacific region?
    The U.S. has vital economic, political and security interests in 
the Indo-Pacific. TAF's engagement has led to better governance, 
stronger economies, and empowered citizens in many parts of the region. 
In turn, these developments have helped deepen economic relationships 
and increase security cooperation between Asian countries and the 
United States. The core areas of TAF's work directly contribute to 
advancing U.S. strategic goals, strengthening democratic institutions 
and the rule of law.
    TAF programs reinforce U.S interests by improving the business 
policy environment in Asian countries through better governance, 
procurement practices and transparency. TAF convenes dialogues where 
American and Asian policymakers discuss common approaches with emerging 
donors in the post-traditional aid environment. TAF works with partners 
to examine the conditions facing newly advanced middle-income countries 
where countries have progressed beyond development assistance, but 
still face governance and other challenges as key economic and security 
partners of the U.S., such as Malaysia, Vietnam and Thailand. 
Transitions take time, and appropriated dollars allow TAF to make long-
term investments in positive ways.
          what would the foundation do with sustained funding?
    FY 2022 funding at $20 million would position The Asia Foundation 
to maintain and expand programs in countries struggling with 
corruption, internal conflicts and weak democratic processes and 
institutions. TAF' s programs have deepened over the years to address 
the root causes of extremism, and governance at the national and sub-
national level. TAF is harnessing the use of technology to increase 
program impact. TAF uses evidence-based approaches by conducting 
primary research that is used as a basis for our own programs but is 
also shared, valued and used by other donors and governments.
    Priorities include promoting inclusive economic growth and 
entrepreneurship, especially in marginalized communities, and 
addressing governance and women's empowerment issues in the Pacific 
Islands, where concerns about outside influences have become stronger. 
TAF's goals continue to be:

  --Expand community resilience, youth leadership and security in areas 
        vulnerable to extremist recruitment in Malaysia, Indonesia and 
        other parts of Southeast Asia;
  --Counter corruption and improve public accountability efforts in Sri 
        Lanka, Timor Leste, Vietnam and Mongolia;
  --Strengthen women's empowerment programs throughout Asia, including 
        developing economic opportunity and entrepreneurship for women, 
        supporting girls' education through scholarships, combatting 
        trafficking and gender-based violence;
  --Promote engagement of traditional and religious leaders in 
        community development, women's empowerment, election 
        observation and education in Indonesia, Afghanistan, and 
        Bangladesh;
  --Sustain TAF's signature initiative, the Books for Asia program, 
        which has provided over 51.7 million English-language books and 
        digital content to more than 20 Asian and Pacific Island 
        countries, and TAF's e-book platform Let's Read, with young 
        local web developers and authors to create original children's 
        book content, freely accessible online for download and use in 
        local schools, libraries and institutions. This digital library 
        now has over 6,200 new books in English and 42languages, 
        including minority languages, in nine countries, including 
        Cambodia, Indonesia, Myanmar, Nepal, Laos, Vietnam, Thailand.
  --Renew programs in key Pacific Island countries to improve 
        governance and services; build capacity for civil society and 
        government on principles of democracy; protect women's rights 
        and reduce gender-based violence and; facilitate coordination 
        in disaster risk management and resilience.
    New collaborations with the technology sector include:

  --TAF's Resiliency Initiative with Facebook looks to build tolerance, 
        promote inter-faith and inter-ethnic understanding, and reduce 
        extremism. The program will support civil society organizations 
        to devise and run online campaigns. Facebook is the most 
        popular and widely used social media platform in many countries 
        in Asia and often the main way to access information online.
  --Facilitate the development of the Asia Pacific Information Disorder 
        Index, an assessment that will take a whole of government 
        approach to evaluate the capacity of governments to respond to 
        information disorder threats, initially in PNG, with possible 
        expansion to Fiji and Vanuatu.
                               conclusion
    Funding at $20 million will allow The Asia Foundation to invest in 
innovative programs that have received Congressional encouragement. We 
believe TAF's track record demonstrates that we can leverage 
appropriated dollars and make efficient use of those funds to advance 
U.S. interests in the Indo-Pacific region.
    We appreciate the Committee's longstanding trust of and support for 
The Asia Foundation. The Congressional appropriation authorized in the 
1983 Asia Foundation Act has been and remains invaluable to TAF's 
ability to achieve results on the ground and fulfill our shared mission 
to maintain U.S. presence and advance U.S. interests in the Indo-
Pacific.We respectfully urge that the Committee support FY2022 funding 
for The Asia Foundation at $20 million, consistent with the President's 
request.
    (A full listing of Asia Foundation programs may be found on our 
website at www.asiafoundation.org.)

    [This statement was submitted by David D. Arnold, President.]
                                 ______
                                 
    Prepared Statement of the Association of Public and Land-Grant 
                          Universities (APLU)
    The Association of Public and Land-grant Universities (APLU) 
requests at least $70 million for the Feed the Future Innovation Labs 
in FY2022 to provide resources for the Labs to address new food supply 
and security needs given the pressures of the COVID-19 economic 
downturn. We also respectfully request that the appropriation be made 
in the legislation, which has been the practice in most recent years, 
rather than the committee report. The 20 Feed the Future Innovation 
Labs are led by 13 U.S. universities in partnership with over 40 other 
U.S. universities, including seven Minority Serving Institutions. The 
research leaders at these universities work with USAID missions and 
developing country research institutions on critical issues to advance 
global food security and contribute to U.S. economic and national 
security.
    Over the past decade, the Feed the Future Innovation Labs have 
registered notable successes in addressing issues that disrupt the food 
supply, including post-harvest losses, food safety and access, and pest 
management. For example, researchers at the USAID Innovation Labs 
developed:

  --19 new sorghum lines resistant to the greenbug aphid in 2018. The 
        lines were developed using germplasm collected by the sorghum 
        research program from many parts of the world. Today, many 
        American sorghum producers plant improved varieties developed 
        by USAID-supported research.
  --13 common bean varieties and 2 blackeye pea varieties were 
        developed by Feed the Future Innovation Lab researchers, 
        registered as intellectual property, and have been made 
        available to growers. Now, these varieties are commercially 
        grown in the U.S. (beans in Michigan, Minnesota, Nebraska, 
        North Dakota, and cowpea in California).
  --Low-priced grain storage bags that contain an ultrasonic device 
        capable of monitoring insect activity. The hermetic plastic 
        bags are designed to kill insects that cause post-harvest 
        losses. The bags are produced by seven companies, sold annually 
        to three million farmers in 58 countries, and used to store 
        many crops including beans, corn, sorghum, rice, and coffee.

    The pandemic's disruption of food and agriculture systems is 
reducing hard-won gains of reduced poverty and food security. The 
Innovation Labs are helping to reverse and buffer against these 
setbacks. The economic downturn from COVID-19 is projected to increase 
the number of food-insecure people by 22 percent to 844.5 million 
people. USAID and Feed the Future Innovation Lab personnel have worked 
with governments and development partners to promote a safe and 
functioning food system throughout the pandemic. The Labs have 
mobilized their extensive networks at multiple levels and across 
countries to mitigate pandemic impacts, manage stress in food and 
health systems, and reduce risk of rapid spread of COVID19.
    International competitors continue to seek to displace the United 
States as the agricultural innovation leader by fostering greater ties 
with developing nations and in emerging markets. As a result, there has 
never been a more important time to maintain an international presence 
and demonstrate U.S. institutional excellence to reinforce alliances 
that contribute to national security and international well-being. 
Graduate student training is one way that the Innovation Labs 
contribute to food security and resilience via development and soft 
diplomacy. In 2019 alone, they supported 529 students, primarily at the 
graduate level from 39 nations. These students are future leaders in 
their respective countries.
    The requested increase in funding would create opportunities to 
avert current and emerging threats related to pests and disease through 
new partnerships, to combat the food insecurity impacts COVID19, 
address climate change challenges, and build capacity and resilience 
against new threats.
                               about aplu
    APLU is a research, policy, and advocacy organization dedicated to 
strengthening and advancing the work of public universities in the 
U.S., Canada, and Mexico. With a membership of 244 public research 
universities, land-grant institutions, state university systems, and 
affiliated organizations, APLU's agenda is built on the three pillars 
of increasing degree completion and academic success, advancing 
scientific research, and expanding engagement. Annually, its 201 U.S. 
member campuses enroll 4.2 million undergraduates and 1.2 million 
graduate students, award 1.2 million degrees, employ 1.1 million 
faculty and staff, and conduct $46.8 billion in university-based 
research.
    [This statement was submitted by Caron Gala, Director, Governmental 
Affairs, Agriculture and International Development.]

                                 ______
                                 
          Prepared Statement of the Basic Education Coalition
Chairman Coons, Ranking Member Graham, and Members of the Subcommittee:

    I am pleased to submit testimony on behalf of the Basic Education 
Coalition, a group of leading U.S.-based organizations and academic 
institutions working together to promote expanded, equitable access to 
quality education. My name is Candace Debnam, and I am the Co-Chair of 
the Coalition's Board of Directors as well as the Executive Director of 
School-to-School International. To enhance U.S. foreign assistance 
efforts and improve educational opportunities for children in need, we 
urge Congress to provide $1.050 billion for Basic Education in the 
Fiscal Year 2022 State, Foreign Operations, and Related Programs bill, 
with at least $900 million provided as bilateral U.S. Government 
assistance.
    Our Coalition is extremely grateful for the Subcommittee's 
bipartisan commitment to fighting extreme poverty and improving access 
to education for children around the world, and we thank you for 
increasing the funding for Basic Education in the Fiscal Year 2021 
State, Foreign Operations, and Related Programs appropriations bill. 
Funding for Basic Education enables USAID and implementing partner 
organizations to work in collaboration in some of the most challenging 
contexts around the world, and the increase in Fiscal Year 2021 
resources will allow us to expand Basic Education programs to 
vulnerable populations, address gaps in education service delivery, and 
strengthen international education systems.
    The future development of all nations around the world is 
predicated upon children and youth acquiring the skills needed to lead 
their countries into a more prosperous, equitable, democratic, and 
inclusive society. However, COVID-19 disrupted the lives and education 
of over 90 percent of the world's children and youth and severely 
exacerbated a pre-existing global learning crisis.\1\ The consequences 
of protracted school closures around the world are undeniable. In 
addition to the loss of instructional time, school closures can 
negatively affect children's mental and physical health, nutrition, and 
well-being.
    For children who have been deprived of access to school and 
distance learning during COVID-19, global learning loss poses a 
generational threat. Research indicates that a three-month school 
closure could cost children over a year's worth of learning and, if 
left unaddressed, many children will never catch up.\2\ Those who were 
already at a disadvantage prior to the pandemic will fall even further 
behind as lack of access to critical learning resources will lead to a 
widening of the achievement gap.\3\ This will have real consequences 
over time for the United States and our partners abroad as studies show 
that lifetime earnings and economic productivity would be drastically 
higher on a global scale if all children benefited from a complete 
education and full health.\4\
    To reaffirm the United States' commitment to the Sustainable 
Development Goals, remedy the losses caused by COVID-19, and return all 
children and youth to safe learning environments, Congress should 
prioritize funding for Basic Education funding in fiscal year 2022 and 
seek to expand access to and improve the quality of education in our 
partner countries. Domestic education budgets in low- and middle-income 
countries will be negatively affected by COVID-19 in the coming years 
due to lower economic output and tax revenue, and U.S. foreign 
assistance will be more vital than ever during this time to overcome 
the educational challenges that have been created and exacerbated by 
COVID-19.
    Over the past decade, the United States has led international 
development efforts to improve the acquisition of literacy skills among 
early grade learners. The focus on literacy as the essential building 
block to longer-term educational attainment has yielded improved 
reading scores, the creation of evidence-based national reading 
programs, and greater access to quality teaching and learning materials 
for students, teachers, and governments. However, far too many children 
still lack access to quality education and are failing to meet 
developmental milestones. Prior to COVID-19, 258 million children and 
youth were already out of school and more than 600 million learners 
were not achieving minimum proficiency levels in reading and 
mathematics.\5,6\ United Nations officials warn that an additional 24 
million children could now drop out of school due to the pandemic,\7\ 
tragically reversing a global trend that has seen a decrease of nearly 
118 million out-of-school children and youth since 2000.\8\
    In response to COVID-19, USAID has mobilized more than $900 million 
for education assistance and rapidly adapted programming in more than 
50 countries to support continued learning during the pandemic. Despite 
widespread school closures, USAID programs employed a variety of in-
person and distance approaches in 2020 to reach more than 24 million 
learners from pre-primary through secondary education levels.
    To make sustained progress on U.S. economic and foreign policy 
goals and achieve a more equitable and prosperous world, access to 
safe, quality education must improve in our partner countries. Citizens 
of low-income countries need widespread literacy, numeracy, and 
critical thinking skills that are acquired in pre-primary, primary, and 
secondary school to collectively make social progress and grow their 
economies. Basic education lays the foundation for improved health and 
nutrition outcomes,\9\ slower population growth,\10\ democracy and 
political stability, and promotes greater gender equality, 
understanding, tolerance, and hope.\11\ Widespread educational 
attainment will also strengthen international efforts to build 
resilience to the harmful effects of climate change,\12\ and a 
significant increase in global funding is needed to meet the demand for 
quality education and make improvements in access to early childhood 
education, girls' education, disability-inclusive education, and 
education in emergencies.
    Early grade reading will continue to be the bedrock for all future 
learning and skills acquisition, however, to equip students with a 
broad range of skills, schools and wraparound services should offer 
holistic support for basic needs and overall well-being. Literacies of 
various kinds, a broad base of mathematical conceptual understanding, 
science foundations, and social-emotional skills are required for 
children to develop into healthy and productive members of their 
societies.
    In many low- and middle-income countries, too few students arrive 
at primary school on track developmentally and ready to learn. An 
estimated 250 million children globally fail to meet their 
developmental milestones,\13\ meaning nearly one-third of the world's 
children are entering elementary grades without the cognitive, social-
emotional, motor, and language skills they need to fulfill their 
potential. U.S. foreign assistance needs to expand programs that 
improve early childhood care and education, including pre-primary 
education and multi-sectoral early childhood development interventions 
for children ages 0-8. While inclusion of children with disabilities 
and marginalized populations is essential to quality education at all 
levels, it is especially important during the early years, as they are 
the foundation and gateway to fruitful, lifelong learning.
    Children need additional support to make the transition from 
primary to secondary school so that the growing youth population has 
the opportunity for gainful employment and personal achievement.\14\ 
Higher-level skills that are acquired in secondary school should 
prepare students for participation in the fast-paced, rapidly changing 
global economy. Automated technologies will continue to replace low-
skilled labor and employers will increasingly demand technical, social, 
and critical-thinking skills. Digital literacy and information 
engagement skills, including the ability to identify misinformation, 
build emotional resilience to it, and reflect on one's own information 
consumption, will be needed for the positive development of children 
and youth moving forward.
    It is also imperative for U.S. foreign assistance to aim to break 
down gender-related barriers to educational attainment in countries 
where there is persistent gender disparity in school enrollment and 
completion, particularly in secondary school when girls are most likely 
to dropout. In many contexts, entrenched social and cultural norms can 
limit girls' access to quality learning opportunities, and girls face 
risks of child marriage, early pregnancy and motherhood, gender-based 
violence, seclusion during menstruation, and greater responsibility for 
household labor than boys. To address these barriers, girls' education 
programs must promote holistic and multi-sectoral solutions that 
prioritize gender equity and broaden support for girls' education at 
every level of society.
    As COVID-19 has shown, resilience relies on the capability and 
ingenuity of people and leadership at the familial, communal, regional, 
and national levels. Local leaders and educators can engage families 
and communities, respond quickly to changing demands, and innovate in 
real time to adaptively meet local needs such as distance learning, 
remedial learning, girls' education, and skills development. To ensure 
that aid leads to sustainable change, leadership development programs 
should be created at the country level in consultation with communal, 
regional, and national stakeholders, with the goal of spurring local 
innovation and knowledge sharing.
    Further developing the education workforce will also be necessary 
to sustainably improve a global education system that supports learners 
and learning for the future. U.S foreign assistance should seek to 
strengthen the education workforce, including through the recruitment 
of diverse talent, and address the quality of teacher pre-service and 
in-service trainings and certification programs.
    Finally, we've learned from COVID-19 that school systems need to be 
prepared and resourced to facilitate and support extended periods of 
remote learning during a time of crisis. Lack of access to technology, 
the internet, toys, books, and other learning materials furthers the 
learning equity gap for children living in low-income households, those 
from marginalized communities, and those with disabilities, and should 
be addressed to ensure that learning can continue for all children in 
future emergencies. The U.S. government must make a more concerted and 
coordinated effort to include education as part of the immediate 
response to an emergency, including by fostering improved collaboration 
across U.S. humanitarian and development departments and agencies.
    A quality education for all is the bedrock of societal progress, 
and the benefits of our investments now will be reaped by generations 
to come. A fully resourced USAID will develop innovative solutions to 
global challenges and will have the capacity to directly address 
country needs. The Basic Education Coalition looks forward to working 
with Congress to ensure that quality education remains a pillar of our 
foreign assistance and that the U.S. Government Strategy on 
International Basic Education is a success. Together, we can help 
alleviate poverty, strengthen education systems, foster stability and 
security, and spur economic growth, both abroad and here at home.
    Thank you for your continued support and for your consideration of 
our request.
---------------------------------------------------------------------------
    \1\ United Nations Educational, Scientific and Cultural 
Organization. ``COVID-19 Impact on Education.'' Accessed October 8, 
2020.
    \2\ Kaffenberger, Michelle. ``Modeling the Long-Run Learning Impact 
of COVID-19 Learning Shock: Actions to (More Than) Mitigate Loss''. 
RISE Insight (June 4, 2020).
    \3\ DeStefano, Joe, Ben Piper, and Jonathan Stern. ``Calculating 
the Educational Impact of COVID-19: Closed Schools, Lost learning, 
Unequal Impact.'' RTI SHARED (April 21, 2020).
    \4\ The World Bank Group. ``If Countries Act Now, Children Born 
Today Could Be Healthier, Wealthier, More Productive.'' (October 11, 
2018).
    \5\ United Nations Educational, Scientific and Cultural 
Organization Institute for Statistics ``New Methodology Shows that 258 
Million Children, Adolescents and Youth Are Out of School.'' (September 
2019).
    \6\ United Nations Educational, Scientific and Cultural 
Organization Institute for Statistics. ``More Than One-Half of Children 
and Adolescent Are Not Learning Worldwide.'' (September 2017).
    \7\ United Nations Educational, Scientific and Cultural 
Organization. ``UNESCO COVID-19 Education Response: How Many Students 
Are at Risk of Not Returning to School?'' (July 30, 2020).
    \8\ Kaffenberger, Michelle. ``Modeling the Long-Run Learning Impact 
of COVID-19 Learning Shock: Actions to (More Than) Mitigate Loss''. 
RISE Insight (June 4, 2020).
    \9\ Mondal, Md Nazrul Islam and Mahendran Shitan. ``Factors 
affecting the HIV/AIDS epidemic: an ecological analysis of global 
data.'' African Health Sciences (2013): p.: 301-310.
    \10\ Murray, Sam. ``How Education Can Moderate Population Growth.'' 
World Economic Forum (July 27, 2015).
    \11\ Sperling, Gene, and Rebecca Winthrop. ``What works in girls' 
education.'' The Brookings Institution (2016).
    \12\ Striessnig, Erich, Wolfgang. Lutz, and Anthony G. Patt. 
``Effects of educational attainment on climate risk vulnerability.'' 
Ecology and Society (2013)18(1): 16.
    \13\ Black, Maureen, Susan Walker, Lia Fernald, et al. ``Early 
childhood development coming of age: science through the life course.'' 
The Lancet (October 4, 2016).
    \14\ The International Commission on Financing Global Education 
Opportunity. ``The Learning Generation: Investing in Education for a 
Changing World.'' (2016).

    [This statement was submitted by Candace Debnam, Co-Chair, Basic 
Education Coalition and Executive Director, School-to-School 
International.]
                                 ______
                                 
          Prepared Statement of the Bethany Christian Services
Chair Coons, Ranking Member Graham, and Members of the Committee:

    On behalf of Bethany Christian Services, we are grateful for the 
opportunity to provide our outside written testimony and 
recommendations for the FY 2022 State Foreign Operations Appropriations 
bill.
      usaid/children in adversity/vulnerable children programming
    We urge the Senate to increase funding levels for programs to 
implement the United States Government Advancing Protection and Care 
for Children in Adversity (APCCA) and the Global Child Thrive law 
within the Children in Adversity Office/Vulnerable Children account at 
USAID. Specifically, we request a total funding level of $35 million in 
FY 2022 for this account, an increase of $10 million from the FY 2021 
enacted level.
    This funding request would allow USAID's Children in Adversity team 
to begin the process of implementing the Global Child Thrive Act and 
further the U.S. government's goals of ensuring that every child has 
the conditions for healthy growth, nurturing family-based care, 
development and learning, and protection from violence, exploitation, 
abuse, and neglect in alignment with the strategy of APCCA, launched in 
2019. These funds allow USAID to integrate early childhood 
interventions into international programs serving young children and 
their families. USAID should be able to plan and budget for activities 
that enable children to remain in or return to the care of their 
families, or when appropriate, other close family members or foster 
families, and decrease the percentage of children living in 
institutions.
    In addition to our funding request, we would like to make the 
following recommendations to help provide for the full implementation 
of APCCA and the Global Child Thrive Act.

  --USAID's implementation of the United States Government Advancing 
        Protection and Care for Children in Adversity (APCCA) strategy 
        should be continued as a whole-of-government approach to 
        coordinate assistance to orphans and vulnerable children, as 
        mandated by Public Law 109-95.
  --USAID's objectives of building strong beginnings, putting family 
        care first, and protecting children from violence, abuse, and 
        neglect deserve Congress's continued support.
  --As children are particularly vulnerable to the psychological 
        impacts of conflict and forced displacement, interventions 
        should be prioritized to assist children recovering from 
        trauma, those in fragile contexts, those experiencing 
        developmental delays or disabilities, children outside of 
        family care, and children on the move.
  --We should also support mental health programs for vulnerable 
        caregivers and children in emergency assistance programs.
  --USAID should be encouraged to partner with organizations of all 
        sizes, including community and faith-based organizations, that 
        demonstrate an expertise promoting deinstitutionalization, 
        permanent family-based care, foster care programs in and 
        outside of family networks, and preventing unnecessary family 
        separation.
    population, refugees and migration (prm)/migration and refugee 
    assistance/unaccompanied refugee minors resettlement programming
    Bethany urges the Committee to provide robust funding for the 
present and future resettlement of unaccompanied refugee minors (URM) 
including those who have fled ethnic cleansing and other forms of 
persecution. It is our hope that funding provided for FY 2022 refugee 
resettlement purposes will continue to support resettlement of 
qualifying URM who have been referred to the U.S. from UNHCR or NGOs. 
This is necessary to maintain this vital protection avenue for the most 
vulnerable refugee children. In addition, it is our hope that the 
Bureau of Population, Refugees and Migration (PRM) will ensure 
expedited processing for URM who are on the verge of aging-out of URM 
program eligibility.
    The URM program has provided thousands of children with renewed 
hope for the future, yet more than 150,000 children became 
unaccompanied or were separated from their families in 2019, a 
significant underestimation given the limited number of countries 
reporting data. Family reunification may be possible for some of those 
children; others, after careful best interest determinations, may be 
among those who would greatly benefit from the U.S. URM program. 
Increasing conflict and rising inequality are contributing to the mass 
displacement of children, including URM, from their homes, endangering 
their survival, disrupting their education, and exposing them to severe 
protection risks, including trafficking, violence, abuse, neglect, and 
exploitation.
    At the same time, U.S. support for URM has fallen precipitously. In 
FY 2015 the U.S. resettled 294 refugee children, compared to only 116 
in FY 2018, 156 in FY 2019, and 101 in FY 2020--a significant decline. 
In FY 2020, the COVID-19 pandemic halted processing and travel for most 
URMs, resulting in an increased number of youth turning 18 and ``aging 
out'' of their chance to enter the URM program. It is vital that this 
population of vulnerable children get expedited processing to ensure 
that they can access protection.
    Approximately 13,000 children have entered the United States 
through the URM program since its inception in 1980--from places like 
Democratic Republic of the Congo, Eritrea, Burma, and Afghanistan. 
While the total number of children resettled through the URM program is 
relatively small, the program has a tremendous impact on the children 
it serves. The URM program provides culturally and linguistically 
appropriate foster care to unaccompanied refugee children and youth. 
Through the program, unaccompanied refugees receive care, educational 
support, and case management to help the children thrive and achieve 
self-sufficiency. The U.S. should commit to increasing the life-saving 
refugee resettlement practices in a way that reflects the gravity of 
the global refugee crisis. This includes a continued strong commitment 
to unaccompanied refugee minors.
child protection in state department/international disaster assistance 
             and migration and refugees assistance program
    Bethany encourages the Committee to recognize the need for 
additional protection of displaced children at the Office of Foreign 
Disaster Assistance and the Bureau of Population, Refugees, and 
Migration. These offices can play an increasing leadership role to 
protect children in humanitarian crises and ensuring that protection is 
integrated across other humanitarian sectors.
    Child protection programming is essential to ensuring child well-
being and survival during and after emergencies and in refugee 
contexts. Children represent an outsized percentage of those impacted 
by humanitarian emergencies. In times of crisis, children face 
increased risk of all forms of violence and exploitation, especially in 
developing countries. Emergencies exacerbate pre-existing protection 
concerns and create new ones.
    As described in the 2012 Minimum Standards for Child Protection 
Humanitarian Action, the range of protection concerns faced by children 
in humanitarian contexts comprises: Lack of access to asylum 
procedures; separation from parents and caregivers; sexual violence and 
sexual exploitation; mental disorders and psychosocial distress; forced 
recruitment into armed forces and armed groups; early marriage; 
trafficking, smuggling, sale and illegal adoption, inappropriate 
adoption; physical violence and harmful practices; unexploded 
ordinances and landmines; child labor; and detention. These categories 
are not discreet but interconnected and compounding.
    An estimated 50 million children are on the move. More than half of 
these children, 28 million in total, have fled violence and insecurity. 
Increasing conflict and rising inequality are contributing to a mass 
displacement of children from their homes, endangering their survival, 
disrupting their education, and exposing them to severe protection 
risks, including violence, abuse, neglect, and exploitation. Currently, 
nearly one in every 200 children globally is a child refugee. Between 
2005 and 2015, the number of child refugees under the United Nations 
High Commissioner for Refugees' (UNHCR) mandate more than doubled.
    According to the Alliance for Child Protection in Humanitarian 
Action, child protection in conflict and crisis settings has been 
deprioritized in recent years and evidenced by statistics on funding. 
Protection in emergencies activities is underfunded, typically 
receiving approximately one third of the total amount requested and 
proportionately less than the overall humanitarian response.
    Child protection in humanitarian action saves lives. The committee 
agreed with this as demonstrated by the inclusion of language 
consistent with the requested in previous committee reports.
    Thank you for the opportunity to present the priorities for Bethany 
Christian Services for the FY 2022 State-Foreign Operations 
Appropriations bill. Please do not hesitate to contact us with any 
questions.
                    about bethany christian services
    Bethany Christian Services (Bethany) is an international nonprofit 
organization headquartered in Grand Rapids, Michigan. With a presence 
in more than 30 states and in several countries, Bethany offers a wide 
array of services with a common mission: to serve vulnerable children 
and families and help them thrive. Through services in the U.S. and 
around the world, Bethany impacts hundreds of thousands of lives every 
year.
    For over 45 years, Bethany has served displaced people, caring for 
refugee children who have lost their families and homes, supporting 
asylum-seeking families through alternative to detention case 
management services, and helping refugee families resettled in the 
United States thrive.

    [This statement was submitted by Chris Palusky, President and CEO 
and Tawnya Brown, Senior Vice President.]
                                 ______
                                 
            Prepared Statement of the Better World Campaign
    Chairman Coons, Ranking Member Graham, Members of the Subcommittee-
thank you for the opportunity to provide written testimony in support 
of a robust foreign affairs budget in FY 2022. The accounts funded by 
this legislation support U.S. assessed and voluntary contributions to 
the United Nations. Specifically, we recommend $2.701 billion for the 
Contributions for International Peacekeeping Activities (CIPA) account, 
which funds U.S. assessments for UN peacekeeping missions, and $548 
million for the Peacekeeping Operations (PKO) account, which funds 
voluntary contributions to regional peacekeeping initiatives and 
assessments for UN activities in Somalia. We also support the inclusion 
of language that enables us to pay our contributions to UN peacekeeping 
at the full assessed rate. In addition to peacekeeping-related funding, 
we request $1.662 billion for the Contributions to International 
Organizations (CIO) account, which funds U.S. assessments for the UN 
Regular Budget and a host of UN specialized agencies, including the 
World Health Organization (WHO). In addition, we ask that you provide 
robust funding for UN relief activities in Yemen, Syria, Venezuela, and 
other humanitarian emergencies, including $646.5 million for the 
International Organizations and Programs (IO&P) account. We hope you 
will also consider funding important bilateral and multilateral 
programs, including family planning programs ($1.74 billion), the 
President's Malaria Initiative ($770 million), the Global Fund for 
AIDS, Tuberculosis and Malaria ($1.56 billion), Gavi, the Vaccine 
Alliance ($290 million), and USAID's polio program ($61 million). These 
important bilateral and multilateral programs are partner with and are 
amplified by the UN's work and are critical bipartisan U.S. foreign 
policy priorities.
The UN: Supporting Robust Investments in a Critical Force-Multiplier 
        for the U.S.
    While the world has changed significantly since the UN's founding 
in 1945, its role as a force-multiplier for the U.S.-a key forum for 
multilateral diplomacy to mitigate conflict, and a mechanism to address 
challenges that no country can resolve alone-remains as vital as ever. 
The last year in particular has dramatically underscored the maxim that 
``if the UN did not exist, we would have to invent it.'' For example:

  --The World Health Organization (WHO) has played a central role in 
        addressing the COVID-19 pandemic, distributing diagnostic kits 
        and millions of items of PPE to dozens of countries with weaker 
        health systems; carrying out public awareness campaigns in 
        dozens of languages in 149 countries; and disseminating 
        technical guidance to local health authorities. WHO is also at 
        the center of a cooperative effort, along with the UN 
        Children's Fund (UNICEF) and other partners, to equitably 
        distribute COVID-19 vaccines worldwide, launching a facility, 
        known as COVAX, that aims to distribute 2 billion vaccine doses 
        to low and middle-income countries this year.
  --UN humanitarian agencies have scaled up operations to respond to 
        humanitarian needs that have been exacerbated by the pandemic 
        and its global economic shocks, providing food, shelter, clean 
        water, medical care, educational support, and other life-
        sustaining services to tens of millions of people around the 
        world. The importance of the UN's work in this arena is felt 
        particularly strongly in countries like Yemen, where years of 
        brutal conflict have left more than 80% of the population in 
        need of humanitarian assistance.
  --UN peacekeepers have continued working to protect civilians and 
        promote stability in hotspots and fragile states across three 
        continents. In Mali, for example, UN peacekeepers are 
        supporting U.S. counterterrorism objectives, working with 
        French and African partners to help prevent extremist groups 
        linked to al-Qaeda and ISIS from gaining and holding territory.

    The U.S. has long been one of the organization's most powerful 
member states, using its position and influence to drive the UN's 
agenda and work in a direction that promotes our core foreign policy 
and national security interests. The U.S. also benefits from the 
burden-sharing aspects of the UN's work: with regards to peacekeeping, 
we provide just several dozen uniformed personnel out of a force that 
totals more than 75,000. Additionally, the GAO has repeatedly 
determined that UN peacekeeping missions are eight times cheaper than 
deploying U.S. forces, making them a relative bargain for American 
taxpayers.
    Despite this, the U.S. has not always lived up to its commitments. 
Since FY17, we have accrued more than $1.1 billion in arrears on our 
assessments for UN peacekeeping, due to Congressional enforcement of an 
arbitrary statutory cap that prevents us from contributing more than 
25% of mission budgets. This cap has remained in place since the mid-
1990s, despite the fact that our assessment rate for peacekeeping has 
shrunk from a high of 32% when the cap was first enacted to the 27.89% 
rate in effect today, as well as the fact that our contributions to the 
UN regular budget are subject to a ceiling of 22%, below what we would 
be paying if our share of the global economy and per capita income were 
the only criteria.
    Continuing to enforce the cap and accrue arrears is harmful for 
several reasons. First, the UN does not have a standing army, and 
depends on voluntary contributions of troops, police, and essential 
equipment from member states. The UN's top contributors of uniformed 
personnel are generally low and middle-income countries like 
Bangladesh, Rwanda, Senegal, and Jordan, who possess fewer financial 
resources and depend on reimbursement payments to sustain complex and 
often hazardous peacekeeping deployments. Unfortunately, U.S. 
arrearages have contributed to a significant cash crunch at the UN, 
which means that the UN is perpetually delayed in making these 
payments, sometimes by as much as 6-12 months. If these shortfalls are 
allowed to fester and grow, it would affect the willingness and ability 
of countries to participate in UN peacekeeping, potentially leaving 
operations that the U.S. has repeatedly voted to support on the 
Security Council with significant personnel and equipment shortages.
    Second, accruing arrears undermines our ability to push for 
necessary reforms at the UN. During the Obama Administration, the U.S. 
and UN worked together to adopt a number of measures, cutting the cost 
per peacekeeper by 18% and reducing the number of support staff on 
missions to lower administrative costs. The UN also undertook important 
efforts to combat sexual exploitation and abuse by UN personnel, 
adopting policies that shortened the timeline of investigations, 
increased public reporting and transparency about suspects and the 
status of investigations, provided legal aid and other forms of support 
to victims, and took action against contingents from troop-contributing 
countries with a history of abuse allegations. All of this was done at 
a time when the U.S. was not enforcing the cap. By contrast, failing to 
pay our dues in full alienates likeminded countries, sends the message 
that we are more interested in punishing the UN than improving it, and 
makes it less likely that future U.S. entreaties around cost, 
efficiency, and accountability will be taken seriously. As the U.S. 
approaches assessment rate negotiations this year and seeks to maintain 
UN budget discipline and support full implementation of the Secretary-
General's reform agenda, payment of our arrears will be essential to 
lining up support from other UN member states.
    Finally, our financial delinquency is a gift to our strategic 
competitors, who are more than happy to fill the vacuum when we step 
back at the UN. For example, China has significantly expanded its role 
at the UN in recent years: it is now the second largest financial 
contributor to both the UN peacekeeping and regular budgets, the ninth 
largest troop-contributor to UN peacekeeping operations, and has helped 
place Chinese nationals in key positions, including the top posts at 4 
of the organization's 15 specialized agencies. With increased financial 
contributions and engagement comes more leverage, and Chinese diplomats 
have increasingly sought to use this dynamic to call out the U.S. for 
being the UN's ``largest debtor'' while simultaneously working to 
undermine the UN's human rights work, including as part of peacekeeping 
missions. The U.S. has long supported efforts by UN peacekeeping 
operations to monitor and promote human rights in their areas of 
operation, protect civilians, and address gender-based violence. These 
essential activities could increasingly be in jeopardy if the U.S. does 
not meet its financial obligations.
    For this reason, my organization is encouraged by the President's 
FY 2022 request, which includes funds sufficient to fully pay our 
anticipated peacekeeping dues, $300 million to help pay down our 
arrears, a call to lift the peacekeeping cap, and a commitment to fully 
pay back our arrears in 2 years. My organization's own request numbers 
for the CIPA and PKO accounts include lifting the peacekeeping cap and 
funding to pay our FY22 dues and our arrears in-full in one year, 
similar to what was done in 2009.
    We also hope that you will fund the CIO account-which provides U.S. 
assessed contributions to the UN regular budget and dozens of other 
organizations-at the level called for in the President's request. We 
also request language requiring the State Department to fund UN 
assessments earlier in the calendar year. The practice of waiting until 
the end of the fiscal year to pay our regular budget dues has led to 
repeated liquidity crises at the UN, harming the organization's ability 
to deliver vital programs and services.
    The UN regular budget funds numerous activities, including special 
political missions deployed to support peace processes and facilitate 
democratic transitions in countries that have undergone conflict. Just 
recently, in Libya, the UN helped negotiate a permanent ceasefire and 
secured adoption of a political roadmap calling for the formation of a 
unity government and the holding of national elections in December 
2021. If these efforts at political reconciliation are successful, they 
could end a civil war that has drawn in outside powers and negatively 
impacted stability in the Mediterranean region. In addition, the role 
of the UN as a conduit for international assistance and technical 
expertise will take on an even greater role as the U.S. withdraws the 
last of its military forces from Afghanistan this year. Meeting our 
financial obligations to these and other programs under the CIO account 
is therefore critical to supporting many of our nation's broader 
national security objectives.
Global Health: Immunizations, Malaria and Family Planning
    As COVID-19 has shown us over the last year, health systems around 
the world can be threatened in the time it takes for a plane to round 
the globe. U.S. investment in the Global Polio Eradication Initiative 
(GPEI) has strengthened country health systems and provided vital 
tools, infrastructure, and skilled workers capable of not only 
eradicating polio but also fighting other vaccine-preventable diseases, 
like measles and yellow fever. This network of assets, spearheaded by 
the WHO, will be essential to ensuring equitable and timely 
distribution of a COVID-19 vaccine. Pivoting polio resources to the 
pandemic was vital to many countries' ability to respond to the 
pandemic threat, but it has come at a cost. Polio vaccination campaigns 
were paused during the summer, and at least 60 million children were 
not vaccinated. Pakistan alone has identified a staggering 800,000 
high-risk children under the age of five in the country's most 
vulnerable districts. Now is the time for continued political 
commitment to realize what will be one of the greatest public health 
achievements in history and ensure that all children live polio-free 
forever. Supporting the State and Foreign Operations contributions to 
GPEI at $61 million will be important to ending polio.
    Since its founding in 2000, Gavi, the Vaccine Alliance, has played 
a vital role in the purchase and delivery of life-saving vaccines for 
children in the world's poorest countries. During the pandemic, Gavi is 
co-leading a global solution to accelerate the development and 
manufacture of COVID-19 vaccines, as part of a broader effort that also 
includes diagnostics and treatments for the virus. The facility, called 
COVAX, will also guarantee rapid, fair, and equitable access to safe 
and effective COVID-19 vaccines for people in all countries. This 
collaboration already boasts the engagement of over two-thirds of the 
world's countries and operates by pooling the purchasing power of 
participating countries. Ensuring Gavi is properly funded at $290 
million will help it respond to COVID-19 and support its core 
operations.
    COVID and malaria share 7 of 10 primary symptoms, including most 
notably fever. During the onset of the pandemic, several international 
analyses, including reports from the WHO and the Lancet Commission, 
indicated that delays in intervention delivery could result in a 
staggering increase in deaths from malaria. Studies estimated malaria 
death rates could double this year alone. Programs like the President's 
Malaria Initiative (PMI) and the Global Fund to Fight HIV, 
Tuberculosis, and Malaria have had to respond quickly through updated 
guidance on service delivery and resource mobilization to avoid 
disruptions in intervention campaigns and ensure the fight to eliminate 
malaria stays on track.
    Malaria already places a strain on health care systems throughout 
sub-Saharan Africa: the disease accounts for 40-60% of all inpatient 
and outpatient cases in the region. Continued strong support of the 
Global Fund at $1.56 billion will lower preventable deaths and 
strengthen health systems. PMI currently operates in 27 focus countries 
in sub-Saharan Africa and the Greater Mekong Subregion in Asia, working 
alongside national malaria control programs to optimize and scale up 
proven, cost-effective interventions such as long-lasting insecticide-
treated bed nets, anti-malarials, and rapid diagnostic tests. Funding 
PMI at $770 million will help to end malaria, which will lower health 
care costs, increase productivity, improve capacity to respond to 
disease outbreaks, promote economic security and stability, and serve 
as a blueprint that could be used against other diseases of poverty.
    COVID-19 has been particularly hard on women and girls. The UN and 
our bilateral family planning and gender empowerment programs are 
critically important for women and girls around the world. The UN 
Population Fund (UNFPA) has also played an important role in combatting 
COVID-19, including providing needed PPE in countries and helping 
victims of gender-based violence, which spike in humanitarian 
emergencies. Unfortunately, more than 303,000 women die from largely 
preventable complications related to pregnancy and childbirth each 
year. 214 million women would like to delay or avoid pregnancy but do 
not have access to or aren't using modern methods of contraception. 
With access to contraceptives, unintended pregnancies would drop by 
70%, maternal deaths would drop by 67%, and newborn deaths would drop 
by 77%. To meet the unmet need, the U.S. share of international 
reproductive health and family planning funding would be $1.74 billion 
(including $116 million for UNFPA).
    UNFPA operates in places like Syria and Yemen or after humanitarian 
disasters in Nepal to ensure that every pregnancy is wanted, every 
birth is safe, and every young person's potential is fulfilled. They 
provide safe birthing and dignity kits after disasters, help install 
solar lighting in refugee camps, and provide contraceptives in more 
than 150 countries to prevent maternal mortality and improve the status 
of women.
    UN Women plays an important role in creating policies to eliminate 
discrimination against women and girls, empower women, and achieve 
gender equality. We believe the Subcommittee should support UN Women at 
$17 million in FY'22 in the IO&P account. Further robust funding should 
be made available to promote gender equality in U.S. government 
diplomatic and development efforts through programs promoting women's 
political leadership, implementation of a multiyear strategy to respond 
to gender-based violence, and supporting the execution and monitoring 
of the Women, Peace and Security Act.

    [This statement was submitted by Peter Yeo, President.]
                                 ______
                                 
             Prepared Statement of the Bread for the World
    Before I begin, I would like to thank Chairman Coons and Ranking 
Member Graham for your leadership on this subcommittee in championing 
poverty-focused programs. Amid the converging crises of COVID-19, 
climate change, and ongoing conflicts around the world, the work of 
this committee--at this moment--could not be more critical. Thank you 
for your leadership philosophy that emphasizes considering all who are 
affected, including people in the most vulnerable and at-risk 
communities.
    Members of the committee, thank you for this opportunity. I am Rev. 
Eugene Cho, President and CEO of Bread for the World. We are a 
grassroots collective Christian voice urging our nation's leaders to 
end hunger at home and abroad. Bread for the World is committed to 
promoting and supporting the dignity of those affected by extreme 
poverty, food insecurity, conflict, and marginalization around the 
world.
    On behalf of our network of 250,000 members, churches, and 
partners, thank you for your ongoing bipartisan support for robust 
funding levels of poverty-focused international affairs budget accounts 
over the last few years. We applaud the inclusion of funding for the 
international response to COVID-19 in both the FY 2021 Omnibus 
Appropriations bill and emergency COVID-19 legislation, as well as in 
the American Rescue Plan Act. As COVID-19 has exacerbated existing 
disparities around the world, adding significant international 
humanitarian, global health, and poverty-focused aid to our response 
means saving more lives.
    Over the last 30 years, we have seen incredible progress in 
reducing global hunger. In 1991, 25 percent of the world's population 
experienced hunger. That fell to just under 10 percent in 2019. This 
translates to more than 100 million people who did not suffer from 
hunger or malnutrition in 2019, but who would have 30 years before. 
Such an accomplishment would not have been possible without the U.S. 
government-and specifically this committee-investing in people around 
the world.
    But the challenges we now face threaten to reverse this hard-won 
progress.
    Before COVID-19 struck, more than 1 in 5 of the world's children 
younger than 5 suffered from stunting (i.e., being far too short for 
their age) because they were chronically malnourished. Nearly 7 percent 
of children worldwide were affected by wasting (severe acute 
malnutrition). The number of children affected by one or both of these 
forms of malnutrition are likely to not only have already increased 
significantly, but also to continue to rise today, because of the 
global pandemic. Public health measures, while necessary to slow 
transmission of the virus, imposed constraints on children's access to 
nutritious foods and essential nutrition services. It may be years 
before the full impact on children is known.
    If we genuinely want to eradicate poverty and malnutrition in all 
its forms once and for all, we must take immediate and courageous 
action to advance poverty-focused development assistance. Genesis 1:27 
reminds us, as people of faith, that every person is created in God's 
image and that God longs for every person to live a life of dignity and 
good health. As COVID-19 has exposed and exacerbated existing global 
inequalities, it is essential to respond by providing robust 
international humanitarian, global health, and poverty-focused 
assistance. This will save the lives of millions of people and help 
advance well=being.
    We urge increased investment in programs that respond to the urgent 
needs of our most vulnerable neighbors. As you move forward with the FY 
2022 appropriations process, we especially urge you to continue to fund 
critical hunger, malnutrition, and poverty-focused programs.
    All poverty-focused development and humanitarian assistance funding 
is crucial for achieving our shared global goals, including the 2030 
Sustainable Development Goals. For the greatest impact on ending 
hunger, Bread for the World urges Congress to prioritize funding in the 
following appropriation accounts:

  --$300 million for Nutrition in Global Health Programs at USAID. 
        These programs at USAID focus on evidence-based interventions 
        that affect the very foundations of children's survival and 
        their physical and cognitive development. The modest funding 
        increases of recent years simply do not begin to keep pace with 
        rising malnutrition, particularly since the COVID-19 pandemic 
        began.
  --$1.2 billion for Feed the Future. Feed the Future is the U.S. 
        government's primary global hunger and food security 
        initiative. With 12 target countries spanning the globe, Feed 
        the Future has helped more than 23 million people escape 
        poverty and more than 5 million families live free from hunger.
  --$46.8 million for the International Fund for Agricultural 
        Development. IFAD programs strengthen resilience, improve food 
        security, and help reduce poverty. Households reached by IFAD 
        have increased their agricultural production by 44 percent.
  --$5.27 billion for International Disaster Assistance. The 
        International Disaster Assistance account allocates 
        humanitarian assistance to countries experiencing the impact of 
        natural disasters, conflicts, and other crises, including 
        funding for treatment of acute malnutrition.
  --$1.43 billion for the International Development Association at the 
        World Bank. IDA is one of the largest sources of assistance for 
        the world's 74 lowest-income countries, and it has tripled its 
        financing for food security since 2008.
  --$224.2 million for the African Development Fund. In the last three 
        years, AfDF has increased financial support 17-fold to Africa's 
        least developed countries. In 2019, the African Development 
        Bank Group's Feed Africa initiative reached 20.3 million people 
        on the continent with agricultural programs.
  --$89.9 million for the Asian Development Fund. The AsDF provides 
        grants to the Asian Development Bank Group's 15 lower-income 
        member countries to help reduce poverty and improve quality of 
        life. Between 2017 and 2019, AsDF worked with more than 150,000 
        farmers to enable them to gain access to quality farm inputs.
  --$2 billion for the Green Climate Fund. GCF works in developing 
        countries to lower greenhouse gas emissions and build 
        resilience in the face of climate change impacts. This includes 
        support for smallholder farmers through climate-smart 
        agriculture. The fund has approved $8.4 billion for 173 
        projects in 190 countries.
  --$202.5 million for Sustainable Landscapes. Sustainable landscapes 
        programs at USAID use investments in forestry, agriculture, and 
        land usage to reduce greenhouse gas emissions while increasing 
        productivity and reducing rural poverty. Improving soil health, 
        which is crucial to food security and nutrition, is an example 
        of a sustainable landscape project.
  --$480 million for Biodiversity. Biodiversity programs help to 
        conserve ecosystems through activities such as protecting 
        watersheds and preserving tropical forests. USAID has helped 
        1.5 million people get jobs and improve their incomes through 
        natural resource management. Biodiversity is necessary for food 
        production; many crops and livestock that humans depend on for 
        food are threatened with extinction by decreasing biodiversity.
  --$158.92 million for the Global Environment Facility. GEF helps 
        communities begin to reverse environmental degradation that 
        threatens local livelihoods, including in agriculture and 
        fisheries. The Resilient Food Systems program has invested $1.2 
        billion in strengthening food security by improving the use and 
        management of 3.2 million hectares (8 million acres) of land.

    We also request that you fund these critical programs within the 
Agriculture Appropriations bill:

  --$2 billion for Food for Peace. The Food for Peace program at USAID 
        is the U.S. government's largest provider of overseas food 
        assistance. In the 50-plus years since it was established, Food 
        for Peace has directly benefited more than 3 billion people in 
        150 countries.
  --$264 million for McGovern-Dole, including $25 million for Local and 
        Regional Procurement. The McGovern-Dole International Food for 
        Education and Child Nutrition Program supports education, child 
        development, and food security in low-income countries. Since 
        2003, the program has provided school meals to more than 40 
        million children in 40 countries.

    Funding for these important appropriations accounts saves lives and 
enables children to thrive. Specifically, increasing the existing 
global nutrition account to $300 million would prevent stunting in more 
than 550,000 children, treat more than 3 million children with wasting 
(severe malnutrition), prevent anemia in up to 12 million new mothers, 
and ultimately save the lives of 160,000 children.
    In addition to the moral imperative to assist our neighbors, we 
know that this small investment of less than 1 percent of our federal 
budget provides a strong return on investment (ROI). Studies show that, 
for every dollar invested in nutrition, a country can generate a $16 
ROI as a result of lower healthcare costs and increased worker 
productivity. Nutrition programs help equip low-income countries for 
long-term economic success, reduce the risk of conflict, and promote 
longer-term health benefits for their populations.
    We also know that these types of foreign aid are popular with the 
American public. A 2017 poll by the University of Maryland Program for 
Public Consultation found that 8 in 10 respondents favored humanitarian 
assistance, and two-thirds of respondents favored aid that helps 
countries in need develop their economies, agreeing that this is in the 
economic interest of the United States.
    At Bread for the World, we believe God's love in Jesus Christ 
compels us to perform actions that show how we love our neighbors as 
ourselves. Whatever your personal and faith motivations, I hope that 
you continue to expand your legacy of promoting human rights, 
addressing the needs of the most vulnerable, partnering with countries 
for shared goals of prosperity, and investing in people around the 
world. Now more than ever, the world needs U.S. commitment to poverty- 
and nutrition-focused development.
    Thank you for your continued support. May God continue to bless 
your work.

    [This statement was submitted by Rev. Eugene Cho, President and 
CEO.]
                                 ______
                                 
             Prepared Statement of Catholic Relief Services
    Chairman Coons, Ranking Member Graham: On behalf of Catholic Relief 
Services (CRS), the international relief and development agency of the 
Catholic community in the U.S, I respectfully request that you increase 
poverty-reducing humanitarian and development assistance in Fiscal Year 
2022 (FY22) appropriations. To address unprecedented global challenges, 
we urge Congress to increase the international affairs budget to $71.6 
billion to allow for more poverty-reducing assistance. We urge you to 
prioritize the accounts below to at least the levels indicated.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Maternal and Child Health (USAID)...................         879,000,000
Nutrition (USAID)...................................         150,000,000
Vulnerable Children (USAID).........................          35,000,000
HIV/AIDS (USAID)....................................         330,000,000
Malaria (USAID).....................................         785,000,000
Tuberculosis (USAID)................................         325,000,000
Neglected Tropical Diseases (USAID).................         102,500,000
Global Health Security (USAID)......................         995,000,000
PEPFAR/Global Fund (DOS)............................       5,930,000,000
Development Assistance (USAID)......................       4,075,097,000
International Disaster Assistance (USAID/BHA).......       4,682,362,000
Migration and Refugee Assistance (DOS/PRM)..........       3,981,331,000
Emergency Refugee and Migration Assistance (DOS/PRM)           1,000,000
Complex Crises Fund (USAID).........................          60,000,000
Millennium Challenge Account (MCC)..................         912,000,000
Atrocities Prevention Board (DOS)...................           5,000,000
Contributions for International Peacekeeping               1,928,614,000
 Activities (DOS/IO)................................
Peacekeeping Operations (DOS/IO)....................         469,459,000
Green Climate Fund (Treasury).......................       1,250,000,000
U.S. Institute of Peace.............................          45,000,000
Anti-Trafficking in Persons (USAID and DOS).........          99,000,000
------------------------------------------------------------------------

    CRS works with 1,915 partners to serve more than 140 million people 
in 115 countries. Grounded in our belief in the dignity of every human 
person, we will continue to work until all of God's children can 
fulfill their human potential. Our work overseas is complemented by our 
movement building in the United States. We invite Catholics and people 
of good will to stand in solidarity with poor and vulnerable 
communities and to advocate in support of U.S. leadership around the 
world. Our experience affirms that the U.S. can play a constructive 
role in advancing peace, justice, and wellbeing. Numerous global 
challenges demand a strong U.S. response. U.S. leadership will be 
critical to end the COVID-19 pandemic and prepare for future health 
crises; care for our common home and address climate change; mitigate 
human suffering and address the root causes of instability; and 
strengthen local capacity to bring about transformational change.
          i. end covid-19 and prevent development backsliding
    Strong FY22 appropriations will be essential to help end the COVID-
19 pandemic, prepare for future health crises, prevent further 
development backsliding, and foster a sustainable recovery. The United 
States must lead a global effort to distribute vaccines equitably and 
efficiently. Manufacturing adequate supply, delivering vaccines from 
ports into peoples' arms, and overcoming vaccine hesitancy within 
communities will be significant challenges. We recognize the generous 
appropriation Congress allocated to GAVI last year. To help overcome 
vaccine hesitancy, we urge the Committee to recommend utilizing faith-
based organizations and faith leaders to disseminate positive messaging 
for vaccine acceptance and to counter mis-and dis-information. Faith-
based organizations and faith leaders have a rich history of responding 
to health crises, including well documented successes such as promoting 
vaccinations against Polio in Nigeria in the early 2000s. To help 
prepare for future health crises, Congress must continue to support 
strengthening health systems, including programs that treat, prevent, 
and control malaria and fight HIV and AIDS. Lastly, the Committee must 
prevent development backsliding and foster a sustainable and inclusive 
recovery. The World Bank estimates that the health, economic, and 
social impacts of COVID-19 will increase the number of those living in 
poverty between 143 and 163 million people in 2021. Food insecurity and 
malnutrition, displacement, and gender-based violence are all on the 
rise. Educational achievement is falling. We also urge attention to the 
disturbing increase of violence against children due to the pandemic 
and urge increased attention to child protection and support for 
vulnerable families.
    We appreciate recent increases to health, development, and 
humanitarian accounts as well as supplemental resources to prevent, 
prepare for, and respond to COVID-19. To achieve long-term human 
development goals, we need to do more. We strongly recommend Congress 
increase appropriations to life-saving Global Health accounts, 
Development Assistance, and Economic Support Funds that achieve the 
goals of poverty reduction and integral human development.
        ii. care for our common home and address climate change
    The health and wellbeing of each person will also depend on how we 
care for the environment and our common home. CRS is committed to 
ensuring all people achieve dignified and resilient livelihoods in 
flourishing landscapes. Everywhere we work, communities tell us that 
the climate is changing and that storms are more intense. Urgent action 
is needed to help communities adapt to stronger and more regular 
climate events that disproportionately impact and displace poor and 
vulnerable communities. Therefore, Congress must increase investments 
in the Green Climate Fund and other multilateral and bilateral 
development accounts that support adaptation, clean energy, and 
sustainable landscapes alongside agriculture and WASH.
    Investments in disaster risk reduction, land restoration, and water 
and climate-smart agriculture can make a measurable difference in the 
lives of those most impacted by climate change. Our experience informs 
this position. In Sierra Leone, CRS helped improve water security in 
urban Freetown by increasing the capacity of watershed management 
structures; utilizing natural infrastructure and climate change 
adaptation strategies to reduce storm water runoff; and establishing 
the business case for a Western Area Peninsula Water Fund, which will 
serve as a governance and financing mechanism for nature- and 
community-based water catchment conservation and development. In 
Lesotho, CRS helps communities to better manage their water and soil, 
revitalizing farmland pastureland, preventing erosion, and restoring 
ground water and springs. Keeping soil healthy can also mitigate 
climate change by sequestering carbon in soils at the same time as it 
supports increases in crop production. And in Ethiopia, CRS trains 
farmers and producers in food storage and preservation to minimize crop 
losses, and water harvesting techniques to increase water availability 
for crops and livestock. In addition to increased funding, we urge the 
Committee to engage with USAID as they renew a climate change strategy. 
The Committee should encourage the agency to expand restoration efforts 
to include revitalizing ecosystems across multiple landscapes, 
including agriculture lands; to support just solutions for those 
communities most impacted by climate change; and to integrate 
peacebuilding into natural resource management and land tenure issues.
 iii. end human suffering and address the root causes of conflict and 
                              instability
    Conflict and instability remain the largest driver of forced 
displacement and create the greatest need for humanitarian aid. More 
than 80 million people are displaced from their homes, and an estimated 
272 million people are at risk of becoming severely food insecure by 
the end of 2021. The United States has been a global leader in 
providing lifesaving humanitarian assistance and protection to people 
in need, but we must do more to end human suffering, foster peace, and 
address the root causes of conflict and instability.
    The Horn of Africa continues to face the desert locust reinvasion, 
increased droughts and floods, political crises, and ongoing conflict. 
COVID-19 and violence have also increased vulnerability and insecurity 
in the West Bank and Gaza. Political and economic instability in 
Venezuela have led more than 5 million people to flee. To respond to 
these and other humanitarian crises, the Committee should urge the 
Administration to depoliticize humanitarian aid and improve 
humanitarian access. The Committee should also increase allocations to 
International Disaster Assistance, Migration and Refugee Assistance, 
and Emergency Refugee and Migration Assistance. We recognize that these 
social, economic, and political crises require more than humanitarian 
aid. We must leverage diplomatic and peacebuilding tools to prevent 
conflict and promote good governance. Congress must increase 
investments in the Complex Crisis Fund and provide strong funding for 
peacekeeping, atrocities prevention, and the U.S. Institute of Peace.
    Moreover, Congress must increase resources to Development 
Assistance and direct Economic Support Funds to address the root causes 
of human suffering that contribute to forced displacement. For example, 
our brothers and sisters in El Salvador, Guatemala, and Honduras face 
numerous challenges to survive and thrive in their home communities. 
Evidence generated from CRS programs and a recent CRS migration study 
demonstrate that poverty-reducing development assistance addresses the 
push factors of migration and promotes rootedness in communities. As 
the Committee works with the Administration to address the root causes 
of migration from Central America, we urge it to prioritize programs 
that (1) grow formal job opportunities and support job-relevant 
education and training; (2) create more equitable decision-making 
spaces between women and men; (3) improve climate adapted agricultural 
practices; and (4) target vulnerable families and marginalized 
populations, including women, indigenous communities, and youth.
       iv. strengthen local capacity and empower local leadership
    Ending COVID-19, caring for our common home, and addressing 
conflict and instability will not be sustained without strengthened 
local capacity and empowered local leadership. Local actors and the 
international aid community are demanding locally owned and led 
humanitarian and development assistance, which when done well produces 
more effective and sustainable results. For CRS, local leadership 
extends beyond direct or prime funding to sharing capacity and shifting 
power dynamics. From 2016-2018, CRS implemented the Preparing to Excel 
in Emergency Response (PEER) project, a privately funded program aimed 
to strengthen the emergency response capacity of local faith 
organizations in India, Indonesia, Jordan, and Lebanon. In 2020, as 
these organizations rushed to serve millions of people in response to 
COVID-19, CRS conducted a study to understand if capacity strengthening 
investments made during PEER were sustained and utilized during COVID-
19 response. All 22 partners interviewed for this study felt their 
organization applied lessons learned from participating in PEER and 
were working with improved systems, which enabled a more effective 
emergency response. These findings illustrate how local actors can lead 
critical emergency response efforts and provide examples of how 
investments made in their capacity can advance localization of 
humanitarian response.
    Bipartisan momentum exists to advance local leadership. From the 
Bush Administration's implementation of PEPFAR to the Obama 
Administration's USAID Forward and from the Trump Administration's 
Journey to Self-Reliance to the multilateral Grand Bargain, bipartisan 
initiatives have highlighted the importance of local leadership. While 
some components of these initiatives have been more successful than 
others, none have been able to shift prioritization adequately and 
systemically. We urge the Committee to recognize that local and 
national nongovernmental leadership is critical for effective and 
sustainable assistance. Further, we urge the Committee to direct the 
USAID Administrator to prioritize making funds available to local and 
national nongovernmental entities and invest in holistic capacity 
strengthening for local leadership and sustainable self-reliance. We 
also urge more transparency on how and where funds are made available 
to local entities.
                      v. aspire for greater change
    In Pope Francis' recent Encyclical, Fratelli Tutti, he wrote, 
``What we need in fact are states and civil institutions that are 
present and active, that look beyond the free and efficient working of 
certain economic, political or ideological systems, and are primarily 
concerned with individuals and the common good.'' We applaud Congress 
for their strong bipartisan support for the above accounts, but the 
human needs call us to forge a deeper commitment to increase resources 
and strengthen tools that can tackle the urgent crises of our times and 
allow every person to reach their God-given human potential. We urge 
the Committee to work with the Administration to commit to doubling 
international poverty-reducing humanitarian and development assistance 
by 2025.
    While we continue to aspire for transformational change, we have 
grave concerns about providing taxpayer funding for activities 
inconsistent with the Catholic faith and basic human rights. Therefore, 
we strongly urge Congress to maintain the Helms Amendment in FY22. 
Moreover, efforts to integrate areas of programs that not all agree are 
morally acceptable is not in the best interest of the U.S. as it is 
important to preserve a diversity of providers that have strong 
legitimacy and credibility with local partners. Chairman Coons, Ranking 
Member Graham, thank you again for your leadership. We look forward to 
working with you to be more present and active forces for the common 
good.

    [This statement was submitted by Sean Callahan, President and CEO.]
                                 ______
                                 
Prepared Statement of the Committee on International Justice and Peace 
          United States Conference of Catholic Bishops (USCCB)
    On behalf of the Committee on International Justice and Peace of 
the United States Conference of Catholic Bishops (USCCB), I thank the 
Subcommittee on State, Foreign Operations, and Related Programs for 
this opportunity to submit testimony on appropriations for FY 2022. 
Together with Catholic Relief Services, our overseas relief and 
development agency, we urge you to increase funding for the 
international poverty-reducing humanitarian, development, and 
peacebuilding accounts specified in the table below.

 
------------------------------------------------------------------------
                                      Appropriations
              Agency                     Account         Amount in $,000
------------------------------------------------------------------------
USAID............................  Maternal Health and          $879,000
                                    Child Survival.
USAID............................  Nutrition..........          $150,000
USAID............................  Vulnerable Children           $35,000
                                    (orphans and
                                    displaced).
USAID............................  HIV/AIDS (USAID              $330,000
                                    Programs).
USAID............................  Malaria, TB, Global        $2,207,500
                                    Health Security &
                                    other NTDs.
DOS/PEPFAR.......................  HIV/AIDS (State            $5,930,000
                                    Funding/PEPFAR).
USAID............................  Development                $4,075,097
                                    Assistance
                                    (including water,
                                    education).
USAID/OFDA.......................  International              $4,682,362
                                    Disaster
                                    Assistance.
DOS/PRM..........................  Migration and              $3,981,331
                                    Refugee Assistance.
DOS/PRM..........................  Emergency Refugee               $1000
                                    and Migration
                                    Assistance.
USAID............................  Complex Crises Fund           $65,000
                                    and Atrocities
                                    Prevention Board.
MCC..............................  Millennium                   $912,000
                                    Challenge
                                    Corporation.
DOS/IO...........................  Contributions to           $1,928,614
                                    International
                                    Peacekeeping
                                    Activities.
DOS/IO...........................  Peacekeeping                 $469,459
                                    Operations and
                                    Peace.
DOS/IO...........................  U.S. Institute of             $45,000
                                    Peace.
DOS/IO...........................  Green Climate Fund.       $1,2500,000
DOS/IO...........................  Combatting                    $99,000
                                    Trafficking in
                                    Persons.
------------------------------------------------------------------------

    In his 2020 encyclical on fraternity and social friendship, 
Fratelli Tutti, Pope Francis teaches, ``The decision to include or 
exclude those lying wounded along the roadside can serve as a criterion 
for judging every economic, political, social and religious project. 
Each day we have to decide whether to be Good Samaritans or indifferent 
bystanders . . . .'' (#69). Such aid is proof of our nation's 
compassion and gives life to our values as a nation and as a world 
leader.
    Our assistance cannot stop there. Pope Francis stated in his 2013 
apostolic exhortation, Evangelii Gaudium (Joy of the Gospel), ``The 
need to resolve the structural causes of poverty cannot be delayed . . 
. Inequality is the root of social ills'' (#202). He adds that the 
growing inequality in the world ``eventually engenders a violence which 
recourse to arms cannot and never will be able to resolve'' (#60).
    At a time when the United States continues in its response to the 
COVID-19 pandemic, it is important that we show our compassion to a 
world struggling to survive this pandemic, conflict, hunger, and 
massive displacement. We would like to offer our strategic 
recommendations on how the United States can rebalance and refocus its 
international assistance to better align with the problems and threats 
that our world faces. As the pandemic continues with no end in sight, 
we strongly urge the United States to:
1. Global Servant Leadership to a World Confronting Existential Global 
        Threats
    The COVID-19 pandemic is the latest human-made global issue in what 
some researchers have called the `Anthropocene' where human activity is 
now the dominant force affecting our entire planet. Our place in the 
world demands enlightened global unifying leadership to resolve 
conflict and promote the common good of humanity. Issues like climate 
change; sea and air pollution; disappearing flora and fauna; COVID-19 
and future pandemics; conflict; cyber security; autonomous weapons; 
migration and refugees; and trafficking of people, arms, and drugs 
threaten all of humanity.
    The U.S. should lead the United Nations Security Council and the G-
20 towards solutions. The State Department will need increased 
resources and skilled statesmen to do this. USAID will need greater 
resources from Treasury in the Green Climate Fund to help low-income 
countries adapt to and mitigate the effects of climate change. The 
United States will also need to invest more in global health programs 
to deal with future pandemics and provide funding to manage the cross-
border migration of people and trafficking of illicit goods.
    Although the United States and China have serious disagreements 
over international treaties, democratic norms, and China's threats to 
neighboring countries, the United States will need to find ways to 
challenge China where we must on issues of human rights and justice, 
but also push towards cooperation where needed to protect humanity from 
the serious threats above.
2. Move Towards a More Just Balance Between Defense, Diplomacy, and 
        Development
    After 20 years of war in Afghanistan and 18 in Iraq the U.S. has 
moved from endless war towards dialogue and negotiations that will 
allow stakeholders in both conflicts to determine their own future. The 
only pathway to guarantee peace and prosperity in Afghanistan and Iraq 
and eventually in Syria and Yemen must come from sustained, open, and 
inclusive dialogue and negotiations between legitimate political 
leaders from all sides of the conflicts in these countries. As a party 
to these conflicts, the United States needs to shift significant 
resources to its diplomats, regional strategists, and civil society 
builders to facilitate and support these negotiations. Leaders and 
stakeholders must come to realize that a just peace can only come from 
a new shared social contract that creates a legitimate, democratic, 
accountable government, public administration, military, and police; 
and promotes a free and vibrant populace living in a society that 
guarantees their full civil and human rights.
    Despite this, State Department's budget is historically low in 
comparison to that of defense. In 1950, State's budget was around half 
the size of defense. Today State receives only 10% of what the Defense 
Department is allocated. Since 9/11 most of the increases to State's 
budget went to improve physical security at overseas posts. Recently, 
many observers argued that the State Department's role, its staff, and 
resources have been diminished, leaving many seasoned diplomats 
disempowered while others have left. One plan taking shape in the 
Senate is to increase funding to State Department by $12 billion, or a 
21% increase.
    James Stavridis, a retired U.S. Navy admiral and former NATO 
supreme commander, argues that the United States urgently needs to 
deploy skilled diplomats, thinkers, and strategists who can imagine the 
future of conflict and reverse engineer its causes to avoid it. He 
quotes Sun Tsu, ``The greatest victory is that which requires no 
battle.'' The Church has understood this imperative for years. In 
Fratelli Tutti Pope Francis says, `` . . . it is very difficult 
nowadays to invoke the rational criteria elaborated in earlier 
centuries to speak of the possibility of a ``just war''. Never again 
war!'' (#258).
3. Address State Fragility and Conflict in the Most Vulnerable 
        Countries
    After the 9/11 attacks our Bishops' conference warned, ``Our nation 
must join with others in addressing policies and problems that provide 
fertile ground in which terrorism can thrive.'' We urge our political 
leaders to look beyond a focus on counterterrorism to address the 
poverty and powerlessness that make some people easy recruits for 
violence and terror.
    Over the last few years, the U.S. Congress and successive 
Administrations have passed the Elie Wiesel Global Atrocities 
Prevention Act. It affirmed the Atrocities Prevention Board (now called 
the Atrocities Early Warning Task Force) efforts to coordinate all 
relevant Federal Government agencies to address fragility and prevent 
conflict. The Obama Administration created the Complex Crisis Fund to 
finance short term efforts to head off conflict before it breaks out. 
The U.S. Bishops also supported the Global Fragility and Violence 
Reduction Act passed in December 2019 to develop and adopt best 
practices and strategies in six pilot countries. These bills elevated 
the mandate for U.S. policy to strengthen fragile states-to help them 
build resilience against the alarming growth of violent extremism, 
rebel insurgencies, social violence, and repression in their own 
societies.
    The bills were designed to prioritize non `strategic' countries 
like Somalia, Nigeria, Mali, Burkina Faso, Niger and, Mozambique where 
terrorist groups have found ungoverned spaces to set up shop. Of the 30 
most fragile countries in the 2020 Fragile State Index created by the 
Fund for Peace, 20 are in Africa. Of the 54 conflicts in the world, the 
2019 Upsala Conflict Data Program estimates that 25 are in Africa. If 
Africa is the center of conflict in the world, it is also ground zero 
in terms of extreme poverty. The Brookings Institution estimates that 
by 2030 31 countries will be home to 80% of people living in extreme 
poverty. Africa now accounts for 66% of the world's extreme poor and 
could reach 90% by 2030. (WB-9 Oct 2020)
    In these countries, the presence of terror groups is really the 
last symptom of a massive failure of the state to govern with justice 
towards the common good, allowing a fragile state to become a failed 
state. Concentrating only on armed responses to the terrorist presence 
in such a country is equivalent to giving an aspirin to treat the 
headache of a man dying of malaria.
    Fragility and conflict also exist in the absence of terrorists in 
the Central African Republic, Cameroon, South Sudan, and Burundi where 
local insurgents operate causing enormous suffering. Here conflict is 
the result of poor governance, group grievances, mismanagement of 
latent conflict, repression, human rights violations, and crushing 
poverty. In still other countries such as Rwanda, Uganda, Chad, Togo, 
Congo, Brazzaville, and Zimbabwe, people live under conditions of 
repression and corruption where the seeds of violence have been 
planted, but violent conflict is still latent. In these countries 
conflict prevention is urgent if people are to escape the ravages of 
violence. In addition, we are deeply concerned about the early warning 
signs of new violence resulting from the impacts of the COVID-19 
pandemic. Already data modeling show that as a result of the pandemic, 
13 more countries will likely experience conflict over the next two 
years, nearly doubling the pre-pandemic prediction.
    While fragile countries in Africa currently account for two thirds 
of the world's people living in extreme poverty and the world's 
conflicts, they receive less than one quarter of total programmable aid 
from the Organization for Economic Cooperation and Development 
countries. We urge Congress and the Administration to focus on and 
invest more State and USAID resources in reducing fragility and 
preventing violent conflict in the most vulnerable countries in our 
world. The U.S. should increase the capacity of the State Department 
Bureau of Conflict and Stabilization Operations, expanding their 
peacebuilding, reconciliation and social cohesion efforts and 
integrating them into humanitarian and development programs; increase 
funding to the Atrocities Prevention Fund; and allocate $200 million 
for the Prevention and Stabilization Fund.
4. Place a Greater Priority on Empowering Civil Society and Faith-Based 
        Groups
    One commonality in all fragile countries is the economic and 
political dominance of government institutions and private, for-profit 
corporations, while a vast and varied array of private, independent 
civil society associations struggle to protect civil rights, fight 
corruption, and promote free and fair elections and justice.
    Often faith-based institutions are some of the few civil society 
institutions remaining with enough credibility, authority, and 
institutional cohesiveness to stand up to corrupt and repressive 
governments. Across Africa, Latin America, the Middle East, and Asia, 
the Catholic Church, along with other Christian and Muslim 
denominations have echoed the prophets of old and denounced modern-day 
corruption, repression, defrauded elections, state violence and 
insurgencies, often at the risk of their own personal and institutional 
peril. They have organized peace and justice institutions, electoral 
monitoring teams, political mediation efforts, and negotiations between 
armed groups and the government. Their efforts are courageous, but 
often too small and underfunded. Peacebuilding experts know it requires 
a generation or more to transform conflict. We urge you to make a 
generational commitment to greatly increase funding to local civil 
society organizations' efforts to defend the human and civil rights of 
people struggling to survive repression and violence. This funding must 
be long-term, flexible, and nimble while ensuring accountability and 
impact. This can be done through three-way strategic partnerships 
between USAID, American civil society institutions like Catholic Relief 
Services, and their local civil society and faith-based partners.
    In closing we must also be clear that the U.S. Bishops strongly 
opposes any expansion of taxpayer funding of abortion as part of this 
appropriations legislation. The longstanding, bipartisan, and life-
saving Helms Amendment policy must be included before this bill moves 
forward. Legislation that fails to include this longstanding bipartisan 
policy directly threatens human life and dignity and should be opposed 
until this fundamental problem is remedied.
    [This statement was submitted by Bishop David J. Malloy, Chairman.]
                                 ______
                                 
                 Prepared Statement of Edesia Nutrition
    Edesia appreciates the opportunity to submit testimony to the 
Senate Appropriations Subcommittee on State, Foreign Operations, and 
Related Programs. Since 2010, Edesia has worked in partnership with the 
U.S. government to promote life-saving interventions for beneficiaries 
and greater global stability and national security for Americans by 
supplying evidence-based nutritional support to vulnerable children 
worldwide. We request that the Subcommittee fund International Disaster 
Assistance (IDA) at a level of $5.27 billion, and the Nutrition in 
Global Health at a level of $300 million.
    The IDA account provides critical food, shelter, and medical 
assistance to those facing humanitarian crises, both natural and 
manmade. A portion of IDA funds go toward Emergency Food Security 
Programming Nutrition (Title III) in the Global Health Account support 
technical assistance to introduce and increase nutrition activities in 
priority USAID countries, including nutrition education and delivery of 
services such as micronutrient supplementation. Funds for these 
programs support the critical work of the private and non-profit sector 
alike to further America's mission of peace and security aboard. As the 
world faces unprecedented challenges brought on by the Coronavirus 
pandemic, including food supply chain and market disruption, it is 
imperative that these accounts are fully supported by Congress to help 
the most vulnerable populations.
    As of April 2021, the World Food Program (WFP) estimates that 296 
million people in the 35 countries where it works are without 
sufficient food-111 million more people than in April 2020. In addition 
to tackling the Coronavirus, the world is currently in the midst of 
several humanitarian disasters--both conflict and climate-related--that 
have exacerbated malnutrition. In 2019, 77 million people in 22 
countries experienced hunger due to armed violence and insecurity. 
South Sudan, Nigeria, Yemen, and Somalia are experiencing extreme need, 
intensified by conflict. For the fourth year in a row, gains against 
hunger and malnutrition have stalled. Extreme climatic events drove 
almost 34 million people into food crisis in 25 countries in 2019, 77 
percent of them in Africa. The number of people pushed into food crisis 
by economic shocks more than doubled because of the Coronavirus 
pandemic. Unless action is taken, these numbers will only worsen as an 
estimated 33 percent of global soils have degraded endangering food 
productions and forecasters are predicting a 55 percent change in 
climate conditions this year due to La Nina affecting crop yields.
    Continued financial support of food aid and humanitarian assistance 
leadership from the United States is needed now more than ever. 
Humanitarian aid is life-changing for recipients, and provides benefits 
to citizens of the United States, by creating both jobs and economic 
opportunities in agriculture and manufacturing, future trading partners 
abroad, and improved worldwide security.
    While serving those in need globally, current food assistance 
programs simultaneously provide benefits for Edesia in Rhode Island, as 
well as our suppliers from other states (including Iowa, Wisconsin, New 
York, Georgia, North Carolina). Edesia is a Rhode Island-based non-
profit manufacturer of high quality, peanut-based ready-to-use 
therapeutic and supplementary foods that are used to treat malnutrition 
in children around the globe. Through innovative manufacturing, we have 
reached over 14 million children in 55 countries with our products 
since 2010. This includes over 50,000 metric tons of Ready-to-Use Food 
products (RUTF and RUSF) made from U.S. agricultural goods for programs 
supported by the USAID and the USDA--equivalent to providing over 6 
million acutely malnourished children with lifesaving treatments. We 
are proud of the part we play in helping to save the lives of children 
around the world--children who would not be reached without the 
generosity of the American people and the hard work of USAID, USDA and 
the United States' Congress. Saving these lives also helps to build 
safer world--healthy children have the ability to grow and reach their 
full potential.
    As an American manufacturing company, we recognize the important 
part that U.S.-manufactured in-kind food assistance plays around the 
world. Our partnerships with the U.S. government not only allow us to 
reach children in need, but also allow us to create economic growth at 
home. Since our opening in 2010, we have gone from a company of 20, to 
today having a team of over 100. In 2016, we expanded into a new 83,000 
square foot facility that can produce over 20,000 MT of nutrient-dense 
food aid products per year, made from high-quality, U.S.-sourced 
ingredients (e.g., peanuts, soy, dairy, sugar) that support U.S. 
farmers, U.S. transportation companies and the U.S. economy. Annually, 
we purchase over $30 million of high-quality, U.S. sourced raw 
materials. Our country's lifesaving assistance abroad allows us to 
create opportunities here at home.
    Edesia is an industry leader in innovation and has been a critical 
partner of the U.S. government to ensure that United States remains a 
leader in fighting world hunger. Our work supports the second UN 
Sustainable Development Goal (SDG) of ``Zero Hunger'' with a target of 
ending all forms of malnutrition by 2030. An emphasis on nutrition 
security and aid that is fit-for-purpose, such as specialty nutritional 
products for treating and preventing malnutrition, will be increasingly 
important in order to reach the SDG goals for 2030.
    Thank you for providing Edesia the opportunity to submit testimony. 
As funding for international food aid programs are reviewed by your 
Subcommittee, we hope you will use us as a resource; we are highly 
experienced in the area of specialized food aid, and as a non-profit 
business, we understand the economics while also remaining committed to 
the goals. Please do not hesitate to contact us if the Subcommittee has 
any questions or would like further information.

    [This statement was submitted by Navyn Salem, Founder & CEO, and 
Maria Kasparian, Executive Director.]
                                 ______
                                 
  Prepared Statement of the Elizabeth Glaser Pediatric AIDS Foundation
    Chairman Coons, Ranking Member Graham, and distinguished Members of 
the Subcommittee, thank you for the opportunity to submit testimony in 
strong support of the foreign affairs budget, in particular the 
President's Emergency Plan for AIDS Relief (PEPFAR) and the 
international organizations and partners critical to its success.
    My name is Charles Lyons, and I am the President and CEO of the 
Elizabeth Glaser Pediatric AIDS Foundation (EGPAF). Founded over 30 
years ago through a mother's determination, EGPAF is committed to a 
comprehensive response to the global fight to end HIV and AIDS through 
research, global advocacy, strengthening of local health care systems, 
and growing the capacity of governments and communities in the world's 
most affected regions to respond to urgent needs. I am proud to be 
leading a mission-driven organization, working closely with families, 
communities, countries, and donors fighting for an AIDS-free 
generation. I am asking you today to not only continue robust funding 
to end the global HIV/AIDS epidemic, but also to ensure that children 
are at the forefront of the U.S. global AIDS response. Additionally, I 
ask that U.S. global health investments are leveraged to address the 
COVID-19 pandemic and set countries on the right path for long term 
success and sustainability.
    This June, we marked the 40th anniversary of AIDS.\i\ This is a 
particularly meaningful anniversary for EGPAF, as it has also been 40 
years since Elizabeth Glaser became HIV-positive and unknowingly passed 
HIV to her daughter, Ariel. At EGPAF, we work to keep Elizabeth and 
Ariel's spirits alive through our efforts to reach women, children, and 
families affected by HIV around the world.
    Much has changed over the last 40 years. When AIDS was first 
documented in 1981, children were not even part of the conversation, 
and the epidemic would go on to ravage African countries and 
communities for almost another two decades before the U.S. interceded. 
However, we did know something 40 years ago that remains extremely 
relevant today: the global movement to end AIDS can and will evolve, 
innovate, leverage, and grow in order to meet any obstacle keeping us 
from realizing the end of AIDS. Now as the U.S. and the world work to 
address the advent of a new epidemic, we know that the unprecedented 
and sustained bipartisan support that has driven progress against HIV 
will be needed to win the fight against the coronavirus but also the 
new challenges created by the convergence of HIV and COVID-19.
    As a long-time PEPFAR implementing partner, EGPAF has not just 
watched the progression of the global AIDS response, we have evolved in 
tandem. Since we began working internationally, in collaboration with 
PEPFAR and other partners, EGPAF has reached over 32 million pregnant 
women worldwide with services to prevent transmission of HIV to their 
babies, including nearly 88,000 in the last year. Over the last twenty 
years, we have averted nearly 400,000 new infections in children. EGPAF 
is currently supporting more than 1.8 million men, women, and children 
on treatment, including nearly 90,000 children, so they can live long, 
healthy, and productive lives.\ii\
    Since our inception in 1988, there has been a 95 percent decline in 
new pediatric HIV infections in the United States.\iii\ Globally, new 
pediatric infections have been reduced by more than half since the year 
2000.\iv\ This year, the 3 millionth infection will be averted in 
children due to support from the PEPFAR program.\v\ However, progress 
reaching pregnant and breastfeeding women has stalled, and our efforts 
need increased focused attention.
    While nearly four decades have past since Elizabeth fought for 
Ariel to have access to the same HIV medicines as adults, still only 
slightly more than half of children living with HIV are on the 
treatment they need to survive and thrive. This is especially 
concerning due to the rapid progression of the disease in children. 
Without treatment, 50 percent of children living with HIV will die by 
the age of two and 80 percent will die by the age of five.\vi\ This 
inequity is only increasing, with the gap between adult and pediatric 
treatment coverage rates growing each year.\vii\ The lag is so severe 
that while children only make up 5 percent of all HIV infections, they 
represent 14 percent of AIDS-related deaths.\viii\
    These 2019 statistics are all the more worrying, as they do not 
represent the impacts of COVID-19 related disruptions. Countries are 
reporting decreases of 25 percent or more in prevention of mother to 
child transmission (PMTCT) services, including HIV testing and 
treatment initiation of pregnant women.\ix\ Nearly 12 million women 
across 115 countries have lost access to family planning and unintended 
pregnancies have risen--which is correlated to increases in HIV 
infections in pregnant women and transmissions to children.\x\ In a 
majority of priority countries, pediatric and adolescent treatment has 
dropped over the last year, with one third of countries reporting a 
decrease of greater than 10 percent.\xi\ These HIV service disruptions 
illustrate that the lasting impacts of COVID-19 will be felt for years 
to come, especially for children. This is the first time in 
approximately 20 years where there could actually be an increase in new 
HIV infections and AIDS related deaths in children.\xii\
    Ten years ago, we were anticipating an ``AIDS-free generation'', 
today we are working to keep progress from slipping away. Children were 
absent from the most recent PEPFAR strategy--it would be unconscionable 
if the next five years of the PEPFAR program does not prioritize ending 
AIDS for all people, not just the easiest to reach adults.\xiii\ We 
respectfully ask you to use your considerable influence to express to 
the Office of the Global AIDS Coordinator that Congress insists 
children are prioritized within the PEPFAR program.
    The COVID-19 pandemic has substantially affected how we reach 
people at risk for and living with HIV, especially pregnant women and 
children who need additional interactions with the health system. As 
African countries have cycled through lockdowns, the ability of our 
programs to provide in-person, face-to-face, patient-centered care has 
ebbed and flowed, and like many of the partners working in communities 
impacted by HIV and COVID-19, we have had to constantly adapt to 
determine the best practices to meet the challenges of any particular 
day.
    In many ways, responding to COVID-19 felt like returning to the 
start of the HIV epidemic--trying to understand the best way to reach 
patients with minimal information, but a lot of determination. One key 
difference, however, is that now we have significantly more tools in 
our response tool box, thanks to the long-term U.S. investments in 
health systems through PEPFAR and other global health programs. These 
critical investments have trained and supported hundreds of thousands 
of healthcare workers, built a complex laboratory infrastructure, and 
most importantly, established deep ties to the community.
    Because EGPAF's global footprint spans 17 countries, we were able 
to quickly share information and best practices across country programs 
and could troubleshoot difficulties as they arose. Some adaptations 
included quickly scaling up multi-month dispensing of antiretroviral 
therapy to ensure HIV clients could reduce visits to crowded health 
facilities, moving the dispensing of ART and other commodities from 
clinics to communities, and establishing text or phone-based counseling 
and support services, including important adherence support for 
adolescents most at risk of falling out of treatment.
    However, our programs cannot be successful if the system in which 
we are working collapses. Through our experience, we know that 
frontline healthcare workers form the foundation of any health system 
and have faced innumerable challenges over the past year. In order to 
bolster healthcare workers, EGPAF supported ministries of health across 
multiple countries to provide psychosocial support for frontline 
workers. Additionally, we were able to communicate across our country 
programs and with USAID, CDC and the Office of the Global AIDS 
Coordinator to ensure challenges and lessons we were learning to assist 
workers and deliver services were shared expediently.
    These agile programmatic shifts meant early dire predictions of the 
impact of COVID-19 on the HIV epidemic have not been fully realized, 
but adjustments came at a cost.\xiv\ Modifications to keep healthcare 
workers and clients safe are often more expensive and left gaping holes 
in programming, most notably for prevention services which have been 
dramatically reduced. As vaccines begin to slowly roll out in the 
communities where we work, there will need to be a recovery agenda to 
regain the progress we have lost.
    The word often used to describe PEPFAR's response to COVID-19 is 
``resilience.'' While HIV and related services are still significantly 
impacted each day, the strong footprint of the program ensures that the 
global HIV response has not broken down. Instead, the program's 
investments form a key component of the global COVID response, 
especially in countries deeply affected by HIV. As an organization who 
takes our responsibility to steward tax dollars very seriously, we feel 
it would be unfortunate if the two decades of global AIDS investments 
and assets were not capitalized for the COVID-19 response, while 
concurrently accelerating HIV programming. The fact of the matter is, 
HIV programming cannot ignore the other global pandemic in our midst, 
and both responses much be intertwined. By leveraging the PEPFAR 
platform, the U.S. government can ensure global health dollars are 
being efficiently used to accelerate vaccine distribution and begin the 
global recovery.
    The last year of the PEPFAR program has been marked by resilience, 
but its future should not just be based on its ability to withstand 
tremendous pressure. Rather, we must ensure PEPFAR is properly 
resourced to finish the job that a bipartisan Congress and Presidential 
Administrations have supported for 18 years--ending AIDS. The PEPFAR 
program has been essentially flat funded for 10 years. Innovations and 
efficiencies have led to growth of the program, but increased resources 
are necessary as the program responds to COVID-19, charts a recovery 
agenda, and accelerates towards HIV goals and targets. A recent UNAIDS 
analysis shows that money invested in the fight against HIV is money 
well spent--each additional US$1 invested in the HIV responses of low- 
and middle-income countries will yield a return of more than US$7 in 
health benefits.\xv\ Furthermore, additional funds are essential for 
addressing the widening gap between pediatric and adult HIV outcomes. I 
ask today that you remember the vision Congress had those years ago at 
PEPFAR's inception and increase funding for the PEPFAR program.
    I want to also express support for our global partners--the Global 
Fund to Fight AIDS, Tuberculosis and Malaria, the World Health 
Organization (WHO), the Joint United Nations Programme on HIV and AIDS 
(UNAIDS) and the United Nations Children's Fund (UNICEF). I am very 
concerned about proposals to reduce or eliminate funding to these 
organizations. PEPFAR's success is due in large part to the 
collaboration of countries, communities, related U.S. supported 
programming, and international partners. The prospect of ending AIDS in 
children will be jeopardized without their programming, expertise and 
commitment.
    2020 and 2021 have felt like years characterized by numbers--days 
in lockdown, COVID-19 cases and deaths, vaccines administered. We see 
the same tendency in the HIV epidemic, the urge to condense complex 
epidemics into discrete data points that are easier to grapple with and 
absorb. But it is vital to remember that each of those numbers 
represents an individual, a person with a family whose life matters. 
People like Yasinta, a Masai woman living in Tanzania who was recently 
diagnosed with HIV. After a PEPFAR-supported community health worker 
reached her at her home, administered an HIV test and enrolled her on 
treatment, her health began to rapidly improve. And as Yasinta said, 
``This program gave me a second chance.'' \xvi\
---------------------------------------------------------------------------
    \i\ CDC, Morbidity and Mortality Weekly Report, Pneumocystic 
Pneumonia--Los Angeles. June 5, 1981.
    \ii\ EGPAF Global Data Dashboard.
    \iii\ CDC, HIV Surveillance Report. Diagnoses of HIV Infection in 
the United States and Dependent Areas, 2019. May 2021.
    \iv\ Start Free Stay Free AIDS Free-2020 report.
    \v\ PEPFAR, Latest Global Results. January 20, 2021.
    \vi\ UNICEF, Women: At the Heart of the HIV Response for Children. 
July 2018.
    \vii\ UNAIDS, AIDSinfo.
    \viii\ UNAIDS, End Inequalities. End AIDS. Global AIDS Strategy 
2021-2026.
    \ix\ UNAIDS, Prevailing Against Pandemics by Putting People at the 
Centre. 2020.
    \x\ UNFPA, Impact of COVID-19 on Family Planning: What we know one 
year into the pandemic. March 2021.
    \xi\ UNICEF, Reimagining a resilient HIV response for children, 
adolescent and pregnant women living with HIV. November 2020.
    \xii\ UNAIDS, AIDSinfo.
    \xiii\ PEPFAR, Strategy for Accelerating HIV/AIDS Epidemic Control 
(2017-2020). September 2017.
    \xiv\ Lesosky, M. and Myer, L. Modelling the impact of COVID-19 on 
HIV. August 2020.
    \xv\ UNAIDS, Global Commitments, Local Actions. June 2021.
    \xvi\ EGPAF, ``This Project Gave Me a Second Chance.'' December 
2020.

    [This statement was submitted by Charles Lyons, President and CEO.]
                                 ______
                                 
                   Prepared Statement of The END Fund
Dear Subcommittee on State, Foreign Operations, and Related Programs:

    We write to you in our capacities as Chair of the Board and CEO of 
the END Fund, a private philanthropic initiative dedicated to ending 
neglected tropical diseases (NTDs) such as blinding trachoma, 
elephantiasis, and intestinal worms that affect over 1.7 billion people 
globally. The END Fund is made up of thousands of supporters from 
across the globe and has been a proud and long-time collaborator with 
the USAID NTD Program, co-funding programs to fast-track disease 
elimination efforts and collaborating on technical innovation across 
dozens of countries.
    The success of our partnership has been largely built on 
coordination with the United Kingdom through its Foreign, Commonwealth 
& Development Office (FCDO). However, significant budget cuts made 
recently by the FCDO have had a devastating effect on global NTD 
programming and put much of our collective progress at risk. Until 
recently, the FCDO and USAID coordinated to support 37 national NTD 
programs and co-invested in 15 of those, many of which were expected to 
eliminate at least one NTD in the next five years. Unless we are able 
to figure out a Plan B, many of these milestones will not be met and 
over 200 million people across 24 countries will not receive the 
treatment they need.
    The END Fund is doing its part to reach out to every private 
philanthropic donor in our network in an attempt to raise funds and 
ensure these people aren't left behind. But private philanthropy won't 
be enough. Over $1 billion of donated medicines from pharmaceutical 
companies like Merck, Pfizer, and J&J are at risk of going to waste if 
we can't identify funds to deliver them. We understand that the next FY 
USAID annual budget is currently under review, and would love to 
encourage you and the whole team involved in setting the USAID budget 
to consider an increase from the approximately $100 million annual 
budget from previous years to at least $125 million per year, and 
ideally even more if possible. This would make a huge difference to 
ensuring disease elimination efforts stay on track and vulnerable 
people don't further suffer from disability, blindness, stunted growth 
and missed school days caused by NTDs.
    While simultaneously working to mobilize emergency resources, the 
African members of the END Fund board--along with a coalition of 
hundreds of partners across Africa--are launching an African NTD 
Leadership Initiative to step up local leadership and sustainable 
solutions to long-term implementation of NTD programs. We recognize 
that aid and philanthropy aren't the long-term solutions to the health 
problems in developing countries. But this transition will take time, 
and we look forward to collaborating with USAID and the other global 
funders and supporters of NTDs to ensure that no one misses out on the 
treatment they need in the short-term.
    We would be honored to provide you with an in-depth briefing on the 
current situation and share more with you about how the END Fund can 
support the critical work of USAID's NTD Program. We thank you so much 
for your consideration of an increased USAID budget for NTDs this 
coming year.

            Sincerely,

William Campbell
Board Chair, The END Fund
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f09293919d8092959c9cb083919e9f9398de939f9d">[email&#160;protected]</a>

Ellen Agler
CEO, The END Fund
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8cdc9cfc4cddae8cdc6cc86c7dacf">[email&#160;protected]</a>
 the end fund represents a private sector perspective on the value of 
                          usaid's ntd program
    The END Fund represents the dedication and commitment of a broad 
donor base, which in the U.S. is composed of approximately 4,000 
private philanthropists, companies, high-net-worth individuals, and 
foundations spanning all 50 states who have collectively helped the END 
Fund to raise hundreds of millions of dollars since 2012 to tackle 
NTDs. There are several reasons why continued U.S. leadership 
incentivizes our donor base, detailed below:

  --Momentum among a growing group of U.S.-based activist 
        philanthropists. Inspired by the Giving Pledge community, a 
        number of whom have contributed to the END Fund, our board of 
        directors and leading donors represent a group of deeply 
        committed activist philanthropists who continuously invest 
        their time, professional network, expertise, and finances into 
        tackling NTDs. This group is spearheaded by our Board Chair, 
        William I. Campbell, who served as a Senior Advisor to the 
        Chairman and CEO of JPMorgan Chase from 2008 until 2012, and 
        has held numerous leadership positions in major U.S. 
        corporations for over two decades.
  --Cost-effectiveness and a public-private partnership at a grand 
        scale. At the 2012 London Declaration on NTDs, leading 
        pharmaceutical companies collectively pledged as many NTD 
        treatments as the world had the capacity to deliver at the 
        time. Companies such as Bristol-Myers Squibb, Gilead, GSK, 
        Johnson & Johnson, Merck & Co., Inc., and Pfizer continue to 
        pledge billions of dollars of donated drugs per year that is 
        leveraged by the program delivery investments by USAID and its 
        partners in private philanthropy through the END Fund. This 
        unprecedented investment from the U.S. pharmaceutical industry 
        is matched only in the ambition of those partners supporting 
        the drug delivery (including USAID and the END Fund), and that 
        of our partners in governments where these treatments are 
        needed most. The scale and scope of the opportunity to continue 
        to impact the world through this partnership remains hugely 
        significant.
  --De-risking private investment. Due to the substantial NTD funding 
        from USAID to date, the END Fund's private philanthropic donors 
        feel more comfortable making higher risk investments, pushing 
        boundaries, and investing in innovation in the NTD sector, 
        ultimately catalyzing the kind of progress needed to provide 
        over 1.7 billion at-risk people with the treatment and support 
        they deserve.
  --Efficiency and collaboration. The END Fund participates in regular 
        global donor meetings with USAID among others to ensure we are 
        effectively coordinating investments across geographies and 
        time, such that the whole impact of our partnership is greater 
        than the sum of its parts due to the synergies from this 
        collaboration. The END Fund works to ensure that our 
        investments are complementary to USAID investments, often 
        covering geographies where USAID is not present or covering 
        aspects of programming that may not be included in USAID 
        budget.
  --A legacy of partnership. In 2012, USAID directly contacted the END 
        Fund after a coup in Mali as USAID was no longer able to 
        support the NTD program under a new, non-democratically elected 
        government. USAID wanted to ensure Mali's national NTD program 
        was not compromised as a result of political upheaval and its 
        funding withdrawal, and requested support from the private 
        capital represented by the END Fund. We were proud to put 
        private capital to work quickly and nimbly and step in with two 
        years of support for Mali's national NTD program in order to 
        sustain the gains made through years of support from USAID. 
        This is just one of now many examples of how the END Fund and 
        USAID have ensured our work is complementary.
  --Labor productivity and employability. Due to the aforementioned 
        drug donation program, the cost-effectiveness of NTD program 
        investments in achieving health and education outcomes is 
        second to none. For example, we know from the work of a recent 
        Nobel laureate in economics, Michael Kremer, adults who are 
        dewormed as children will earn 20% more than those who were 
        not, and receiving annual deworming treatments can reduce 
        school absenteeism by up to 25%. We also know from studies that 
        the world can avert several hundred million disability adjusted 
        life years and gain several hundred billion dollars' worth of 
        productivity gains if current goals for NTD control and 
        elimination are met. The knock-on impact of such investments 
        has significant influence on the education level, skill level, 
        and ultimately economic participation and productivity of any 
        country's workforce.

    [This statement was submitted by Ellen Agler, CEO, and William 
Campbell, Board Chair.]
                                 ______
                                 
  Prepared Statement of the Friends Committee on National Legislation
    Chairman Coons, Ranking Member Graham, and Distinguished Members of 
the Committee, thank you for allowing me to testify in support of 
robust funding for peacebuilding in the FY2022 State, Foreign 
Operations, and Related Programs Appropriations bill. The Friends 
Committee on National Legislation, or FCNL, was founded in 1943 by 
members of the Religious Society of Friends, also known as Quakers. 
From our early days--amid the Second World War--until today, we have 
advocated for peace and sought a world free of war and the threat of 
war. In pursuit of these ends, we strongly support robust funding for 
accounts that prevent and reduce violent conflict in the FY 2022 SFOPs 
appropriations bill, including $60 million for the Complex Crises Fund 
at the U.S. Agency for International Development (USAID), $25 million 
for the Atrocities Prevention Fund at the State Department, and 
$500,000 for Atrocities Prevention Training at the State Department and 
USAID.
    The challenges the United States faces around the world today 
cannot be resolved with bullets and bombs. In order to draw down and 
end our country's endless wars, FCNL urges an increased investment in 
peacebuilding, development, and diplomacy.
    One percent of humanity--1 in every 97 people\i\--is now forcibly 
displaced from their homes, including over 80 million who were forced 
to flee persecution, conflict, violence, and human rights 
violations.\ii\ Meanwhile, climate change is worsening resource 
scarcity and natural disasters, pushing fragile states beyond their 
abilities to cope or adapt. In the past decade, the number of water-
related conflicts and violence has increased by 270 percent.\iii\ Over 
the next three decades, an additional 1.5 billion people are expected 
to face food insecurity.\iv\
    Compounding these issues, the COVID-19 pandemic has spared no 
country-large or small, industrialized or developing, resilient or 
fragile. The pandemic has exacerbated the drivers of conflict and 
fragility around the world, leading to rising violence and decimated 
economies that will far outlast the virus itself. In fact, the Bill & 
Melinda Gates Foundation found that the COVID-19 pandemic has set back 
an important measure of global development by ``about 25 years in about 
25 weeks.''\v\
    In particular, FCNL is deeply concerned about the early warning 
signs of new violence resulting from the impacts of the COVID-19 
pandemic. Advanced data modeling by the Josef Korbel School at the 
University of Denver shows that as result of the pandemic, 13 more 
countries will likely experience conflict over the next two years, a 
more than 50 percent increase over their pre-pandemic prediction.\vi\
    However, the virus need not be followed by violence.
    Right now, peacebuilders are working around the world, on the 
frontlines of the pandemic to ensure that the public health responses 
are conflict-sensitive and support sustainable peace.\vii\ 
Peacebuilding provides an indispensable tool in responding to and 
recovering from this pandemic by both preventing immediate outbreaks of 
violence and healing fractured societies over the long term. With 
focused and dedicated assistance, the United States can be a powerful 
force for peace and development during this global crisis.
    The full list of accounts that support peacebuilding, conflict 
prevention and violence reduction efforts is attached below, along with 
the levels of funding we recommend. I would like to highlight three of 
these accounts.
    The Complex Crises Fund (CCF) enables USAID to respond to early 
warning signs and escalating crises before violence erupts. It is the 
only account designed to fill immediate, short-term needs during 
emergent crises. Even before the COVID-19 pandemic struck, the CCF was 
in high demand- having directly supported initiatives to prevent 
violence and conflict in 29 countries over the last decade.\viii\ The 
CCF has enabled urgent peacebuilding programs that have disseminated 
essential information, facilitated dialogue, and promoted civic 
engagement in order to defuse rising tensions and strengthen 
communities' resilience.
    Now, with the pandemic further exacerbating conflict drivers, the 
flexibility that CCF provides USAID to respond rapidly to escalating 
crises is even more essential. As such, we urge that you allocate $60 
million to USAID for the Complex Crises Fund.
    Additionally, we urge significantly increased support to the 
Atrocities Prevention Fund, which is the State Department's only 
funding dedicated solely to the prevention of mass atrocities and 
genocide.
    We know that society-wide crises, such as famines, pandemics, and 
political strife, too often become triggers or justifications for mass 
violence and atrocities. During such crises marginalized groups, 
especially migrants and ethnic or religious minorities, are often 
scapegoated and attacked. We have already seen rising levels of such 
identity-based violence around the world-including here in the United 
States against Asian-Americans.
    Genocide is an extreme form of this identity-based violence, and 
without urgent and effective prevention efforts, the second order 
impacts of the pandemic could take more lives than COVID-19 itself.\ix\
    The Atrocities Prevention Fund enables the Department of State to 
support critical mass atrocity and genocide prevention efforts and to 
implement recommendations of the interagency Atrocity Early Warning 
Task Force. Given the increased risk of mass atrocities resulting from 
the COVID-19 pandemic, we urge you to appropriate no less than $25 
million for the Atrocities Prevention Fund.
    In tandem, we urge $500,000 be made available for the State 
Department and USAID to conduct Atrocities Prevention Training for 
Foreign Service Officers in countries at risk of mass atrocities. As 
mandated in the Elie Wiesel Genocide and Atrocities Prevention Act 
(P.L. 115-441), the training improves the ability of our diplomatic and 
development professionals around the world to recognize and respond to 
the early warning signs of mass atrocities.
    I know that your committee has previously endorsed more robust 
funding for atrocity prevention, and we are deeply appreciative of this 
support. Last year you included $10 million for the Atrocity Prevention 
Fund as well as $500,000 for the State Department and $250,000 for 
USAID for Atrocities Prevention Training, which we hope you will build 
upon this year.
    Chairman Coons, Ranking Member Graham, and Distinguished Members of 
the Subcommittee, thank you for the opportunity to testify on this 
important matter.
    Genocide, mass atrocities, and other forms of violence against 
civilians are not inevitable. But the COVID-19 pandemic has sharply 
raised the risk of their occurrence. By supporting peacebuilding, 
conflict prevention and violence reduction efforts, the United States 
can be a powerful force for the protection of human lives, rights and 
dignity.
    I thank you for your consideration and for working to build peace 
in this time of great tragedy.

 FULL LIST OF FCNL RECOMMENDATIONS FOR FY2022 STATE, FOREIGN OPERATIONS,
                   AND RELATED PROGRAMS APPROPRIATIONS
------------------------------------------------------------------------
                                                            FY22 FCNL
            Account Name                FY21 Enacted         Request
------------------------------------------------------------------------
Atrocities Prevention Fund..........        $5,000,000       $25,000,000
Atrocities Prevention Training......          $500,000          $500,000
Complex Crises Fund.................       $30,000,000       $60,000,000
Conflict Stabilization Operations...        $2,500,000       $14,500,000
Contributions for International         $1,456,314,000    $2,701,032,000
 Peacekeeping Activities............
Contributions to International          $1,505,928,000    $1,595,928,000
 Organizations......................
Democracy Fund at USAID.............      $100,250,000      $100,250,000
Human Rights and Democracy Fund at        $190,450,000      $190,500,000
 State..............................
Multi-Donor Global Fragility Fund...       $25,000,000       $25,000,000
Prevention and Stabilization Fund...      $100,000,000      $200,000,000
Reconciliation Programs.............       $25,000,000       $30,000,000
Transition Initiatives..............       $92,043,000      $112,000,000
U.S. Institute of Peace.............       $45,000,000       $45,000,000
------------------------------------------------------------------------

      
---------------------------------------------------------------------------
    \i\ United Nations High Commissioner for Refugees. (2020). Global 
Trends Forced Displacement in 2019. https://www.unhcr.org/
globaltrends2019/
    \ii\ United Nations High Commissioner for Refugees. (2020). Mid-
Year Trends 2020. https://www.unhcr.org/statistics/unhcrstats/
5fc504d44/mid-year-trends-2020.html
    \iii\ Institute for Economics & Peace. (2020) Ecological Threat 
Register 2020: Understanding Ecological Threats, Resilience and Peace. 
https://www.visionofhumanity.org/wp-content/uploads/2020/10/
ETR_2020_web-1.pdf
    \iv\ Ibid.
    \v\ Bill and Melinda Gates Foundation. (2020). 2020 Goalkeepers 
Report. https://www.gatesfoundation.org/goalkeepers/report/2020-report/
    \vi\ Moyer, J. D., & Kaplan, O. (2020, July 6). Will the 
Coronavirus Fuel Conflict? Foreign Policy. https://foreignpolicy.com/
2020/07/06/coronavirus-pandemic-fuel-conflict-fragile-states-economy-
food-prices/
    \vii\ International Alert. (2020). COVID-19 peacebuilding response. 
https://www.international-alert.org/covid-19-peacebuilding-response
    \viii\ USAID. (2020, Oct. 1). Complex Crises Fund. https://
www.usaid.gov/who-we-are/organization/bureaus/bureau-conflict-
prevention-and-stabilization%20/complex-crisis-fund
    \ix\ Ferguson, Dr. K. (2020). Atrocity prevention and Covid-19 
Opportunities and responsibilities. Protection Approaches. https://
protectionapproaches.org/ap-and-covid

    [This statement was submitted by Diane Randall, General Secretary.]
                                 ______
                                 
  Prepared Statement of the Friends of the Global Fight Against AIDS, 
                        Tuberculosis and Malaria
    Thank you, Chairman, and members of the subcommittee, for steadfast 
support of America's leadership in the fight against AIDS, tuberculosis 
(TB) and malaria. The U.S. investment you have championed has saved 
millions of lives and has brought the end of these deadly epidemics 
within reach. Your bold support of an increase in fiscal year 2020 
funding for the Global Fund to Fight AIDS, Tuberculosis and Malaria 
(Global Fund) helped spur the rest of the world to increase investment. 
I want to offer my deep appreciation for congressional support for 
efforts to respond to the COVID-19 crisis globally, including the 
contribution of $3.5 billion to the Global Fund's COVID-19 Response 
Mechanism. Future progress against the AIDS, TB and malaria epidemics 
depends on ending the new pandemic of COVID-19. Today I am writing to 
request sustained U.S. support of the Global Fund at $1.56 billion for 
fiscal year 2022 (FY22).
                        proven lifesaving impact
    Since its creation in 2002, the Global Fund partnership has saved 
more than 38 million lives. This achievement includes a remarkable 61 
percent decline in AIDS-related deaths, a 25 percent decline in TB 
deaths and a nearly 50 percent decline in malaria deaths in countries 
where the Global Fund operates. In 2019 in countries and regions where 
the Global Fund invests, 20.1 million people were on antiretroviral 
therapy for HIV, 5.7 million people with TB received treatment and 160 
million mosquito nets were distributed. However, these achievements 
remain at risk from COVID-19.
    FY22 funding will serve as the third and final year of the U.S. 
commitment to the Global Fund's sixth Replenishment. Friends of the 
Global Fight requests flat funding for the Global Fund at $1.56 
billion, consistent with the contributions from the U.S. for the two 
previous years of the Replenishment cycle, as well as the president's 
FY22 budget request. This level of support in FY20 and FY21 would not 
have been possible without the strong bipartisan support in Congress 
for the work of the Global Fund.
    The U.S. contribution continues the unique matching requirement, 
encouraging burden sharing by others. By law, the U.S. can only 
contribute up to 33 percent of the Global Fund's standard operating 
budget. For every dollar the U.S. contributes, the Global Fund must 
secure two dollars from other donors, or risk leaving U.S. money on the 
table. The 15.6 percent increase from the U.S. in FY20 encouraged other 
major donors to increase their support, including increases of more 
than 15 percent from France, Germany, the United Kingdom, the European 
Commission, Canada and Italy, just to name a few. The Global Fund won 
$1 billion in pledges from the private sector as well.
    Since the Global Fund achieved its $14 billion Replenishment 
fundraising goal in 2019, the organization was on track to save an 
additional 16 million lives; cut the number of deaths from AIDS, TB and 
malaria by nearly half; and prevent 234 million infections. However, 
COVID-19 could set back progress on those epidemics by a decade if not 
addressed (detailed below).
    The Global Fund also plays a consequential role in economic growth, 
supporting healthier workers and increasing the number of consumers for 
U.S. exports, and growing trade partners abroad-all directly benefiting 
the American people. The Global Fund projects that it will generate $19 
in economic returns and health gains for every $1 invested, 
contributing to direct economic benefits for the U.S.
    The Global Fund supports non-health interventions to achieve its 
mission, consistent with calls from members of Congress in both 
parties. Global health aid through the work of the Global Fund has been 
key in advancing human rights and economic opportunity, particularly 
for women and girls and other key populations at risk of contracting 
HIV, TB or malaria. It is supporting adolescent girls to stay in school 
to reduce their probability of HIV infection and financing legal 
services to marginalized people to reduce the barriers to accessing 
health services. We were very pleased to see the Global Fund ranked as 
one of the ``12 very high-scoring'' organizations on gender equality in 
the Global Health 50/50 Report.
              amplifying the impact of bilateral programs
    The Global Fund importantly reinforces the impact of U.S. bilateral 
global health programs. These include the President's Emergency Plan 
for AIDS Relief (PEPFAR), the President's Malaria Initiative (PMI) and 
USAID's TB program. Friends encourages increased appropriations for 
these highly effective programs. U.S. bilateral programs and the Global 
Fund work closely together to maximize the results from U.S. 
investments in global health.
    Moreover, the Global Fund adds value to U.S. bilateral programs by 
making long-term country-ownership more viable. The Global Fund 
requires that affected populations, civil society, faith and private 
sector voices be included in local implementation and on its own board. 
A 2019 study determined Global Fund support advances key areas of good 
governance.
             global fund response to threats from covid-19
    COVID-19 has led to serious impacts on fragile health systems in 
many low- and middle-income countries. Congressional leadership has 
been crucial in helping these countries respond to the pandemic. I 
especially want to thank the members of this subcommittee for their 
support of the Global Fund's work to respond to COVID-19. The inclusion 
of $3.5 billion in the America Rescue Plan for the Global Fund's COVID-
19 Response Mechanism, as well as contributions to other Access to 
COVID-19 Tools Accelerator pillars, will be instrumental for vaccine 
delivery, protecting health workers, scaling tests and treatment, and 
bringing this pandemic to an end.
    The Global Fund created the Response Mechanism to help countries 
fight COVID-19 and mitigate its impact on AIDS, TB and malaria 
programs. The Global Fund's advantage is that it can rapidly deliver 
funding to existing local partners in more than 120 countries--with all 
of the same accountability and transparency present in normal Global 
Fund operations. In 2020, the Global Fund's COVID-19 Response Mechanism 
distributed nearly $1 billion in desperately needed aid to assist low- 
and middle-income countries. An audit by the Global Fund's independent 
Inspector General in April 2021 found this first phase well-managed, 
effective and accountable.
    It is important to note that by establishing the COVID-19 Response 
Mechanism the Global Fund is not straying from its core mandate. 
Indeed, if it does not address the grave challenges presented by COVID-
19, the Global Fund, its donors and their partners risk losing the 
progress on AIDS, TB and malaria that they have worked so hard to 
achieve.
    On March 30, 2021, the Global Fund Board--on which the U.S. sits- 
unanimously approved phase two of the mechanism. Lack of funding had 
put the COVID-19 support on hold for several months, with no other 
international institution filling the void. Now, strong support from 
the United States and other major donors makes this lifesaving work 
possible. Thank you.
    To complement the efforts of COVAX and U.S. bilateral and 
multilateral investments in combating COVID-19, the Global Fund's 
COVID-19 aid will focus on:

  --Essential non-vaccine elements of the COVID-19 response which help 
        to distribute vaccines, including scaling up diagnostics, 
        treatment and PPE
  --Adaptations to HIV, TB and malaria programs to mitigate the 
        pandemic's indirect impacts
  --Urgent health system enhancements to support the two points above, 
        such as lab strengthening, community-led interventions to 
        support transmission reduction, reinforcement of clinical care 
        and enhanced disease surveillance

    Funding proposals to the COVID-19 Response Mechanism will be 
developed by Global Fund Country Coordinating Mechanisms. The Global 
Fund will continue to leverage technical expertise when reviewing these 
requests by using current Global Fund structures. The Global Fund has 
also established a new technical advisory group to review the COVID-19 
related aspects of countries' funding requests.
    We will keep you abreast of how the contribution from the U.S. to 
the COVID-19 Response Mechanism is deployed in the coming months, as 
well as contributions from other donors. A second contribution from 
Germany of 140 million euros was recently announced, which follows 150 
million euros from Germany last June. We are encouraged that the Biden 
Administration has helped with diplomatic outreach to other donors.
    global fund contributions to pandemic preparedness and response
    As COVID-19 has shown, future pandemics are inevitable--and the 
world must address the drivers of new pandemics as well as be prepared 
to respond quickly and effectively once new threats arise. We were 
pleased to see the introduction of the International Pandemic 
Preparedness and COVID-19 Response Act from Senators Risch and 
Menendez, which would require a formal strategy to prepare for 
pandemics. That bill, along with legislation developed in the House, 
calls for plans to improve the global health architecture in support of 
pandemic prevention, preparedness and response. As the Senate--and this 
subcommittee--considers such plans and the funding they may require, 
the United States and other countries should turn to the Global Fund to 
play a central role in any new pandemic preparedness and response 
structure.
    The Global Fund is capable of playing an expanded role in several 
areas of pandemic preparedness, building on investments it already 
makes responding to AIDS, TB, malaria and COVID-19. A January 2021 
study published in the Lancet determined that Global Fund-supported 
programming is actively engaged in multiple aspects of health security 
and over one third of its investments promote health security.
    The Global Fund is already one of the largest sources of 
international funding for global health security and is in the process 
of considering a range of options as it develops its next six-year 
strategy. The Global Fund must continue its focus on AIDS, TB and 
malaria, but it could embed expanded global health security programming 
in its ongoing work to strengthen health systems.
    The Global Fund is ready to deliver funds with its proven speed, 
accountability and transparency, ensuring that pandemic preparedness 
resources build on platforms used to fight existing diseases and 
strengthen local health systems. Using the Global Fund would bring more 
coherence--rather than fragmentation or silos--to any new plans.
                               conclusion
    Friends thanks the Appropriations Committee for your leadership in 
the battle against the world's most deadly epidemics, and we ask the 
Committee to maintain funding for the Global Fund at $1.56 billion in 
FY22, the final installment in the sixth Replenishment. We also support 
increased allocations to PEPFAR, PMI, TB at USAID, and the overall 
foreign assistance budget. We again express our profound thanks for the 
U.S. contribution to the Global Fund's COVID-19 Response Mechanism and 
look forward to ongoing conversation on the best ways to deliver 
healthcare access for the poor, marginalized and stigmatized. We 
welcome dialogue on fully leveraging the Global Fund as a key asset on 
pandemic preparedness and response.
    The U.S. should be proud that it played such an instrumental role 
in building the capacity of the Global Fund to be ready to rise to an 
unprecedented global challenge. With its nearly two decades of 
experience fighting major infectious disease killers and building 
procurement and supply chain capabilities, the Global Fund has scaled 
up a substantial response to fight COVID-19 and protect our long-term 
investments in AIDS, TB and malaria programs.
    We ask Congress to once again set an example for the world and 
invest in defeating AIDS, TB and malaria and helping vulnerable 
countries respond forcefully to COVID-19 and future pandemics.

    [This statement was submitted by Chris Collins, President and CEO.]
                                 ______
                                 
    Prepared Statement of Fundacion para la Democracia Panamericana
    The President and Congress should make no unilateral concessions, 
but rather ask Cuba to make irreversible steps toward the recognition 
of fundamental human rights. These steps should include: the 
unconditional release of all political prisoners; the end of 
repression; respect in law and in practice of freedom of expression, 
association-including independent political parties-, public assembly 
and economic freedom. In the past, policies of concessions to the 
leaders of the Cuban one-party totalitarian state have exacerbated 
threats to US national security, precipitated migration crises and 
emboldened the Cuban military to increase its foreign interference\1\. 
As long as Cuba remains a dictatorship that acts with impunity, the 
United States is undermining our own interests and those of our allies 
in the hemisphere. Therefore, our foundation recommends a robust 
development budget supporting democracy and human rights namely to 
advance the national security objectives and foster peace and 
prosperity in the region.
    In this document, we -the Fundacion para la Democracia Panamericana 
or FDP- present to the Appropriations Subcommittee on State, Foreign 
Operations and Related Subcommittee a summary of the current situation 
on the island as well as the challenges that the operations of the 
Havana regime constitute for national security, democratic stability, 
and peace in our hemisphere.
                                 island
    The Cuban regime has lost international sympathy and does not have 
internal popular support. Families are suffering a deep humanitarian 
crisis caused by the corrupt state management and the communist 
policies now aggravated by the Covid-19 pandemic. It is clear that 
authorities have not been able to control the pandemic. Furthermore, 
the sanitary crisis is accompanied by large outbreaks of other 
infectious diseases--such as scabies--related to the poor hygienic 
conditions to which Cubans are subjected due to the failure of the 
health care system and the economic crisis. At the same time, citizens 
do not enjoy basic freedoms, including the right to the redress of 
grievances, or even to receive international humanitarian aid. Control 
over the population is maintained through increased repression; 
nevertheless, more and more Cubans are expressing their discontent in 
social networks and by protesting in the streets\2\.
    It is necessary to contextualize what happened during the year 2020 
and the first 5 months of 2021 in numbers: The Center for Incident 
Reporting at FDP has registered 496 arbitrary detentions since the 
beginning of the pandemic. This figure is lower than the actual number 
and must be supplemented with research made by other independent 
organizations. The arrests increased after the imposition of the 
Additional Specific Sanitary Provisions of May 2020 and the declaration 
of national emergency announced on August 28, 20203. More than 810 
victims suffered harassment from agents of the Ministry of the 
Interior. These agents conduct surveillance at activist's places of 
residence, as well as employ other intimidation mechanisms. At least 
219 of these victims reported that these agents prevented them from 
leaving their homes due to their activism and several continue to be 
shut in by these agents or suffer these instances frequently.
    Furthermore, 490 people reported direct harassment. The Center for 
Incident Reporting at the Fundacion para la Democracia Panamericana 
also documented 249 acts of repudiation conducted by repressive agents 
to threaten and intimidate activists and independent journalists. Some 
of these attacks put entire households at risk; in fact, in response to 
our request, the Inter-American Commission on Human Rights (IACHR) 
ruled in favor of granting a precautionary measure of protection for 
several families, which the regime has completely ignored. We also 
registered at least 101 cases of torture and other cruel, inhumane or 
degrading treatment wherein violations to the physical integrity of the 
victims occurred during: arrests, interrogations, in prison and public 
roads. On June 28th, 2021, the Center received a testimony from an 
independent journalist, stating that he was violated sexually while he 
was detained.
    At a time when the pandemic is reaching record numbers across the 
Island, from the FDP Center for Incident Reporting, we express grave 
concern about the systemic application of these and other patterns of 
human rights violations, and their drastic consequences amid the 
humanitarian crisis Cuban families are living in. It is evident that as 
peaceful protests increase (more than 1000 public protests have been 
registered thus far in 2021), along with the mobilization in favor of 
democratic change in Cuba, acts of terror from the regime against 
citizens increase as well. The deliberate use of coercion and violence 
against specific groups to instill fear in the population is the 
definition of terrorism and the dictatorship practices it daily in 
Cuba. The regime exercises State terrorism against the Cuban people.
    Consequently, we respectfully request your commitment and support 
to the right to have human rights that the Cuban people is demanding. 
US-Cuba relations should be defined by clear principles focused on 
human rights and take lessons from historical success cases such as the 
global campaign to end apartheid in South Africa.
                                threats
On Exodus
    In light of the situation, it is important to let you know that we 
believe that the Cuban regime is discretely encouraging an exodus that 
will escalate. The intention behind this would be to pressure the 
United States government to have to sit at the negotiation table using 
the migration issues as leverage. In other words, to obtain unilateral 
concessions that could allow the regime to remain in power longer. This 
last item is corroborated by some people inside Cuba who state that 
Cuban police agents sometimes tell people that ``the United States is 
now more prone to welcoming Cubans who leave the Island because there 
is a new administration in power''. Actually, there are already 
thousands of Cubans migrants stranded on the southern border. Reports 
from, Caibarien, Villa Clara, also make reference to the relaxation of 
Cuban coast guard surveillance. We suggest that the US government warn 
the Cuban regime of the serious consequences that such malicious 
conduct entails.
    There is a new silent, but increasing, exodus of Cuban rafters. 
Since Oct. 1, 2020, Coast Guard crews have interdicted 465 Cubans, that 
is more than 9 times the number of Cuban migrants in Fiscal Year 2020 
and far exceeded the total number of intercepted in fiscal year 
2019.\3\
    We alert the United States government because of the human cost and 
the national security threat that a massive exodus represents. This 
situation enables criminals to engage in human trafficking. In some 
cases, we suspect the Cuban regime has been involved in trafficking of 
migrants as well, while seeking additional sources of income. At the 
same time Cuban people's call for human rights rises and a reality 
emerges with increasing clarity: that demand for democratization of 
Cuba's political and economic system is the only solution for ensuring 
stability in the region and sustainable long-term relations between the 
United States and Cuba. The United States must avoid falling into the 
trap of yielding to the pressures of the dictatorship and support the 
Cuban people in their desire to carry out an orderly and peaceful 
transition to democracy. This is the only way to guarantee that the 
motivation of the exodus is stopped.
On Interference
    The 62-year tolerance towards totalitarianism in Cuba demonstrated 
by the world's democracies has impeded the stability of democracy in 
our continent and caused serious threats to the national security of 
several states. As has been widely documented, the Cuban intelligence 
apparatus of the Castro regime (G2), infiltrated the entire hemisphere 
from social movements to guerrillas and criminal organizations. During 
these years, Cuba has served as a center for the dissemination of 
authoritarian models, such as the so-called 21st century socialism, as 
a sanctuary for terrorists from around the world and as an accomplice 
to the enemies of the free world.
    During 2019, the attacks on democratic regimes in Latin America 
have been especially intense, according to the allegations of the OAS 
General Secretariat, an entity that was forced to make itself available 
to ``the member states in their efforts to make against the 
destabilization efforts organized by the Venezuelan and Cuban 
dictatorship.'' On January 16, 2021, the cover of SEMANA magazine 
reveals a secret dossier entitled ``Cuban Interference Strategy in 
Colombia's Independence and Sovereignty Issues.'' There it is stated 
verbatim: ``Cuba executes a strategy of interference in Colombia 
through the orientation of Cubans with diplomatic cover in solidarity 
social organizations, the infiltration of cooperation programs with 
local authorities and their financing through the ELN\4\.''
    The installation and maintenance of the dictatorship in Venezuela 
have been advised and directed until today by the Cuban regime, with 
the terrible effects that this has had for the region, including the 
massive exodus of Venezuelans. The CASLA Institute has exposed that the 
Cuban militia with DGCIM credentials have committed crimes against 
humanity. Meanwhile, the Cuban regime still receives oil barrels from 
Venezuela on a daily basis that they sell at market price.
On attacks
    What the Cuban people need now and what the American people need 
now is the same: leaders who will speak up and act often about the 
Cuban Government's role as a trojan horse, allowing access to global 
actors like Russia, China and Iran who threaten the peace and stability 
of our hemisphere. There is a real danger to the US in under 
prioritizing this threat. This threat was confirmed by the episodes of 
the so-called ``sonic attacks'' against US and Canadian diplomats that 
occurred for the first time in Havana and that have already affected at 
least 130 US federal employees around the world. Events such as those 
that caused the Havana Syndrome can only have taken place in Cuba with 
the knowledge and participation of the Cuban regime's intelligence 
services. Once again, the only way to close the door to the dire 
consequences that these global actors produce is to support Cuban 
citizens in their right to have human rights and to move towards 
democracy.
                            recommendations
    Cuban people have the will and the right to ascend to human rights 
and build a democracy that helps strengthen the much-needed stability 
in our hemisphere. We recommend a robust democracy promotion budget for 
Cuba to advance the national security and democratic stability 
objectives in our whole hemisphere.
    Independently, taking into consideration all the proposals received 
by members of civil society during this Pasos de Cambio, an initiative 
that has worked this year towards the development of joint proposals on 
the themes of foreign relations with Cuba, citizen mobilization, and 
transition, we maintain that the US government should consider the 
following path in its policies pertaining to Cuba:

    1. Base on rights.--The President and Congress should make no 
unilateral concessions, but rather ask Cuba to make irreversible steps 
toward the recognition of fundamental human rights. We urge the 
Administration to recognize the members of the opposition and civil 
society in Cuba and in the diaspora as valid interlocutors.
    2. Humanitarian Assistance--Manifest solidarity with the people. 
Publicly announce the desire of the United States to promote 
humanitarian aid from the American people to the Cuban people. It is 
important that this support be directed only toward the Cuban people, 
directly to the citizens, preventing any kind of intervention by or 
benefits to the regime.
    3. Commit to the empowerment of the Cuban people, exclude the 
oppressors.--Continuing to shut down the dictator's sources of funding, 
which are used to sustain the Cuban military and the Ministry of the 
Interior, the regime's oppression apparatus. Many of these companies 
are already on the United States Department of State's list of 
restricted entities and sub-entities associated with Cuba, updated on 
January 8, 2021. The individuals from the regime involved in narco-
terrorist activities should also be sanctioned.

    --Targeting sanctions. Imposing individual political, financial and 
            diplomatic sanctions \3/4\ and consider utilizing the 
            Global Magnitsky Act \3/4\ to the heads of the regime 
            involved in serious human rights abuses.
    --Using all available tools to influence those in positions to make 
            the decisions necessary to accept the people's call for a 
            transition to democracy.
    --Sullivan Principles: Using the South African experience, require 
            US companies still doing business with Cuba to mandatorily 
            embrace social responsibility principles based on the 
            Sullivan Principles\5\, so companies do not engage in 
            enriching the rulers at the expense of exploiting/
            discriminating nationals.

    4. Hemispheric leadership for peace.--The United States can and 
should ally with Latin American countries to support the Cuban people. 
Invite the sister Republics of our hemisphere to take similar steps to 
support democratic change in Cuba. Utilize all the tools of the inter-
American system, with the help of the OAS, the IDB, and other 
hemispheric institutions, to implement a comprehensive strategy of 
maximum influence on hemispheric dictators, for them to submit to the 
will of their peoples and give way to democratic multiparty systems. 
Specifically, there should be no reward for malevolent behavior, no 
invitations to the Summits of the Americas, no ``normalizing'' the 
Cuban regime as it is. The regime should continue to be excluded from 
the hemispheric community of nations until it complies with the 
articles of the Inter-American Democratic Charter.
---------------------------------------------------------------------------
    \1\ Refer to the Mariel boatlift, 1980; the Cuban Rafters Crisis, 
1994; the shooting down of the Brothers to the Rescue's airplanes in 
international waters, 1996; the crisis of Cuban migrants stranded on 
the southern border of Nicaragua, 2015; and the expansion of the 
influence and interference of the Castro regime in Venezuela and the 
rest of Latin America.
    \2\ At least 1000 public protests were registered since January 1, 
2021.
    \3\ Officially instated via publication in official gazette No. 44 
of August 31, 2020.
    \4\ Cuba: el dosier secreto https://www.semana.com/nacion/articulo/
cuba-el-dosier-secreto/202146/.
    \5\ Reference Movimiento Democracia position in regard to Sulivan 
Principles.

    [This statement was submitted by Dr. Angel Omar Vento, President.]
                                 ______
                                 
             Prepared Statement of the Girls Not Brides USA
    Chairman Coons, Ranking Member Graham, and members of the 
Subcommittee, we are submitting this testimony for your consideration 
on behalf of Girls Not Brides, a global partnership of more than 1,300 
civil society organizations from over 100 countries committed to ending 
child marriage and enabling girls to fulfill their potential.
    Girls Not Brides USA became the first official Girls Not Brides 
National Partnership in 2012. Before then, the group was known as the 
U.S. Child Marriage Coalition, and currently is comprised of 60 civil 
society organizations all working to end child marriage and respond to 
the needs of already married girls across the globe. Girls Not Brides 
USA is not a recipient of U.S. foreign assistance, but is co-chaired by 
and comprised of many organizations that receive U.S. funds for global 
development work.
    Over the last year, we have focused on supporting the advancement 
of legislation critical to addressing the root cause and drivers of 
child marriage, including the Keeping Girls in School Act and the Girls 
Leadership, Engagement, Agency, and Development Act (S. 634/HR 1661). 
We have also been actively engaging in budget and appropriations-
related efforts to ensure that ending child marriage is funded as a 
priority across the U.S. government's foreign assistance efforts.
    As such, we were pleased to see a 12% increase in funding to the 
State Department in the President's FY22 discretionary request. 
However, we were disappointed at the lack of reference to global 
spending to address child marriage through foreign assistance. We hope 
that the funding appropriated by this committee will include more 
robust funding for combatting child marriage and investing in 
adolescent girls worldwide. We request no less than $30,000,000 for 
projects, programs, and initiatives to reduce the incidence of child 
marriage and address the needs of married girls consistent with section 
1207 of Public Law 113-4. We recommend $5,000,000 of this funding be 
dedicated as a new US commitment to the joint UNICEF and UNFPA Global 
Program to End Child Marriage.
    Child marriage is a human rights abuse and a form of gender-based 
violence. It occurs across cultures and contexts all over the globe. 
Girls who are married as children are frequently deprived of their 
rights to health, education, and safety. For example, they are at 
higher risk of experiencing dangerous complications in pregnancy and 
childbirth. Childbirth and pregnancy related complications is the 
leading cause of death for adolescent girls globally- and critically, 
90% of births to adolescent girls occur within a marriage.
    Girls who are married as children are also more likely to never 
finish their education. They are more likely to face food insecurity 
and malnutrition, and experience other forms of violence throughout 
their lives. Child marriage drives cycles of poverty, poor health, 
illiteracy, and gender-based violence that have negative impacts on 
overall sustainable development and global peace and security. 
Significantly, the World Bank estimates that global gains from ending 
child marriage could reach more than $500 billion per year.
    With the global spread of COVID-19, Girls Not Brides USA members 
are seeing dramatic increases in child marriage due to the socio-
economic impacts of COVID-19 and related containment measures. For 
example, anecdotal data from World Vision's global programs revealed 
that child marriages more than doubled between March-December 2020, 
compared to 2019. Education disruptions, food and economic insecurity, 
restrictions on movement, and disruptions to essential protection and 
health services for girls, are all increasing both the incident and 
risks of child marriage.
    Experts have predicted 10 million additional child marriages over 
the next 10 years if we do not act quickly. This is in addition to the 
already projected 12 million child marriages that occur each year, 
representing the biggest increase in child marriage rates since 1995.
    We urge Congress and the Administration to make bold commitments to 
a gender-sensitive approach to COVID-19 response and recovery globally. 
All policy and programs in response to the crisis across sectors should 
be shaped by a gender analysis and programming to prevent and respond 
to child marriage must be prioritized and robustly funded. The impacts 
for girls are dire and the risks urgent.
    Programming to prevent and respond to child marriage must be 
holistic, as the drivers and impacts cut across key sectors. Such 
programming should include, for example, safe, quality education, 
mental health and psychosocial support, and programming designed to 
support girls' leadership skills building, so that they are empowered 
to make decisions about their own lives across policy-making spaces. 
Evidence has shown that the most impactful efforts to prevent child 
marriage and address the needs of already married girls require a 
holistic and multisectoral approach. And such an approach must be 
coordinated across government agencies and the White House.
    Given the extreme needs and risks for adolescent girls around the 
world, we urge Congress and the Administration to commit to 
prioritizing adolescent girls through US foreign policy and assistance. 
In addition to robust foreign assistance, we recommend leveraging key 
upcoming global moments like the Generation Equality Forum in June for 
an announcement demonstrating United States leadership and commitment 
to adolescent girls' rights and ending child marriage across the globe. 
A public commitment to adolescent girls at such major global moments 
will ensure adolescent girls get the political attention needed to 
drive concrete action and funding, and to mobilize the global community 
to eradicate child marriage under the 2030 sustainable development 
goals' target 5.3.
    Thank you for this opportunity to offer testimony to the 
Subcommittee and for your bipartisan leadership in supporting a strong 
foreign assistance budget.

    [This statement was submitted by Whitney Groves and Aria 
Grabowski.]
                                 ______
                                 
        Prepared Statement of the Global AIDS Policy Partnership
    The Global AIDS Policy Partnership (GAPP), a coalition of more than 
70 advocacy and implementing organizations committed to ending AIDS for 
the next generation by expanding and improving global HIV programming 
and outcomes, asks Congress to increase funding levels for global HIV/
AIDS programs by $750M in the Fiscal Year 2022 State and Foreign 
Operations Appropriations legislation.
    Significant progress, realized through U.S. investments, has been 
made in controlling the HIV/AIDS pandemic globally. In the absence of a 
vaccine or cure for HIV, the global community, including the 
President's Emergency Plan for AIDS Relief (PEPFAR), has made 
meaningful and measurable strides towards ending the pandemic as a 
public health threat by bringing new infections and deaths down through 
evidence-based, community-responsive interventions.
    However, there are still 1.7 million new infections each year and 
38 million people living with the disease. By the end of 2019, 81% of 
people living with HIV knew their HIV status, over two-thirds were 
accessing antiretroviral therapy, and 59% were virally suppressed. By 
June 2020, an estimated 26 million people living with HIV were 
accessing treatment, falling short of the 30 million target set for 
2020. There remains a wide gap in treatment coverage between adults and 
children, with only 53% of children having access to life-saving 
critical care compared to 68% of adults. Furthermore disparities are 
equally felt along gender lines. In Sub-Saharan Africa, 67 percent--or 
an estimated 280,000--of annual new HIV infections in young people 
occur in adolescent girls and young women.
    However, a decline in resources over the past few years, and, 
recently, the impact of COVID-19, have put a significant strain on HIV 
programming, resulting in the world missing the 2020 targets. While 
there has been intensive action and progress against HIV in some places 
and among some populations, others including men who have sex with men, 
transgender individuals, sex workers, people who inject drugs (PWID), 
and people in prisons and other closed settings have borne the largest 
burden of the pandemic.
    With the onset of the COVID-19 pandemic, many HIV services, 
particularly prevention services, stalled. HIV testing fell 41% in 2020 
and tuberculosis referrals fell 59%. Voluntary medical male 
circumcision ground to a halt in a number of countries. In addition to 
the direct effect on HIV services, 50% of facilities surveyed in Africa 
and 37% of those surveyed in Asia recorded COVID-19 infections among 
their staff. These infections, and sometimes deaths, take health 
workers out of the rotation in countries where there is already a 
severe shortage of staff, and it decreases morale for those that 
remain. Facilities made the adaptations that they could--moving staff 
around, increasing overtime hours, increasing the amount of a 
medication that could be obtained in one-visit, transferring to 
telehealth visits where appropriate--but prevention work requires in-
person contact. Many of these community relationships need to be 
rebuilt, and it's impossible to know how many new HIV infections could 
have been prevented.
    The good news is that these gaps can be closed. With the political 
will to transform systems, we can reach the most vulnerable and not 
only save lives, but ensure the quality of those lives. We know what 
works, and have demonstrated that U.S.-funded interventions can be 
life-changing. By 2019, more than 40 countries had surpassed or were 
within reach of the key epidemiological milestone towards ending AIDS. 
New HIV infections declined by 23% globally between 2010 and 2019, with 
some countries having tremendous success--in Swaziland, HIV incidence 
declined by 50% in five years, with new infections falling at a rate of 
1,000 per year. Among the 15 countries implementing the DREAMS 
initiative, the latest results show a 25% or greater decline in new HIV 
diagnoses among adolescent girls and young women in nearly all of the 
regions implementing DREAMS across 10 high-burden African countries. 
These strategies, paired with new and promising innovations, can end 
HIV by 2030 if given the necessary support and resources to do so.
    PEPFAR has shown it is a responsible shepherd of U.S. dollars, 
using evidence and data to allocate funds with increased effectiveness 
and efficiency. With essentially flat funding for over ten years, 
PEPFAR has increased the number of people it directly or indirectly 
supports from 6.7 million people at the end of FY 2013 to 17.2 million 
people today. PEPFAR also increased its support of voluntary medical 
male circumcision procedures in Eastern and Southern Africa to reduce 
the risk of HIV transmission from 4.7 million men at the end of FY 2013 
to 25.3 million men at the end of FY 2019. In FY2019, PEPFAR supported 
17.2 million people on antiretroviral treatment (ART). Since the 
program's inception, 2.8 million babies have been born HIV-free to 
pregnant women living with HIV through prevention of mother-to-child 
transmission (PMTCT) programs funded by PEPFAR. The Global Fund, which 
provides more than 20 percent of all international financing for HIV/
AIDS, has saved 38 million lives since its inception in 2002. Overall, 
the number of deaths caused by AIDS, tuberculosis (TB), and malaria 
each year has been reduced by nearly one-half since 2002 in countries 
where the Global Fund invests.
    In addition to the direct effects on HIV incidence, PEPFAR 
countries also see greater overall health outcomes, increased country 
capacity, increased gender equality, and increased economic 
development. Investments in HIV programming act as effective diplomacy, 
strengthening partnership with national governments and improving ties 
with partners. U.S. leadership in the fight against HIV and other 
leading infectious disease killers worldwide is a moral imperative, a 
public health imperative, a human rights imperative, and a security 
imperative.
    Global resources to fight HIV and AIDS have decreased since 2017, 
leaving a 30 percent shortfall for what is needed to fully respond to 
the pandemic. According to UNAIDS, increases in resources for HIV 
responses in low- and middle-income countries stalled in 2017, and 
funding decreased by 7 percent between 2017 and 2019. We expect that 
funding will face even more cuts this year as governments grapple with 
their response to COVID-19. While domestic contributions make up 57 
percent of all resources available, global financial support is still a 
critical element of success. Increasing PEPFAR funding by $750 million 
in this fiscal year would show the U.S.'s commitment to ending AIDS as 
a public health threat, making a significant down payment in the fight 
to end AIDS and motivating other funders to step up.
    Twenty years into the program, PEPFAR continues to show the world 
the United States' compassion and effectively addresses the challenges 
of HIV/AIDS through prevention, care, and treatment programs and 
policies that are grounded in science and respect human rights. This 
program improves and saves lives around the world and continues to 
advance the U.S.'s development goals and national security. However, 
continuing to do more with less eventually reaches a point of 
diminishing returns. A dollar can only move so far. Without increased 
resources and support coupled with sound policy and a commitment to 
civil society consultation at all levels, we cannot reach the goals 
that we have been chasing for over four decades-an end to the HIV 
pandemic. Closing that chapter of history and continuing our legacy of 
helping end pandemics would put one of the greatest human achievements 
on the U.S. ledger.

    [This statement was submitted by Kevin Fisher.]
                                 ______
                                 
 Prepared Statement of the Global Campaign for Education--United States
    As the Executive Director of the Global Campaign for Education-US 
(GCE-US), I represent a diverse coalition of more than 80 international 
nonprofit organizations, faith-based groups, and advocates dedicated to 
ensuring quality, universal education for all children and youth. We 
urge you to support effective investments in education globally by 
allocating at least $1.1 billion to the Basic Education account, 
including at least $150 million for the Global Partnership for 
Education (GPE) and at least $50 million for Education Cannot Wait 
(ECW), both of which complement U.S. bilateral education efforts. This 
funding will ensure that the United States (U.S.) Government, 
particularly through the Department of State and the United States 
Agency for International Development (USAID), continues to play a 
leadership role in critical efforts to achieve universal quality, 
inclusive education, which is more important than ever, in light of the 
impacts of the COVID-19 pandemic around the world.
    The power of education is clear--brighter futures, healthier 
communities, and increased economic growth for individuals and 
countries. Education increases security and stability, spurs economic 
growth, and provides proven results across development sectors. As 
outlined in USAID's Education Strategy, ``the U.S. Government 
recognizes that its investments in international education serve as a 
force multiplier for all of its work in international development.'' 
Addressing education means more than just addressing learning: 
education support is also vital to creating positive outcomes for 
stopping the spread of disease\i\ and reducing gender disparities.\ii\
    The COVID-19 pandemic and ongoing humanitarian emergencies have 
rendered bilateral and multilateral investments in education all the 
more critical. School closures during the COVID-19 pandemic have 
impacted over 91% of the world's school-aged children and youth. When 
children and youth are out of school, they may be exposed to the 
results of education loss, including regression in foundational 
knowledge, increased exposure to health and well-being risks (both 
psychosocial and physical), and increased risk of not completing 
school.\iii\ Additionally, World Vision estimates that, because of the 
pandemic, an additional 85 million children worldwide may be exposed to 
physical, sexual, and emotional violence.\iv\ The risks are even higher 
for girls and children with disabilities. For example, teenage girls 
experience a 65% increased risk of pregnancy when schools are closed 
during a crisis, which is estimated to result in one million girls not 
returning to school in sub-Saharan Africa after the pandemic and a $10 
billion loss for the region.\v\ Underlying health conditions can make 
children and youth with disabilities more vulnerable to the 
consequences of the pandemic. They face additional barriers to 
accessing remote learning strategies and enrollment or re-enrollment 
efforts when schools reopen.\vi\ Schools often deliver key health, 
nutrition, water, sanitation, and hygiene supports, like ECW has via 
schools in Cameroon, Mali, Chad, and Burkina Faso.\vii,viii\
    Failing to act now to address this monumental gap could result in a 
lost generation--a generation without education and with severely 
limited opportunities for economic prosperity, in addition to its 
impact on health, poverty reduction, and climate change. According to a 
World Bank study\ix\ and numerous experts, educating girls is a key 
aspect to fighting climate change.\x\ The Malala Fund estimates that in 
2021 climate-related events will prevent at least four million girls in 
low- and lower-middle-income countries from completing their education: 
If current trends continue, by 2025 climate change will be a 
contributing factor in preventing at least 12.5 million girls from 
completing their education each year. Schooling provides skills to 
overcome climate-related shocks, including the critical thinking 
capabilities needed to process and act on the risk of weather reports. 
Countries that have invested in girls' education have suffered far 
fewer deaths from droughts and floods than countries with lower levels 
of girls' education.\xi\
    Despite the challenges of COVID-19, USAID and multilateral partners 
have found effective solutions to address evolving education needs. 
USAID programs reached more than 24 million learners in 2020 from pre-
primary through secondary levels through a variety of in-person and 
distance approaches in order to navigate school closures.\xii\ 
Complementing these bilateral programs, GPE and ECW are making 
significant strides to build more resilient, national public education 
systems and education in emergencies, including during the COVID-19 
pandemic. In the first year of the pandemic, ECW has mobilized $45.4 
million across 27 countries and reached over 9 million vulnerable boys 
and girls.\xiii,xiv\ GPE mobilized over $500 million across 66 
countries, reaching 355 million children.\xv\
    GPE is a unique, multi-stakeholder partnership, and the largest 
global fund solely dedicated to transforming education in lower-income 
countries. It brings together developing country partner governments, 
donors, international organizations, and civil society to pursue the 
shared objective of equitable, quality education for all, providing 
financial and technical support to ensure educational opportunities in 
developing countries. GPE focuses on leveraging more and better 
domestic financing as the most significant and sustainable form of 
funding for education. To receive GPE funding, governments must commit 
to making significant domestic investments in education. GPE supports 
educational continuity and helps partners keep their education systems 
functioning through wars, displacement, crises, climate disasters and 
health emergencies, including the ongoing COVID-19 pandemic.
    ECW brings together governments, humanitarian and development 
actors, donors, and civil society to deliver a collaborative and rapid 
response to the educational needs of children and youth affected by 
crises, emergencies, and conflicts. ECW ensures that education and 
learning are central components of humanitarian response efforts, and 
that emergencies and crises do not disrupt a child's right to 
education. ECW's investments have reached children and youth in some of 
the most challenging crisis settings: ongoing armed conflicts, forced 
displacement, refugee exodus, and climate-related emergencies. When the 
pandemic hit, ECW mobilized quickly with almost half of the $45.4 
million used in the COVID-19 response targeting refugees and people who 
were internally displaced.\xvi\
    With the implementation of the U.S. Government Education Strategy, 
the development of the Advancing Protection and Care for Children in 
Adversity strategy, and the Global Child Thrive Act, USAID and its 
partners have a solid foundation to improve the lives and futures of 
children and youth around the world. These strategies seek to address 
the needs of the world's most at-risk and to intervene when children 
and youth need it most, providing nurturing environments to keep 
children safe, fostering their early development, and engaging them in 
quality, inclusive education from the early years. While these 
strategies are eloquent on paper, they must be backed by sufficient 
financial resources to be effective, particularly in light of the 
resulting impacts of the COVID-19 pandemic. Robust funding can address 
the education needs that existed prior to the pandemic and give us the 
chance to build back better, supporting Sustainable Development Goal 4 
to ``ensure inclusive and equitable quality education and promote 
lifelong learning opportunities for all.'' \xvii\ For FY2022, we 
recommend funding the Vulnerable Children account with at least $35 
million to support implementation and reporting as mandated by the 
Global Child Thrive law, which was enacted into law in January 2021.
    The COVID-19 pandemic has made it more imperative to fund effective 
humanitarian and development assistance, which is why we urge that this 
funding not come at the expense of other development or humanitarian 
accounts. We strongly support sustained funding for the entirety of 
poverty-focused development accounts, which work together to serve the 
common goal of building a safer and more prosperous world.
    Recognizing that global education is a force multiplier for all our 
work in international development, it is vital that the U.S. provides 
at least $1.1 billion for the Basic Education account in the FY2022 
State and Foreign Operations Bill, including at least $150 million for 
GPE and at least $50 million for ECW.
---------------------------------------------------------------------------
    \i\ https://www.eccnetwork.net/sites/default/files/media/file/
EducationInEbola_JointAdvocayBrief.pdf
    \ii\ https://www.edu-links.org/topics/gender-and-girls-education
    \iii\ https://www.educationcannotwait.org/covid-19/
    \iv\ https://www.wvi.org/stories/ghana/covid-19-could-put-85-
million-children-risk-physical-sexual-and-emotional-violence
    \v\ https://www.wvi.org/sites/default/files/2020-08/
Covid19%20Aftershocks_Access%20Denied_small.pdf
    \vi\ https://thedocs.worldbank.org/en/doc/147471595907235497-
0090022020/original/
IEIIssuesPaperDisabilityInclusiveEducationFINALACCESSIBLE.pdf
    \vii\ https://reliefweb.int/report/cameroon/ecw-announces-us1-
million-grant-ensure-access-education-newly-arrived-refugees
    \viii\ https://www.unhcr.org/5ea7eb134.pdf
    \ix\ https://documents1.worldbank.org/curated/en/
328491468340475205/pdf/WPS5342.pdf
    \x\ https://gemreportunesco.wordpress.com/2015/12/02/education-a-
powerful-response-to-climate-change/
    \xi\ https://openknowledge.worldbank.org/handle/10986/3827?-
show=full
    \xii\ https://www.usaid.gov/sites/default/files/documents/
USAID_Covid_factsheet_v5c-508.pdf
    \xiii\ https://www.educationcannotwait.org/tag/covid19/
    \xiv\ https://www.educationcannotwait.org/education-cannot-wait-
investments-reach-refugee-and-other-vulnerable-children-and-youth-in-
response-to-covid-19-pandemic/
    \xv\ https://www.globalpartnership.org/covid19
    \xvi\ https://s30755.pcdn.co/wp-content/uploads/2021/05/
ECW2021CFI_web.pdf
    \xvii\ https://sdgs.un.org/goals/goal4

    [This statement was submitted by Jennifer Rigg, Executive 
Director.]
                                 ______
                                 
            Prepared Statement of the Global Health Council
    Global Health Council (GHC) is the leading membership organization 
for nonprofits, businesses, universities, and individuals dedicated to 
saving lives and improving the health of people worldwide. GHC thanks 
the Subcommittee for the opportunity to share this testimony in support 
of the Global Health Programs account within the International Affairs 
Account (Function 150). For Fiscal Year (FY) 2022, GHC urges continued 
support for global health at a minimum of FY21 levels enacted by 
Congress. However, we must caution, that in order to achieve U.S. 
global health goals and meet our commitments, we ask that you support a 
greater investment in global health programs for FY22, which includes 
at least $15,151,500,000 for global health programs at the Department 
of State and for the U.S. Agency for International Development; $540 
million for water in all accounts, and $134 million for UNICEF. These 
investments yield positive outcomes that support U.S. interests and 
leadership abroad.
    Global health funding supports maternal and child health, including 
the U.S. contribution to Gavi, the Vaccine Alliance; nutrition; HIV/
AIDS; malaria; tuberculosis; family planning; neglected tropical 
diseases; and vulnerable children. Continued funding for global health 
is critical to reaching the finish line on the bold global health 
initiatives to which countries around the world, including the United 
States, have committed resources. These targets include: achieving the 
first AIDS-free generation; ending preventable child and maternal 
deaths; and eradicating polio, measles, and malaria. U.S. investments 
draw attention to and prioritize solutions that address non-
communicable and other neglected health threats that are increasingly 
affecting the economies of key trading partners. These investments work 
well beyond their intended targets by helping to protect the health of 
Americans by strengthening countries' capacity to better prevent, 
detect, and respond to infectious disease outbreaks.
    We know these programs work and have secured their place as some of 
the most critical and cost-effective forms of U.S. foreign assistance. 
These are a critical component of how the United States engages with 
the world. By investing in global health and development, the U.S. can 
build healthier and more self-reliant communities, which ultimately 
become economically and politically stable. A reduction in these 
investments would roll back the progress already made and undermine 
U.S. foreign policy. In recent years, we have seen practitioners and 
U.S. agencies working harder than ever to integrate global health 
programs and services in a way that leverages and maximizes investments 
while increasing the efficiency and effectiveness of these programs 
worldwide.
    The past year has shown that existing U.S. global health programs 
helped to detect, treat, and respond to the COVID-19 pandemic as it 
spreads. Without the infrastructure in place from existing programs, 
the outcomes for many COVID-19 patients may have been far more 
devastating. The strain placed on these programs in light of the 
pandemic has threatened our long-term goals and drastically reduced the 
number of people seeking preventive care, medication, and treatment, 
for other illnesses. We have not yet seen the full effect of the 
pandemic across health systems globally. As a result of the effects we 
have already seen of the pandemic, GHC recommends that Congress 
consider the establishment of a Global Pandemic Preparedness Fund to 
help the United States better detect and respond to emerging threats. A 
dedicated, disease-agnostic, multilateral financing mechanism would 
rapidly accelerate pandemic preparedness by providing new funding and 
technical assistance to partner countries to develop and accelerate 
health security action plans, close gaps in preparedness, and promote 
compliance with the International Health Regulations.
    By maintaining U.S. investment in global health, we will continue 
to build upon the hard work and achievements of the past to ensure a 
healthier future for the entire world. Moreover, Americans consistently 
support global health and development assistance funding. Especially in 
a moment where cooperation is needed to bolster health systems and 
preparedness worldwide, the U.S. must support critical investments in 
global health.
    Global Health Council thanks the Subcommittee for the opportunity 
to submit written testimony. For more information on our 
recommendations for U.S. investments in global health, visit http://
ghbb.globalhealth.org.

    [This statement was submitted by Kiki Kalkstein, Director of 
Advocacy & Engagement.]
                                 ______
                                 
     Prepared Statement of the Global Health Technologies Coalition
    On behalf of the Global Health Technologies Coalition (GHTC), a 
group of 37 nonprofit organizations, academic institutions, and aligned 
businesses advancing policies to accelerate the creation of new drugs, 
vaccines, diagnostics, and other tools that bring healthy lives within 
reach for all people, I am providing testimony on fiscal year (FY) 2022 
appropriations for global health programs at the US Agency for 
International Development (USAID). These recommendations reflect the 
needs expressed by our members working across the globe to develop new 
and improved technologies for the world's most pressing health issues. 
We appreciate the Committee's support for global health, particularly 
for continued research and development (R&D) to advance new drugs, 
vaccines, diagnostics, and other tools for longstanding and emerging 
health challenges, including COVID-19. To this end, we strongly urge 
the Committee to continue its established support for global health R&D 
by robustly funding the global health accounts at USAID and the State 
Department, at or above the levels included in the President's budget 
request; instructing USAID to prioritize R&D within each of the disease 
and condition areas under the Global Health Programs account and to 
consider setting minimum funding targets for innovation activities in 
each health area from future increases to the account; and instructing 
USAID to develop and publicly release a new five-year strategy on 
health-related R&D detailing how USAID will work across programs to 
implement a holistic global health R&D strategy-developed with input 
from program leads within the Global Health Bureau, consultations with 
nonprofit and private-sector partners, and leadership of other relevant 
federal departments and agencies.
    US investment in the development of new vaccines, drugs, devices, 
diagnostics, and other health technologies is essential to addressing 
some of the world's most pressing health challenges-achieving an AIDS-
free generation; curbing the spread of malaria, tuberculosis (TB), and 
neglected tropical diseases (NTDs); addressing antimicrobial 
resistance; and ending preventable child deaths. Over the past year, 
the importance of strong investment in global health R&D has become 
clearer than ever before as scientists raced to develop the tools 
desperately needed to diagnose, treat, and prevent COVID-19. We have 
watched with awe as scientists have shattered speed records for vaccine 
development, forged unique collaborations to advance science across 
borders, and deployed an unprecedented amount of energy and resources 
from a range of health areas to tackle this global foe-upending 
assumptions about how science works, and how fast. Now, well over a 
year into the official declaration of the COVID-19 global pandemic, we 
have a robust set of tools to defeat this threat in high-income 
countries but still lack the tools needed to meet the unique needs of 
patients and health workers in low-resource settings, where basic 
resources like electricity, laboratory capacity, and reliable cold 
chain storage cannot be taken for granted. This is the next frontier of 
R&D for COVID-19: ensuring that we have the right tools to defeat this 
pandemic in every corner of the globe, which is ultimately essential 
for securing America against this historic threat.
    We are grateful for the Committee's ongoing support for global 
health R&D and recognize that you face difficult decisions in balancing 
many priorities for annual appropriations and the allocation and use of 
emergency appropriations for unprecedented R&D and public health needs 
over the past year. We welcome the recent allocations of emergency 
funding for Gavi, the Vaccine Alliance; Global Health Programs at 
USAID; the President's Emergency Plan for AIDS Relief (PEPFAR); and the 
Global Fund to Fight AIDS, Tuberculosis and Malaria in the last two 
COVID-19 relief packages-however, we note that critical needs remain 
unmet, including funding to support the development and deployment of 
COVID-19 products designed for use in low-resource settings, and that 
USAID has yet to allocate the contribution to the Coalition for 
Epidemic Preparedness Innovations (CEPI) included in the American 
Rescue Plan Act. New global health tools and technologies hold promise 
to dramatically improve the lives of those living in the poorest 
countries around the world both to extinguish the COVID-19 pandemic and 
tackle long-standing global health challenges, and even as we work to 
scale up delivery of existing tools, we ask for your support for 
continued innovation in FY22.
    Critical Need for New Global Health Tools.--While we have made 
tremendous gains in global health over the past fifteen years, millions 
of people around the world are still threatened by HIV/AIDS, TB, 
malaria, and other neglected diseases and health conditions. In 2019, 
TB killed 1.4 million people, more than any other infectious disease at 
that time, while 1.7 million people were newly diagnosed with HIV. 
Nearly half of the global population remains at risk for malaria, with 
drug-resistant strains growing. Women and children remain the most 
vulnerable. Around 68% of all global maternal and child deaths 
occurring in sub-Saharan Africa, with 1 out of every 13 children in the 
region dying before the age of 5-often from vaccine-preventable or 
other communicable diseases. These figures highlight the tremendous 
global health challenges that remain and the need for sustained 
investment in global health research to deliver new tools to combat 
endemic and emerging threats.
    New tools and technologies are critical, both to address unmet 
global health needs and to address challenges of drug resistance, 
outdated and toxic treatments, and difficulty administering current 
health technologies in poor, remote, and unstable settings. We must 
also continue investing in the next generation of tools to prepare for 
emerging threats. The COVID-19 pandemic has again demonstrated that we 
do not have all the tools needed to prevent, diagnose, and treat many 
neglected and emerging infectious diseases-a reality foreshadowed by 
the recent Zika and Ebola epidemics. The life-saving effects of the 
COVID-19 vaccines demonstrate the power of having the right tools to 
respond to a health emergency. These new vaccines, developed with 
critical funding the US government, are highly effective and built upon 
past global health research advances. Notably, the Johnson & Johnson 
vaccine is based on technology used in its Ebola vaccine and Zika, 
respiratory syncytial virus, and HIV/AIDS vaccine candidates and the 
Moderna-National Institute of Allergy and Infectious Diseases (NIAID) 
vaccine platform was previously being used to develop vaccines against 
other respiratory viruses and the chikungunya virus. This demonstrates 
how strong, sustained investment in R&D allows us to tackle today's 
health threats and prepare for those of the future. It is critical we 
keep investing in the development of next-generation tools to fight 
existing and emerging disease threats so that we have tools ready to go 
when we need them.
    USAID Contributions to Global Health R&D.--USAID is the only US 
agency with a mandate to focus on global health and development. For 
that reason, the agency is uniquely positioned to support the end-to-
end development of new global health technologies-from defining a 
global health challenge, designing a tool to address it, developing 
that tool through clinical trials, and delivering that tool to 
communities most in need-in a way that is not replicated elsewhere in 
the US government, particularly for late-stage research and product 
development. USAID's global presence and unique understanding of the 
needs of patients in different settings and contexts is key to 
developing health innovations that are transformative on the ground. We 
applaud the efforts that USAID has made in fostering innovation in 
health technologies, including:

  --Partnering across government agencies and among private-sector 
        partners to identify breakthrough innovations to combat 
        infectious disease epidemics in response to recent outbreaks of 
        Ebola and Zika. USAID's Fighting Ebola Grand Challenge 
        identified 1,500 innovative technologies to advance the fight 
        against Ebola and advanced 14, including a low-cost, battery-
        operated tool used during both the Ebola and COVID-19 responses 
        that manages the flow rate of intravenous treatments with a 
        simple gravity system, replacing the need for expensive, 
        difficult-to-use infusion pumps. The Combating Zika and Future 
        Threats Grand Challenge received over 900 crowdsourced 
        technology proposals and selected 26 projects to fund, which 
        cut across vector control, vector and disease surveillance, 
        diagnostics, and other interventions. In March of 2020, USAID 
        issued a request for information for proposals for low-cost, 
        scalable innovations that could support the international 
        COVID-19 response, including new products and service delivery 
        approaches. It received hundreds of proposals for potentially 
        game-changing innovations, but funding is urgently needed to 
        advance and scale them, potentially through the launch of a 
        Grand Challenge focused on COVID-19 and global health security.
  --Establishing a five-year partnership with CEPI to advance the 
        development of vaccines against priority emerging infectious 
        diseases including Lassa fever, Middle East Respiratory 
        Syndrome (MERS), Nipah, Chikungunya, Rift Valley Fever, and 
        Ebola.
  --Supporting research to develop safe, effective, and accessible 
        tools to prevent HIV in the developing world-including HIV 
        vaccines and microbicides, which have tremendous potential to 
        prevent HIV infection in women-and a low-cost, rapid, 
        disposable HIV/AIDS diagnostic test designed for infants.
  --Supporting the development of vaccines, antimalarials, 
        insecticides, and novel vector control tools against malaria, 
        including a promising single-dose cure.
  --Playing a key role in the global effort to fight TB by supporting 
        research to develop innovative, new drug regimens and 
        diagnostics for drug-susceptible and drug-resistant TB, 
        including the world's first child-friendly TB medicines, 
        developed with critical seed funding from USAID and introduced 
        in 2015, and a new all-oral treatment regimen that reduces the 
        time it takes to treat drug-susceptible TB from six months to 
        four months. USAID expertise on implementation and scale-up of 
        these innovations is a critical piece of the product 
        development cycle and ought to be appropriately prioritized.
  --Developing interventions to help women and children during 
        childbirth in low-resource settings where there may not be 
        electricity, refrigeration, or trained health workers.
  --Developing new drugs and diagnostics for a select group of 
        neglected tropical diseases (NTDs), including tools to fight 
        dengue and other mosquito-borne diseases that have been 
        deployed from Indonesia to the Florida Keys with promising 
        results.

    Global Health R&D Funding at USAID-Addressing Critical Gaps.--USAID 
is an important partner in global health product development, and it is 
critical for the agency to bolster this function of its global health 
programming. This means that global health programs within USAID 
require robust funding to ensure they have appropriate resources, both 
for ongoing programs and forward-looking R&D efforts.
    For the vast majority of USAID's global health programming, there 
are no dedicated funding streams or programs expressly supporting 
global health R&D. This means that decisions on USAID's investments in 
developing new global health technologies-the tools needed to make 
programming more successful and efficient and to further the agency's 
global health mission-are made at the program level, based on overall 
funding allocations for each disease or population-specific health 
area. To ensure research is appropriately prioritized, global health 
programs need appropriate resources. GHTC strongly supports increasing 
funding for USAID Global Health Programs at or above the levels 
proposed in the President's FY22 budget request to allow for 
transformative investments in the new drugs, vaccines, diagnostics, and 
other tools to accelerate global health gains while sustaining current 
programming needs.
    While some areas of USAID's global health portfolio are leading the 
way in R&D, there are other areas where a lack of resources and 
prioritization are acute. For example, USAID does not currently 
incorporate research for new vaccines for TB into its programming, and 
has made limited investments in new preventative technologies, despite 
TB being the world's greatest infectious disease killer prior to COVID-
19. USAID could also advance its role in R&D for NTDs. While the agency 
does important work to provide treatments for five of the most 
prevalent NTDs, new tools are needed to reach the end game for these 
diseases, including more sensitive diagnostics to ensure that 
elimination goals have been met-which, in addition to meeting clear 
epidemiological needs, would improve resource allocation and ensure 
that US investments have the desired results. Relatively small 
investments in R&D for new NTD tools could have an incredible return 
for both public health and our historic investment in the effort to end 
NTDs.
    USAID recognizes the value of global health R&D, but this 
recognition is not always clearly articulated in the many strategic 
documents and frameworks that guide the agency's work. Congress has an 
important opportunity to correct this by requesting a new five-year 
strategy on health-related R&D from USAID detailing how the agency will 
work across programs to achieve global health R&D goals. The strategy-
vital to ensuring that innovation fuels USAID's global health mission 
and R&D is appropriately prioritized-should be developed with input 
from program leads within the Global Health Bureau, consultations with 
external nonprofit and private-sector partners, and leadership of other 
relevant federal departments and agencies. The strategy should detail 
how USAID coordinates with stakeholders to support innovative global 
health product development to address critical gaps, particularly for 
late-stage research and product introduction; include specific 
investment and target outcomes for research and product development 
across disease areas and crosscutting challenges like global health 
security and antimicrobial resistance; and detail where additional 
USAID investment in innovation could accelerate progress towards global 
health goals. Once developed and released, detailed annual reporting on 
this strategy-which should be made promptly available on the USAID 
website-would be vital for appropriate congressional oversight.
    GHTC stresses the need for USAID to continue to prioritize science, 
technology, and innovation to advance its global health and development 
mission. GHTC urges the Committee to continue to direct USAID Global 
Health Programs to include and expand R&D for new tools, allocate 
sufficient resources to support this work, and encourage detailed, 
public annual R&D reporting by USAID, which provides the only insight 
policymakers and advocates have into the agency's R&D decision-making 
processes.
    Collaboration Across the US Government.--In addition to USAID, 
support for global health R&D in the US government comes from the 
Department of Defense (DoD), the Department of Health and Human 
Services (HHS), the Centers for Disease Control and Prevention (CDC), 
the Food and Drug Administration (FDA), the Biological Advanced 
Research and Development Authority (BARDA), and the National Institutes 
of Health (NIH). Each of these agencies play a unique and essential 
role in moving new global health technologies from concept to reality, 
and strong interagency collaboration is essential to leverage limited 
US government resources and ensure taxpayer dollars are used most 
effectively. To this end, we urge the Committee to encourage USAID to 
work with CDC, DoD, FDA, NIH, HHS, and BARDA to develop a whole-of-
government strategy for global health R&D to coordinate priorities and 
resources and streamline operations.
    Investing in Global Health R&D as a Strategic National Security and 
Economic Decision.--Global health R&D is important for delivering 
lifesaving tools to those who need them most. However, US government 
investments in R&D-through USAID and other agencies- yield benefits in 
addition to humanitarian and development goals. As COVID-19 has 
dramatically demonstrated, health crises abroad can become health 
crises at home, and it is imperative that we sustainably invest in R&D 
for a broad range of neglected infectious diseases so that we 
understand emerging disease threats and have tools ready for them. 
Additionally, global health R&D is a smart economic investment in the 
United States, where it drives job creation, spurs business activity, 
and engages academic institutions. In fact, 89 cents of every US dollar 
invested in global health R&D benefits US-based researchers, many of 
whom conduct their research at US universities. US government 
investment in global health R&D between 2007 and 2015 generated an 
estimated 200,000 new jobs and $33 billion in economic growth.
    Global health research that improves the lives of people around the 
world-while also promoting global health security, creating jobs, and 
spurring economic growth at home-is a win-win investment. Recognizing 
this, GHTC respectfully requests that the Committee sustain and 
increase US investment in global health research and product 
development by robustly funding the global health accounts at USAID and 
the State Department, at or above the levels included in the 
President's budget request; instruct USAID -in collaboration with other 
agencies involved in global health-to prioritize R&D within each of the 
disease and condition areas under USAID's Global Health Programs 
account; and direct USAID to develop and publicly release a new five-
year strategy on health-related R&D detailing how USAID will work 
across programs to implement a holistic global health R&D strategy. 
These steps are vital to sustaining the life-saving global health 
innovation work led by USAID which is fundamental to the achievement of 
the United States' broader global health goals-which we all understand 
more clearly than ever are inseparable from our health and prosperity 
here at home.

    [This statement was submitted by Jamie Bay Nishi, Director.]
                                 ______
                                 
       Prepared Statement of the Global Partnership For Education
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to bring you up to date regarding the work of the Global 
Partnership for Education (GPE) and its 76 developing country partners 
as the COVID 19 pandemic continues to unfold in many of these 
countries. On behalf of our partners, I respectfully ask the 
Subcommittee to recommend at least $150 million, under the United 
States Agency for International Development's Development Assistance 
account, as the US Government's fiscal year 2022 contribution to the 
Global Partnership for Education. I also request that the Subcommittee 
recommend at least $1.1 billion from various accounts in the bill for 
overall basic education funding, including $50 million from accounts in 
the bill for Education Cannot Wait.
    Thanks to support from the US and other partners, the GPE has 
delivered impressive results over the past decade: 160 million more 
children are in school in our partner countries and double the number 
of girls are on the path to gender equality in these countries. Tens of 
millions of teachers have been trained and await return to the 
classroom once schools, many of them only just built over the last 
decade, are re-opened. Sixty-seven million more students now have 
access to professionally trained teachers.
    COVID 19 remains the overwhelming context and challenge for 
education throughout the developing world. Although the US and other 
wealthy nations have seen their vaccination rates climb steadily over 
the past eight months, most of our developing country partners are only 
just beginning to receive COVID vaccines, with schools remaining closed 
for hundreds of millions of children and illness and death rates 
continuing to climb. According to the World Health Organization, 
vaccination rates in sub-Saharan Africa are currently barely over 1 
percent of the population. At its height, the pandemic forced some 1 
billion children out of school for the bulk of an academic year--today 
in mid-2021 hundreds of millions remain out of school. The Global 
Partnership for Education remains concerned that continued school 
closures are impacting girls in particular and will lead to an increase 
in early marriages, domestic abuse and drop-out rates. Many of these 
girls and other marginalized children will never return to school.
    GPE responded quickly to the pandemic last spring as it was 
unfolding and re-directed over $500 million in less than six months to 
help 66 countries respond to the COVID crisis and ensure distance 
learning occurred, while also preparing for a safe return to school.
    GPE resources continue to support low tech distance learning 
programs targeted toward the most vulnerable and disadvantaged 
children, including girls, children with special needs and 
disabilities, and no-tech programs for children without access to 
electricity or internet connectivity.
For example:
    In Niger, the focus of the COVID response program funded by GPE is 
on the most vulnerable children, including those living in rural areas, 
girls, and refugee and internally displaced children. The program is 
supporting the continuity of learning outside schools and adaptation of 
school curricula to new ways of learning, and preparation for the safe 
reopening of schools. It also provides for crosscutting activities, 
including needs assessment, capacity building, monitoring and 
evaluation of learning, and production of knowledge that will serve to 
both enhance the performance of the education system and strengthen its 
resilience.
    In Tanzania-Zanzibar the online lessons developed have been 
uploaded on the Ministry of Education's website and YouTube and the 
installation of water and sanitation facilities in needy schools has 
very much enhanced student attendance. Furthermore, supporting teachers 
to teach remedial classes to cover the loss of time during school 
closure has very much motivated their performance in the classrooms.
    In Ghana, a learning management system has been developed and was 
launched during the National Education Week. It provides a platform for 
online-learning and on-going communication and teacher between 
students, parents, and teachers. This has provided needed support to 
remote-learning during the school closures. The platform will be 
integrated with all distance learning modules and will be available on 
laptops, tablets, and smartphones.
               the global partnership for education (gpe)
    The Global Partnership for Education is a public-private 
partnership of donor and developing country governments, UNICEF, UNHCR, 
the World Bank and other international organizations, civil society, 
teachers' associations, and the private sector and foundations all 
working together to ensure a more effective and efficient response to 
the global education challenge.
    GPE provides financial and technical support to 76 partner 
countries where the great majority of out of school children reside and 
where the national education systems require the most urgent support. 
USAID and other donor governments are often engaged in the local 
education groups that bring partners together at country level, support 
the confirmation of the highest priorities and help monitor progress. 
The new GPE now features a ``compact"-based operating model that 
strengthens the link between development of national sector plans, 
reforms of the system and their implementation. Additionally, the GPE 
model continues to place strong emphasis on domestic resource 
mobilization for education and more effective use of those resources.
                  gpe's impact over the last 20 years
    Access to education.--Since 2002, up until the COVID pandemic 
developed, 160 million more children were in school in GPE partner 
countries. This included 82 million additional girls in school in GPE 
partner countries--double the number compared to 2002. As an example, 
in Mauritania, girls' secondary enrollment in six rural areas tripled 
when GPE funded additional schools.
    Learning Outcomes and Improving Quality of Education.--To improve 
education and learning outcomes, GPE has trained an average of 350,000 
teachers each year. In Ghana, GPE has supported the government to raise 
primary school completion to 100% in less than 10 years.
    Fragile and/or Conflict-Affected Countries--Responsive Support.--
Almost 30 of GPE's 76 partner countries are classified as fragile and/
or conflict affected due to a natural disaster, such as an earthquake 
or protracted conflict. 76% of GPE implementation grants were allocated 
to partner countries affected by fragility and conflict in 2019 
compared to 44% in 2012.

  --Prior to the COVID pandemic, much of the world's out of school 
        children resided in such countries. GPE has developed new 
        flexible, accelerated and responsive funding policies that 
        enable swift and flexible support when crises unfold and create 
        extensive challenges to education systems. For example, GPE is 
        the largest donor supporting the continuity of education in 
        Yemen, representing over $70 million over the past 4 years.
  --Additionally, as noted previously, GPE support also addresses the 
        needs of refugees in partner countries. In Bangladesh and the 
        Central African Republic, GPE will provide $14.6 million in 
        emergency funding to support the education of tens of thousands 
        of children displaced by conflict and violence.

    Gender Equality. Ensuring that girls have access to education has 
been a top priority of the GPE since inception and much progress has 
been achieved in many partner countries. However, much more needs to be 
done to ensure gender equality. GPE has hard-wired gender equality into 
its operating model and has created a new $250 million Girls Education 
``Accelerator'' Fund to target support to very poor countries which 
have much progress to make on gender equality.
         gpe's fourth replenishment: a new case for investment
    GPE launched a new Case for Investment in October of 2020 which 
sets out an ambitious objective for the five-year period between 2021 
and 2025--the transformation of education systems in scores of 
developing countries so that every boy and girl can get 12 years of 
quality education and one year of pre-school. The financing campaign is 
being co-led by UK Prime Minister Boris Johnson and Kenyan President 
Uhuru Kenyatta, who are actively reaching out to all donor and 
developing country governments, the private sector and foundations, and 
civil society to mobilize the $5 billion required from all sources over 
the next five years to deliver the following key results:

    Enabling of 175 million girls and boys to learn;
    140 million students with access to professionally trained 
teachers;
    88 million more children, of which 48 million will be girls, in 
school;
    Lifting 18 million people out of poverty;
    And saving 2 million girls from child marriage.

    As the UK Government holds the presidency of the G7 Summit later 
this June, Prime Minister Johnson has advised all G7 members that 
global and girls' education will feature as key global priorities at 
the Summit. Additionally, PM Johnson and President Kenyatta will co-
chair the Global Education Summit: Financing GPE 2021-2025 in late 
July, which is designed to assess the progress achieved over the past 
three years, consider the ambitious agenda ahead and secure the new 
financing commitments needed to transform education in scores of 
countries over the next five years.
                      the us is a key gpe partner
    The United States, through USAID, is an active participant on GPE's 
Board, a member of the executive committee and is closely engaged at a 
technical level on the development of GPE's policies and strengthening 
of its funding and operational models. USAID also often serves as a 
member of the local education group in many partner countries, a key 
priority setting and program monitoring body in all countries. USAID 
missions also work with ministries of education in GPE-supported 
countries on the formulation of national plans and applications for GPE 
support.
   fiscal year 2022 united states support for gpe and basic education
    Mr. Chairman, I urge the Subcommittee to recommend a fiscal year 
2022 U.S. contribution to the Global Partnership for Education of $150 
million. I also urge you to support an overall fiscal year 2022 level 
for basic education of at least $1.1 billion, $50 million from various 
accounts to support Education Cannot Wait, and $134 million for our 
close partner UNICEF, which serves as a grant agent for GPE in many 
crisis and conflict countries.
    Thank you for your consideration.

    [This statement was submitted by Alice Albright, Chief Executive 
Officer.]
                                 ______
                                 
  Prepared Statement of the Global Policy and Advocacy, International 
                         Rescue Committee (IRC)
    Chairman Coons, Ranking Member Graham, and members of the 
subcommittee, on behalf of the International Rescue Committee, a global 
humanitarian aid organization that offers emergency aid and long-term 
assistance to people in crisis in over 40 countries and helps refugees 
and other displaced people integrate into their new communities across 
dozens of cities in Europe and the Americas, thank you for this 
opportunity to testify on the needs of people fleeing conflict, 
violence, persecution, and disaster. The following testimony strongly 
urges increased funding levels for International Disaster Assistance 
($5.27 billion); Emergency Refugee and Migrant Assistance ($50 
million); Migration and Refugee Assistance ($4.12 billion); Basic 
Education ($1.1 billion); Malnutrition ($300 million); Vulnerable 
Children ($35 million); and for a three-fold increase in funding for 
gender-based violence. In an era in which humanitarian need is vastly 
outstripping humanitarian financing, it also asks Congress to introduce 
novel language to improve the effectiveness, transparency and 
accountability of humanitarian financing. Finally, it supports the 
allocation of 20,000 additional Special Immigrant Visas for U.S.-
affiliated Afghans.
     increasing capacity to respond to crises and fragile contexts
    The compounding challenges of COVID-19, climate change, and 
conflict are driving unprecedented humanitarian need and attendant 
instability: this year, 235.4 million people--1 in every 33 people--are 
in need of humanitarian assistance, 40% more than in 2020. These needs 
are vastly outpacing humanitarian funding. Humanitarian Response Plans 
(HRPs) continue to be underfunded by nearly 40%. The greatest gaps in 
response remain in fragile, conflict-affected states that drive the 
majority of displacement, and where impacts of the pandemic are 
reversing decades of hard-won progress to protect women and girls, 
increase access to education, and reduce poverty, hunger, and disease. 
As the IRC's 2021 Watchlist reveals, 20 countries, representing just 
10% of the global population, account for 85% of humanitarian need, 84% 
of all refugees, and 88% of populations internally displaced. The US 
must focus and scale up humanitarian financing and programming in these 
contexts to help reverse these trends. We urge Congress to ensure that 
at least 50% of bilateral and multilateral economic and humanitarian 
assistance goes to these to these fragile and conflict affected states, 
to address urgent needs and their root causes. We further urge Congress 
to:

  --Increase International Disaster Assistance (IDA) to $5.27 billion, 
        $588 million higher than the FY22 Presidential Budget Request, 
        to support direct disaster and emergency relief, 
        rehabilitation, reconstruction, and the ability to address root 
        causes of conflict at scale, including in Northern Central 
        American, where increasing numbers of those internally 
        displaced by violence are overwhelming communities of first 
        refuge.
  --Double funding for nutrition programming to $300 million to respond 
        to rising malnutrition. The number of food-insecure people 
        worldwide increased by 82% in 2020 as a result of the pandemic. 
        To meet rising needs, we recommend Congress direct a portion of 
        these funds for the rapid scale-up of a simplified protocol for 
        testing and treating acute malnutrition with the help of 
        community health workers, which could significantly expand the 
        reach of existing nutrition programming.
  --Bridge global gaps in education and early childhood development 
        interventions for refugee and conflict-affected children by 
        appropriating $1.1 billion for Basic Education--compared to 
        $682M requested in FY22--with at least $150 million dedicated 
        to education programs in conflict zones and settings with high 
        rates of displacement; and $35 million for the Vulnerable 
        Children program. Prior to the pandemic, refugee children were 
        already five times more likely to not be in school than their 
        peers. Now, more than half of refugee girls may not return as 
        schools reopen. Despite rising need, less than 3% of 
        humanitarian aid is allocated toward education. This is no time 
        to retreat from education funding. Further, 71 million children 
        under the age of five have lived in conflict areas for their 
        entire lifetimes, leaving them without access to the necessary 
        foundations of healthy human development. Yet just 3% of 
        development assistance and 2% of humanitarian assistance 
        globally is for Early Childhood Development. In order to 
        support successful implementation of the 2021 Global Child 
        Thrive Act, we further recommend that USAID and the Department 
        of State conduct a pilot program in up to three crisis contexts 
        to jointly provide the full range of early childhood 
        development interventions to displaced populations.
  --Triple funding for the prevention of and response to gender-based 
        violence (GBV). Less than 1% of global humanitarian assistance 
        is allocated to GBV programming despite disproportionate 
        impacts of conflict and crises on women and girls. These 
        impacts accelerated with the pandemic, with an estimated 15 
        million additional cases of GBV for every three months of 
        pandemic lockdown.
 restoring us global leadership on refugee protection and resettlement
    Violent conflict has increased 75% over the last decade; 
accordingly, the number of people forcibly displaced has nearly doubled 
since 2010, with over 80 million people now forcibly displaced and the 
number of refugees increasing by 8 million just over the last four 
years. There are now over 26 million refugees worldwide, with nearly 
90% of them hosted in low- and middle-income countries straining to 
provide support. On average over the last decade, fewer than 1% of 
refugees have been resettled and fewer than 3% have been able to return 
home. Against this backdrop, humanitarian leadership from wealthy 
nations has been in retreat, with humanitarian aid levels stagnating 
and global resettlement slots offered by wealthier nations dropping 
more than 50% over the last four years, while over 1.4 million refugees 
await resettlement. Urgent and expansive US financing and leadership is 
needed to support refugees overseas and incentivize host countries to 
provide access to jobs, education, and other pathways to self-reliance 
for refugees; and to rebuild, anchored by US resettlement commitments, 
global resettlement commitments. We urge Congress to:

  --Increase Migration and Refugee Assistance (MRA) to $4.12 billion to 
        respond to emerging, growing, and protracted refugee crises, 
        including in the Western Hemisphere, and to rapidly restore the 
        US Refugee Admissions Program. The previous administration 
        issued four consecutive, all-time low, annual refugee 
        admissions goals; reduced arrivals by 86%; and dismantled the 
        US global refugee referral and processing infrastructure. To 
        meet the President's ambitious and necessary goal of admitting 
        125,000 refugees next fiscal year, the Bureau of Population, 
        Refugees and Migration must be equipped to support capacity 
        building, program expansion, and innovation, including 
        expanding resettlement and protection programming in the 
        Americas, where needs rose by 489% from 2020 to 2021--more than 
        any other region in the world.
  --Fund Emergency Refugee and Migration Assistance (ERMA) to at least 
        $50 million to support rapid response to unforeseen and 
        emerging refugee and migrant needs. The President recently drew 
        down $46 million from this account for the purpose of meeting 
        humanitarian needs of vulnerable refugees and migrants in 
        Central America and the President's Budget Request estimates 
        that there will be a $50 million drawdown on this account next 
        fiscal year. We further recommend that the authorized funding 
        level be raised to $200 million and that the Secretary of State 
        be authorized to draw down ERMA funds.
  --Ensure emergency protection for US-Affiliated Afghans jeopardized 
        by the US military withdrawal. The US withdrawal from 
        Afghanistan will leave tens of thousands of Afghans under 
        mortal threat as a direct consequence of their affiliation with 
        the US mission. The US must be prepared to meet its commitment 
        and moral obligation to help its allies escape violent 
        retribution for their critical assistance. We urge the 
        allocation of 20,000 additional visas in the FY22 State, 
        Foreign Operations, and Related Programs bill. We also 
        recommend that the Committee include report language directing 
        the protection of surviving spouses and children of SIV 
        applicants who are killed before receiving their visas. We 
        further urge the Committee to direct the Department of State to 
        designate US-affiliated Afghans for Priority 2 status under the 
        US Refugee Admissions Program, a measure that will provide a 
        critical pathway to protection and family reunification in the 
        long-term; and to request that the Biden-Harris 
        administration's inter-agency review of SIV processing and 
        vetting, as directed in President Biden's Executive Order 
        14013, be shared with Congress.
    improving the effectiveness, transparency and accountability of 
                               financing
    We thank Congress for appropriating nearly $20 billion in 
supplemental funding to fight the COVID-19 pandemic and its impacts 
globally, including $11 billion in the American Rescue Plan relief 
bill. What is needed now is to ensure this funding as well as funding 
to be allocated in FY22 is effective, transparent and achieves outcomes 
in the lives of the most vulnerable. We urge Congress to:

  --Increase the volume of funds to frontline responders. Frontline 
        NGOs and community-based organizations are uniquely situated to 
        quickly scale COVID-19 prevention and mitigation measures, 
        including last-mile vaccine delivery in complex humanitarian 
        contexts. In some contexts, where governments either cannot or 
        will not respond, they are already delivering 80% of health 
        services. In addition, frontline NGOs-including international, 
        national, and community-based NGOs that have built trust with 
        communities over years of delivering services-are critical when 
        responding to a complex crisis like a pandemic. However, in 
        recent years, almost two-thirds of global humanitarian 
        assistance has gone through multilateral agencies, including 
        80% of funding for the COVID-19 global appeal--even though 
        funding can take up to 8 months to reach frontline actors.
  --Support multi-year planning for protracted humanitarian crises. Of 
        the IRC's 20 Watchlist countries, 13 crises are protracted, 
        with humanitarian response plans averaging 15 years. However, 
        humanitarian grants remain about one year in length on average, 
        hampering strategies to support the development and self-
        sufficiency of long-term displaced populations, and introducing 
        program inefficiencies. A comparative analysis of two IRC cash 
        programs in Somalia found that the longer-term program cost 44% 
        less in delivery costs for every dollar transferred. These 
        crises require multi-year programming and thus multi-year 
        financing to implementing partners to better meet the immediate 
        and long-term needs of crisis-affected populations. We 
        recommend USAID and the Department of State commit to jointly 
        develop multi-year humanitarian strategies for protracted 
        crises and agree on a target for increasing the number of 
        multi-year humanitarian awards, contingent on available funds, 
        to help ensure that long-term needs are met and people caught 
        in crisis can move from dependency to self-reliance.
  --Increase transparency on humanitarian financing flows and program 
        results. Humanitarian financing is not routinely or completely 
        reported to public systems, like the Financial Tracking Service 
        (FTS). The FTS shows funding flows from donor governments to 
        immediate recipients, but not the secondary recipients of that 
        funding. For example, there is no transparency on where 80% of 
        funding for the Global Humanitarian Response Plan (GHRP) has 
        gone past first-level recipients because these recipients-
        including UN agencies-generally do not publicly report to FTS 
        the pass-through of their financing to frontline implementers, 
        including international, national, and community-based NGOs. 
        Moreover, there is no consistent framework for reporting 
        results, miring implementing agencies in multiple and 
        duplicative reporting requirements, while failing to provide 
        comprehensive-and comparable-information on outcomes achieved. 
        USAID and the Department of State should develop and adopt (1) 
        a single standard for financial reporting and transparency, 
        requiring implementing partners to report the speed, amount and 
        grant length of passed-through funds, and the recipients of 
        funding through the full transaction chain to frontline 
        implementers; and (2) a single outcome and indicators framework 
        for the health, safety, education, and economic well-being of 
        crisis-affected populations, disaggregated by population status 
        and gender. By taking these steps, the US can lead the way for 
        a reformed humanitarian system.

    Thank you for your long-standing commitment to humanitarian action. 
Proliferating humanitarian crises are robbing generations of their 
human potential and exacerbating instability and insecurity, from the 
Middle East to Africa to Central and South Asia and Latin America, with 
direct consequences for US interests. Urgent and expansive US 
humanitarian leadership can reverse these trends, galvanize others to 
do more, and restore America's reputation for protecting the most 
vulnerable.

    [This statement was submitted by Nazanin Ash, Vice President.]
                                 ______
                                 
              Prepared Statement of the Global Water 2020
    Imagine giving birth in a healthcare facility where the midwife is 
unable to wash her hands, or being a young girl who can't attend school 
because you have to collect water for your family's daily needs. For 
millions of people around the world this is the daily reality--the 
inability to access safe drinking water and proper sanitation and 
hygiene in their homes, schools, and communities. Through the water and 
sanitation account at the U.S. Agency for International Development 
(USAID), U.S. investments help countries to provide safe water, 
sanitation and hygiene, or WASH, and to properly manage water 
resources. These programs ensure that girls can safely use the toilet 
at school, that newborns are less likely to die of preventable 
diarrhea, and that patients in a hospital will not acquire an infection 
while at the facility. To that end, Global Water 2020 recommends for 
Fiscal Year (FY) 2022 no less than $540 million for water and 
sanitation programs at USAID to accelerate access to safe WASH in some 
of the poorest regions of the world.
    Since FY 2008, these investments have helped almost 54 million 
people gain access to safe drinking water and 38 million people gain 
access to sanitation. In FY 2018-2019 alone, that's over 11 million 
people with water and over 10 million people with sanitation. Investing 
in WASH also reduces morbidity and mortality from WASH-related 
illnesses, such as typhoid and cholera, and other infections. In 
addition, funding for WASH helps countries build water infrastructure 
and support water service providers that can sustainably provide 
services to a growing customer base. This foundation strengthens 
governance and finance, as well as self-reliance, in partner countries.
    Improving access to WASH directly contributes to the achievement of 
other U.S. global health priorities including improving child nutrition 
and reducing acute malnutrition, ending preventable child and maternal 
deaths, containing the spread of infectious diseases such as the flu 
and coronaviruses, and controlling and eliminating neglected tropical 
diseases. Resilient and sustainable WASH programs also support economic 
development and progress across other development sectors such as 
education, food and nutrition security, agriculture, women's 
empowerment, environmental conservation, and poverty alleviation.
    The COVID-19 pandemic has raised awareness of how the simple act of 
washing one's hands could help to slow the spread the coronavirus, but 
at the same time presented a challenge to the over 3 billion people who 
are unable to wash their hands at home. WASH, along with handwashing, 
also means accessing adequate sanitation and ensuring supply chains for 
soap and cleaning supplies for healthcare facilities, markets, schools 
and other high-trafficked places. These are some of the defenses 
against the spread of the coronavirus and its variants, as well as 
other infectious diseases such as the flu, diarrheal diseases, and 
Ebola.
    Investing in sustainable WASH now helps to continue the fight 
against COVID-19, but also puts the global community ahead of the next 
pandemic--whether it be another coronavirus, Ebola outbreak, or the yet 
to be identified disease X and perhaps prevent billion-dollar emergency 
supplementals in the future.
    An FY 2022 appropriation of $540 million for water security, 
sanitation, and hygiene could:

  --Help support long-term water service continuity and prevent future 
        utility disruption with loans and financial tools in areas 
        where economic challenges from COVID-19 threaten consistent 
        service provision;
  --Provide resilient and sustainable safe drinking water services to 
        an additional 900,000 people in Africa, Asia, and Latin America 
        from the previous fiscal year;
  --Promote school attendance of girls and children with disabilities 
        with accessible and/or separate sanitary facilities;
  --Scale-up evidence collection, analysis, and learning to support the 
        expansion of proven WASH interventions to enhance resilience, 
        sustainability and self-reliance by building local, long-term 
        capacity; strengthening institutions and the rule of law; and 
        sharing best practices and lessons learned;
  --Contribute to the goal of universal WASH access, which would 
        prevent 9.1% of the global disease burden and up to 6.3% of all 
        deaths, including the prevention of nearly 830,000 deaths from 
        diarrheal diseases;
  --Provide WASH to often-overlooked healthcare facilities and schools, 
        thereby strengthening resilience to disease outbreaks and 
        improving pandemic preparedness that protects Americans at 
        home; and
  --Support cross-sectoral work USAID has underway in other areas 
        impacted by WASH, including maternal and child health; food 
        security, livelihoods, and nutrition; Neglected Tropical 
        Diseases; and economic development programming. This 
        multisectoral approach to development is more effective and 
        resilient if WASH is prioritized.

    It is also important to note that U.S. leadership has directly 
spurred partners across the fifty states such as civic groups, faith 
communities, foundations, universities, schoolchildren, corporations, 
nonprofits, and others to substantially increase their own efforts to 
provide safe drinking water and sanitation, resulting in many more 
diseases prevented and lives saved. This leadership has led to stronger 
partnerships among the State Department, USAID, and American citizens 
(e.g. Rotary's partnership with USAID).
    Access to safe WASH underpins the stability and health outcomes of 
communities around the world. These investments help to ensure that 
newborns get a healthy start in life, that girls stay in school, and 
that healthcare workers are able to provide quality care in a safe 
environment. Global Water 2020 thanks Congress for its longstanding 
bipartisan support for this important work, and looks forward to 
continued U.S. leadership in WASH.
    [This statement was submitted by John Oldfield, Principal.]
                                 ______
                                 
               Prepared Statement of The HALO Trust (USA)
    the department of state conventional weapons destruction program
    As the world's largest humanitarian demining NGO, The HALO Trust 
submits this testimony as a partner of the U.S. Government in 
addressing threats to peace, security, and human lives posed by 
improvised explosive devices (IEDs), landmines, unexploded ordnance 
(UXO), and insecure weapons stockpiles. The HALO Trust is an 
independent partner of the Department of State's Conventional Weapons 
Destruction (CWD) program. We are helping to save lives and restore 
livelihoods in more than 25 countries and territories.
    State Department humanitarian demining programs play a leading 
international role in preventing casualties, allowing displaced 
families to return to their livelihoods, supporting economic 
development, ensuring post-conflict stabilization, and promoting safety 
through securing weapons and explosive materials that could fall into 
terrorist hands.
    Our presence in remote locations across the globe has also 
positioned U.S. implementing partners to provide emergency relief when 
we are needed--whether we are called upon to provide immediate support 
in the wake of a natural disaster or prevent the spread of COVID-19.
    Given the importance of global demining and weapons security 
programs, we respectfully ask that you include the following requests 
in the FY 2022 SFOPS budget:

    1. $262.85 million for the State Department's Conventional Weapons 
Destruction program;
    2. Specific allocations for Conventional Weapons Destruction 
Programs in Laos, Vietnam, and Cambodia ($75 million), Sri Lanka ($10 
million), Angola ($10 million), Zimbabwe ($4 million), Afghanistan ($30 
million), and Nagorno Karabakh ($2 million).
    3. Of funds allocated to Conventional Weapons Destruction 
activities in Afghanistan, $5 million should be directed to support the 
clearance of improvised explosive devices (IEDs) in Afghanistan.
  the state department conventional weapons destruction (cwd) program
    The State Department CWD program has many benefits, but serves 
three primary goals: 1) To enhance regional security by destroying and 
securing weapons, at risk of diversion to terrorists, insurgents, and 
other violent non-state actors; 2) To improve stability and prosperity 
by clearing landmines and unexploded ordnance (UXO) contamination, 
thereby returning land to safe and productive use; and 3) To promote US 
foreign policy.\i\
Saving lives
    The most obvious benefit of CWD programs is saving lives. The 
Landmine Monitor recorded more than 130,000 casualties between 1999 and 
2018, and with at least 5,554 killed or injured by a landmine or 
cluster bomb in 2019 alone. Most casualties were civilians, not 
military forces. And, tragically, 43% of the victims in 2019 were 
children.\ii\
    Landmines continue to affect families and communities long after 
conflict has ended, threatening lives and disrupting livelihoods. No 
parent should fear that their child might suffer a fatal injury simply 
by walking to school or playing outside. Landmines kill 
indiscriminately, and we must continue to eliminate these threats.
Economic Development
    CWD activities also promote economic development that can transform 
communities after conflict. Within weeks of mine clearance, displaced 
families can return home and plant crops. Communities can build roads, 
schools, hospitals, and vital infrastructure.
    In Sri Lanka, a woman named Jeysurajan returned to her community 
with her family after being displaced by conflict for almost ten years. 
Upon returning, Jeysurajan and her family were able to build a small 
home and decided to plant crops to earn an income. However, on the 
first day of planting Jeysurajan discovered a landmine, and then 
continued to unearth more around her home. Fearing for her children's 
lives, Jeysurajan and her family had to leave their home once again. 
The land around the family's home is currently being cleared, and 
Jeysurajan hopes to soon return home and grow crops to support her 
family.
Security and Stability in Fragile States
    The explosion of explosive precursor chemicals in Beirut earlier 
this year brought the importance of explosive and ammunition management 
into sharp focus. Weapons security management programs funded by the 
CWD account support security objectives, through ammunition storage 
training and the destruction of insecure weapons, such as shoulder-
launched missiles capable of downing aircraft. Since 1973, over 60 
civilian airliners have been hit with these types of air defense 
systems.\iii\ State Department partners have secured over 41,000 
shoulder-launched missiles, ensuring that these deadly weapons cannot 
fall into the hands of arms traffickers and violent extremists.\iv\ In 
the Northern Triangle, weapons and ammunition security management 
programs also help to combat the illicit flow of black-market weapons 
that fuel violence and emigration.
Countering Malign Chinese Influence
    The State Department's CWD program helps counter Chinese influence 
by providing local jobs and serving as a highly visible form of popular 
U.S. assistance. While China uses debt trap financing to seize control 
of national assets in Africa, Southeast Asia, and elsewhere, US 
demining programs work in these same regions to take land that is 
currently too dangerous to use and transform it into an economic asset 
available to impoverished local populations. Every day, thousands of 
deminers with U.S. flags on their chests provide an unquestionably 
positive service to communities.
    supporting cwd programs in laos, vietnam, cambodia, sri lanka, 
          afghanistan, angola, zimbabwe, and nagorno karabakh
Laos, Vietnam, Cambodia
    Laos remains heavily impacted by U.S. cluster bomblets as the most 
heavily bombed country in history. Funding is needed to support the 
removal of U.S.-origin UXO, as well as capacity-building, survey, 
clearance, victim assistance, and risk education programs to reduce the 
impact of UXO on school children and communities. Clearance of U.S. 
legacy ordnance in Vietnam has significantly contributed to our growing 
strategic partnership, in addition to preventing casualties. Increased 
funding will expedite the removal of ordnance, eliminating these 
explosive hazards that still contaminate an estimated 25,500 square 
miles of land in Vietnam. Cambodia continues to suffer the impacts of 
significant landmine contamination from U.S. cluster bomblets and other 
explosive hazards. Additional resources are needed to remove U.S. 
legacy ordnance and support risk education programs to minimize the 
deadly impact of UXO on communities. Funding at a level of $75 million 
for these three countries combined will allow the U.S. to demonstrate 
its commitment to removing the deadly remnants of its war arsenal, 
while providing the State Department with flexibility to spend CWD 
funds within this region to maximize impact.
Sri Lanka
    Since the end of Sri Lanka's decades-long civil war in 2009, U.S. 
demining assistance has been critical to allowing thousands of families 
displaced by the war to return to their homes in northern and eastern 
provinces. U.S. demining efforts have also enabled the reopening of 
schools and hospitals, the reconstruction of thousands of homes, as 
well as the reconstruction of the Jaffna railway--enabling access to 
Sri Lanka's northern ports. Hundreds of thousands of mines have already 
been destroyed, and an allocation of $10 million will keep Sri Lanka on 
track to be mine-impact free in the near future.
Angola
    Landmines in Angola have injured more than 80,000 people since they 
were first used in its civil war, but with the help of U.S. foreign 
aid, nearly 100,000 landmines have been destroyed. Demining must 
continue, especially in the rural areas of Angola, where some 
communities have been waiting decades for assistance. Funding at a 
level of $10 million for demining in Angola is also necessary for the 
U.S. to implement The DELTA Act, legislation passed in December 2018 in 
support of wilderness management in the Okavango Delta region. In 
southeast Angola, landmines near the headwaters of the Okavango Delta 
kill elephants and other wildlife, hamper efforts to conduct 
biodiversity research, and interfere with anti-poaching initiatives. 
The Angolan Government has already provided $18 million last year to 
support demining in two national parks in this area, as part of its $60 
million pledge for demining in the region. This sizeable investment 
presents a unique opportunity for the U.S. and Angola to strengthen 
their partnership while supporting human safety and the development of 
a conservation economy in Angola.
Zimbabwe
    Zimbabwe possesses very dense, unfenced minefields close to houses, 
schools, and clinics that kill livestock weekly and separate 
communities from viable sources of water. Over 1,600 casualties\v\ have 
occurred due to explosive hazard accidents. Due to the predictable 
mine-laying patterns along the Zimbabwean borders, demining teams in 
Zimbabwe have one of the highest mine-destruction rates of any global 
program. Supporting $4 million for CWD programs in Zimbabwe will allow 
the country to achieve mine-free status as quickly as possible.
Afghanistan
    In Afghanistan, the demining sector has the capacity to support 
security by clearing massive amounts of landmine and other explosive 
contamination that threaten civilians, aid workers, and the Afghan 
National Defense and Security Forces (ANDSF). Funding at a level of $30 
million can also support stability through reintegration efforts. The 
demining sector has successfully employed former-Afghan local police 
and demobilized ex-combatants as deminers, thus removing incentives for 
people to return to the fight.
    The presence of IEDs in Afghanistan has presented a particular 
danger to civilians and military personnel. Afghanistan contains over 
5,400 acres of known IED contamination, and, IEDs have caused nearly 
80% of civilian casualties from explosive devices in the past 10 years. 
Currently, U.S. humanitarian demining funding does not directly support 
the clearance of IEDs in Afghanistan, though these items continue to 
represent a greater humanitarian threat as compared to other explosive 
contamination in the country. An allocation of $5 million of CWD funds 
allocated to Afghanistan focused on the clearance of IEDs would further 
support safety in the country.
Nagorno Karabakh
    In Nagorno Karabakh, a territory located between Armenia and 
Azerbaijan, residents have suffered from the threat of landmines for 
almost 30 years. The recent conflict in Nagorno Karabakh resulted in 
massive levels of contamination by cluster munitions, rockets, and 
other explosive ordnance. These hazards continue to present a grave 
humanitarian risk as explosives are still present near homes, farms and 
streets. In addition, these remnants of war remain an obstacle to 
rebuilding critical infrastructure decimated during conflict. U.S. 
funding for demining in Nagorno Karabakh ended in March 2020 and no 
funding is currently planned. An allocation of $2 million in FY22 will 
allow ordnance removal activities to scale up and ensure families can 
return to their livelihoods without fear of explosive threats.
                               conclusion
    Since 1993, the U.S. has led global demining efforts, providing 
more than $4 billion in assistance to more than 100 countries for CWD 
activities.\vi\ With U.S. support, over 15 previously mined countries 
and territories around the world are now mine-free. We hope to see many 
more countries soon join this list.
    U.S. demining and weapons security programs save lives, enable 
stabilization and rebuilding after countries have been ripped apart by 
conflict, enhance security, and promote U.S. interests while making a 
tangible difference in the lives of communities worldwide.
    For these reasons, we hope the subcommittee will support strong 
funding for the State Department CWD program, for CWD programs in Laos, 
Vietnam, Cambodia, Sri Lanka, Angola, Zimbabwe, Afghanistan, and 
Nagorno Karabakh.
    Thank you for your consideration.
---------------------------------------------------------------------------
    \i\ U.S.A., Department of State, Office of Weapons Removal and 
Abatement in the Bureau of Political-Military Affairs. (2020). The 
United States' Commitment to Conventional Weapons Destruction (19th 
ed., January-December 2019, p.5). Waynesboro, VA: McClung Companies.
    \ii\ International Campaign to Ban Landmines. (2020, November 12). 
Landmine Monitor 2020: Major Findings. Retrieved from http://www.the-
monitor.org/en-gb/reports/2020/landmine-monitor-2020/major-
findings.aspx
    \iii\ U.S.A., Department of State, Office of Weapons Removal and 
Abatement in the Bureau of Political-Military Affairs. (2020). The 
Interagency MANPADS Task Force: Building Partnerships to Protect 
Civilian Aviation (19th ed., January-December 2019, p.62). Waynesboro, 
VA: McClung Companies.
    \iv\ Ibid.
    \v\ Zimbabwe. (2017, January 2). Retrieved from http://www.the-
monitor.org/en-gb/reports/2019/zimbabwe/casualties.aspx
    \vi\ U.S.A., Department of State, Office of Weapons Removal and 
Abatement in the Bureau of Political-Military Affairs. (2021). A 
Message from Assistant Secretary Timothy Alan Betts (20th ed., January-
December 2020, p.3). Waynesboro, VA: McClung Companies.
---------------------------------------------------------------------------
    [This statement was submitted by Chris Whatley, Executive 
Director.]
                                 ______
                                 
          Prepared Statement of the Helen Keller International
Mr. Chairman:

    I am Kathy Spahn, President and Chief Executive Officer of Helen 
Keller International, and it is a pleasure to provide testimony to the 
Committee on critical programs in global health. I urge the Committee 
to recommend in fiscal year 2022, under the U.S. Agency for 
International Development's (USAID) Global Health Programs and 
Development Assistance accounts, at least $4.5 million for blind 
children; at least $22.5 million for vitamin A supplementation; $200 
million for nutrition; and $984 million for the Maternal and Child 
Health account. I also urge the Committee to support increased funding 
of at least $25 million over the fiscal year 2021 appropriated level of 
$102.5 million for the control and elimination of Neglected Tropical 
Diseases. Finally, under the Development Assistance account, I request 
that the Committee continue strong support for nutrition and 
agriculture, and support for women farmers.
    For more than a century, Helen Keller International has saved the 
sight and lives of millions. Today, we are as determined as ever to 
accomplish even more on behalf of children and adults in developing 
countries, especially given the COVID-19 pandemic and its devastating 
secondary impact on nutrition and healthcare. Helen Keller 
International has programs in 19 countries in Africa and Asia, as well 
as here in the United States. Co-founded in 1915 by the deaf-blind 
advocate for the poor and marginalized, Helen Keller, Helen Keller 
International is a leading nonprofit organization that helps the most 
vulnerable people in the world to achieve their true potential. We 
fulfill this mission by designing and implementing programs, based on 
science and local collaboration, that save lives, improve sight, and 
improve nutrition for over 300 million people each year.
    But the need is still enormous.
              helen keller international response covid-19
    In many parts of the world, the coronavirus pandemic has 
overwhelmed clinical services and brought economies to a standstill. 
Helen Keller International provides sight and life-saving preventive 
health services to tens of millions of people in Africa and Asia. Our 
services are focused on people who are most vulnerable: young children, 
pregnant women and nursing mothers, subsistence farmers, and 
communities suffering from diseases of poverty, including preventable 
blindness and malnutrition.
    Our work is already being affected by the COVID-19 pandemic: 
approximately 60 percent of programming has been paused or slowed. For 
example, campaigns to treat neglected tropical diseases and provide 
vitamin A supplementation were postponed in Africa in 2020. In short, 
the pandemic is not only creating new problems and risks--it is also 
exacerbating existing ones.
    Helen Keller is currently focused on addressing three imminent 
dangers posed by the pandemic: the COVID-19 disease itself, other 
diseases, and hunger.
    We are communicating with millions of people in communities 
throughout Africa and Asia about steps that individuals and households 
can take to minimize their risk of contracting the coronavirus and 
other communicable diseases. Where possible, we are doing so through a 
vast network of community health workers. For example, in Nepal, a 
country with high rates of mobile phone ownership, we are using phone 
calls, texts, and social media to reach more than 600,000 people.
    Helen Keller is also supporting the provision of basic water 
infrastructure. People cannot take measures to wash their hands 
frequently if they do not have the means to do so. In seeking to 
address this basic need, Helen Keller helped to install thousands of 
handwashing stands and provided soap in Mali, Niger, and Senegal.
    We have continued our longstanding commitment to vitamin A 
supplementation (VAS), an intervention that Helen Keller International 
pioneered, and that has saved millions of lives over the past 40 years. 
To protect populations from the potentially catastrophic impact of 
exposure to COVID-19, we had to minimize large gatherings and close 
contact, therefore, mass vitamin A supplementation campaigns were 
postponed until the second half of 2020. This disruption put hundreds 
of thousands of already vulnerable children at even greater risk for 
disease, but we have successfully adopted revised VAS distribution 
protocols to minimize COVID-19 risk while maximizing vitamin A's life-
saving benefit. We have achieved this by delivering VAS house-to-house, 
employing COVID-risk mitigation measures including social distancing, 
masking, use of hand sanitizers and, where possible, virtual training 
of health workers.
    The coronavirus outbreak is already impacting the economic well-
being and food supply of millions of people in countries where we work. 
Helen Keller is taking a diverse, comprehensive range of actions, 
adapted to each context. In Cameroon and Bangladesh, we are 
distributing food and cash vouchers. In Senegal, we are expanding an 
existing program that targets malnutrition among children to serve 
entire communities with locally produced enriched foods. In Mozambique, 
we are providing farmers with seeds and training so they can increase 
their food supply. Like many of our partners, we recognize the need to 
simultaneously contain the virus and address its economic, health, and 
nutritional consequences.
                   neglected tropical diseases (ntds)
    I am deeply concerned about the recently announced decision by the 
U.K. Foreign, Commonwealth, and Development Office (FCDO) to withdraw 
UK support to global Neglected Tropical Disease programs as part of 
drastic cuts to their overall development assistance.
    Neglected Tropical Diseases impact the world's most vulnerable 
people. This group of diseases blind, disfigure, and disable people in 
the poorest areas of the world--keeping them in a cycle of poverty.
    The US and UK have had a strong and highly successful partnership 
since 2012 in the global effort to eliminate Neglected Tropical 
Diseases. The UK cut of approximately $114 million USD for the 
elimination and control of the highest burden NTDs threatens the 
tremendous progress made to date--especially the global elimination of 
trachoma, a disease that causes chronic suffering and irreversible 
blindness.
    FCDO was co-investing with USAID to support NTD programs in 15 
countries. This abrupt cut (of approximately $114 million USD) will 
result in immediate gaps and will threaten the achievement of USAID-
supported control and elimination goals. FCDO funding in 2021/22 was 
targeted to provide:

  --Over 270 million NTD treatments
  --50,000 surgeries to prevent blindness from trachoma
  --35,000 corrective surgeries for hydrocele (caused by lymphatic 
        filariasis)

    Now more than ever, I urge the Committee to continue the leadership 
of the United States in tackling Neglected Tropical Diseases by 
supporting increased funding of at least $25 million over the fiscal 
year 2021 appropriated level of $102.5 million for NTDs. This 
additional investment will not cover the gaps left by the UK 
withdrawal, but will serve to protect the US investments made to date, 
particularly those for the elimination of lymphatic filariasis, 
blinding trachoma, and onchocerciasis (River Blindness).
                             blind children
    Your Committee has consistently supported a program for blind 
children in developing countries. In partnership with USAID, the 
program has helped to save the sight of hundreds of thousands of 
children. Blind and visually impaired children who live in poverty in 
developing countries must depend on their families-many of whom can 
barely afford to feed themselves-and on government health systems 
which, in most cases, cannot provide much help. These children are at 
grave risk of being in ill health, poorly educated and less productive 
if they lack access to critical eye health and rehabilitation services.
    Most of these children do not need to become blind or visually 
impaired since highly effective preventive and curative measures are 
available to combat visual impairment in children. For example, we can 
prevent blindness from vitamin A deficiency for pennies a child. We can 
also help students to see a blackboard clearly for the first time and 
to fulfill their educational potential by establishing systems for 
school-based vision screening and the provision of sight restoring 
eyeglasses. We request the Committee recommend at least $4.5 million in 
funding for programming to addressing blindness and visual impairment 
in children.
                          vitamin a deficiency
    With the past support of USAID, Helen Keller has become a 
recognized leader in distributing vitamin A capsules to children in 
countries across the world. Vitamin A is essential for healthy eyesight 
and the optimal functioning of the immune system protecting children 
from life-threatening diseases. Providing vitamin A to children between 
the ages of six months and five years reduces the risk of mortality by 
up to 23 percent overall and helps prevent disease, visual impairment 
and blindness.
    While vitamin A supplementation saves the lives of millions of 
children each year, considerable need remains unaddressed. Continued 
support is needed to address the more than 100,000 child deaths that 
still occur annually due to vitamin A deficiency. Vitamin A programs 
are a proven and cost-effective way to prevent visual impairment and 
blindness in children and to save lives, therefore we request that the 
Committee recommend at least $22.5 million for vitamin A 
supplementation.
         food security, nutrition and maternal and child health
    Malnutrition remains a major public health crisis globally. It 
results from not only having enough food, but not having enough of the 
right food. Nearly 145 million children's growth is underdeveloped due 
to chronic malnutrition, and this often has lifelong consequences 
including stunted growth, being more prone to infection and premature 
death, performing worse in school, being less productive, and earning 
less than their non-stunted peers.
    Helen Keller International supports the continuation and expansion 
of nutrition programs to support infants, young children and women of 
reproductive age. I ask that the Committee recommend $200 million under 
the nutrition-specific account within global health programs for fiscal 
year 2022. With this forward-looking commitment, the United States will 
continue to be a valued global leader in combating the scourge of 
malnutrition. By doing so, the United States will also, as it has in 
the past, spur additional essential investments by other countries and 
donors.
    I urge the Committee to continue its support and Committee report 
language on a food security and agricultural strategy that includes 
improvements in nutrition (with measurable outcomes) as a central 
objective, and specifically focuses on supporting smallholder families, 
particularly women farmers and other vulnerable populations. These 
investments in agriculture can increase food availability and access, 
improve food security, increase dietary quality, raise incomes, and 
empower women. It will go a long way to mitigating the impact of COVID-
19 on a generation of young children.
    Over the past 50 years, thanks in part to programs financed under 
the USAID Maternal and Child Health account (MCH), the global child 
mortality rate has been cut in half. However, every year more than six 
million children under five years old (more than 15,000 each day) 
continue to die from mostly preventable causes. Funding under the MCH 
account is essential to reach and save more of those children and their 
mothers.
    Thank you for your consideration of my testimony and 
recommendations for support.

    [This statement was submitted by Kathy Spahn, President and Chief 
Executive Officer.]
                                 ______
                                 
     Prepared Statement of the Institute of International Education
    On behalf of the Institute of International Education, I am pleased 
to submit testimony in support of the Fulbright Program ($304 million) 
and the Benjamin A. Gilman International Scholarship Program ($16 
million), both of which are funded by the Department of State, 
Educational and Cultural Exchange Programs, and implemented by the 
Institute of International Education. I am also pleased to submit 
testimony on the IIE-Scholar Rescue Fund.
    The Fulbright Program, operating continuously for 75 years, is the 
flagship U.S. government sponsored international exchange program--
supporting Americans to study, conduct research, and teach English 
overseas, and foreign students and scholars who contribute to U.S. 
universities and communities, while furthering their scholarship. No 
program reaches as many corners of the world or the United States as 
the Fulbright Program does. We are seeking the Committee's support for 
a total funding level of $304 million in FY2022.
    The Fulbright Program has demonstrated its unique capacity to adapt 
quickly to global challenges, while engaging diverse audiences in the 
U.S. and 160 countries around the world. Even in the midst of a 
pandemic, we know the Fulbright Program is resilient. While most 
international mobility has been paused, Fulbright continues to operate 
in person enabling future leaders the opportunity to make the global 
connections needed to solve problems.
    Increased funding of $30 million would support up to 1,000 
additional grant opportunities, to engage more Americans, more U.S. 
colleges and universities, and more diverse communities at a time when 
re-engagement with the post-pandemic world is critical. Over the past 
year, the number of applicants for both the U.S. Student and Scholar 
Programs has increased by more than 10%. A funding increase of roughly 
10% could help meet this pent-up demand and enable Fulbright to expand 
into priority areas.
    Additional funding would allow the U.S. to build upon proven models 
of the Fulbright Program to address pressing issues like climate 
change, democracy building, and countering disinformation and undue 
foreign influence. The Program operates where others cannot, fostering 
goodwill toward America, and establishing a scholarly network where 
research and development can flourish.
    Last year, 95% of Fulbright Scholars (Visiting and U.S.) felt their 
participation in the Fulbright Program promoted international 
cooperation and strengthened global ties, while 96% of Fulbright 
Visiting Scholars felt more positively about the U.S. Similarly, 90% of 
Fulbright Students (Foreign and U.S.) believed that the Fulbright 
Program helped strengthen relations between the U.S. and its partner 
nations, and 98% of Fulbright Students shared their experience with 
others in their home or professional community.
    The Fulbright Program advances U.S. diplomatic and national 
security interests, builds bilateral ties and brings in resources from 
foreign governments and the private sector that significantly leverages 
this appropriation. Over 80 foreign governments contribute nearly $100 
million annually, with 30 foreign governments matching or exceeding the 
U.S. government's annual contribution. Increasing U.S. contributions to 
the Fulbright Program will only compound this unique bilateral 
financing model and lead other donors to increase their contributions 
proportionally, substantially increasing the impact of program.
    The Fulbright Program has a significant benefit to U.S. citizens 
and our economy. Today's Fulbright Program includes students and 
scholars from all U.S. states and territories. Nearly 1,300 U.S. higher 
education institutions--half of which are public and over 125 of which 
are minority-serving institutions--are both hosting and/or sending 
Fulbright students and scholars. Through a Fulbright experience, 
thousands of Americans each year, including many first-generation 
college students, gain skills and global knowledge that advance their 
careers.
    The Program provides U.S. Embassies with a platform for positive 
engagement with government and civil leaders and acts as a catalyst to 
attract foreign students to study in the U.S. at colleges and 
universities in all 50 states--topping one million students since 2015. 
Funding for foreign Fulbright students and scholars is spent inside our 
borders, bringing significant revenue to American colleges and 
universities and to their local communities. Some 4,000 visiting 
Fulbright students and scholars were on their grants during the spring 
semester of 2020 and remained in the US for the remainder of the 
academic year. Including foreign Fulbrighters, international students 
studying in the United States spend approximately $40 billion on U.S. 
goods and services annually and created over 400,000 U.S.-based jobs 
last academic year.
    Fulbright alumni, totaling nearly 400,000, have become leaders and 
contributed greatly to society--including 37 current or former heads of 
state or government, 60 Nobel Laureates, 88 Pulitzer Prize winners, 75 
MacArthur Foundation Fellows, 16 Presidential Medal of Freedom 
recipients, and thousands of leaders across the private, public and 
nonprofit sectors. The Fulbright Program creates an unparalleled sphere 
of influence--future leaders who benefited from U.S. higher education 
and gained understanding of American communities and our people.
    This past year, due to COVID-19, the US Scholar Peer Review and US 
Student National Screening Committees, which represent all institution 
types and a range of backgrounds in a variety of disciplines, pivoted 
to a virtual review format and hosted over 315 committees with nearly 
1,000 reviewers participating from over 400 institutions. Foreign 
applicants are among the most highly vetted students and scholars 
coming to the United States. These students are reviewed and nominated 
by a bi-national U.S.-foreign government Fulbright board or U.S. 
Embassy, approved by the presidentially appointed Fulbright Foreign 
Scholarship Board, meet rigorous academic requirements for admission by 
a host U.S. university, and undergo the U.S. State Department's 
standard consular visa screening.
    Fulbright's sustained commitment to increased institutional 
diversity makes the Program more inclusive and accessible to 
nontraditional applicants. The HBCU Institutional Leaders Initiative 
recognizes HBCUs that have demonstrated support for Fulbright Program 
opportunities on campus. The commitment to diversity and inclusion is 
also highlighted in the expansion of the network of Fulbright Student 
and Scholar campus representatives at U.S. colleges and universities to 
serve diverse populations underrepresented in education abroad and 
competitive fellowships, and in the prioritization of outreach to 
Minority-Serving Institutions (MSIs), community colleges, higher 
education institutions in rural and economically disadvantaged areas, 
and military academies. Currently, over 1,700 U.S. higher education 
institutions have a Fulbright campus representative, including more 
than 350 MSIs and 300 Community Colleges.
    Fulbright takes steps to ensure that the Program's diverse 
participants have successful and rewarding exchange experiences. The 
Program has made an investment in initiatives and structures to support 
diverse participants' inclusion, safety, and security while on program, 
which includes the hiring of regional diversity and inclusion liaisons, 
stationed abroad, as well as support for various internal and alumni 
working groups. This whole of program alignment helps to bolster the 
diversity of people interested in international careers, such as the 
U.S. diplomatic corps.
    In FY19, Congress expanded the Program's commitment to American 
national security by creating the John McCain Fulbright Scholar in 
Residence Fellowship for international faculty in national security 
fields in selected countries to be placed at Federal Service Academies 
and think tanks. The United States Naval Academy will host two 
Fulbright McCain Scholars-in-Residence who will contribute to the 
Academy's internationalization efforts, bringing expertise in the 
Baltics and the Indo-Pacific.
    From its inception, the Fulbright Program has benefited from 
bipartisan Congressional support. During the last several years of 
pressure on the Federal budget, Fulbright has proven its value to the 
U.S. and our relationships internationally. While there are many 
competing demands and worthwhile investments for the Federal 
government, Congress has the opportunity this year to expand the 
Fulbright Program into priority areas to further connect the next 
generation of leaders from around the world, such as making Fulbright 
more inclusive by reaching more diverse participants, building on 
initiatives in priority regions that relate to combatting climate 
change, and securing the 75-year legacy of this important foreign 
policy tool.
    The Benjamin A. Gilman International Scholarship Program enables 
undergraduate students of limited financial means to study or intern 
abroad, thereby gaining skills critical to our national security and 
economic competitiveness. The award is solely reserved for American 
undergraduate students who are eligible for a Federal Pell Grant.
    Since the program's inception in 2001, more than 33,000 
undergraduate students from 1,335 universities across the nation have 
received a Gilman scholarship to study in more than 150 countries. More 
than 12,000 applications are received annually for less than 4,000 
scholarships. By supporting undergraduate students who have high 
financial need, the program has been successful in supporting students 
who have been historically underrepresented in education abroad and 
expanding access throughout the country.
    In light of the pandemic, the Gilman Program supported alternative, 
credit-bearing virtual study abroad programming while in-person travel 
was unavailable and offered increased flexibility to defer or change 
their programs, supporting students' continued international engagement 
and academic progress.
    Gilman Scholars are more diverse than the national study abroad 
population. Sixty-nine percent of Gilman Scholars represented racial or 
ethnic minority groups, compared to a 30% national average for study 
abroad. Gilman scholars represent more than 1,300 U.S. higher education 
institutions. Twenty-two percent of recipients are from HBCUs, other 
minority-serving institutions or community colleges. Further, 57% of 
recipients are first-generation college students. The Gilman Program is 
critical to our national security and economic competitiveness. Of 
Gilman recipients, 29% are studying STEM subjects, and 56% study a 
language--35% study Critical Need Languages.
    The Gilman Program continues to demonstrate a commitment to our 
Armed Services. Preference is given to Veteran applicants, who have 
been awarded scholarships at twice the rate of total applicants for the 
Program. With the support of the U.S. Congress, the Gilman-McCain 
Scholarship supports undergraduate child dependents of active-duty 
service members to study or intern abroad on credit-bearing programs.
    In addition, Gilman Scholars positively impact their communities 
while carrying out follow-on service projects that aim to inform and 
encourage more American students to study and intern abroad. They serve 
as influential role models by their exemplary achievement through their 
international exchange experience, and many continue to pursue advanced 
degrees and are active in seeking solutions to global challenges. This 
makes it all the more urgent that Congress invest in our national 
security and economic prosperity by fully funding the Benjamin A. 
Gilman International Scholarship Program. We support maintaining the 
FY21 funding level of $16 million to continue to make study abroad 
available to more Americans.
                       iie's scholar rescue fund
    Protecting the lives and work of threatened scholars has always 
been at the core of IIE's mission. This legacy dates to 1920, when the 
leaders of the newly founded IIE created the Russian Student and 
Scholar Fund to provide emergency assistance to hundreds of university 
students and scholars caught in the crossfire of the Bolshevik 
Revolution and Stalinism. Since then, IIE has led special efforts to 
support academics in need during every decade.
    In 2002, IIE established the Scholar Rescue Fund (IIE-SRF) to 
ensure that emergency support and academic opportunities would always 
be available to academics whenever and wherever they may be in danger. 
Nearly 20 years later, IIE-SRF remains the only global program that 
arranges and funds fellowships for threatened and displaced scholars at 
partnering higher education institutions worldwide. It has saved the 
lives and scholarship of over 900 scholars from 60 countries in 
partnership with more than 430 hosting institutions in 50 countries.
    Despite the devastating impact of the COVID-19 pandemic on higher 
education institutions and communities worldwide, IIE was able to 
continue assisting vulnerable scholars throughout 2020 and the initial 
months of 2021. During the period of April 1, 2020, through March 31, 
2021, IIE-SRF supported more than 100 scholars from 22 countries to 
resume their academic work in safety on host campuses in 23 countries 
across five continents. These scholars have exhibited remarkable 
resilience throughout the pandemic as they continue to share their 
expertise, advance scientific knowledge, and struggle for more just 
societies. IIE-SRF's university partners have also demonstrated their 
ongoing commitment to providing critical practical support to 
threatened academics across the globe, despite budget cuts and other 
challenges.
    The work of IIE-SRF is more pertinent today than ever before. In 
diverse contexts across the globe, professors and researchers are 
living amidst the world's worst conflicts and repressive regimes, 
resulting in threats to their physical security, the indefinite 
interruption of their scholarly work, and the endangerment of entire 
disciplines in particular countries. In 2020, IIE-SRF received more 
requests for support than any year in its history. These applications 
reflect an alarming number of threats to scholars in such diverse 
contexts as Afghanistan, Belarus, Burma/Myanmar, Cameroon, China, 
Ethiopia, Iran, Syria, Turkey, Venezuela, and Yemen, among other 
countries.
    Yemen faces the world's most urgent higher education crisis, with 
widespread violence, disease, and instability threatening university 
professors and making education and scientific research unattainable. 
Nearly half of all applications to IIE-SRF in 2020 came from Yemeni 
academics. The program responded by awarding more fellowships to 
scholars from Yemen than the next three countries combined. By keeping 
these scholars safe and productive in academic roles across the globe, 
IIE-SRF is preserving and enhancing Yemen's intellectual capital--the 
``brain save'' of the country's best and most promising professors and 
scientists until it is safe for them to return. If these scholars do 
not receive support now, many lifetimes of work--and potentially the 
entire Yemeni academy--will be lost, with a catastrophic impact on 
generations to come.
    When sectarian and other violence in Iraq was at its worst in 
recent years, IIE-SRF launched the Iraq Scholar Rescue Project (ISRP), 
a public-private partnership, funded in part through the Department of 
State, which saved the lives of hundreds of Iraqi scholars. 
Devastatingly, IIE-SRF is preparing for an Iraq-style avalanche of 
applications from threatened scholars in Afghanistan, which is likely 
to become the world's next higher education emergency. With the 
scheduled withdrawal of U.S. troops in September 2021, experts predict 
that countless Afghan university students and scholars will face severe 
threats from the Taliban. This is particularly true of scholars 
connected to U.S. institutions and alumni of U.S. government-funded 
exchange programs, religious minorities, democracy and human rights 
advocates, and especially women. Drawing on the success of the ISRP, 
there is already an established program that has the global networks, 
tested model, and reliable track record to respond to a looming crisis 
of this scale.
    The impact of IIE's work to rescue scholars extends well beyond the 
immediate lives saved. There are many examples, historical and current. 
During the 1930s, IIE's Emergency Committee in Aid of Displaced Foreign 
Scholars supported Dr. Felix Bloch, a physicist who had fled Nazi 
Germany, to continue his scientific research at Stanford University. 
Bloch's research on nuclear magnetic resonance would later be applied 
to develop the MRI and earned him the Nobel Prize. More recently, IIE-
SRF partnered with institutions in South Africa and Kenya to provide 
safe haven and research opportunities to Nigerian virologist Dr. 
Marycelin Baba during the height of the Boko Haram attacks on 
Maiduguri, Nigeria. When the situation in Maiduguri improved, Baba 
returned to direct her home university's World Health Organization-
accredited Polio lab. She has played a direct role in eradicating the 
disease in Nigeria.
    In April 2021, IIE published a study documenting the achievements 
and impacts of more than 200 IIE-SRF alumni from 38 countries on their 
home countries, host communities, and academic disciplines. To Rescue 
Scholars is to Rescue the Future: An Impact Study of the IIE Scholar 
Rescue Fund (2002-2020) offers concrete evidence of the enduring 
influence of the IIE-SRF fellowship on these scholars' lives and 
careers, as well as the sizeable impacts they have made in their 
classrooms, laboratories and beyond.
    Thank you for the opportunity to submit testimony before this 
committee.

    [This statement was submitted by Allan E. Goodman, President and 
CEO.]
                                 ______
                                 
                 Prepared Statement of the Interaction
    Chairman Coons, Ranking Member Graham, Members of the subcommittee, 
thank you for receiving my testimony concerning the FY 2022 State, 
Foreign Operations, and Related Programs bill. My name is Sam 
Worthington, and I represent InterAction, where I am CEO. On behalf of 
the InterAction coalition, I thank the subcommittee for its leadership 
and support for foreign assistance programs. In my testimony, I will 
highlight the challenges we are facing and the importance of 
investments in development, humanitarian, and democracy programs. We 
recommend increases above the FY 2021 enacted levels for 46 accounts in 
the State, Foreign Operations bill, which are too numerous to list 
here, but I have included in a table at the end of my testimony.\1\
    InterAction is the largest alliance of international NGOs and 
partners in the United States. Our members work to eliminate extreme 
poverty, strengthen human rights and citizen participation, safeguard a 
sustainable planet, promote peace, and ensure dignity for all people. 
Since 1984, InterAction has helped mobilize hundreds of international 
NGOs to think and act collectively, enabling a collective NGO voice to 
promote more principled and effective development policies and 
humanitarian action.
    Choose to Invest, a product created by InterAction and its members, 
provides the Administration, Congress, and other interested 
stakeholders with funding recommendations and justifications for 52 
programs covering development, democracy building, health, and 
humanitarian assistance-46 of which are funded in the State, Foreign 
Operations bill. I will highlight a few critical challenges facing the 
world right now and the importance of investment in these areas.
    Every day, InterAction members see how U.S. foreign aid saves 
lives. American foreign assistance helps communities around the world 
as they work to end extreme poverty, assist refugees and internally 
displaced people, support the advancement of human rights, promote 
resilient democratic societies, and spur inclusive economic growth. 
Foreign assistance builds economies, supports peace, and advances 
American values.
    Investing in foreign assistance is a strategic and moral imperative 
for the United States. With forced displacements consistently rising, 
democracy backsliding, and inequality growing, investment in this 
critical foreign policy pillar did not keep pace with global need even 
before the pandemic. COVID-19 then triggered the deepest global 
recession since the 1930s, exacerbating these trends and setting back 
global poverty reduction efforts-communities around the world will be 
grappling with setbacks for years to come.
    InterAction appreciates the supplemental funding Congress provided 
to fight COVID-19 internationally. However, the United States needs to 
investment more to speed the end of the COVID-19 pandemic, minimize its 
indirect impacts, and make up for insufficient funding for global needs 
in the past. To address these issues and the rising challenges facing 
the world, InterAction is recommending significant funding increases 
above the FY 2021 enacted levels and the President's Request in many 
accounts. This year we are especially focused on accounts related to 
COVID-19, displaced people, climate change, and democracy.
    Development. The need for increased funding for Development 
Assistance and the Economic Support Fund has never been greater. As the 
subcommittee knows, COVID-19 created an economic shock that has ruined 
livelihoods, intensified food insecurity, disrupted education, 
increased vulnerability for women and children, and exacerbated 
inequality. The World Bank estimates that nearly 40 to 60 million 
people have been pushed into extreme poverty because of COVID-19, 
undermining decades of progress. It is estimated that half of the 
world's 3.3 billion global workforce are at risk of losing their 
livelihood. People who work in the informal economy have been the most 
vulnerable as many do not have access to social protection or quality 
health care.
    Global Food Security Strategy programs, including Feed the Future, 
have strategically adapted to meet new and existing needs in the 
context of COVID-19. However, there is still significant unmet need and 
the number of people living in hunger continues to rise. Water, 
sanitation, and hygiene (WASH) programs are significantly underfunded 
given their importance in overall health, nutrition, and political 
stability. Nearly 2.2 billion people still do not have safe sanitation 
access, while about 2 billion do not have access to a safely managed 
water source. The pandemic has only compounded access issues and 
reinforced the need to improve global WASH access.
    Increased support for Basic Education will provide children in 
marginalized communities with safe and equitable access to quality, 
inclusive education. Due to COVID-19, many education systems will also 
need assistance in designing and instituting remedial education 
programs to address school closure-related learning loss. In addition, 
more than 1.5 billion students and youth have been impacted by school 
closures, and at least 463 million schoolchildren cannot be reached by 
digital and broadcast remote learning programs.
    Increased funding for Democracy, Human Rights, and Governance is 
critical to ensure countries are equipped to handle the challenges of 
maintaining sustained development, particularly with marginalized 
groups in light of COVID-19. Without strong political institutions and 
governments responsive to its citizens' needs, efforts to maintain 
other areas of development and growth of civil society are at a greater 
risk of failure. On average, countries undertaking the process of 
democratization experience a 20% increase in GDP over a 25-year period. 
In addition, democracy can better ensure the rights and participation 
of largely disenfranchised groups within society--critical as countries 
adapt to climate change. The condition of human rights and democracy 
has worsened in 80 countries since the pandemic began. In the wake of 
COVID-19, disinformation can spread, crackdowns on civil society have 
persisted, democratic backsliding increased, and autocratically minded 
leaders continue to undermine democratic norms.
    It is vital that Congress increases funding for vulnerable 
populations. For LGBTQI+ people around the globe, violence, stigma, and 
discrimination undermine access to services, and nearly 70 countries 
continue to criminalize same-sex relationships. Increased funding for 
the State Department's Global Equality Fund and USAID's Protection of 
LGBTQI+ Persons will promote global LGBTQI+ rights and support 
decriminalization efforts, build the capacity of LGBTQI+ civil society, 
and provide safety and security grants to LGBTQI+ human rights 
defenders.
    Global Health. Increased investment in all areas of Global Health 
is needed to combat not only COVID-19, but also the impacts of the 
pandemic on overburdened, fragile health systems and the people they 
serve. The pandemic has disrupted and damaged routine medical care 
around the world. Attention to traditional ongoing global health 
issues, including tuberculosis, HIV/AIDS, nutrition programs, malaria, 
neglected tropical diseases, and maternal and child healthcare has in 
many cases fallen by the wayside in the wake of the pandemic as already 
overburdened healthcare systems struggle to keep the spread of disease 
under control.
    Due to COVID-19 related disruptions, an additional 124,000 children 
are projected to be infected with HIV and acute child malnutrition may 
increase by 50% for children living in poverty. UNICEF has estimated 
that an additional 1.2 million children will die of preventable causes. 
Increased funding for international family planning and reproductive 
health will support broader access to contraceptives and reduce the 
rates of unintended pregnancies, unsafe abortions, and maternal deaths. 
It is estimated that more than 218 million women in low- and middle-
income countries want to avoid pregnancy and have an unmet need for 
modern contraceptives.
    Investment in Global Health Security programs support the 
prevention and detection of-and rapid response to-emerging disease 
threats like Ebola and COVID-19 to stop outbreaks from spreading. 
Increased funding is needed to build and strengthen emergency operation 
centers, improve systems that monitor and track outbreaks worldwide, 
and bolster the health workforce in affected countries.
    Humanitarian Assistance. Funding increases for all the humanitarian 
accounts, including International Disaster Assistance and Migration and 
Refugee Assistance are necessary to meet the increasing needs caused by 
COVID-19 and persistent conflict. COVID-19 magnified the threats faced 
by nearly 168 million vulnerable people in need of humanitarian 
assistance and protection around the world. The pandemic overwhelmed 
health systems as health impacts combined with conflict, political, and 
economic instability. The continued spread of COVID-19 exacerbates 
existing humanitarian crises in countries like Syria and Yemen and is 
made worse by chronic shortages of life-saving health and hygiene 
interventions, as well as hunger and economic collapse.
    Border closures, trade restrictions, and confinement measures have 
prevented farmers from accessing markets and harvesting crops. The most 
marginalized people in low-income countries, including small-scale 
famers and indigenous peoples, have been the hardest hit. 270 million 
people could require food assistance in 2021 as the threat of famine 
looms over multiple countries, including Ethiopia. Violence against 
women and marginalized groups in humanitarian settings has been another 
effect of the pandemic requiring additional attention.
    Climate Change. Climate change is an existential threat that 
exacerbates inequality and poverty. It must be funded accordingly. An 
estimated 120 million people will slip back into extreme poverty by 
2030 if we fail to tackle climate change. Left unaddressed, nearly 200 
million people could require humanitarian assistance for climate-
related disasters by 2050, roughly double those in need today. Nearly 
90% of those who fall ill due to climate change are children under 
five, and by 2040, almost 600 million children will live in areas with 
extremely limited water resources. The world's most vulnerable people 
have been the first and hardest hit by climate change, are least 
responsible for the crisis, yet bear an enormous cost to address it. 
COVID-19 has both compounded these challenges in addition to revealing 
opportunities for progress.
    Increases in both bilateral and multilateral climate channels are 
sorely needed. Specific programming and increases directed at 
Adaptation are necessary to help communities prepare for environmental 
degradation that threatens their security and livelihoods. Increases 
are also needed in Sustainable Landscapes, Renewable Energy, and 
Biodiversity.
    Bold investment in the Green Climate Fund and the Climate 
Investment Funds will send a strong signal to the world that the U.S. 
will lead and follow through on its climate commitments.
    Multilateral Development Banks. Investment in the multilateral 
development banks is also an investment in climate finance. 
Approximately 1/3 of funds to International Development Association 
(IDA) support climate programming. Additionally, increased funds to 
clear arrears at IDA and the African Development Fund, and the Asian 
Development Fund will be used in the same manner as ordinary resources 
to fund poverty reduction and climate programming, while restoring 
leadership at those institutions.
    Prior to the COVID-19 pandemic, investment in critical foreign 
assistance did not meet global needs, despite foreign assistance being 
a strategic and moral imperative for the United States. Preexisting 
needs coupled with COVID-19 and the secondary impacts of the pandemic 
as well as the looming threat of other crises makes the criticality of 
increased investment in foreign assistance accounts even greater. The 
United States needs to do its part as a global leader to invest in 
helping the people and communities around the world that will be 
grappling with these development and humanitarian setbacks for years to 
come.

 
------------------------------------------------------------------------
       ACCOUNT ($ in thousands)                   Recommended
------------------------------------------------------------------------
  USAID Operating Expenses                     1,456,981
U.S. Dpt of State Diplomatic Programs          9,628,514
   U.S. Institute of Peace                        47,250
Millennium Challenge Corporation                 957,600
Development Finance Corporation                  833,677
    Development Assistance                     4,200,000
     Economic Support Fund                     4,021,547
              Microfinance                       278,250
Global Food Security Strategy                  1,202,614
           Basic Education                     1,092,500
                Adaptation                       265,500
          Renewable Energy                       268,500
    Sustainable Landscapes                       202,500
              Biodiversity                       480,000
      Water and Sanitation                       540,000
Democracy, Rights & Governance                 2,537,850
    Sec. 7059, 7046 Gender                       525,700
   Reconciliation Programs                        40,000
Conflict and Stabilization Operations              5,000
National Endowment for Democracy                 320,000
    Transition Initiatives                       112,043
       Complex Crisis Fund                        33,000
Prevention and Stabilization Fund                200,000
International Disaster Assistance              5,274,434
Migration and Refugee Assistance               4,118,400
Emergency Refugee & Migration                     50,000
                 Assistance
 Maternal and Child Health                       983,825
                 Nutrition                       240,000
       Vulnerable Children                        30,000
          HIV/AIDS (USAID)                       379,500
          HIV/AIDS (State)                     5,025,500
Global Fund AIDS, TB & Malaria                 1,560,000
Family Planning and Reproductive                 750,000
                     Health
    Global Health Security                       275,000
Neglected Tropical Diseases                      117,875
                   Malaria                       885,500
              Tuberculosis                       366,850
Int'l Peacekeeping Activities                  2,701,000
   Peacekeeping Operations                       548,000
International Organizations and                  646,500
                   Programs
International Development Association          1,299,769
  African Development Fund                       224,232
    Asian Development Fund                        89,986
International Fund for Agricultural               46,800
                Development
Global Environment Facility                      158,920
     Clean Technology Fund                       200,000
        Green Climate Fund                     1,000,000
------------------------------------------------------------------------

      
---------------------------------------------------------------------------
    \1\ A more comprehensive list of InterAction's recommendations can 
be found in Choose to Invest at https://www.interaction.org/choose-to-
invest-fy-2022/and in the table on the final page of my testimony.

    [This statement was submitted by Samuel A. Worthington, CEO.]
                                 ______
                                 
    Prepared Statement of the International Fund for Animal Welfare
    Chairman Coons, Ranking Member Graham, and Members of the 
Subcommittee: Thank you for the opportunity to offer testimony on the 
FY 2022 State, Foreign Operations, and Related Programs (SFOPS) 
Appropriations Act. The International Fund for Animal Welfare (IFAW) 
has 15 offices globally and works in more than 40 countries around the 
world. IFAW takes a holistic approach to innovating solutions for tough 
conservation challenges like conflicts between humans and wildlife, and 
illegal wildlife trafficking. Recognizing the unbreakable connections 
between the health and well-being of animals and people, we support and 
empower communities to coexist with and value native wildlife and help 
those communities develop tools to protect their wild heritage. IFAW 
appreciates this Subcommittee's support in the current fiscal year (FY 
2021) in providing funding for many important conservation programs, 
and requests your continued support for the U.S. Agency for 
International Development (USAID) Biodiversity Programs ($500 million), 
the USAID sustainable landscapes programs ($200 million), Tropical 
Forest and Coral Reefs Conservation Act (TFCRCA) implementation ($20 
million), the Global Environment Facility (GEF) ($149.3 million), and 
the U.S. State Department and USAID combating wildlife trafficking 
programs ($200 million) in the FY 2022 SFOPS Appropriations Bill. We 
also request support for a new fund: a new Fund for Global Health 
Security and Pandemic Preparedness through the CDC Global Public Health 
Protection USAID's Global Health Security accounts ($2.5 billion).
    The year 2020 was marked, as was the year before it, by ever-more 
disturbing news about the state of our natural world. It was the second 
hottest year on record, knocking 2019 to the third hottest year in 
Earth's history.\1\ Changing climate conditions spurred storms and 
other natural disasters of increased frequency and severity: 
hurricanes, cyclones, flash floods, and wildfires wreaked havoc in 
communities around the world with deadly results.\2\ Trafficking in 
wildlife and wildlife parts remained the fourth most lucrative criminal 
enterprise worldwide with an estimated annual revenue of $20 billion-
add in illegal logging and fishing, and that number skyrockets to $1 
trillion or more.\3\ And we all suffered the effects as a deadly 
zoonotic pandemic caused by human interference with wildlife, COVID-19, 
forced world-wide lockdowns, sickening more than 175 million people to 
date, and causing millions of deaths around the globe.\4\
    The environmental, biodiversity, and pandemic crises we continue to 
face are not the product of bad luck; they are the direct results of 
human activities. On June 10, 2021, a report on Biodiversity and 
Climate Change was released on a workshop co-sponsored by the 
Intergovernmental Science-Policy Platform on Biodiversity and Ecosystem 
Services (IPBES) and the Intergovernmental Panel on Climate Change 
(IPCC)--the first ever collaborative workshop co-sponsored by the two 
organizations.\5\ This peer reviewed report warns that ``changes in 
climate and biodiversity, driven by human activities, have combined and 
increasingly threaten nature, human lives, livelihoods and well-being 
around the world. Biodiversity loss and climate change are both driven 
by human economic activities and mutually reinforce each other. Neither 
will be successfully resolved unless both are tackled together.'' \6\
    Fortunately, as we have been the architects of our current crises, 
it is within our power to change our shared trajectory, and this 
Subcommittee has jurisdiction over critical programs that can help to 
do just that. Given the severity of the challenges we face, IFAW 
respectfully asks the Subcommittee to exert its leadership in order to 
reverse the alarming and interrelated climate and biodiversity 
emergencies by making substantial increases in funding for the 
important conservation programs within your purview. Doing so will help 
to protect biodiversity, and will in turn have significant protective 
effects against future wildlife-borne diseases entering the human 
population, promote healthy ecosystems, fight climate change, improve 
climate resilience, and safeguard human health and wellbeing in 
communities around the globe--including here in the United States. It 
will also demonstrate the United States' continued conservation 
leadership, and signal to the international community the importance of 
investing in conservation.
    USAID Biodiversity Programs support conservation efforts in more 
than 50 countries in partnership with foreign governments, non-
governmental organizations, private sector companies, and local 
communities. Biodiversity loss, habitat destruction, and trade in 
wildlife are all linked to zoonotic spillover--the jump of diseases 
from animals into human populations--as we've seen with the COVID-19, 
SARS, Ebola, and other viral outbreaks. Because they protect ecosystem 
and wildlife health, USAID Biodiversity Programs help to shield us from 
spillover events. USAID Biodiversity Programs tackle threats to 
wildlife and ecosystems through direct actions to restore habitat and 
conserve species, as well as by strengthening educational programs 
focused on One Health. They also address underlying issues that lead to 
the loss of biodiversity, including improved livelihoods, countering 
corruption, and social and gender inequality. Because biodiversity loss 
exacerbates land degradation, food insecurity and poverty, it can 
contribute to social unrest. These USAID programs are always critical 
to our national security interests, economic prosperity, global 
stability, and global health. In the wake of economic aftershocks of 
the COVID-19 pandemic, they are more important than ever, and require 
more support to ensure past gains are not lost due to current extreme 
pressures. IFAW has looked at the increased need these programs face in 
the wake of COVID-19, the biodiversity crisis, and climate change. For 
FY22 we request $500 million for the USAID Biodiversity Conservation 
and natural resource management programs.
    The GEF is an independent international financial facility made up 
of 183 countries, private companies, and non-governmental 
organizations. The GEF provides grants to address global environmental 
issues, including wildlife trafficking, habitat and landscape 
preservation, and climate change adaptation. These programs focus on 
innovative projects in developing countries that provide real impact, 
improve sustainability, and protect our shared global environment. All 
GEF projects are closely monitored and evaluated for efficiency and 
effectiveness; overall, the GEF leverages more than five dollars for 
every one dollar invested by private partners and donor countries. The 
U.S. strongly influences GEF strategies and programming, and GEF 
projects support many U.S. security and economic priorities. IFAW 
requests $149.3 million in FY22 for ongoing support of the GEF, in line 
with the President's budget.
    USAID Sustainable Landscapes Programs promote sustainable land use, 
reducing deforestation, strengthening environmental resilience, 
protecting waters, and conserving biodiversity. Programs focus on 
target states and regions where land degradation is rampant. USAID 
sustainable landscapes programs have leveraged more than $500 million 
in investments and partnered with companies with more than $4 trillion 
in global sales since 2012 in order to reduce deforestation and forest 
degradation around the world.\7\ COVID-19 must serve as a wake-up call: 
protecting and restoring ecosystems is an important defense against 
zoonotic spillover, and we need to invest in these programs now to 
prevent future pandemics. IFAW therefore requests $200 million to fund 
the USAID sustainable landscapes programs in FY22.
    The TFCRCA was first enacted in 1998 as the Tropical Forest 
Conservation Act, and offered eligible countries the opportunity to 
reduce the official concessional debt they owed to the U.S. government 
while generating funds locally to conserve biological diversity and 
protect ecologically and economically vital forest ecosystems. In 2019, 
Congress reauthorized the Act and expanded its authorities to include 
coral reef ecosystems. This highly successful and innovative ``debt-
for-nature'' program has produced tremendous returns on investment over 
the last two decades, and by supporting the long-term protection of 
tropical forests in developing countries, it is also contributing to 
efforts to address climate change, the prevention of future pandemics 
due to zoonotic spillover, and biodiversity loss. For FY22, IFAW 
requests $20 million for the TFCRCA.
    U.S. Department of State and USAID Wildlife Trafficking Programs 
crack down on the illicit trade in live wildlife and wildlife parts and 
products, which is among the four most lucrative criminal industries 
worldwide. There is clear evidence of an increase in poaching due to 
COVID-19--either because of food scarcity, or because of reduced anti-
trafficking capacity in hard-hit areas. Sophisticated multinational 
criminal syndicates generate an estimated $20 billion or more annually 
from wildlife trafficking. Evidence has demonstrated linkages between 
trafficking in wildlife and other criminal enterprises, including 
trafficking in arms, drugs, and even terrorist activities. Therefore, 
disrupting wildlife trafficking networks can help to combat criminal 
endeavors that threaten security and stability. Congress and the 
Administration have directed U.S. agencies to take strong steps to 
address the transnational organized crime of wildlife poaching and 
trafficking through the END Wildlife Trafficking Act and the 
Transnational Organized Crime Executive Order. U.S. State Department 
Bureau of International Narcotics and Law Enforcement (INL) supports 
programs to increase the capacity of wildlife law enforcement to 
detect, interdict, and seize illegal wildlife products and enhance 
investigative and law enforcement functions of our foreign enforcement 
partners, among other goals. USAID supports projects to strengthen 
anti-poaching and wildlife law enforcement, strengthen judicial systems 
and rule of law, disrupt transit hubs and reduce consumer demand for 
illegal wildlife products. These programs are all the more significant 
in the wake of COVID-19. For FY22, we request $200 million for USAID/
State Department Wildlife Trafficking Programs; funds as necessary to 
support Wildlife Enforcement Networks, particularly in the Horn of 
Africa, Southern Africa, .South America, and the Caribbean; provide 
support for International Law Enforcement Academies; direct INL to 
implement international cybercrime agreements and engage in 
international efforts to combat wildlife trafficking online.
    Fund for Global Health Security and Pandemic Preparedness.--New 
outbreaks of diseases are accelerating nearly exponentially,\8\ driven 
by deforestation and trade in wild and domesticated animals. Experts 
agree that total annual global investments of as little as $20 billion 
annually to prevent and contain outbreaks will avert $31-$50 trillion 
in economic losses.\9,10\ Economists estimate the cost of COVID-19 
borne by the United States alone to be at least $16 trillion- not 
counting government relief expenditures.\11\ Global costs are much 
higher. Even the boldest of pandemic prevention plans are modest indeed 
when compared to the human and economic devastation we are facing 
currently. Such fund is aligned with President Biden's National 
Security Directive 1 goal ``to develop a health security financing 
mechanism to . . . assist developing countries in preparing for, 
preventing, detecting, and responding to COVID-19 and other infectious 
disease threats'' and ``creating an enduring international catalytic 
financing mechanism for advancing and improving existing bilateral and 
multilateral approaches to global health security.'' \12\ Pandemic 
prevention and containment is a global responsibility, and the United 
States should not bear all the costs. IFAW requests an initial 
appropriation of $2.5 billion to create the Fund as a part of the 
Global Health Security Agenda to bring other donors to the table in 
advance of the UK G7 Summit.\13\
    In closing, thank you for the opportunity to share IFAW's priority 
requests to promote conservation in the FY22 State, Foreign Operations, 
and Related Programs Appropriations Act. Wildlife and their habitats 
are more than our national heritage, they are essential to human health 
and happiness. We appreciate the continued support of this Subcommittee 
for conservation efforts globally and within the United States. With 
your support, we look forward to a bright and healthy future for many 
generations of Americans and people around the world. Thank you.
---------------------------------------------------------------------------
    \1\ https://www.noaa.gov/news/2020-was-earth-s-2nd-hottest-year-
just-behind-2016
    \2\ https://www.usnews.com/news/best-countries/slideshows/here-are-
10-of-the-deadliest-natural-disasters-in-2020
    \3\ http://pubdocs.worldbank.org/en/482771571323560234/
WBGReport1017Digital.pdf
    \4\ https://www.washingtonpost.com/graphics/2020/world/mapping-
spread-new-coronavirus/?itid=sf_coronavirus_sn_mapping-spread-new-
coronavirus_2
    \5\ https://ipbes.net/sites/default/files/2021-06/
20210609_workshop_report_embargo_3pm_CEST_10_june_0.pdf
    \6\ https://ipbes.net/sites/default/files/2021-06/
20210606%20Media%20Release%20EMBARGO%203pm%20CEST%2010%20June.pdf
    \7\ https://www.usaid.gov/climate/sustainable-landscapes
    \8\ https://www.wsj.com/articles/a-deadly-coronavirus-was-
inevitable-why-was-no-one-ready-for-covid-11597325213
    \9\ https://www.mckinsey.com/industries/public-and-social-sector/
our-insights/not-the-last-pandemic-investing-now-to-reimagine-public-
health-systems
    \10\ https://science.sciencemag.org/content/369/6502/379
    \11\ https://news.harvard.edu/gazette/story/2020/11/what-might-
covid-cost-the-u-s-experts-eye-16-trillion/
    \12\ https://www.whitehouse.gov/briefing-room/statements-releases/
2021/01/21/national-security-directive-united-states-global-leadership-
to-strengthen-the-international-covid-19-response-and-to-advance-
global-health-security-and-biological-preparedness/
    \13\ Note that SFOPs funds for GHSA pass through both CDC Global 
Public Health Protection, and USAID's Global Health Security accounts.

    [This statement was submitted by International Fund for Animal 
Welfare.]
                                 ______
                                 
                  Prepared Statement of the Internews
    I am honored to provide testimony on behalf of Internews to the 
Subcommittee on the importance of citizen access to trusted, quality, 
and locally relevant news and information. I urge the Committee to 
include language in the Committee's fiscal year 2022 report supporting 
continued funding under the Department of State and the U.S. Agency for 
International Development (USAID) for health information, internet 
freedom, independent media, democracy and civil society development 
programs.
    I am deeply grateful to the committee for its years of leadership 
on foreign assistance and democracy issues.
    Internews, an international non-profit organization headquartered 
in California, has worked to improve the flow of civic-minded, locally 
produced news and information for nearly 40 years. Annually, Internews 
supports more than 1,000 local partner organizations and institutions 
to strengthen the information ecosystems that make it possible for 
people everywhere to access quality, trusted, local information.
    Internews is proud to work in partnership with USAID and the U.S. 
Department of State in advancing our shared vision that functioning, 
independent media and access to information saves lives, improves 
livelihoods, and holds institutions accountable.
    Today, more than a year into the global COVID-19 pandemic, we have 
witnessed up close the urgency of access to timely, trusted 
information. Support for independent media is most thought of in the 
context of advancing democracy. It is indeed the ``fourth estate'' of 
democracy. But this past year underscored the critical importance of 
independent media in delivering lifesaving information during public 
health crises.
I request the Committee:

        Expand support for global health, humanitarian, democracy, 
        human rights and governance projects that support local 
        independent media to deliver high-quality, contextually 
        appropriate information to ensure citizens around the globe can 
        make informed choices for the health of their families, 
        especially during pandemics.

    I am very grateful for the Committee's leadership and support for 
programs which advance independent media, internet freedom, and overall 
freedom of expression. These programs are both essential for building a 
democratic society and are also root solutions to solving the world's 
most pressing issues, from pandemics to environmental degradation to 
extreme poverty.
        independent media as a centerpiece of foreign assistance
    Accurate information, delivered by trusted local media, is key to 
engaging citizens to heed public health guidance, debunk disinformation 
and misinformation, take action on climate change, and participate in 
democratic governance:

  --COVID-19 & Global Health: Information is the first line of defense 
        against the spread of communicable diseases such as COVID-19. 
        It is essential that complex, life-saving information, which is 
        overwhelmingly produced in English, be interpreted and 
        localized by science-savvy local journalists in all corners of 
        the world. To address misinformation that undermines public 
        health directives and vaccination efforts, research 
        demonstrates the critical importance of proactively 
        communicating accurate information through local media, which 
        command trust in their communities.
  --Internet Freedom: Unfettered access to an open, interoperable, 
        secure, and reliable internet is essential to economic 
        development, civic participation, health, and education. While 
        60% of the world's population is now online, anti-democratic 
        regimes continue to restrict access to quell political 
        opposition. Greater support is needed to bring digital 
        connectivity to all corners of the globe, ensure online safety 
        for women and other marginalized groups, and protect human 
        rights online.
  --Disinformation & Misinformation: Misinformation about COVID-19 and 
        vaccines undermine efforts to bring the pandemic under control. 
        Disinformation from bad actors undercuts the legitimacy of 
        elections, pollutes civic debate, and stokes violence offline. 
        A comprehensive strategy to address disinformation and 
        misinformation requires a three-pronged approach: ensure the 
        production and free flow of quality information; empower 
        citizens with media literacy skills to recognize falsehoods; 
        and establish stronger accountability mechanisms for those who 
        create, propagate, or amplify disinformation.
  --Climate Change: To build the global will to meaningfully address 
        the climate crisis, it is essential that citizens understand 
        how climate change harms their communities. Local journalists 
        are key to engaging their communities on the threats posed by 
        larger and more frequent floods, wildfires, and droughts, as 
        well as the impacts of climate change on health and 
        livelihoods. Journalists play an equally critical role in 
        exposing corruption and holding both the public and private 
        sectors to account for their role in environmental degradation.
  --Democracy Building: Attempts to silence news media or disrupt the 
        free flow of information on the internet have not garnered the 
        urgent attention they deserve. Not only is a more forceful 
        diplomatic response needed, so too is greater support for 
        digital rights activists, citizen journalists, and independent 
        media working to hold anti-democratic governments accountable.
         conclusion: building healthy information environments
    In these challenging times, the United States' commitment to 
advancing democracy and bringing COVID-19 under control around the 
globe cannot waver. Generous support of independent media around the 
world is one important way to deliver on that promise.
    I consistently see examples of increased accountability and real 
progress in changing lives and empowering people through accurate 
information, delivered by trusted local media.
    Change does not happen overnight, and the needs are complex. Beyond 
simply supporting press freedom and journalist safety, we must invest 
in promoting the sustainable business models, legal frameworks, and 
technical tools needed to preserve the critical role of news and 
information as a cornerstone of democracy.
    Local media, internet freedom, citizen media, and civil society 
institutions empower and stabilize communities while supporting 
American development, diplomacy, and national security goals.

    [This statement was submitted by Jeanne Bourgault, President and 
Chief Executive Officer.]
                                 ______
                                 
          Prepared Statement of the Jesuit Refugee Service/USA
    On behalf of Jesuit Refugee Service/USA (JRS/USA), I appreciate the 
opportunity to present our views on the importance of investing in 
refugee assistance programs--including refugee education--in the FY22 
State & Foreign Operations Appropriations bill. Specifically, we urge 
the Subcommittee to include $4.1 billion for Migration & Refugee 
Assistance and $1.1 billion for basic education programs, including $50 
million in funding for Education Cannot Wait (ECW).
    While the COVID-19 pandemic has caused death and disruption across 
the globe, it has not diminished the need to provide safety and 
assistance for millions of people who have fled war, persecution, and 
violence. Systems that provide protection to the forcibly displaced 
have been tested over the last year, but we must renew our commitment 
to building stronger mechanisms that can withstand public health 
emergencies.
    Refugees have been at particular risk during the pandemic as they 
face lost livelihoods, increased poverty, further isolation, and 
insufficient aid. At the same time, conflicts did not cease over the 
past year. Violence and persecution in places like the Tigray region of 
Ethiopia and Myanmar have resulted in thousands of new refugees and 
unspeakable abuses.
    U.S. engagement and support for refugee assistance programs has a 
direct impact on the well-being of refugees and other displaced people 
who are often the most marginalized members of society. Now more than 
ever, the U.S. must once again be a leader in helping those who are at 
their most vulnerable.
    According to the United Nations High Commissioner for Refugees 
(UNHCR), there are 82.4 million forcibly displaced worldwide as a 
result of persecution, conflict, violence, human rights violations or 
events seriously disturbing public order. This number has steadily 
increased over recent years as conflict continues in many parts of the 
world, factors like climate change increase the vulnerability of those 
already forced to flee, and fewer long-term durable solutions are 
available to those who have been displaced.\1\
    As an organization working with refugees and other forcibly 
displaced persons in 57 countries, we at JRS/USA understand the needs 
of those we serve. With support from the State Department's Bureau for 
Population, Refugees, and Migration (PRM), we can provide life-saving 
assistance and help improve their quality of life. In places like 
Cameroon, Iraq, and Thailand, the U.S. and JRS/USA are partnering to 
provide access to education, livelihoods, and healthcare for refugees 
who otherwise would have no place to turn.
                     critical funding for refugees
    The Migration & Refugee Assistance account funds lifesaving 
programs and plays a vital role in asserting U.S. leadership and 
national interests around the world. U.S. funding--including support 
for UNHCR--helps meet the basic needs of displaced persons, including 
access to food, water, shelter, healthcare, and education. These 
programs assist developing countries that host 86 percent of refugees 
as well as countries that have significant populations that are 
internally displaced.\2\
    Maintaining stable and humane conditions for displaced persons and 
host communities during early onset emergencies and protracted crises 
is critical for ensuring stability and security. Given that we are 
currently facing the worst displacement crisis on record, involving 
multiple complex humanitarian emergencies and a global pandemic, it is 
critical that support for the Migration & Refugee Assistance account 
remains strong.
    UNHCR estimates that some 76 percent of all refugees find 
themselves in a protracted crisis, defined by UNHCR as one in which 
25,000 or more refugees from the same nationality have been in exile 
for five consecutive years or more in a given host country.\3\ 
Protracted refugee situations often receive very little public 
attention and ever-decreasing financial support. As a result, refugees 
find themselves in hopeless situations lacking opportunities for 
advancement and prosperity.
    Refugees in protracted refugee situations often face protection and 
human rights challenges, such as restricted movement or confinement in 
camps, sexual and physical violence, and lack of access to legal 
employment, police protection, and systems of justice. Critical support 
from the U.S. not only allows them to fulfill basic needs such as food, 
water, shelter, education, and health care, but this assistance also 
helps them to learn a livelihood and achieve self-reliance.
    Cameroon hosts over 300,000 refugees from the Central African 
Republic who have fled ongoing violence and instability in their home 
country.\4\ In partnership with PRM, JRS is providing both young 
refugees and members of the host community with an eight-month 
professional training program focused on a range of skill sets 
including hotel management, hair and beauty, business administration, 
and healthcare assistance.
    Students participating in the training program not only learn a 
vocational skill, but how to live and work side by side. It has helped 
to address discrimination against Central African refugees in the 
country and build bridges between communities while supporting young 
refugees as they plan their own futures. One student said, ``At the 
beginning I was not so sure about the idea of studying with people I 
didn't know, but I told myself, we can complement and assist each 
other.''
    Not only does U.S. leadership on refugee issues send a signal for 
other governments to follow our example, but U.S. support for refugee 
assistance programs has a clear, tangible impact on people's lives--as 
evidenced by this kind of program.
                     prioritizing refugee education
    Providing access to education for refugees and others who are 
forcibly displaced provides another vivid example of the impact of U.S. 
investment and engagement. Not only does education offer an important 
form of protection for children, but education also engenders hope as 
it prepares refugees to meet future challenges. Education provides 
stability and a sense of normalcy, and acts as a form of vital 
psychosocial support to children whose lives have been disrupted by 
crisis.
    Yet, prior to the pandemic, 48 percent of refugee children were out 
of school with 77 percent enrolled in primary school, 31 percent in 
secondary school, and only three percent in higher education.\5\ An 
even greater number--128 million--conflict-affected children lack 
educational services, denying them their right to an education and 
making them more vulnerable to violence, trafficking, child labor, 
child marriage, and recruitment by armed groups.\6\
    One year into the COVID-19 pandemic, close to half the world's 
students are still affected by partial or full school closures.\7\ 
Historically, financial support for refugee education has not been a 
priority, but the need is arguably more important now than ever before. 
Continued and increased support from the U.S. Government, as well as 
multilateral partnerships like Education Cannot Wait and the Global 
Partnership for Education, play a critical role in helping forcibly 
displaced people build a future for themselves and the communities in 
which they live.
    In 2019, only 3 percent of humanitarian funding was allocated to 
education.\8\ Through robust funding of global education programs, and 
by ensuring that education is a core part of humanitarian assistance, 
we can ensure that more displaced children are gaining access to a 
quality education. This includes encouraging bilateral donors, 
multilateral entities, and corporate donors to take part in these 
efforts.
    The current U.S. Government Strategy on International Basic 
Education established important goals to improve measurable learning 
outcomes and expand access to high-quality basic education for all, 
particularly marginalized and vulnerable populations. In FY19, U.S. 
Government education programs reached more than 14.5 million children 
and youth in 23 countries affected by crisis and conflict.\9\
    Yet, U.S. bilateral assistance cannot tackle this global challenge 
alone. Multilateral partnerships play an important role in building the 
political will necessary to create sustainable change and help bring a 
diverse group of actors to the table to achieve these critical goals.
                         education cannot wait
    Launched in 2016, Education Cannot Wait is the first global 
movement and fund dedicated to education in emergencies and protracted 
crises. ECW gathers international humanitarian and development aid 
actors, along with public and private donors, to help reposition 
education as a priority on the humanitarian agenda, usher in a more 
collaborative approach among actors on the ground and foster additional 
funding to ensure that every crisis-affected child and young person is 
in school and learning.
    The U.S. Government has played a critical role in ECW's 
transformative efforts, contributing a total of $33 million in 
financial assistance in addition to $25 million in annual 
appropriations in FY20 and FY21. The U.S. also provides technical 
support to ECW and its partners and plays a leadership role in ECW's 
governance structure. This has been a collaborative effort, with USAID 
and PRM working together to contribute resources and share leadership 
responsibilities.
    To date, ECW has raised over $695 million from 21 donors, including 
the private sector. With both rapid response and multi-year funding 
platforms, ECW has already supported education in 39 crisis-affected 
countries, reaching 3.9 million children and youth and training over 
46,000 teachers.\10\ ECW-supported programs span a wide spectrum of 
context-specific activities designed to meet education needs for 
crisis-affected children and youth aged 3-18 years old, including girls 
(48 percent), refugees, and internally displaced children. Programs are 
implemented through various grantees, including UN agencies, and 
international and national NGOs.
    ECW was able to mobilize its Emergency Response Fund early in the 
pandemic and has disbursed over $45 million in funding to support 
COVID-19 education response efforts. These investments have reached 
more than 9.3 million children and over 56,000 teachers by maintaining 
continuous access to education through distance, online, and radio 
learning; information campaigns on health and hygiene; risk 
communication and community engagement; psychosocial and mental health 
support; and water and sanitation facility upgrades in schools and 
learning centers.
    We want to extend our sincere thanks to Chairman Coons, Ranking 
Member Graham, and members of the Subcommittee for championing access 
to education for the most vulnerable, and for including $25 million for 
ECW in the FY20 & FY21 State & Foreign Operations Appropriations bills. 
By demonstrating bipartisan Congressional support for ECW and education 
in conflict and crisis settings, the U.S. can continue to be a leader 
in ensuring that youth can learn and thrive.
                 post-secondary education for refugees
    As mentioned earlier, only 3 percent of refugee youth are enrolled 
in some form of post-secondary/higher education. This includes 
technical and vocational education and training as well as university 
courses and this percentage has remained stagnant year after year. In 
its Education 2030: Strategy for Refugee Education, UNHCR established a 
goal of increasing the refugee enrollment rate in higher education to 
15 percent by 2030.\11\
    Through our programs, JRS has found that there is a significant 
need for employment, income generation, and satisfying career paths for 
young refugees. The opportunity to work, earn a living, and be self-
reliant is one of the most effective ways for refugees to rebuild their 
lives. Refugees have their dignity and hope reaffirmed when they 
acquire the means to earn their own living and support their families.
    The U.S. Government Strategy on International Basic Education notes 
that U.S. Government interventions will ``address international 
educational needs across the spectrum, from early childhood to primary 
and secondary education to workforce development and vocational 
training, in both formal and non-formal settings.'' \12\
    We urge the Committee to consider report language that highlights 
UNHCR's goal to increase refugee enrollment in higher education 
programs to 15 percent by 2030. This gesture can help draw attention to 
this important issue and galvanize U.S. Government support for 
investments in long-term, sustainable programs that will help refugees 
build a future for themselves and their families.
                               conclusion
    In a post-pandemic world, how we respond to the millions of 
families and children who have been forced to flee their homes impacts 
not only their future but the future for all of us. Now is not the time 
to turn our backs on helping to meet their most basic needs. We thank 
Congress for its past support for these critical programs, including 
its longstanding commitment to, and support for, UNCHR, and urge the 
Subcommittee to include $4.1 billion for Migration & Refugee Assistance 
and $1.1 billion for basic education programs, including $50 million in 
funding for Education Cannot Wait in the FY22 State & Foreign 
Operations Appropriations bill.
    Thank you again for your time and consideration.
---------------------------------------------------------------------------
    \1\ UNHCR (2021). Global Trends: Forced Displacement in 2020. 
https://www.unhcr.org/60b638e37/unhcr-global-trends-2020
    \2\ UNHCR (2021). Global Trends: Forced Displacement in 2020. 
https://www.unhcr.org/60b638e37/unhcr-global-trends-2020
    \3\ Ibid.
    \4\ UNHCR (April 30, 2021). Operational Data Portal. https://
data.unhcr.org/en/situations
    \5\ UNHCR (2020). ``Coming Together for Refugee Education.'' 
https://www.unhcr.org/en-us/publications/education/5f4f9a2b4/coming-
together-refugee-education-education-report-2020.html
    \6\ Education Cannot Wait (2021). ``Education Cannot Wait: A Case 
for Investment.'' https://www.educationcannotwait.org/cfi/
    \7\ UNESCO (2021). ``Education: From disruption to recovery.'' 
https://en.unesco.org/covid19/educationresponse
    \8\ Global Education Monitoring Report (July 2020). ``Policy Paper 
41: COVID-19 is a serious threat to aid to education recovery.'' 
https://reliefweb.int/sites/reliefweb.int/files/resources/373844eng.pdf
    \9\ U.S. Government Strategy on International Basic Education. 
Report to Congress. April 1, 2019-March 31, 2020. https://www.edu-
links.org/about/strategy
    \10\ Education Cannot Wait (June 4, 2021). ``ECW Results 
Dashboard.'' https://www.educationcannotwait.org/about-us/
    \11\ UNHCR (2019). ``Refugee Education 2030''. https://
www.unhcr.org/5d651da88d7.pdf
    \12\ USAID (2018). ``U.S. Government Strategy on International 
Basic Education.'' https://www.usaid.gov/education/usg-strategy

    [This statement was submitted by Joan Rosenhauer, Executive 
Director.]
                                 ______
                                 
    Prepared Statement of the Johnson & Johnson Global Public Health
    On behalf of Johnson & Johnson's 134,500 global employees, I am 
pleased to provide written testimony to the Senate Appropriations 
Subcommittee on State, Foreign Operations, and Related Programs in 
support of sustained and increased funding in Fiscal Year (FY) 2022 
appropriations related to the global public health activities of the 
Department of State and the United States Agency for International 
Development (USAID).
    In my role as Global Head of Johnson & Johnson Global Public 
Health, I am acutely aware of the need for critical U.S. investments in 
global public health initiatives to save lives around the world and 
protect the American people from the spread of deadly infectious 
diseases.
    The global reach of the COVID-19 pandemic, and the human and 
economic devastation left in its wake, has been a stark reminder that 
no country is immune to the impact of infectious disease. Consistent 
and robust funding by the U.S. for global preparedness and response is 
needed to combat the COVID-19 pandemic, to reduce mortality from other 
epidemics such as HIV/AIDS and tuberculosis (TB), and to detect and 
respond to new and re-emerging diseases like Ebola in Africa in 
February 2021.
    This pandemic has also shed light on how nations can be better 
prepared for future health emergencies. Advances in science and new 
global partnerships can equip countries to prevent, identify, and 
respond to such hazards. During the pandemic, the U.S. government has 
built on a foundation of earlier investments. U.S. leadership in the 
Global Health Security Agenda (GHSA) beginning in 2014 contributed to 
enhanced capacity of many countries in their laboratory networks, 
surveillance systems, emergency operation centers, and other components 
of a public health emergency response. Following the 2014-2016 Ebola 
outbreak, the U.S. supported the creation of the Africa Centers for 
Disease Control and Prevention which has led much of the COVID-19 
public health response in Africa. The U.S. government must continue to 
identify and help fill gaps in the global preparedness and response 
architecture for public health emergencies.
    At Johnson & Johnson, our vision for global health security is to 
outsmart epidemics and pandemics by developing vaccines and 
therapeutics for diseases such as COVID-19, Ebola, TB, and HIV/AIDS. 
Our strategy drives research, development, and access to innovative 
products and technologies for people living in lower-income countries. 
Public-private partnership with the Biomedical Advanced Research and 
Development Authority (BARDA) has been key to the development of our 
COVID-19 and Ebola vaccines. We have partnered with the Department of 
State, USAID, and the Centers for Disease Control and Prevention (CDC) 
to support equitable global access to life-saving vaccines and 
therapies.
    Equitable access is at the forefront of the Johnson & Johnson 
COVID-19 response. Our single-dose vaccine is compatible with standard 
vaccine distribution channels and aligns with the World Health 
Organization's recommendations for medical interventions in a pandemic 
setting, which emphasize ease of distribution, administration and 
compliance. Johnson & Johnson has entered into an Advance Purchase 
Agreement (APA) to provide up to 400 million doses of vaccine to 
African Union member states through 2022, and an APA with Gavi, the 
Vaccine Alliance (Gavi) to provide up to 500 million doses of vaccine 
to COVAX through 2022, including for 92 low- and lower-middle income 
countries.
    Our Ebola vaccine regimen received marketing authorization from the 
European Commission in July 2020 and World Health Organization 
prequalification in April 2021. It has been used in outbreak response 
in the Democratic Republic of Congo (DRC) and since 2019, the 
government of Rwanda has vaccinated 160,000 people in a campaign near 
the border with the DRC.
    Building on a 20-year commitment, Johnson & Johnson is a private-
sector leader in the fight to end the global TB epidemic by 2030. 
Through partnership with USAID, we have enabled our multidrug-resistant 
TB (MDR-TB) treatment to be provided in 145 countries. In 2020, the 
pediatric formulation of our MDR-TB medicine received U.S. Food and 
Drug Administration (FDA) approval and in March 2021 we launched a 
collaboration with USAID in high-burden countries to improve programs 
that identify children with drug-resistant TB and provide lifesaving 
care.
    The funding by the Subcommittee to the Department of State and 
USAID is crucial for bilateral and multilateral programs that enhance 
global health security, including GHSA; Gavi; the President's Emergency 
Plan for AIDS Relief (PEPFAR); the Global Fund to Fight AIDS, 
Tuberculosis and Malaria (Global Fund); the Coalition for Epidemic 
Preparedness Innovations (CEPI); and health systems strengthening 
efforts, among many others. These U.S. investments support vital 
research and development and improve the capacity of lower-income 
countries to detect and respond to an outbreak before it spreads to 
other countries. These are critical resources to fight COVID-19 and 
prevent increased deaths from HIV and TB.
    The U.S. will not be safe until there is global control of the 
COVID-19 pandemic. Johnson & Johnson commends the Committee for 
providing $4 billion for Gavi to purchase vaccines for lower-income 
countries through COVAX. The U.S. government must continue to play an 
important role in the global response through bilateral programs and 
support to global initiatives such as Gavi and CEPI.
    The emergence of new Ebola outbreaks in Guinea and the DRC earlier 
this year was a warning that outbreaks are occurring at an increasing 
frequency and affecting more communities. Scientific evidence revealed 
that a survivor transmitted the virus five years after the initial 
infection, demonstrating longer virus persistence than previously 
thought. It is time to shift the public health paradigm from 
vaccinating only after an Ebola outbreak to providing vaccines to high-
risk populations before an outbreak. The U.S. government can advance 
global health security by supporting expanded Ebola vaccine access for 
high-risk populations in Africa.
    While combating emerging and re-emerging diseases, the global 
community continues to be plagued by the enduring HIV/AIDS and TB 
pandemics, which could be worsened by the spread of drug resistance. 
The Stop TB Partnership reported significant declines in the number of 
people diagnosed and treated for TB during the COVID-19 pandemic, 
setting progress back by 12 years. Increased resources for USAID's 
global TB program will enable countries to implement public health 
measures such as diagnostic testing for both TB and COVID-19. Care for 
individuals with HIV/AIDS and HIV/TB co-infection has also been 
impacted by quarantines, disrupted supply chains, and the focus of the 
community health workforce on COVID-19. Johnson & Johnson commends the 
Committee for providing $3.5 billion for the Global Fund to respond to 
COVID-19 and protect AIDS, TB, and malaria programs. Sustained U.S. 
contributions to PEPFAR and the Global Fund-where U.S. funding 
leverages additional donor resources-are critical to ensuring that more 
lives are not lost to other diseases while we fight COVID-19.
    Johnson & Johnson looks forward to working with the Subcommittee 
and our partners at USAID and Department of State to advance our shared 
global public health objectives in the months ahead. I thank the 
Subcommittee for its work on these important issues and for considering 
this perspective.

    [This statement was submitted by Martin Fitchet, MD, Global Head.]
                                 ______
                                 
    Prepared Statement of the Kiwanis International and the Kiwanis 
                            Children's Fund
    Mr. Chairman, it is an honor to provide testimony to the Committee 
on behalf of 550,000 Kiwanis-family members in nearly 16,000 Kiwanis 
family clubs, with more than half located within the United States. We 
appreciate the opportunity to testify in support of the Kiwanis/UNICEF 
program to eliminate maternal and neonatal tetanus. We are seeking the 
support of this Committee to recommend $2,000,000 in the FY 2022 bill 
for maternal and neonatal tetanus (MNT) and $3,500,000 for iodine 
deficiency and iodine nutrition. This funding would come from the U.S. 
Agency for International Development's Global Health Programs, Maternal 
and Child Health and Nutrition accounts.
    While this request is for funding to support our global health 
efforts, Kiwanis and its members do so much more. Kiwanis International 
clubs around the world have been supporting their local communities 
during this pandemic. While COVID-19 has disrupted normal club 
activities, it has resulted in more creativity in our service. Our 
members have sewn masks and celebrated graduations and school 
milestones in new ways. Clubs have prepared and distributed meals, 
arranged delivery of food for first responders and collected donations 
for servers at local restaurants that normally host Kiwanis meetings. 
Additionally, the Kiwanis Children's Fund distributed over $165,000 in 
grants to support clubs' targeted efforts in communities in 11 
countries. These funds are used for online learning materials and 
equipment, hand sanitizer, surgical masks, diapers, vitamins, 
toiletries, hygiene kits, food banks and replacement meals for school 
lunches.
                     maternal and neonatal tetanus
    For over 10 years, Kiwanis and its members have been working to 
eliminate the deadly disease of maternal and neonatal tetanus (MNT). 
Kiwanis launched its global campaign The Eliminate Project in 2010, to 
help save or protect more than 61 million mothers and newborns from 
MNT. Tetanus is a preventable disease that kills one baby every 21 
minutes. Participation and funding by the United States is imperative 
to the success of eliminating MNT. In many developing countries, women 
give birth at home without the support of a healthcare worker and 
without a clean, sterile blade to cut the umbilical cord. This, and 
other factors, can lead to tetanus poisoning in the newborn baby, 
causing severe spasms and an excruciatingly painful death. It is a 
terrible disease in which human contact exacerbates the baby's pain; a 
mother's touch hurts, leaving the baby to writhe in agony, unheld for 
days until he or she dies.
    MNT results when tetanus spores, which are present in soil 
everywhere, enter the bloodstream. It is mainly caused by a lack of 
access to sanitary birthing conditions, unclean instruments used to cut 
the umbilical cord and unclean post-partum cord care. MNT is easily 
prevented by a series of vaccine doses to women of childbearing age, 
who pass the immunity on to their children. The series of vaccines cost 
roughly $3.00, which includes the vaccinations, syringes, safe storage, 
transportation and more.
    Women who are properly vaccinated with the tetanus vaccine will 
have immunity through most of their childbearing years and their babies 
are protected through the first two months of life. When vaccinated for 
tetanus, women learn about maternal health, they become empowered to 
take control of their well-being and that of their newborns. We believe 
these women matter, they deserve to give birth to healthy babies, and 
their babies deserve to achieve their full human potential.
    In partnership with UNICEF, Kiwanis committed to and has raised 
$110 million to immunize women in countries where MNT is still a major 
health threat. More than 6,000 Kiwanis-family members and clubs in the 
United States alone have contributed to the fundraising campaign. We 
are now tackling the hardest leg of a difficult journey. Twelve 
countries remain at risk, with more than 52 million women who still 
need to be vaccinated.
    Since 2000, MNT has been eliminated in 47 countries, thanks to the 
work of national governments, UNICEF and partners. Between 1999 and 
2018, more than 161 million women in some of the world's most remote 
places were vaccinated against tetanus, saving thousands of newborns 
from death due to tetanus every year.
    In July 2014, USAID announced that it was joining as a partner with 
Kiwanis to help eliminate MNT. Kiwanis has been working in partnership 
with USAID to strengthen its programs on MNT and to provide funding 
through the UNICEF global effort. Kiwanis' global volunteer network and 
strength in reaching communities and leaders, along with UNICEF's field 
staff, technical expertise and unbeatable supply chain, are working to 
eliminate this cruel, centuries-old disease and pave the way for other 
interventions.
                    iodine deficiency and nutrition
    Our other global effort focuses on iodine deficiency, the world's 
leading cause of preventable mental impairment, that has been kept 
under control through a global movement to iodize edible salt. Iodine, 
a micronutrient that naturally occurs in some foods, is an essential 
element for normal growth and development in humans. Iodine is not 
synthesized by the body and is required to be provided through the 
daily diet in the recommended amounts. It is required for proper 
functioning of the thyroid gland, which in turn regulates many 
biochemical reactions and the proper skeletal and central nervous 
system development in fetuses and infants.
    While many of the disorders resulting from severe iodine deficiency 
in dietary intake have virtually disappeared (goiter, cretinism, 
stunting, stillbirth), insufficient iodine during pregnancy leads to 
brain damage that can reduce a child's IQ by 8 to 10 points. Even mild-
to-moderate iodine deficiency at school age can reduce IQ by 3 to 5 
points. Adequate iodine during early life is critical to children's 
ability to reach their full potential. As many as two dozen nations 
have been documented as currently showing iodine deficiency while 
insufficient data exists for many others.
    Thanks to iodized salt, most infants and children of the world have 
had correct brain development. Adequate iodine in the diet during 
pregnancy and until age 5 will greatly improve a child's healthy brain 
development and readiness to learn as he/she enters primary school 
grades. Insufficient iodine during pregnancy leads to brain damage that 
can reduce a child's IQ by 8 to 10 points. Adequate iodine during early 
life is critical to children's ability to reach their full potential.
    Kiwanis International first invested in universal salt iodization 
to virtually eliminate iodine deficiency disorders in 1994. In 
partnership with UNICEF, USAID and several governments, global access 
to iodized table salt increased from less than 20% to 88% today. 
Kiwanis had raised and invested more than $100 million from its members 
and clubs for this effort.
    Iodine deficiency disorders (IDD) were a public health problem in 
most countries of the world until a few short decades ago. Iodine 
deficiency, the world's leading cause of preventable mental impairment, 
has been kept under control through a global movement to iodize edible 
salt. Universal salt iodization continues to be the most effective way 
to introduce iodine into the dietary intake of a deficient population. 
The cost of prevention is small--$.05 a year per individual for a 
lifetime of protection against iodine deficiency. On average, every 
dollar spent on salt iodization yields a $30 return on investment 
through improved learning, which leads to greater productivity in later 
life that boosts economies of the nations in which these children live. 
Recent developments in food fortification, like double fortified salt 
(adding iron, zinc, folic acid, etc.), or adding iodized salt to rice, 
flour, maize, tea, bouillon cubes, condiments, etc. offer promising 
results to extend the efficiency of this very inexpensive health 
intervention.
    Funds provided through USAID and its public/private partnership 
with Kiwanis International, UNICEF, and the Iodine Global Network are 
preventing brain damage and other adverse outcomes for millions of 
children by supporting new and sustaining existing programs to iodize 
salt. USAID funding at the level of $3,500,000 will provide continued 
funding to keep global attention to this permanent intervention and to 
address the needs of the few countries that are still at risk of iodine 
deficiency disorders.
                          support for partners
    We have a very effective partnership with UNICEF and urge you to 
support UNICEF in its request for a U.S. fiscal year 2022 contribution 
for the UNICEF core resource budget of $134 million. We also support 
funding for the Maternal and Child Health account at a level of $984 
million.
                         a personal experience
    As the executive director of an organization that has members in 
more than 80 nations around the globe, I have had the opportunity to 
travel to and experience unique cultures in almost half of those 
countries.
    I have witnessed firsthand the success of our public-private 
partnership to eliminate maternal and neonatal tetanus. For example, in 
Madagascar, I was present to see immunization day at several health 
clinics in villages seemingly in the middle of nowhere, and I was 
amazed to see how many mothers and their young children showed up to 
receive a tetanus immunization. That meant for the hundred or so 
children that I saw in a single day, approximately five who would not 
have survived beyond a fifth birthday were immunized.
    Because of the Kiwanis/UNICEF/USAID cooperation, these children had 
a much better chance of surviving. Our investment there had brought the 
death rate for neonatal tetanus down to less than one death per 
thousand live births. Fortunately, Madagascar was validated as being 
``tetanus free'' by the World Health Organization, and together we 
funded the work that made that outcome possible.
    I have been an active member of our organization since my youth. It 
is a privilege to now serve in the leadership role of Kiwanis 
International and the Kiwanis Children's Fund (the charitable arm of 
the Kiwanis organization). More than two-thirds of our global Kiwanis 
family membership is American. Our members have been extremely generous 
of their personal resources to raise most of the US$100 million to date 
to eliminate MNT. We are committed to global elimination.
    Today about 68 infants will die from MNT somewhere in the world. 
Our commitment is to keep working to reduce that number to zero. We 
look forward to continuing our joint effort with UNICEF and USAID. 
Thank you for your support in this important work.
                               conclusion
    Mr. Chairman, I ask you to join us in our efforts working to 
eliminate MNT and supporting iodine nutrition. Help continue targeting 
the last countries to be certified for the elimination of MNT and 
protect the lives of hundreds of thousands of children. Help us ensure 
that no baby suffers this excruciating seven-day death ever again by 
recommending $2,000,000 within the Global Health, Maternal and Child 
Health account for the elimination of maternal and neonatal tetanus. It 
will help continue targeting the last countries to be certified for the 
elimination of MNT and protect the lives of hundreds of thousands of 
children.
    Funds provided through USAID and its public/private partnership 
with Kiwanis International, UNICEF, and the Iodine Global Network are 
preventing brain damage and other adverse outcomes for millions of 
children by supporting new and sustaining existing programs to iodize 
salt. USAID funding at the level of $3,500,000 in the Global Health, 
Nutrition account will provide continued funding to keep global 
attention to this permanent intervention, and to address the needs of 
the few countries that are still at risk of iodine deficiency 
disorders.
    Thank you for your consideration.

    [This statement was submitted by Stanton D. Soderstrom, Executive 
Director.]
                                 ______
                                 
       Prepared Statement of the Lions Clubs International (LCI)
Dear Chairman Coons, Ranking Member Graham, and Members of the 
Committee:

    As the world's largest volunteer service organization with 1.4 
million members worldwide and 400,000 members in North America, Lions 
Clubs International and its Foundation, Lions Clubs International 
Foundation (LCIF), are committed to global health and education 
initiatives. We urge the Senate Subcommittee on State, Foreign 
Operations to provide robust funding for international programs that 
address the burden of cancer in children and promote increased 
survivorship for childhood cancer. Specifically, we request that the 
Committee continue to support and encourage collaborative efforts 
between the private sector, the non-governmental community, the United 
Nations, and other relevant multilateral organizations to address 
childhood cancer globally. Furthermore, we encourage the Committee to 
allow the Department of State and USAID access to funding as is 
consistent with the Consolidated Appropriations Act for FY21.
    This funding will provide critical support to help establish 
sustainable long-term solutions to diagnose and treat pediatric cancer 
in sub-Saharan Africa. According to United Nations and World Health 
Organization statistics, cancer is a leading cause of death for 
children. Additionally:

  --There are 300,000 new cases annually
  --57% of childhood cancer cases go undiagnosed in many parts of the 
        world
  --Survival rates are 80% in developed countries, and 20% in lesser 
        developed countries.

    Much work needs to be done to improve access to drugs and 
treatment, train healthcare providers, improve facilities and 
technology, and address socio-cultural barriers to improve global 
childhood cancer survival rates.
    Lions around the world have been working to increase awareness for 
childhood cancer as a ``global signature priority program'' with the 
goal of providing community knowledge of potential causes, signs, and 
symptoms of childhood cancer, improving rates of early detection and 
treatment, and reducing stigma. Lions and LCIF have established a 
partnership with Texas Children's Hospital's Global HOPE program and 
Baylor's College of Medicine to build long-term capacity in Sub-Saharan 
Africa. The program aims to effectively diagnose and treat children 
with cancer and blood diseases, and to improve childhood cancer 
survival rates.
    Launched in 2017, Global HOPE is a transformational initiative that 
is improving the standard of care for children with cancer in Sub-
Saharan Africa. Building on the foundation of Baylor College of 
Medicine's International Pediatric AIDS Initiative (BIPAI) in treating 
childhood AIDS in Africa, and relationships with governments and 
National Ministries of Health, Global HOPE has been able to treat 
nearly 7,500 children and train over 1,500 African healthcare 
professionals in the care of pediatric hematology-oncology.
    The LCIF Board of Trustees approved a 2-year strategic partnership 
between LCIF and Global HOPE to cooperate in building long-term 
capacity in Africa to treat and dramatically improve the prognosis for 
children with cancer and blood disorders. This partnership will help 
strengthen the local healthcare infrastructure, which includes the 
constructions of 3 state-of-the-art clean pharmacies to effectively 
provide the multi-disciplinary care necessary to treat children. LCIF's 
support will enhance Global HOPE current facilities in Uganda, Malawi, 
and Botswana.
    Thank you for the opportunity to present the priorities for Lions 
Clubs International and our Foundation for the FY 22 State, Foreign 
Operations Appropriations bill, and please do not hesitate to contact 
me with any question.
     about j. frank moore iii, lions clubs executive administrator
    J. Frank Moore, of Daleville, Alabama, is Lions Clubs 
International's current Executive Administrator and a Past 
International President of the organization. He was elected to serve as 
president of Lions Clubs International at the association's 84th 
International Convention in Indianapolis, Indiana, USA, July 2 through 
6, 2001. Past President Moore is an educator by profession and a former 
superintendent of education for the Daleville City Schools in 
Daleville, Alabama, USA. A member of the Daleville Lions Club since 
1975, Past President Moore has held many positions within the 
association, including chairperson of the LCI Centennial Action 
Committee. He also served as chairperson of the Lions Clubs 
International Foundation, international director on the association's 
board of directors, and vice chairperson and international coordinator 
of Campaign SightFirst II, the most successful fundraising initiative 
of Lions Clubs International Foundation and our association. Moore has 
received numerous awards in recognition of his service to the 
association, including the Friends of Humanity Award presented by Lions 
Clubs International Foundation, and the Ambassador of Good Will Award, 
the highest honor the association bestows upon its members. He is also 
a Progressive Melvin Jones Fellow. In addition to his Lion activities, 
he is a member of the Army Aviation Museum Foundation executive 
committee, and a former chief executive officer of the Association of 
the United States Army.
    [This statement was submitted by J. Frank Moore III, Executive 
Administrator.]
                                 ______
                                 
  Prepared Statement of the Methane Action and Remineralize the Earth
    Chairman Coons, and Members of the Subcommittee: Last week, the 
world-renowned former science advisor to the U.K., Sir David King of 
Cambridge University, declared we have five years left to solve the 
climate crisis and announced a new Climate Crisis Advisory Group to 
help reduce emissions, remove greenhouse gases already emitted and 
restore the climate to truly healthy temperatures and functioning. See, 
https://www.businessgreen.com/news/4033355/reduce-remove-repair-
climate-crisis-advisory-group-sketches-climate-priorities.
    In April, Sir David, Michael Mann and Michael McElroy of Penn 
State, Rob Jackson of Stanford, Simon Levin of Princeton, Eric Davidson 
of the University of Maryland, Frank Keutsch of Harvard, Shaeed Naim 
and Duncan Menge of Columbia, William Schlesinger and Stuart Pimm of 
Duke, Jennifer Powers of the University of Minnesota, Quinlai Zhuang of 
Purdue, Margaret Torn of Berkeley, Deborah Lawrence of the University 
of Virginia and William Peterjohn of West Virginia University led a 
group of 31 scientists from the U.S., Canada, U.K., Europe and Japan 
who signed a letter in advance of the White House Climate Summit 
declaring that governments need to expedite 1) the reduction of 
emissions, 2) the deployment of methods of removing excess ambient 
methane and other greenhouse gases (GHGs) from the atmosphere and 3) 
the development of governance capable of ensuring the safe and 
effective use of those methods. (See, MethaneAction.org).
    Our testimony focuses primarily on how this Subcommittee can help 
prepare the U.S. and its allies to develop the global governance called 
for by those scientists whose research is bringing to bear potential 
solutions unlike any deployed so far. Peer reviewed science and ongoing 
laboratory tests indicate that they and their colleagues may be able to 
deploy safe and efficient methods that can return and sustain methane 
levels from the current concentrations of 1.94 parts per million to the 
pre-industrial norm of .8 ppm within this decade, buying time to deal 
with the long-term problem of CO2 as methane is 84 times as potent as 
CO2 over the 20 year period of its primary impact. Continuing this 
research is dependent, however, on at least modest government support, 
which we urge you and your colleagues on the Interior and Energy 
Subcommittees to consider in the FY22 appropriations process.
    This year the United Kingdom announced 23 new major grants to U.K. 
entities to develop new CO2 and methane removal technologies but those 
grants were based on earlier submissions and did not appear to cover 
the latest and most promising methane removal approaches. We believe 
it's appropriate and necessary for the U.S. to play a leadership role 
in the research, development and deployment of these methods.
    We filed complementary testimony on June 24th with the Interior-EPA 
Subcommittee and on June 25th with the Energy and Water Subcommittee 
urging them to follow suit with specific grants, contracts, and 
policies. We ask that you compare notes with those Subcommittees in 
order to ensure the best fit for each Subcommittee and recommendation 
that you find useful. For example, some of the research would be done 
more efficiently in some cases with non-U.S. principal investigators 
who are already, with too little funding, working on these approaches. 
The overall program should in any case be geared for both international 
cooperation and policy coordination with the U.S. playing a strong 
role.
    First, however, we recommend that you write the Secretary of State 
and ask him to assure the Committee that the US will not accept any 
limit--whether in the Glasgow COP26 negotiations, the WTO reform set 
for this summer, or any other forum on the ability of the US, the EU, 
or any jurisdiction to tariff or embargo goods and services the climate 
footprint of which is greater than that allowed for comparable domestic 
production. Current international trade and environmental law that the 
U.S. helped establish provide that nations should not harm the 
environment or health of other nations and that they have the right to 
support their domestic industries and populations by embargoing or 
tariffing imports from countries that do not require comparable 
performance especially if such measures are also in support of existing 
international conservation efforts. (See, Shrimp and Sea Turtle 
Appellate Decisions of the WTO). That series of decisions essentially 
reaffirmed the U.S. Congress action in the late 1980's that protected 
endangered sea turtles and ensured fair competition for American shrimp 
fishermen and women by banning the importation of shrimp from countries 
that did not require sea turtle excluder devices.\1\
    Given upcoming preparatory meetings, we urge that this letter to 
the Secretary of State be sent no later than the first week of July. 
From this point on, our testimony will largely be the legislative 
language we recommend.
    I. Integrate Greenhouse Gas Removal In Policies and Programs.--In 
order to reduce greenhouse gases and other climate forcing agents 
(GHGs) to historically healthy levels as soon as possible, the 
Secretaries of State and Treasury, the Administrator of USAID, the 
Chief Executive Officers of the Millennium Challenge Corporation, the 
Trade and Development Agency, the U.S. International Development 
Finance Corporation and the Export Import Bank, and the other agencies 
using funds appropriated in this bill, and using their voice, votes and 
leadership accordingly in the International Financial Institutions 
including, but not limited to, the World Bank Group and the Strategic 
Climate Fund and the Global Environment Facility, shall:

    A) In consultation and cooperation with the Special Envoy and 
Domestic Advisor on Climate Change, the Administrator of the EPA, and 
the appropriate departments and agencies, use their authorities to 
facilitate the deployment of methods of limiting emissions of, and 
removing from the atmosphere methane, carbon dioxide and other 
greenhouse gases, and black carbon (or ``soot'') (hereinafter 
``GHGs''); incorporate such methods in their actions, including but not 
limited to their foreign assistance, intergovernmental cooperation, 
international finance programs, and bilateral and international trade 
and other negotiations; and
    B) Report to the Committees of jurisdiction and the public on the 
plans for, and progress in so doing, within 60 days of enactment and 
annually thereafter.

    II. Ensure Global Governance of GHG removal methods.--Beginning no 
later than one week after the date of enactment and continuing 
thereafter, the Secretary of State, in consultation with the Special 
Envoy for Climate Change, the US Trade Representative, and the agencies 
participating in the affected U.S. delegations, shall propose and 
pursue resolutions and agreements, including both existing and new 
agreements, for:

    a) Supporting the proper assessment, deployment and governance of 
methods of reducing the atmospheric presence of GHGs to historic 
healthy levels and the current and proposed interventions to reduce 
global warming, including but not limited to non-sequestration and non-
GHG removal interventions;
    b) Ensuring the sufficient, safe and proper use of technologies for 
reducing the emissions of GHGs and/or the climate forcing impact of 
them; and
    c) Actively removing GHGs from the atmosphere, within or apart from 
existing international agreements in a manner that is complementary to 
their objectives and not preemptive of conservation and restoration 
efforts or the powers of jurisdictions to adopt more assertive or 
stricter measures.

    The agreements and fora in which the Secretaries shall incorporate 
these priorities shall include, but not be limited to, the UNFCCC and 
its protocols, accords, and agreements, the London Convention on Marine 
Pollution (via the International Maritime Organization), the Vienna 
Convention on the Protection of the Ozone Layer and its protocols, 
UNECE Convention on Long-range Transboundary Air Pollution, the 
Convention on Migratory Species, the Convention on Biological Diversity 
and other conservation agreements, the major international and 
bilateral trade agreements, the United Nations, and UNEP, FAO, UNDP and 
any other relevant subsidiary bodies; There is appropriated for the 
above in FY22--$12,000,000.
    III. Comprehensively assess atmospheric methane sources, sinks and 
solutions and develop a global plan for atmospheric methane 
reduction.--The Secretary of State shall by December 1, 2021, in 
cooperation with the Administrator of the EPA, commence or commission a 
report from the National Academy of Sciences or other capable 
institution(s) or group(s), such as Sir David King's Climate Crisis 
Advisory Group, to be delivered in draft form by July 1, 2022, and in 
final form not less than 6 months later, providing (1) an assessment of 
the size and changes occurring in emission and sinks of methane 
globally; (2) an analysis of the likely impact of atmospheric methane 
on climate change and other problems caused by atmospheric methane; (3) 
a review of each major methane emission source and sink to determine 
what options are available to affect their impact on atmospheric 
methane levels; (4) a review of all possible, and all currently 
practicable, technologies, programs, policy and regulatory changes that 
could help reduce atmospheric methane levels, whether by abatement 
(emissions reduction) or remediation (Greenhouse Gas Removal), and for 
each proposed technology or policy change, consideration of their 
technological readiness, likelihood of success, barriers hindering 
implementation, cost-effectiveness and cost-benefit analysis, and 
likely overall impact on atmospheric methane levels; (5) the 
development of national and global plans for atmospheric methane 
reduction, that provide goals and recommendations, and discuss options 
for investment in new technologies, possible regulatory and land 
management changes, and other means for reducing atmospheric methane, 
and the barriers to implementing them.
    The Secretary shall ensure that the report and plan are produced 
with the cooperation of appropriate government agencies, including but 
not limited to the EPA, EIA, USAID, IEA and those included elsewhere in 
this title. The Secretary shall further ensure that authors include a 
range of conservation biology, oceanic, agronomy and atmospheric 
scientists, among others, as well as economists, engineers, policy 
makers, regulatory experts. The Secretary is directed to commission 
from his regular budget a report updating the initial report every two 
years. There is hereby appropriated for this assessment and report--
$4,000,000.
    IV. Integrate Climate Restoration across the Government. The 
Secretaries and Administrators funded by this title shall integrate the 
policies and priorities of this title into the regular order of 
business and carry out within their budget authorities and amounts 
appropriated for each of the affected agencies independent of further 
appropriations. This section, however, hereby also provides such 
authorization as may be necessary to conduct these actions through 
FY2028 as well as appropriations for FY2022.
---------------------------------------------------------------------------
    \1\ As a freshman in the House, if I recall correctly, in the mid-
1990s current Ranking Subcommittee Member Senator Graham intervened to 
help block an amendment to curtail protection of endangered species 
overseas. He noted that if timber producers from South Carolina and the 
rest of the southeast could conserve the red-cockaded woodpecker and 
other listed species then our foreign aid and trade should uphold the 
same standards and not help their foreign competitors to undercut them. 
That statutory protection of Sec. 7(a) of the Endangered Species Act 
remains global but a regulation exempting impacts of U.S. agency 
actions in other countries from the process of interagency consultation 
with the Fish and Wildlife Service and the National Marine Fisheries 
Service unfortunately remains in place. In consultation with EPW you 
could correct that in this bill. That should enhance the recovery of 
elephants and whales that the IMF now finds worth billions for the GHG 
sequestration that their ecological effects bring about. (See, https://
www.imf.org/en/News/Podcasts/All-Podcasts/2020/09/21/Elephants)

    [This statement was submitted by John M. Fitzgerald.]
                                 ______
                                 
          Prepared Statement of the Millennium Water Alliance
Chairman Coons, Ranking Member Graham, and Honorable Members of the 
Subcommittee:

    We write in support of funding of not less than $540 million in 
Fiscal Year 2022 for water supply, sanitation, and hygiene (WASH) 
programs administered by the U.S. Agency for International Development 
under the Sen. Paul Simon Water for the Poor Act of 2005 (P.L. 109-
121), as amended by the 2014 Water for the World Act (P.L. 113-209).
    Since Congress enacted the Sen. Paul Simon Water for the Poor Act 
of 2005, the House Appropriations Committee has shown sustained support 
for investment in WASH through international assistance programs that 
have saved millions of lives, transformed USAID's WASH programming and 
capacity, and empowered more communities to maintain and operate their 
own infrastructure to ensure access to WASH for the next generation.
    As you prepare for FY 2022, we seek your continued strong 
leadership to fund USAID's important cross-sectoral work under In FY 
2019 and FY 2020, enacted funding for these programs has been 
maintained at $450 million each year; for the three years prior to 
that, it was $400 million per year.
    Given the extraordinary circumstances of the past 1-\1/2\ years of 
global pandemic, and the very limited application to any water and 
sanitation programming by USAID from last year's emergency supplemental 
funding, we ask that you appropriate not less than $540 million for 
this programming in FY 2022.
    Today, almost 2.2 billion people around the globe lack regular 
access to safe water, and 4.2 billion lack access to basic sanitation. 
Poor sanitation amplifies the venues for many infectious diseases, some 
of which can be reduced or eliminated with better sanitation practices 
and very basic systems. Sanitation has a massive impact on the 
environment, endangers safe food supplies, and in particular affects 
children's health.\1\ Each year, more than 297,000 children under five 
die from diarrheal diseases, which could be prevented by improved 
water, sanitation, and hygiene.\2\
    A strong investment in WASH programs helps to safeguard US 
strategic interests. Investment in WASH is central to help prevent 
pandemic disease; had more developing nations had stronger WASH systems 
in place, their response to COVID-19 would have been far more effective 
and undoubtedly help stem the spread of the disease. Better WASH also 
helps to improve governance in developing nations, opens new markets 
for U.S. exports, and ultimately promotes U.S. job creation.
    The $90 million increase over the FY 2021 appropriation would:

  --Provide long-term, safe drinking water, sanitation, and hygiene 
        services to an additional half million people in Africa, Asia, 
        the Middle East, and Latin America;
  --Contribute meaningfully to efforts to provide WASH in healthcare 
        facilities, prevent infectious disease outbreaks, and help end 
        the transmission of cholera and Neglected Tropical Diseases; 
        and
  --Amplify the impacts of cross-sectoral work USAID is doing in other 
        areas related to WASH, including food security, livelihoods, 
        economic development, gender, and nutrition. This work is more 
        effective and resilient if WASH is addressed.
  --Assist USAID in long delayed by much needed data collection and 
        analysis to increase program efficiency and provide the tools 
        needed for even longer-term sustainable infrastructure and 
        governance in the field, essential in building systems to 
        reduce the impact of future epidemics.

    The courageous and consistent leadership of this Subcommittee over 
the years has been essential to the progress made since passage of the 
2005 Act and remains one of the most demonstratable achievements in the 
history of U.S. foreign assistance.
    The 20 member organizations of the Millennium Water Alliance work 
in more than 90 countries around the world to alleviate poverty, build 
democracy, and represent the best of America to millions of grateful 
people. On their behalf, we thank you.
                     the millennium water alliance
    Action Against Hunger-US Acacia Water CARE Catholic Relief Services
    Desert Research Institute Food for the Hungry Global Communities 
HELVETAS
    IRC WASH Living Water International Mortenson Center-University of 
Colorado Boulder
    Pure Water for the World Safe Water Network Save the Children 
Water4
    WaterAid America Water For People Water Mission World Vision
---------------------------------------------------------------------------
    \1\ WASHData.org May 2021
    \2\ https://www.unwater.org/water-facts/water-sanitation-and-
hygiene/
---------------------------------------------------------------------------
    [This statement was submitted by John Sparks, Director of Advocacy 
& Communications.]
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    The Nature Conservancy (TNC) thanks the Subcommittee for its strong 
support of global biodiversity conservation and climate change 
investments. With over 60 years of experience in pioneering 
conservation in coordination and cooperation with private landowners, 
businesses, and federal, state, local and tribal governments across the 
United States, TNC implements on-the-ground conservation in all 50 
states and more than 70 countries and territories around the world. As 
the world's largest conservation organization with over one million 
members, TNC is committed to finding practical, science-informed, 
equitable solutions to address the country's conservation, 
environmental and climate challenges to benefit nature and people.
    The role of effective development assistance and international 
leadership is more critical now than ever before. The ongoing pandemic 
has created a humanitarian and global health crisis impacting countries 
and communities around the world. Given the critical need to address 
the intertwined biodiversity, climate change and public health crises, 
investments focused on climate-sensitive, inclusive and sustainable 
natural resource management will increase stability and support 
economic prosperity while advancing U.S. strategic interests around the 
world.
    Leadership on biodiversity conservation occupies a special place in 
U.S. foreign policy. Foreign assistance has been a cornerstone of U.S. 
policy for more than 70 years. Support for such assistance draws upon 
many sources, including the innate generosity of the American people in 
the face of acute needs in countries with far fewer resources than 
those of the United States. Foreign assistance directed to biodiversity 
and climate change programs is making a meaningful difference, 
particularly at the U.S. Agency for International Development (USAID), 
U.S. Departments of State and Treasury, the International Development 
Finance Corporation, Millennium Challenge Corporation, U.S. foreign 
policy mechanisms, and U.S. investments in natural resources agencies 
operating globally and contributions to multilateral financial and 
environmental institutions. These collectively help address many 
challenges to natural resource management while also strengthening 
local livelihoods. But it also reflects a consensus that such 
assistance--including the conservation of natural resources--is in the 
United States' national security and economic interests.
    Prior to the pandemic, several global entities--public and 
private--had turned their attention to steep declines in nature that 
risks destabilizing the very systems we depend on for our survival. 
This trend is expected to continue. According to the most recent 
findings of the Inter-governmental Panel on Biodiversity and Ecosystem 
Services (IPBES), three-quarters of the world's land and two-thirds of 
its marine environment have been significantly altered by human 
actions. We have lost half of the world's forests, half of coral reefs, 
70 percent of wetlands and dammed two-thirds of the world's main 
rivers. Wildlife populations have on average declined by 60 percent 
since 1970 and there is the potential for our actions to cause the loss 
of 1 million species. This massive loss of nature--species and 
ecosystems on land and in the oceans--threatens direct human health and 
well-being through impacts like decline in food production and 
freshwater availability. The ecological crisis also threatens the 
stability of the entire planet through greater alteration of our 
climate.
    Global leaders are currently negotiating commitments that will not 
only shape where and when to conserve biodiversity but how to implement 
commitments which would require additional financial resources, as well 
as efforts to reduce the need for financial resources by reducing 
harmful financial flows. By teaming up with the Paulson Institute and 
Cornell University, TNC published the Financing Nature report on how to 
meet the world's biodiversity finance needs. The report estimates the 
global annual biodiversity financing gap biodiversity at US$700 
billion. This can manifest in different ways. For example, U.S. 
leadership has inspired the strong commitment made by the G7 
recognizing the dual crises of climate change and biodiversity loss as 
well as explicitly linking the climate and biodiversity finance issues.
    Natural climate solutions represent one of the most cost-effective 
methods for large-scale capture of greenhouse gas emissions. Nature-
based solutions support the sustainable management and use of nature to 
address critical challenges such as climate change, water and food 
insecurity, biodiversity protection, human health and disaster risk 
management. They provide several co-benefits for people and nature, 
including preserving biodiversity and supporting more resilient 
communities and livelihoods by protecting fisheries and improving 
farmland. Leading by example, the United States should make deployment 
of natural climate solutions a critical component of the pandemic 
assistance and recovery effort. This will augment the contributions of 
other developed countries and multilateral institutions.
    In the face of crises affecting nature and people, doubling down on 
U.S. leadership and investment through targeted foreign assistance 
could not be more paramount. The future well-being of the United 
States, in part, depends on making the world more stable, safe and 
secure. By investing in proven international conservation programs that 
help less-developed countries better manage their natural resources and 
protect their forests, fisheries and wildlife from bad actors and 
natural disasters, the United States protects its own national and 
economic security. As Congress turns its attention to economic recovery 
in the face of COVID-19, including securing U.S. security and trade 
interests globally, we urge strengthening existing international 
biodiversity and climate change commitments while also addressing 
preventing future pandemics at the source and limiting the likelihood 
of zoonotic spillovers.
    We hope any immediate investment in (a) global health programs, (b) 
curbing high-risk wildlife markets that trade in species known to carry 
transmissible zoonotic diseases, or (c) mitigating the impacts that a 
precipitous loss of revenues from travel and tourism in and around 
national parks, protected areas and community-run conservancies, do not 
supplant core funding in Fiscal Year 2022 (FY22).
    The following programs exemplify the critical role international 
conservation efforts play in U.S. foreign policy. Promoting ``natural 
security'' boosts America's national security. As such, we respectfully 
request the Congress to continue its investments in global biodiversity 
conservation through the natural resource agencies of the U.S. 
government and, specifically, through the following foreign assistance 
mechanisms in FY22:

    USAID Biodiversity Conservation Program.--Most U.S. foreign 
assistance for on-the-ground conservation is delivered through USAID 
and its robust portfolio of conservation programs. USAID is working 
with communities, non-governmental organizations (NGOs) and governments 
to develop natural resource policies and management practices that 
conserve biodiversity and sustain local livelihoods. These programs 
help protect some of the largest, most at-risk natural landscapes and 
the livelihoods of millions of people who directly depend on natural 
resources for their survival and economic growth. For example, the 
USAID-funded and TNC-implemented Endangered Ecosystems of Northern 
Tanzania program is working to improve coordination, communication and 
collaboration between organizations, government and communities towards 
a joint vision of a resilient, healthy and connected rangelands across 
northern Tanzania. To date, the project has supported improved natural 
resource management of over 619,000 hectares of biologically 
significant areas and engaged 9,300 community leaders in training. 
However, the pandemic is impacting conservation efforts, starting with 
a collapse of tourism across Africa and the increased risk that is 
posed by this collapse to both biodiversity and local communities. 
Private philanthropy and NGOs acting swiftly have been able to mitigate 
this challenge. For example, TNC's Africa Wildlife Crisis Fund provided 
interim support, and funding to the critical recovery needed for the 
communities that depend on this industry. However, the long-term 
commitment and stability provided by USAID cannot be underestimated and 
will only need to be enhanced to address the pace and scale of 
conservation needed to ensure nature and people are resilient. We 
request Congress to fund the USAID Biodiversity Conservation Program at 
$500 million in FY22, to meet critical development and administrative 
priorities such as increasing community resilience and reducing 
resource competition and conflict across Africa, and improving natural 
resource management and decreasing illegal, unreported and unregulated 
fishing in the Indo Pacific region.
    USAID Sustainable Landscapes.--Tropical forests continue to be one 
of the most threatened ecosystems in the world, but efforts funded in 
part by Congress are advancing conservation in these areas. As noted 
above, natural climate solutions can be an effective means to reducing 
greenhouse gas emissions. REDD+ (Reducing emissions from deforestation 
and forest degradation, and the role of conservation, sustainable 
management of forests and enhancement of forest carbon stocks) 
continues to evolve as a policy framework that incentivizes developing 
forest countries to curb deforestation while addressing rural poverty, 
good governance, land tenure issues and securing emissions reductions. 
We are encouraged by the recognition of natural climate solutions by 
the U.S. government in its 2021 Nationally Determined Contribution 
(NDC) in both terrestrial and marine environments as a driver in 
climate ambition and resilience. The USAID Sustainable Landscapes 
Program supports efforts to halt deforestation and forest degradation, 
promote sustainable and responsible forestry practices, and prevent 
illegal logging in the world's largest, most biologically diverse 
forests, including in the Amazon, Central Africa's Congo Basin, and 
Southeast Asia. Through this program, the United States has supported 
efforts through multilateral funds such as the Forest Carbon 
Partnership Facility and the Forest Investment Program to scale up this 
framework. This program is augmented by two additional investments by 
USAID for Climate Adaptation (funded in FY21 at $177 million) and 
Renewable Energy Program (funded in FY21 at 179 million). We request 
that the USAID Sustainable Landscapes Program be funded at $200 million 
in FY22 and additional investments in climate adaptation and renewable 
energy are strengthened.
    Global Environment Facility (GEF).--With more than 5,000 projects 
in 170 countries, the GEF is the largest single financier of 
conservation. For 28 years, with $21.1 billion in strategic 
investments, the GEF has leveraged $114 billion in co-financing from 
the philanthropic, public and private sectors. As an independent 
international financial institution, the GEF unites donor and recipient 
countries with U.S. corporations and NGOs by providing grants to 
support natural capital and improve management of natural resources. 
America's investment in the GEF also yields a very high rate of return. 
For every dollar the United States invests in the GEF, it generates 
another $40 from other countries and partners. The GEF has supported 
the improved cooperation and governance of one-third of the world's 
large marine ecosystems. For example, its Common Oceans program--
working with over 60 public and private sector partners to address 
overfishing, bycatch and pollution in international waters achieved a 
reduction in the number of major tuna stocks experiencing overfishing 
from 13 to five and reduced the mortality rate of dolphins, sea turtles 
and other marine mammals caught by Pakistani gillnet fisheries in the 
northern Arabian sea by 98 percent. The GEF support has also been 
critical to placing 12 percent of the world's terrestrial area under 
protection, resulting in 3,300 protected areas spanning 2.1 billion 
acres containing at least 700 globally threatened species. The GEF has 
invested over $1 billion to address land degradation, which affects 
over 3.2 billion people, especially rural communities, smallholder 
farmers, and the very poor in the drylands of Africa and Asia. Its Food 
Systems, Land Use, and Restoration Program promotes sustainable land 
management to increase food security for smallholders and communities 
that depend on farming for their livelihoods. We request $149.3 million 
in FY22, of which $136.5 million be earmarked exclusively for the third 
installment of the U.S. contribution to the seventh replenishment of 
the GEF.
    Tropical Forest and Coral Reef Conservation Act (TFCCA).--Since 
first enacted in 1998, the TFCCA has offered eligible countries the 
opportunity to reduce their official concessional debt owed to the U.S. 
government while generating funds locally to conserve biological 
diversity and protect ecologically and economically vital forest 
ecosystems. In 2019, the Congress expanded the authorities of TFCCA, 
popularly known as the ``debt-for-nature'' program by allowing for 
coral reef conservation efforts. TFCCA agreements have saved more than 
67 million acres of tropical forests in countries such as Botswana, 
Brazil, the Philippines and Indonesia. TNC and our partners have 
together contributed an additional $22.5 million to 12 of the 20 total 
agreements under the TFCCA, enabling more debt to be treated. In 
addition to seeking a longer-term reauthorization for this program with 
the inclusion of coral reefs, we request $50 million in FY22 for the 
Tropical Forest and Coral Reef Conservation Act.
    Science, Finance and International Cooperation.--Two United Nations 
conventions-the Intergovernmental Panel on Climate Change (IPCC) and 
the United Nations Framework Convention on Climate Change (UNFCCC)-have 
received implementation funding from the U.S. government. The IPCC, for 
example, has received broad bipartisan support for providing high-
integrity science on climate change since the panel's creation in 1988. 
Similarly, the UNFCCC has been the primary space for policymakers to 
mount an international effort to tackle these risks. The United States 
has won plaudits worldwide for leading on climate action. U.S. foreign 
assistance also leverages substantial private investment in energy 
efficiency and renewable energy technologies. Continued funding of a 
modest budget line will signal that America continues to place an 
importance on climate science and wants a place at the table in 
negotiations.
    Green Climate Fund (GCF).--The GCF is a multilateral fund 
established in 2010 to foster climate-resilient development and zero-
emission investment. It advances its mission by using a range of 
financial instruments to support projects and programs that promise the 
greatest impact in reducing greenhouse gas emissions and building 
climate resilience in developing countries. It also seeks to advance 
its mission by mobilizing private sector capital and fostering stronger 
policy environments that better address the challenges of a changing 
climate. The GCF funds activities across a variety of sectors, 
including transport; water and other infrastructure; energy generation 
and efficiency; and land use, including agriculture and forestry. As of 
March 2021, the GCF has approved 173 projects, using $8.4 billion in 
funding and attracting $21.9 billion in co-financing. The United States 
made a signed commitment of $3 billion over four years (2014-2018) to 
the fund, of which $1 billion has been paid. It is critical for the 
U.S. government to regain its leadership role and make meaningful 
contributions on the GCF Board. The Global Climate Change Initiative 
(GCCI) is the current funding mechanism for the GCF. GCCI helps 
countries both mitigate and adapt to climate change through important 
multilateral and bilateral engagement with major and emerging 
economies. We urge the Congress to support the GCCI, including funding 
for the GCF. We request a $2 billion contribution in FY22 towards the 
Green Climate Fund to demonstrate clear U.S. commitment and incentivize 
developing countries to further reduce their greenhouse gas emissions.

    Through collaboration with the U.S. government, TNC is supporting 
work which empowers host country governments to safeguard natural 
resources, co-develop and deploy nature-based solutions to improve the 
resilience of people and critical ecosystems on which all life depends. 
Our projects help to strengthen local capacity, leverage private sector 
partners and empower women and youth in the improved economic 
development of their communities. While a vast majority of these 
projects are administered directly through federal agencies furthering 
U.S. foreign policy and assistance goals, TNC also supports 
strengthening international funding at U.S. natural resources agencies 
such as at the U.S. Forest Service (International Program), U.S. 
Department of the Interior and U.S. Fish & Wildlife Service 
(International Programs, Wildlife Trafficking and Wildlife Without 
Borders Programs) and the National Oceanic & Atmospheric Administration 
(International Program) by supporting programs and partnerships that 
further the United States' foreign policy goals.
    We stand ready to partner with and support the U.S. government to 
achieve its foreign assistance goals for the wellbeing of our planet 
and its people. We urge the Subcommittee to continue investing in our 
common security through formidable foreign assistance programs.

    [This statement was submitted by Tom Cors, Director of Lands.]
                                 ______
                                 
  Prepared Statement of the Neglected Tropical Diseases (NTD) Support 
                                 Center
    Thank you for allowing me to provide written remarks on behalf of 
the Neglected Tropical Diseases Support Center of the Task Force for 
Global Health. The NTD Support Center supports USAID's work on the 
elimination and control of Neglected Tropical Diseases (NTDs) with a 
focus on operational research to ensure the success of its programs 
that target such NTDs as elephantiasis, blinding trachoma, river 
blindness, intestinal parasites and schistosomiasis.
    I am writing to thank the Committee for its unwavering support for 
USAID's NTD portfolio and to urge an increase in this year's 
appropriation to $125 million from the current level of $102.5 million.
    The Task Force for Global Health, founded in 1984 to advance health 
equity, works with partners in more than 150 countries to eliminate 
diseases, ensure access to vaccines and essential medicines, and 
strengthen health systems to protect vulnerable populations. Our 
programs and expertise include polio, influenza, COVID-19, hepatitis, 
vaccine safety, distribution and access, and health systems 
strengthening, as well as NTDs.
    NTDs are parasitic and bacterial infections that affect more than 
one billion of the world's poorest people, causing profound sickness 
and disability, including blindness, and imposing a devastating 
economic and social burden on the communities and countries affected. 
Many NTDs can be treated and prevented through annual treatment with 
safe and effective drugs.
    The NTD Support Center, with co-funding from USAID, UK aid and the 
Bill & Melinda Gates Foundation, manages an operational research 
portfolio that is concentrated on improving the equity and 
effectiveness of NTD programs. Research supported through USAID 
includes projects focused on the development and introduction of new 
diagnostic tools that enable programs to make better decisions about 
when to start and stop treatment as well as testing new strategies to 
provide care for patients disabled by elephantiasis. Outcomes from 
these research projects are shared with all NTD-endemic countries 
through the USAID's implementing partners and the World Health 
Organization. The Task Force is also proud to partner with USAID on 
this effort through our programs that manage NTD drug donations: the 
Mectizan Donation Program, supported by Merck & Co, Inc. and the 
International Trachoma Initiative, supported by Pfizer.
    The United States has been a longstanding and well-recognized 
leader in global efforts to eliminate the transmission of NTDs and to 
achieve sustainable development goals. Since its start in 2006, the 
USAID NTD program has supported the distribution of 2.8 billion safe 
and effective treatments to more than 1.4 billion people in more than 
25 countries.
    USAID's program targets five of the most common NTDs that have 
proven, cost-effective health interventions including Lymphatic 
Filariasis (elephantiasis); Blinding Trachoma; Onchocerciasis (river 
blindness); Schistosomiasis (snail fever); and Soil-transmitted 
Helminths (hookworm, roundworm, whipworm). Its achievements include:

  --315 million people no longer requiring treatment for Lymphatic 
        Filariasis or elephantiasis
  --151 million people no longer requiring treatment for Blinding 
        Trachoma
  --10 million people no longer requiring treatment for onchocerciasis
  --Ten countries having eliminated at least one NTD as a public health 
        problem (meaning the levels of infection and disease are now 
        beneath the threshold set by the World Health Organization)
  --15 additional countries estimated to eliminate at least one NTD as 
        a public health problem within five years

    Because medicines that can cure or eliminate these diseases are 
made available without cost from their pharmaceutical manufacturers, 
the programs working towards the elimination and control of NTDs are 
often referred to as the ``best bargain in global health.'' The USAID 
program has leveraged more than $26 billion in donated medicines 
through an unprecedented public-private partnership with the 
pharmaceutical industry. Every $1 invested by the U.S. Government 
leverages $26 in donated medicines for mass treatment campaigns.
    USAID also funds research leading to exciting innovations including 
those for diagnostics, treatments and cures, vaccines, and vector and 
biological control tools. Operational research optimizes strategies for 
using new tools in the field and has been endorsed by the World Health 
Organization in guidance taken up by ministries of health. These 
innovations benefit all countries, regardless of whether they receive 
U.S. funding or not.
    A key pillar of USAID's program is sustainability. Partners are 
working with 12 national ministries of health, along with ministries of 
education, finance, environment, and water and sanitation, to develop 
long-term plans for sustainability and country ownership, reinforcing 
national governance and ownership and strengthening health delivery 
systems and integration into national health plans. Recognizing the 
importance of integration to sustainability, the USAID NTD program 
began the scale-up of its cross-sectoral activities in 2018, including 
increasing access to safe water and hygiene in schools and communities 
in five countries to control and prevent NTDs.
                            2021 challenges
    COVID-19.--The COVID-19 pandemic has brought new challenges. NTD 
activities were halted in March 2020 and are now resuming their work. 
Costs to implement NTD programs during COVID-19 pandemic have increased 
including infection prevention measures, such as hand sanitizer & 
personal protective equipment (PPE), and have also required new modes 
of working to accommodate physical distancing, such as increasing the 
number of distribution venues and number of days for training community 
drug distributors, increasing number of vehicles to transport teams to 
allow some distancing, etc.
    Complementary funding cuts.--Another challenge has resulted from 
proposed cuts in NTD funding from the United Kingdom's Foreign, 
Commonwealth and Development Office (FCDO, formerly known as DFID). UK 
aid support for NTDs is expected to be cut by 90%--a loss of more than 
$150M in country support and equal to more than a third of the global 
NTD implementation funds. Prior to this, FCDO investments were closely 
coordinated with USAID to maximize the reach of NTD programs and their 
impact. The FCDO cuts will create a gap in the 15 countries in USAID's 
portfolio where there was significant co-investment of USAID and FCDO 
funds. Bipartisan discussions are underway to encourage other countries 
to help fill the gap. The requested $25 million increase will allow 
USAID to ensure that progress toward its most urgent goals is not 
sidelined. Because USAID is already operating in these countries, the 
institutional mechanisms required to use these additional funds have 
already been established and are fully operational. This increased 
financial support will protect the US investment to date, stabilizing 
and reducing the impact of the FCDO cuts on a highly successful 
portfolio. Increased USG support will enable countries to continue the 
push towards sustainable NTD programs with reduced future dependence on 
external funding.
                             budget request
    Funding for the NTD program has been near-level since 2014. In FY19 
its funding increased from $100 million to its current level of $102.5 
million. An increase is needed to accelerate progress on high-value 
activities.
Accelerating progress:

    With this additional funding, USAID and its partners can also 
continue and expand upon the excellent progress that has been made and 
to ensure that America's leadership and forward momentum continue to 
advance NTD elimination in priority countries, leading to stronger 
economies, workforces and business partners and saving lives and 
livelihoods by:

  --Expanding the number of treatments in existing areas
  --Adding new geographic areas, potentially those listed by WHO as 
        still needing support
  --Increasing capacity to move from control to elimination of 
        onchocerciasis in some areas
  --Expanding urgently-needed investments in research and development--
        including diagnostics, drugs and operational research- for NTDs 
        to ensure tools and strategies are available to overcome 
        emerging challenges
  --Supporting greater integration with complementary programs 
        necessary for the success of NTD prevention, control and 
        elimination efforts, including WASH, nutrition, education, One 
        Health and vector control

    Eliminating NTDs contributes to economic development in these 
countries, reducing poverty and building new markers for US businesses.
    Looking forward, USAID expects to continue as a major partner 
working with the World Health Organization to achieve the ambitious 
goals of the newly launched 2021-2030 NTD road map, including 1) 
reducing the number of people requiring NTD interventions by 90%; and 
2) eliminating at least one NTD in 100 countries. Thanks to your 
support, fifteen countries supported by USAID's NTD program are 
expected to eliminate at least one NTD in just 5 years.
    We appreciate your consideration of this request and are available 
to answer any questions you may have and to be a resource for you on 
issues related to NTDS.
    [This statement was submitted by Patrick J. Lammie, PhD, Director.]
                                 ______
                                 
      Prepared Statement of the Office Of Inspector General, USAID
Mr. Chairman, Ranking Member, and Members of the Subcommittee:

    Thank you for the opportunity to provide a statement for the record 
on the major management challenges USAID faces in providing development 
and humanitarian assistance. The USAID Office of Inspector General's 
core mission is to strengthen and safeguard U.S. foreign assistance. We 
work across the agencies we oversee-and with oversight partners 
worldwide-to promote effectiveness, efficiency, and accountability in 
foreign assistance programs and operations and prevent and detect the 
fraud, waste, and abuse that can jeopardize their success.
    USAID stands out among the agencies we oversee for the scale of its 
activities and the challenges it faces in their implementation. In 
fiscal year 2020, USAID managed $30 billion in budgetary resources. The 
inherent complexity of coordinating and implementing this level of 
foreign assistance-especially in areas affected by crisis and conflict-
and the urgency to respond to the COVID-19 pandemic create major 
challenges for USAID. As the Agency exercises flexibility to adapt to 
different country contexts and ensure beneficiaries receive the 
assistance they desperately need, it must maintain strong safeguards 
and risk management practices to confront these challenges.
    Our independent oversight remains critical to helping USAID advance 
U.S. foreign assistance objectives during this challenging time. Our 
audits, investigations, and other oversight activities are designed to 
promote the overall effectiveness of agency programs and operations. 
Our focus on strategic, cross-cutting oversight enables us to drive 
actions that get at the root of significant problems affecting USAID's 
complex programs and operations. This approach also reflects our 
continued focus on emerging priorities. For example, last year we 
realigned work to elevate oversight of agency responses to COVID-19. 
This year, we have formed a new taskforce within OIG to drive and 
inform oversight of aid and assistance programs in the Northern 
Triangle countries. We remain committed to addressing these and other 
current and emerging priorities and sharing the results of our work 
with you and other stakeholders.
    Our report on top management challenges facing USAID in fiscal year 
2021 demonstrates the impact of our work.\1\ This statement highlights 
the top management challenges-including the COVID-19 response and other 
key risk areas-that need USAID's attention now and into the foreseeable 
future.
                 oversight of usaid's covid-19 response
    The COVID-19 pandemic poses a significant public health crisis. 
More than a year after its emergence-and in the wake of 169 million 
confirmed cases and almost 3.5 million deaths as of the end of May 
2021-COVID-19 has disrupted economies, strained democratic 
institutions, and deepened existing humanitarian crises. The pandemic 
also emerged in an international environment marked by increasing great 
power competition and disinformation campaigns by hostile actors.
    USAID was tasked with responding to COVID-19 overseas, receiving 
additional appropriations beginning in March 2020 to do so. While the 
Agency leveraged its experience responding to other disease outbreaks 
such as Ebola and Zika, the rapid spread of COVID-19 worldwide 
exacerbated challenges USAID faces, especially in nonpermissive 
settings, and increased risks related to monitoring programs and global 
health supply chains. USAID had to respond to a multifaceted global 
emergency that forced almost all staff to shift to virtual work, while 
many overseas staff departed their posts. USAID began to program 
significant levels of COVID-19 funding as both implementers and 
beneficiaries also faced similar constraints caused by lockdowns, 
border closings, supply chain disruptions, and movement restrictions.
    The pandemic required a whole-of-government effort. Our past work 
has identified interagency coordination, especially related to 
responding to public health emergencies, as a challenge for USAID.\2\ 
Although our work has helped position USAID to better respond to COVID-
19, the scope and scale of the pandemic and its impact have stretched 
the Agency, and competing interagency priorities remain a significant 
challenge area. For example:

  --Our recent audit found that USAID's ventilator donation program 
        marked a significant departure from the Agency's customary 
        practices for responding to public health emergencies and its 
        original pandemic plans.\3\ While USAID initially focused on 
        preventative measures to thwart the spread of COVID-19, the 
        National Security Council directed the Agency to spend about 
        half of its global health funding from the March 2020 
        supplemental funding on ventilators for the sickest patients. 
        Directives from the National Security Council specified the 
        recipient countries, how many ventilators to send, and which 
        models to use, which did not align with USAID's initial 
        response planning.
  --This audit also found that USAID had limited control over 
        ventilator donations and that monitoring mechanisms were not in 
        place at the time of delivery. USAID had limited information 
        about the location of ventilators within countries. The need to 
        effectively track ventilators is underscored by the work of OIG 
        special agents in recovering 191 USAID-procured ventilators 
        that were stolen in Florida while en route to El Salvador. We 
        plan to follow up on actions the Agency is taking to locate 
        ventilators sent overseas and establish an asset management 
        tracking platform.

    When we analyzed the impact COVID-19 has had on USAID's ability to 
monitor its programs, we noted challenges to program monitoring 
efforts. Such challenges included movement restrictions and technology 
challenges that limited the Agency's ability to conduct in-person site 
visits, limited in-person verification of data from implementers, and 
kept staff from engaging directly with beneficiaries. USAID missions, 
nonetheless, adapted their approaches to monitoring and tapped into 
related policy flexibilities and guidance designed to help them. 
However, the extent to which these approaches and flexibilities have 
been effective remains unknown and will likely be seen through 
mechanisms such as program evaluations and independent financial and 
performance audits.\4\
    Looking ahead, OIG remains committed to robust oversight of ongoing 
and new USAID pandemic response efforts and funding. Given U.S. 
commitments to support the international delivery of COVID-19 vaccines, 
we are focused on combatting potential fraud facing this effort and 
have forged relationships with oversight counterparts at leading 
international organizations involved in vaccine delivery. We are 
conducting an evaluation of USAID's efforts to develop and implement a 
COVID-19 vaccine strategy, and are planning work on USAID's efforts to 
address the second-order effects of COVID-19. This includes identifying 
new pandemic threats and preserving gains in the Agency's HIV, malaria, 
and tuberculosis programs in the wake of COVID-19.\5\
 managing risks inherent to humanitarian assistance and stabilization 
   activities amid a public health emergency of international concern
    In fiscal year 2020, USAID spent approximately $6.6 billion on 
humanitarian assistance activities. The United Nations estimated that 
235 million people-1 in 33 people worldwide-would need humanitarian 
assistance and protection in 2021, the highest figure in decades.\6\
    The inherent risks in crisis and conflict settings demand distinct 
approaches for planning, implementation, and monitoring that enable 
flexible but controlled responses. The flow of billions of dollars in 
aid and assistance also creates opportunities for fraud and diversion 
of U.S.-funded goods to the illicit market and terrorist or other 
sanctioned groups. Further, sexual exploitation and abuse has been a 
longstanding problem in the foreign aid sector given the inherent power 
imbalance between aid workers and vulnerable beneficiaries. USAID has 
taken steps to understand, evaluate, and mitigate risks to help prevent 
fraud and other abuses before they occur. Nevertheless, our work 
continues to identify vulnerabilities that inhibit USAID assistance 
from having the intended impact or reaching those who need it most. For 
example:

  --USAID guidance and practices do not always encourage transitioning 
        from humanitarian assistance, as we found in Iraq. Though the 
        number of internally displaced Iraqis steadily declined 
        following the territorial defeat of ISIS in 2017, USAID has yet 
        to ensure transition planning was incorporated into its annual 
        planning process, conduct forums for coordinating humanitarian 
        assistance with longer-term stabilization efforts, and ensure 
        implementers submitted complete transition plans for their 
        projects when required.\7\
  --In crisis settings, USAID often works through public international 
        organizations (PIOs), like the World Food Program, to reach 
        beneficiaries. Yet doing so limits USAID's control and 
        visibility over U.S.-funded humanitarian assistance, and in 
        turn, limits its ability to identify and mitigate risks.

    Our recently completed and ongoing work highlights constraints on 
USAID awareness of threats to its programming. For example:

  --Prior to making humanitarian assistance awards, USAID follows a 
        range of due diligence measures to mitigate the risk of 
        assistance inadvertently falling into hands of terrorist 
        organizations. However, our work has identified vulnerabilities 
        in USAID's vetting practices and limitations in accessing and 
        monitoring national security information.\8\ Certain USAID-
        funded implementers have also concealed past ties to designated 
        terrorist entities when bidding on USAID awards by falsifying a 
        certification designed to reveal this information.
  --USAID may contract third-party monitors-often hired locally, and 
        who may have fewer access restrictions-to observe on-the-ground 
        programming on USAID's behalf. Our recent work in Iraq and 
        Africa's Lake Chad region illustrates how gaps in USAID 
        management have limited the use and effectiveness of this 
        monitoring technique.\9\

    USAID has similarly faced challenges in managing acute risks 
related to fraud and criminal behavior in crisis settings. For example:

  --Our multiyear investigation revealed bid rigging, contract 
        steering, and invoicing schemes that compromised humanitarian 
        assistance intended for displaced Syrians. As a result of our 
        work, a major international, nongovernmental organization (NGO) 
        paid $6.9 million to settle a False Claims Act case related to 
        grossly inflated invoices submitted to USAID, and an NGO 
        procurement official was extradited to the United States and 
        sentenced to 40 months in prison on a related bribery charge.
  --A recent audit found that USAID lacked a framework for managing 
        fraud risks in a humanitarian response. While USAID had taken 
        initial actions to mitigate related risks in its Syria 
        response, it did not sustain monitoring of cross-border 
        activities susceptible to fraud.\10\ Another recent audit on 
        USAID's response to the Venezuela regional crisis noted that 
        while USAID's humanitarian assistance operating units had 
        incorporated practices to manage fraud risks, their guidelines 
        for implementers lacked risk management requirements.\11\
  --While USAID has increased its focus on protecting beneficiaries 
        from sexual exploitation and abuse (SEA), the Agency still 
        faces barriers in responding to allegations, preventing 
        perpetrators from recirculating through the aid sector, and 
        holding implementers accountable for failing to detect, report, 
        or respond to allegations. Our audit of USAID's approach to 
        respond to and prevent SEA noted that the Agency had not built 
        in consistent pre-award measures and did not monitor 
        implementers' efforts to prevent SEA or have related guidance 
        in place to enable staff to effectively perform this function. 
        USAID also lacked clearly defined roles and responsibilities 
        and a centralized tracking mechanism for responding to and 
        managing SEA allegations. The Agency plans to address the 
        report's nine recommendations to improve USAID's controls for 
        preventing and responding to SEA.\12\

    USAID continues to make progress toward understanding and 
mitigating risks in crisis settings. Its recent actions include 
establishing three new bureaus to promote coordination and improve 
field support, regularly assessing new risks and evaluating approaches 
for strategically managing them, issuing new Agency guidance to codify 
vetting policies and procedures, and providing training and guidance 
for staff and implementers on when and how to use third-party monitors.
    To help protect U.S. funding from malevolent actors, we will 
continue to prioritize addressing allegations of fraud and misconduct 
affecting humanitarian assistance, conduct fraud awareness briefings 
for USAID staff and implementers, and leverage new and existing 
relationships with oversight counterparts working in humanitarian 
assistance and stabilization settings. In addition, we have an audit 
underway that focuses on humanitarian response activities in Yemen.
   promoting local capacity and improving planning and monitoring to 
           achieve sustainability of u.s.-funded development
    USAID's development programs complement broader U.S. Government 
diplomacy and defense efforts to safeguard and advance U.S. national 
security and economic interests. USAID has recognized that the long-
term success of international development depends on host country 
commitment and capacity to sustain gains. Yet our audits reveal ongoing 
challenges to achieving sustainability of U.S. foreign assistance 
programs, particularly when the imperative to achieve specific 
development outcomes competes with goals to develop local capacity. For 
example:

  --USAID has recognized the importance of strengthening health systems 
        to meeting overall health goals and improving countries' 
        abilities to react to large-scale health emergencies. While 
        USAID aimed to strengthen countries' overall health systems, 
        programs instead prioritized gains tied to primary health 
        goals-like achieving an AIDS-free generation-because of how 
        those health goals were tracked and received designated 
        funding.\13\
  --Some USAID missions in Africa operated parallel supply chains 
        alongside host government systems and hired consultants to do 
        the work of government officials. The Agency took this approach 
        to ensure global health goals were met and that beneficiaries 
        had uninterrupted access to critical medicines for malaria, 
        tuberculosis, and HIV/AIDS, but in doing so, missed 
        opportunities to build local capacity.\14\
    USAID also continues to face challenges in providing effective 
oversight and conducting evaluations of the activities it implements. 
For example:

  --USAID requires operating units to conduct at least one performance 
        or impact evaluation during each Democracy, Human Rights, and 
        Governance (DRG) project to help expand the Agency's knowledge 
        base. However, we found USAID focused primarily on less costly 
        performance evaluations, with some missions in Europe and the 
        Middle East lacking substantive impact evaluations.\15\
  --Effective monitoring of large awards like USAID's $9.5 billion 
        award to implement procurement and supply management activities 
        for the Global Health Supply Chain Program is key to ensuring 
        that health commodities such as medicines and supplies are 
        delivered as planned. However, USAID could not determine the 
        extent to which reported performance metrics of its largest 
        supply chain project reflected actual improvements in 
        performance.\16\
  --USAID engages with the private sector to help achieve 
        sustainability. In a recent audit, OIG identified six 
        engagement approaches that USAID generally used in an effort to 
        boost private sector investment in foreign development, but 
        also found that insufficient Agency-wide guidance, data, and 
        metrics limited USAID's ability to conduct, manage, and oversee 
        engagement with the private sector.\17\

    Our recent and ongoing investigations further illuminate how gaps 
in effective oversight and monitoring of activities can result in 
shortfalls in USAID programs and fraud, waste, and abuse. For example:

  --We found that a Ugandan implementer failed to report fraudulent 
        activity on a social marketing health project and the 
        implementer's staff solicited bribes from USAID field staff to 
        conceal the reporting of nonexistent activities. USAID 
        terminated the implementer's cooperative agreement based on an 
        OIG referral and issued a $4.9 million dollar bill of 
        collection in April 2020.
  --Another investigation similarly uncovered systemic mismanagement, 
        inadequate internal controls, and insufficient financial 
        accounting by a U.S.-based university, which affected a 
        development project in Honduras. As a result of our 
        investigation, USAID issued a $4.4 million bill of collection 
        to the university in July 2020.
  --Lastly, a joint investigation we conducted with the Special 
        Inspector General for Afghanistan Reconstruction identified a 
        scheme to defraud the Government of Afghanistan of over $100 
        million, which USAID had provided to Afghanistan to construct 
        an electric grid through the country's national power utility. 
        As a result of our joint investigative work, the individual 
        responsible for the scheme pleaded guilty to wire fraud.

    Despite these issues, USAID continues to take steps to improve 
sustainability, increase local capacity, and enhance oversight of its 
activities. For example, in response to our related audit 
recommendations, USAID revised its vision for strengthening health 
systems, outlining how countries can increase the capacity of their 
local health systems and shift the focus of investments from specific 
functions and disease areas to integrated approaches for strengthening 
health systems. USAID also updated country strategies to increase 
emphasis on sustainability and self-reliance and increased awards to 
local organizations in recipient countries. The Agency is still working 
to use data to better manage its engagement with the private sector.
    We have numerous audits underway that further our oversight in the 
areas of program sustainability and monitoring activities. This 
includes audits that will assess how USAID is addressing risks 
associated with direction to increase President's Emergency Plan for 
AIDS Relief (PEPFAR) funding to local organizations in Africa, and how 
USAID missions are using third-party monitoring data to oversee 
programs in Asia.
 reconciling priorities with external stakeholders to efficiently and 
         effectively advance u.s. foreign assistance objectives
    U.S. foreign assistance involves multiple Government agencies, 
donors, and local actors-each having its own priorities and strategies 
for advancing shared interests. Achieving development goals around the 
world often goes beyond unilateral efforts by USAID, depending on 
multilateral efforts where USAID may be the lead agency, a key partner 
organization, or a significant financial backer of responses. To 
further U.S. foreign policy and national security objectives, USAID 
must exercise its role and responsibility as the premier development 
agency by effectively navigating the divergent priorities and functions 
of multiple stakeholders to achieve complementary but distinct goals. 
Doing so is critical to enabling USAID to respond quickly to changing 
priorities even when decisions extend beyond its immediate control and 
authority.
    Our work has examined USAID adaptations to external factors 
influencing its operations and work to coordinate with other agencies 
and international organizations to advance development objectives. 
USAID has frequently had to make strategic adjustments in response to 
policy developments outside of its control. For example:

  --Decisions made outside of USAID have affected the Agency's staffing 
        and impacted its ability to monitor programs and ensure their 
        sustainability. Past quarterly reporting on Iraq has 
        highlighted the effects of posture adjustments and 
        deteriorating security conditions on staff levels in Iraq, 
        bringing USAID expatriate staff levels down by more than 75 
        percent as USAID's programs in the country grew. In 
        Afghanistan, we found that while USAID made staffing cuts per 
        State Department direction, it did not fully assess the risks 
        that corresponding programming cuts could have on the 
        sustainability of its investments, or properly prepare staff or 
        stakeholders for risks associated with these staff 
        reductions.\18\
  --A recent OIG memo on lessons from the fiscal year 2019 budget 
        process highlighted interagency constraints on budget 
        execution, describing how outside factors-such as external 
        reviews and differing opinions on the direction of foreign 
        assistance programming-affect USAID's ability to obligate 
        funds.\19\

    Our work also addresses challenges USAID has encountered in 
coordinating with others to promote effective programming:

  --In responding to the Venezuela regional crisis, USAID needed to 
        coordinate with multiple stakeholders. However, our audit found 
        USAID faced significant policy, coordination, and strategic 
        planning challenges in responding to the crisis. Issues we 
        identified stemmed from not having a process for documenting 
        directives from the National Security Council, as well as not 
        having developed joint strategic humanitarian response plans 
        with the State Department.\20\
  --Effective coordination between USAID and the State Department can 
        help maximize resources and outputs and avoid redundancies in 
        achieving U.S. foreign policy goals around DRG programs. Our 
        audit found that this coordination primarily occurs in the 
        field, but that not all missions had established or maintained 
        DRG work groups-and therefore, the agencies may miss 
        opportunities for strengthening DRG coordination in the 
        field.\21\
  --In some cases, legal requirements prevent USAID from supporting 
        beneficiaries who would otherwise fit the profile of a targeted 
        population. A recent audit found that this was the case with 
        USAID's crime and violence prevention program in El Salvador, 
        where U.S. and local laws prevented USAID from working with 
        individuals at the highest risk of engaging in criminal and 
        violent activity, including active gang members and chronic 
        offenders associated with MS-13. While the Treasury Department 
        granted USAID a 2-year license to include gang members as 
        program beneficiaries, the authorization took about 2 years, 
        delaying programs for the highest risk group.\22\
  --USAID frequently relies on PIOs to implement key programs and 
        activities. We reported in late 2018 that USAID's insufficient 
        oversight of PIOs put its programming at risk.\23\ This work 
        prompted USAID to include a standard award provision for PIO 
        awards with a requirement to report fraud and misconduct 
        allegations directly to OIG.

    Maximizing partnerships with U.N. agencies and multilaterals and 
reconciling differences among Federal agencies are important to 
effectively and efficiently advance U.S. foreign assistance objectives. 
USAID continues to take steps to address challenges in doing so. For 
example, USAID now has a dedicated office to provide better oversight 
of PIOs.
    To ensure USAID's investments are safeguarded to the maximum extent 
possible, we coordinate extensively with oversight partners at the 
State Department and Defense OIGs on oversight of contingency 
operations. We also coordinate with the State Department, Department of 
Health and Human Services, and Peace Corps OIGs on oversight of 
international HIV/AIDS, malaria, and tuberculosis programs. 
Additionally, we worked with DFC OIG in a supporting and advisory role 
to assist in establishing that office as it builds internal capacity. 
We have established key relationships with counterpart oversight 
offices throughout the world-such as the European Anti-Fraud Office, 
the Integrity Vice Presidency of the World Bank Group, and Inspectors 
General of the World Food Program and the Global Fund-as well as 
equivalent units at UNICEF and Gavi, to ensure fraud and corruption 
risks are mitigated through joint investigations and information 
sharing.
 addressing vulnerabilities and implementing needed controls in agency 
                       core management functions
    To carry out its mission effectively and efficiently, USAID relies 
on a network of support functions for managing Agency awards, finances, 
information, and human capital. USAID has made progress in 
strengthening its controls over core management functions, but our 
recent audits and investigations show that gaps in USAID's controls 
remain. These gaps are even more critical to address due to the 
additional operational challenges presented by the pandemic.

  --Award Management. Our audit of USAID's grant close-out process 
        identified weaknesses in communication, procedures, award de-
        obligation, documentation, and employee training and 
        certification-along with over $178 million that USAID could de-
        obligate from expired awards and put to better use.\24\ Our 
        audit of USAID's procurement and management of its $9.5 billion 
        award to implement procurement and supply management activities 
        for its Global Health Supply Chain Program determined that 
        weaknesses in planning and evaluation processes hindered 
        USAID's ability to fully support key decisions made in the 
        design and award of the contract.\25\
  --Financial Management. USAID must comply with financial management 
        requirements to ensure the Agency maximizes its resources. 
        While our audit of USAID's financial statements for fiscal 
        years 2020 and 2019 did not identify any material weaknesses in 
        USAID internal control over financial reporting, we identified 
        two significant deficiencies related to recording accrued 
        expenses and account management.\26\
  --Information Management. USAID depends on information systems for 
        all facets of business. Our audit of USAID's Development 
        Information Solution system found that although USAID was 
        making progress in the development and implementation of the 
        system, its deployment was behind schedule and not on track to 
        provide the Agency with advanced reporting to improve evidence-
        based decision making.\27\ In addition, in the past year, the 
        Agency's expanded use of telework to protect the health and 
        safety of staff during the pandemic has increased risks to the 
        Agency's information systems and calls for additional 
        diligence. In June 2020, USAID's Chief Information Officer 
        reported a 400 percent increase in cyberattacks on the Agency 
        since the start of the pandemic. Our most recent audit of 
        USAID's information security program identified needed 
        improvements in risk management, configuration, and identity 
        and access management; security training; information security 
        continuous monitoring; and contingency planning.\28\
  --Human Capital Management. USAID has faced challenges maintaining an 
        adequately trained workforce at the staffing levels needed to 
        accomplish its mission. In the last 10 years, about one-third 
        of our performance audits identified staffing or training as a 
        cause of or factor that contributed to reported shortcomings. 
        While the Agency is making efforts to develop a strategic 
        workforce plan to align its human capital with current and 
        future goals, we have an ongoing audit that will look at 
        USAID's human capital hiring mechanisms.

    In addition, whistleblower retaliation against employees of USAID 
implementers who report fraud or misconduct in the performance of a 
USAID award remains a concern. Between 2018 and 2020, we recorded a 21 
percent increase in whistleblower retaliation allegations received by 
OIG.
           concluding observations about continued oversight
    We appreciate your interest in our work and continuing support for 
our office's independent oversight mandate. We value opportunities like 
this to share our observations and keep Congress fully informed on our 
oversight of development and humanitarian assistance programs and 
operations.
    USAID OIG remains committed to maintaining the highest levels of 
accountability, adding value, and ensuring that USAID prudently uses 
every dollar it receives. Our fiscal year 2020 audit and investigative 
returns amounted to nearly four times the amount we receive to support 
our operations. In addition to these financial returns, our 
recommendations have triggered foundational changes in policy and 
programming around global health and humanitarian assistance, Agency 
procurements, and accountability over awards to PIOs. Building on our 
recent accomplishments, we look forward to discussing with the 
Committee our priorities, plans, and anticipated resource requirements 
for ensuring effective oversight in fiscal year 2022. This includes 
rapidly responding to emerging oversight requirements, increasing our 
capacity to respond to whistleblower retaliation allegations, and 
addressing oversight requirements associated with increased investments 
in COVID-19 response efforts. We will continue to maximize our impact 
by taking a strategic approach to our work and leveraging key 
partnerships within the oversight community and with the agencies we 
oversee.
---------------------------------------------------------------------------
    \1\ USAID OIG, ``Top Management Challenges Facing USAID in Fiscal 
Year 2021,'' November 13, 2020. As required by statute, we annually 
identify and report the top challenges facing the agencies we oversee 
and the progress made in managing them. Visit our website to view all 
OIG reports referred to in this statement.
    \2\ USAID OIG, ``Lessons From USAID's Ebola Response Highlight the 
Need for a Public Health Emergency Policy Framework'' (9-000-18-001-P), 
January 24, 2018.
    \3\ USAID OIG, ``USAID Had Limited Control Over COVID-19 Ventilator 
Donations, Differing From Its Customary Response to Public Health 
Emergencies'' (4-936-21-002-P), February 24, 2021.
    \4\ USAID OIG, ``USAID Adapted To Continue Program Monitoring 
During COVID-19, But the Effectiveness of These Efforts Is Still To Be 
Determined'' (9-000-21-007-P), May 21, 2021.
    \5\ USAID OIG, ``COVID-19 Oversight Plan for Fiscal Years 2021-
2022,'' October 22, 2020.
    \6\ United Nations Office for the Coordination of Humanitarian 
Affairs, ``Global Humanitarian Overview 2021,'' December 10, 2020.
    \7\ USAID OIG, ``Enhanced Guidance and Practices Would Improve 
USAID's Transition Planning and Third-Party Monitoring in Iraq'' (9-
266-21-003-P), February 19, 2021.
    \8\ USAID OIG, ``Limits in Vetting and Monitoring of National 
Security Information Pose Risks for USAID Humanitarian Assistance and 
Stabilization Programs,'' Classified Advisory, January 15, 2020.
    \9\ USAID OIG, ``Enhanced Guidance and Practices Would Improve 
USAID's Transition Planning and Third-Party Monitoring in Iraq'' (9-
266-21-003-P), February 19, 2021; ``USAID Has Gaps in Planning, Risk 
Mitigation, and Monitoring of Its Humanitarian Assistance in Africa's 
Lake Chad Region'' (4-000-21-001-P), October 15, 2020.
    \10\ USAID OIG, ``Weaknesses in Oversight of USAID's Syria Response 
Point To the Need for Enhanced Management of Fraud Risks in 
Humanitarian Assistance'' (8-000-21-001-P), March 4, 2021.
    \11\ USAID OIG, ``Enhanced Processes and Implementer Requirements 
Are Needed To Address Challenges and Fraud Risks in USAID's Venezuela 
Response'' (9-000-21-005-P), April 16, 2021.
    \12\ USAID OIG, ``USAID Should Implement Additional Controls To 
Prevent and Respond To Sexual Exploitation and Abuse of Beneficiaries'' 
(9-000-21-006-P), May 12, 2021.
    \13\ USAID OIG, ``More Guidance and Tracking Would Bolster USAID's 
Health System Strengthening Efforts" (4-936-20-001-P), October 21, 
2019.
    \14\ USAID OIG, ``USAID'S Global Health Supply Chain Would Benefit 
From More Rigorous Risk Management and Actions To Enhance Local 
Ownership'' (4-936-20- 002-P), July 10, 2020.
    \15\ USAID OIG, ``Additional Actions Are Needed To Improve USAID's 
Democracy, Human Rights, and Governance Programs'' (8-000-20-001-P), 
November 26, 2019.
    \16\ USAID OIG, ``Award Planning and Oversight Weaknesses Impeded 
Performance of USAID's Largest Global Health Supply Chain Project'' (9-
000-21-004-P), March 25, 2021.
    \17\ USAID OIG, ``Improved Guidance, Data, and Metrics Would Help 
Optimize USAID's Private Sector Engagement'' (5-000-21-001-P), December 
9, 2020.
    \18\ USAID OIG, ``USAID Needs To Implement a Comprehensive Risk 
Management Process and Improve Communication As It Reduces Staff and 
Programs in Afghanistan'' (8-306-21-002-P), March 19, 2021.
    \19\ USAID OIG, ``Lessons From USAID's FY 2019 Budget Process 
Highlight Interagency Constraints and Areas That Require Continued 
Attention,'' Memorandum, March 2, 2021.
    \20\ USAID OIG, ``Enhanced Processes and Implementer Requirements 
Are Needed To Address Challenges and Fraud Risks in USAID's Venezuela 
Response'' (9-000-21-005-P), April 16, 2021.
    \21\ USAID OIG, ``Additional Actions Are Needed To Improve USAID's 
Democracy, Human Rights, and Governance Programs'' (8-000-20-001-P), 
November 26, 2019.
    \22\ USAID OIG, ``USAID/El Salvador's Crime and Violence Prevention 
Programs Need to Focus More on High-Risk Individuals To Advance 
Security Goals'' (9-598-21-001-P), November 30, 2020.
    \23\ USAID OIG, ``Insufficient Oversight of Public International 
Organizations Puts U.S. Foreign Assistance Programs at Risk'' (8-000-
18-003-P), September 25, 2018.
    \24\ USAID OIG, ``USAID Complied with the GONE Act but Still Has a 
High Risk of Delayed Grant Closeout'' (0-000-20-002-C), March 31, 2020.
    \25\ USAID OIG, ``Award Planning and Oversight Weaknesses Impeded 
Performance of USAID's Largest Global Health Supply Chain Project'' (9-
000-21-004-P), March 25, 2021.
    \26\ USAID OIG, ``Audit of USAID's Financial Statements for Fiscal 
Years 2020 and 2019'' (0-000-21-001-C), November 16, 2020.
    \27\ USAID OIG, ``USAID Was Not On Track To Achieve Performance and 
Cost Savings Goals for the Development Information Solution System'' 
(A-000-21-001-U), May 6, 2021.
    \28\ USAID OIG, ``USAID Generally Implemented an Effective 
Information Security Program for Fiscal Year 2020 in Support of FISMA'' 
(A-000-21-004-C), January 7, 2021.
---------------------------------------------------------------------------
    [This statement was submitted by Thomas J. Ullom, Acting Inspector 
General, USAID.]
                                 ______
                                 
                    Prepared Statement of the Oxfam
    On behalf of Oxfam, thank you for the opportunity to submit 
testimony on the FY22 State, Foreign Operations and Related Programs 
Appropriations bill. Oxfam is a global organization working to end the 
injustice of poverty. We help people build better futures for 
themselves, hold the powerful accountable, and save lives in disasters. 
Our mission is to tackle the root causes of poverty and create lasting 
solutions.
    U.S. leadership in addressing COVID and new and ongoing 
humanitarian challenges has never been more critical. We urge the 
Committee to support the Administration's request for $69.1 billion, in 
order to restore U.S. leadership in supporting poverty-focused 
development, humanitarian assistance programs, and international 
organizations.
    We believe that in addition to new funding, locally led development 
must be at the core of US foreign aid, we urge the Committee to 
prioritize country partnerships and domestic resource mobilization. We 
appreciate the chance to elevate the following issues: COVID-19 vaccine 
access and delivery and highlight our strong support for gender, 
climate and multilateral funding.
                   covid-19 vaccine access & delivery
    As our country expands access to COVID-19 vaccines through the 
broadest vaccination campaign in U.S. history, the rest of the world is 
suffering. Few of the six billion people living in low- and middle-
income countries will be vaccinated against COVID-19 this year and many 
may not be vaccinated until 2024, if ever. Virus variants threaten to 
make struggles with coronavirus an enduring fact of life. Millions more 
people will die, and tens of millions of people will be pushed into 
extreme poverty.
    The only way to get the pandemic under control is to massively 
accelerate global vaccine manufacturing and strengthen health systems 
to turn vaccines into vaccinations. We urge the Committee to do 
everything in its power to help the world manufacture billions more 
doses of COVID-19 vaccine and strengthen global health systems. An 
ambitious manufacturing operation and vaccine delivery program would 
benefit the world and will help prevent the spread of variants while 
reviving economies and reestablishing U.S. leadership.
                                 gender
    The COVID-19 global pandemic reversed gains made toward gender 
equality. According to the World Economic Forum's ``Gender Gap 
Report,'' it will now take nearly 140 years to close the gap between 
men and women; before the pandemic, it was estimated to take 100 years. 
The UN rang the alarm bell on the ``shadow pandemic'' of spikes in 
intimate partner violence over the last year as people were confined to 
their homes in the context of mounting anxiety and economic stress 
linked to the pandemic. At the peak of the crisis, UNESCO data showed 
that over 1.6 billion learners in more than 190 countries were out of 
school, pushing women out of the workforce to provide child care. An 
estimated 11 million girls may never return to school. Underpaid care 
workers-of which over 90 percent are women-at long-term care facilities 
for people with disabilities and the elderly were overburdened. The 
hospitality, tourism, and food sectors were hit hard and left women 
unemployed; Oxfam estimates show that women in formal employment lost 
$800 billion in income in 2020. During the pandemic, people in the 
LGBTQIA+ community experienced further restriction of their rights by 
governments around the world. As the United States Government develops 
strategies to address COVID-19's aftermath domestically and globally, 
it must recognize that recovery has to center the needs of women and 
gender-diverse people, and that by investing in gender equality and 
women's empowerment, it has an opportunity to become a leader in the 
post-pandemic world.
    Given the administration's commitment to a whole-of-government 
approach to gender and its prioritization of gender equality in aid and 
development assistance, it is imperative that the FY22 budget provide 
funding commitments commensurate to the crisis conditions so many women 
find themselves in. Instead, the current $1.2 billion request falls 
short of the gender requests made each year under the second Obama 
administration, including the FY2017 $1.3 billion request. The 
government should signal its leadership on gender by committing no less 
than $2.1 billion-scaling up funding from the FY2021 $525.7 million 
request under the Trump administration-in FY22 to promote gender 
equality and women's empowerment in the United States Government's 
diplomatic, development, and humanitarian efforts. According to a 
McKinsey report on the regressive effects of COVID-19 on women, failing 
to take action now to address gender inequality will have significant 
consequences on gender parity and slow down global economic growth over 
the next decade. Thus, a commitment of at least $2.1 billion will 
address the long-lasting effects of the pandemic on gender equality and 
help ensure we do not return to a pre-pandemic status quo that left 
women and gender-diverse people behind.
    To set a path to a gender-equitable recovery in the post-COVID-19 
era, across US foreign aid and assistance, programs and policies should 
integrate a gender analysis and consider differential gender impacts, 
with a commitment to mainstream gender in all projects by 2025 to 
ensure 100 percent of funding qualifies as ``Gender Equality/Women's 
Empowerment-Secondary''. An additional category for funds to feminist 
and women's rights organizations should also be added. We urge the 
Committee to commit no less than $270 million to this category for 
FY22, and to scale up this commitment in subsequent years. Further, 
gender stand-alone programming would strengthen the US' performance to 
achieve gender equality globally; we request a commitment to scale up 
gender equality and women's empowerment programs within the ``Gender 
Equality/Women's Empowerment-Primary'' CBJ category to 20% of 
international funding by 2025.
    The requested $200 million for the Gender Equity and Equality 
Action Fund (GEEA) is important for the global recovery from COVID-19. 
However, to sufficiently address the health and economic emergencies 
and the subsequent impact these have had on women, the GEEA should be 
scaled up beyond the FY21 funding allocated to its predecessor, W-GDP. 
The administration's domestic focus on investing in the care economy is 
timely as women have suffered disproportionately from economic fallout 
of the pandemic in the US and abroad, in part due to their care work 
responsibilities; this same focus should be brought to US foreign 
assistance programming.
    A scaled-up gender investment will enable the United States 
Government to follow through on commitments made to gender equality and 
women's empowerment, including gender equality prioritization by the US 
Development Finance Corporation and the Millennium Challenge 
Corporation; the administration's commitment to address the root causes 
of irregular migration, including sexual, gender-based, and domestic 
violence, from Central America to the United States; support of 
LGBTQIA+ rights and advancing inclusion for the community; resumed 
funding of the United Nations Population Fund; and support of the 
implementation of the Women's Entrepreneurship and Economic Empowerment 
Act and the Women, Peace, and Security Act.
                                climate
    Across the world, climate change is causing devastating impacts. 
However, it is the world's poorest and most vulnerable communities who 
are hit the hardest, suffering from loss of lives and livelihoods, 
damaged homes and schools and, at times, being forced to flee their 
homes. Despite being hit the hardest by climate change, these 
vulnerable communities are the best agents of change to address the 
climate crisis, yet they lack the resources to mitigate and adapt to 
our changing climate. Developed countries, such as the US, have a 
responsibility to help these vulnerable communities in order to reduce 
suffering and support a just transition to a net-zero economy in an 
effort to keep average global temperatures below 1.5 degrees Celsius. 
This is why the US must scale up its international climate finance 
commitments after years of neglect and ensure these investments 
effectively reach those who need it the most.
    We urge the Committee to significantly scale up multilateral and 
bilateral international climate finance and provide clear direction 
that climate investments must provide meaningful and substantial 
support for addressing climate impacts. This starts with fulfilling the 
outstanding $2 billion pledge to the Green Climate Fund and a new 
investment of $100 million to the Adaptation Fund, a multilateral fund 
dedicated to supporting vulnerable communities in adapting to the 
impacts of climate change. This also includes taking a food-first 
approach to scaling up investments for climate-related and global food 
security activities, based on the needs and priorities of a country 
driven process, in order to boost food and nutrition security, support 
the resilience of agricultural livelihoods in vulnerable communities 
and drive mitigation and net-zero efforts that prioritize the rights, 
livelihoods and food security of local communities. These investments 
are only a start considering the mounting costs of climate-related 
disasters, such as hurricanes, floods and droughts, that wreak havoc on 
the poorest and most vulnerable. However, the Committee has an 
opportunity to send a strong political signal that the US supports the 
world's most vulnerable communities while re-establishing US global 
leadership in addressing the climate crisis.
    In addition to enhancing the quantity of international climate 
finance, it is just as important to enhance the quality of these 
investments. Multilateral and bilateral climate investments must be 
grounded in aid effectiveness principles--such as country and community 
ownership, localization, transparency, and accountability in decision 
making--in order to ensure US investments leave a sustainable impact 
and effectively reach those most in need, particularly women, 
marginalized communities and Indigenous peoples. Additionally, 
investments in international climate initiatives must not displace 
existing Official Development Assistance (ODA), which is critical for 
addressing global challenges such as poverty, conflict and food 
insecurity.
                      international organizations
    We urge the Committee to fully fund the second installment of the 
U.S. contribution to IDA19, as well as additional funds to eliminate 
arrears. As the largest source of concessional finance for many 
countries, the International Development Association (IDA) provides 
significant support for health systems, vaccine acquisition, education, 
infrastructure, and other public services that are critical to ending 
the pandemic as well as supporting an equitable recovery. For the past 
year, IDA has dramatically increased support for low-income countries 
facing the unprecedented health and economic crises caused by COVID-19-
committing over half of the resources available for the 3-year IDA19 
replenishment period in the first year alone. Fully funding the U.S. 
commitment to IDA and addressing arrears will ensure IDA has the 
resources it needs to continue supporting low income countries, and 
enhance U.S. credibility and influence at the institution.
    The Committee should also call for a strong policy package 
alongside a robust IDA20 replenishment to ensure IDA resources support 
a stable, equitable, climate-just recovery. While the World Bank's 
effort to frontload resources in response to COVID-19 was welcome, it 
could do much more to provide debt-free financing for vaccines, build 
resilient public health and education systems, support governments to 
raise taxes fairly, address gender inequality, and increase ambition on 
its climate change agenda. Given the urgency of the climate crisis, the 
Committee should also call for critically needed reforms to enhance 
transparency in the World Bank's climate finance accounting and to end 
support for fossil fuels.
    [This statement was submitted by Mark Clack, Director of Government 
Relations and Public Policy.]
                                 ______
                                 
           Prepared Statement of the Pandemic Action Network
    On behalf of the Pandemic Action Network-a network of over 120 non-
governmental organizations that work together to drive collective 
action to help bring an end to COVID-19 and ensure the world is 
prepared for the next pandemic-I am pleased to offer testimony for 
Fiscal Year 2022 State and Foreign Operations Appropriations.
    To ensure the United States heeds the lessons learned from COVID-19 
and helps ensure the world sustainably prioritizes and invests in 
pandemic preparedness, we respectfully urge you to substantially 
increase funding for global health security (GHS) through the State 
Department and the U.S. Agency for International Development (USAID). 
Specifically, Pandemic Action Network urges the Committee to 
prioritize:

  --No less than $2 billion for a multi-year U.S. contribution for a 
        new enduring, catalytic, international pandemic preparedness 
        financing mechanism, as prescribed in National Security 
        Memorandum 1, Sec. 4;
  --No less than $675m for USAID's bilateral Global Health Security 
        programs, including $200m for the Coalition for Epidemic 
        Preparedness Innovations (CEPI) and $200m for a new GHS Grand 
        Challenge initiative to advance health security innovations.
  --No less than $300m for USAID's Emergency Response Fund.

    The COVID-19 pandemic has laid bare the grave health and socio-
economic consequences of repeated failures to prioritize and invest in 
health security and pandemic preparedness both at home and abroad. The 
pandemic had already cost over 600,000 lives in the United States and 
nearly 4 million around the world, and reversed years of progress in 
global health and development. While vaccination efforts have begun to 
dramatically reduce COVID-19 transmission in the U.S., the pandemic 
continues to spread globally as most of the world's population still 
lacks access to vaccines and other lifesaving tools and new variants of 
the virus continue to emerge. Until the virus is controlled around the 
world, Americans will not be safe and our domestic recovery will 
continue to stall.
    The COVID-19 pandemic was an avoidable disaster. Infectious disease 
experts around the world had been warning for decades of the threat of 
a fast-moving respiratory virus pandemic. Yet a persistent culture of 
panic and neglect has prevented forward-looking and long-term 
investments in global health security. U.S. leadership and 
international cooperation is essential both to end this pandemic and to 
prepare for the next one. The Pandemic Action Network urges this 
committee and Congress to break this dangerous cycle once and for all 
and commit to increased ?and sustained ? investments in pandemic 
preparedness in Fiscal Year 2022 and beyond.
    GHS and Pandemic Preparedness Financing Mechanism.--To help ensure 
that the world is better prepared to prevent or rapidly contain the 
next pandemic threat, the US should urgently help establish and seed 
fund a new multilateral financing mechanism to incentivize global and 
national investments in pandemic preparedness, with the focus on 
closing critical health security gaps in low- and-middle-income 
countries with the weakest health systems. The new financing facility 
should be funded with a minimum initial capitalization of $10 billion 
from public and private financiers, including a US$2 billion catalytic 
contribution from the United States.
    The COVID-19 pandemic demonstrates the perennial failure of the 
international community to adequately invest in pandemic preparedness-
and we cannot repeat this dangerous mistake. Recent estimates point to 
at least an annual $5-10 billion annual global funding gap over the 
next 10 years to make the world better prepared for future pandemics; 
this figure is likely higher now given the toll COVID-19 has taken on 
countries with the weakest health systems. While a growing number of 
countries have taken ownership to develop national action plans for 
health security, most of these plans lack sufficient funding for 
implementation. The need is most acute in low- and- middle-income 
countries.
    Creating a new multilateral financing mechanism focused on 
strengthening country preparedness, in combination with increased 
funding for existing U.S. bilateral and multilateral global health 
programs, will change this equation. It will help save millions of 
lives and trillions in future economic losses by stopping future 
outbreaks at their source before they spread and become another deadly 
and costly pandemic. Taken together, these investments will incentivize 
country ownership of pandemic preparedness, accelerate closing of 
critical global health security gaps, and build more resilient health 
systems that will strengthen our collective frontline defenses against 
emerging pandemic threats before they can spread.
    Pandemic Action Network is pleased that President Biden called 
``for creating an enduring international catalytic financing mechanism 
for advancing and improving existing bilateral and multilateral 
approaches to global health security'' in National Security Memorandum 
1. Congress should support an initial investment of $2 billion to 
jumpstart this new facility through the State Department budget and 
urge other donor nations and private funders to join this U.S.-led 
effort.
    USAID.--USAID's ongoing work in global health security is also 
critical to pandemic preparedness and must be upscaled. By taking a 
``One Health'' approach, USAID's global health security programs 
recognize the links between humans, animals, and environmental health 
and work to strengthen partner country capacity to address risks posed 
by zoonotic spillover. Coupled with the Agency's Emergency Response 
Program, these investments help partner countries build the platforms 
to detect, prevent, and respond to urgent infectious disease outbreaks, 
which keeps Americans and our partners safe.
    But USAID can do even more to advance global pandemic preparedness 
with the targeted resources. USAID launched the Grand Challenges to 
crowd source and fund needed innovations to combat Ebola and Zika, 
which yielded better personal protective equipment and tools 
appropriate for use in low-resource settings. A permanent Grand 
Challenge for Global Health Security can play a forward-looking role to 
incentivize innovations to detect, prevent, and rapidly respond to 
emerging infectious disease threats.
    CEPI.--Funding for U.S. participation in the Coalition for Epidemic 
Preparedness Innovation (CEPI) is also critical. We urge this Committee 
to both advance a $200 million commitment for Fiscal Year 2022, and 
support CEPI's new five-year plan of action toward the goal of 
developing novel vaccines within 100 days of detection of a novel 
pathogen that could pose a pandemic threat. CEPI's priority is ensuring 
equitable global access to vaccines for diseases with epidemic and 
pandemic potential. We are seeing firsthand the impacts of the 
inability of low- and middle-income countries around the world to 
access COVID-19 vaccines for their populations: continued deaths, 
economic emergencies, and risks of reversing hard-won progress against 
a novel and changing pathogen. U.S investment in CEPI is vital to 
ensure development of vaccines that are appropriate, accessible, and 
affordable across all income settings and to develop vaccines and 
platform technologies for the next ``Disease X''.
    COVID-19 makes evident that a pandemic threat anywhere can quickly 
become a pandemic threat everywhere. The case for investment has never 
been so clear. Congress should lead and ensure that our global health 
and development investments are both increased and leveraged to build a 
better prepared international system-and to make COVID-19 the last 
pandemic.
    [This statement was submitted by Carolyn Reynolds, Co-Founder.]
                                 ______
                                 
                     Prepared Statement of the PATH
    Chairman Coons, Ranking Member Graham, and members of the 
Subcommittee, thank you for the opportunity to submit written testimony 
regarding fiscal year (FY) 2022 funding for the US Agency for 
International Development (USAID), the Department of State, and related 
multilateral public-private partnerships. I am submitting this 
testimony on behalf of PATH, a global team of innovators and advocates 
working to solve the world's most pressing health challenges so all 
people and communities can thrive. We respectfully request that this 
Subcommittee allocate no less than $69.1 billion for the FY22 State-
Foreign Operations Appropriations bill. Doing so would restore funding 
for the State-Foreign Operations bill to maintain current investments 
in critical programs that promote global health security and health 
system strengthening, women and children's health, and global health 
research and innovation. Sustained funding for foreign assistance is 
more critical now than ever. Within SFOPS, we support no less than $984 
million for USAID's Maternal and Child Health account, of which $290 
million should be for Gavi, the Vaccine Alliance as well as $902.5 
million for the President's Malaria Initiative. Lastly, we support the 
President's FY22 Budget Request, recommending $745 million for USAID's 
global health security programs-out of which we request $200 million be 
allocated to Coalition for Epidemic Preparedness Innovations (CEPI)-and 
$250 million for the Department of State to establish a new 
multilateral health security financing mechanism.
Using cost-effective strategies and bolstering health system 
        strengthening efforts
    As an organization that partners with the public and private 
sectors in the US and in nearly 70 countries, PATH sees firsthand the 
tremendous impact that US-supported global health and development 
programs have with relatively modest investments. These investments are 
further maximized through traditional and innovative financing 
mechanisms, in tandem with efforts to strengthen countries' overall 
health systems toward sustainability and ownership.
    USAID programs have supported health system strengthening (HSS) 
efforts for more than 30 years with critical resources, technical 
expertise, and global leadership to sustain global health gains. Many 
of these efforts are supported through the Office of Health Systems and 
guided by the renewed Vision for Health System Strengthening 2030 which 
articulates a comprehensive approach toward improving health systems to 
advance USAID and national health priorities. However, funding 
currently available to the USAID Office of Health Systems for direct 
awards is insufficient to meet current challenges or strategically 
drive programs in the field. We request that this Subcommittee allocate 
$100 million to USAID for cross-cutting, health system strengthening 
programs, particularly support for health workers who are critical to 
continued COVID-19 response efforts, including through administering 
immunizations. Such an initiative would provide central level support 
to USAID missions, incentivizing them to align programming toward a 
common strategic purpose based on USAID's 2030 vision.
Strengthening global health security
    USAID plays a critical role in helping strengthen pandemic 
preparedness and response through the Global Health Bureau's Global 
Health Security Agenda and Emerging Pandemic Threats programs. These 
investments support partner countries to reduce transmission of 
diseases between animals and humans, strengthen workforce development 
and disease surveillance, and enhance collaboration with national and 
community stakeholders to monitor viruses with pandemic potential. 
USAID's global health security work is further bolstered with 
programming in HIV/AIDS, tuberculosis, malaria, maternal and child 
health, and neglected tropical diseases, all of which strengthen health 
systems to enable them to better detect and respond to a variety of 
disease threats.
    Congress must dramatically increase support for this critical 
health priority which has, until recently, been overlooked and 
underfunded. Referencing the President's FY22 budget request, we 
support the requested $855 million increase over FY21 enacted funding 
to the Department of State and USAID global health programs. We urge 
the committee to allocate $745 million for USAID's global health 
security programs, including core bilateral programming, replenishing 
the Emergency Response Fund, and dedicating $300 million for 
contributions to support multilateral initiatives leading the global 
COVID-19 response through the Access to COVID-19 Tools (ACT) 
Accelerator. We also recommend $250 million for a new multilateral 
financing mechanism needed to support pandemic preparedness efforts, 
including through incentivizing domestic investments in low- and 
middle-income countries.
    As we have seen through COVID-19, vaccines play a critical role in 
responding to disease outbreaks. Within the funding for multilateral 
initiatives allocated to USAID's global health security programs, we 
are requesting no less than $200 million to support the COVID-19 
related efforts of CEPI to address urgent global manufacturing and 
research priorities on the virus variants driving the current wave of 
the pandemic. CEPI holds both the mandate and expertise to continue to 
accelerate the development of vaccines needed globally and to counter 
emerging virus variants contributing to the humanitarian and health 
emergencies in India and Brazil. An immediate investment in CEPI is a 
key component to increase global production and delivery of COVID-19 
vaccines to the world, develop and adapt vaccines to address the 
variants, accelerate an end to the acute phase of the pandemic, and get 
ahead of the next emerging threat. We are in a race against time; this 
investment cannot wait.
    Reducing maternal, newborn, and child deaths and leveraging public-
private partnerships Every day, more than 14,000 children die from 
preventable or treatable causes, and more than 830 women die due to 
complications during pregnancy and childbirth. These preventable deaths 
primarily occur in resource-limited settings where women and children 
lack access to basic health care services.
    There is consensus among scientists and global health experts that 
ending such deaths is achievable but will require increased investment 
in scaling up interventions that tackle the leading killers of women, 
newborns, and children. Many of these are simple and low-cost, such as 
promoting healthy practices like breastfeeding and handwashing and 
ensuring access to lifesaving drugs for infections. Investments in the 
maternal and child health (MCH) account have lifesaving impact. These 
investments helped more than 84 million women and children gain access 
to essential-and often lifesaving-care in 2019 alone. But COVID-19 has 
put this progress at risk. Without additional interventions, years of 
progress in reducing maternal, newborn, and child deaths is set to be 
reversed. Experts estimate that the severe reductions in coverage of 
essential maternal and child health interventions caused by COVID-19 
could result in 1.2 million additional child deaths and 57,000 
additional maternal deaths every six months during the pandemic. That 
signifies a loss of a decade of progress, during which the US 
government invested more than $12.36 billion in maternal, newborn, and 
child health.
    We urge the committee to provide $984 million for global maternal 
and child health programs that further enable sustainable development. 
USAID has effectively advanced maternal and child health outcomes by 
leveraging American bilateral assets with multilateral technical 
support and financing to catalyze country commitments. In line with the 
new global immunization strategy, Immunization Agenda 2030, USAID has 
provided bilateral technical and commodity assistance to more than 100 
countries in support of national child immunization programs. This 
impact is maximized through USAID's relationship with Gavi, the Vaccine 
Alliance, which provides new and under-utilized vaccines to developing 
countries. This public-private partnership has enabled the immunization 
of 822 million children since 2000, saving an estimated 14 million 
lives. In June of 2020, Gavi launched its third replenishment with an 
ambitious goal of immunizing an additional 300 million children-saving 
8 million lives-by 2025.
    Through the passage of H.R. 133 in December of 2020, Congress 
committed an additional $4 billion to support global COVID-19 
immunization efforts through Gavi. To ensure the greatest impact, this 
additional funding must be complemented with additional funding through 
the MCH core account to provide the technical support needed to scale-
up and support these new rollouts and enable countries to provide more 
equitable access to new vaccines. The bilateral funding that supports 
the backbone of these vaccine programs must also meet the moment to 
ensure the vaccines become vaccinations.
Fighting to eliminate malaria
    Another example of USAID's vital work is the tremendous progress 
made in fighting malaria through the President's Malaria Initiative 
(PMI). PMI's work to scale up malaria interventions in partner 
countries is contributing to global efforts that have helped save an 
estimated 7.6 million lives and prevented 1.5 billion malaria 
infections since 2000. Yet, close to half the world's population 
remains at risk of malaria. In FY20 alone, thanks to bipartisan support 
and despite significant challenges caused by COVID-19, PMI invested 
$746 million across its portfolio, delivering mosquito nets to 80 
million people, and providing 9 million children with preventative 
treatment and 63 million people with rapid malaria tests.
    An added challenge in tackling malaria is the expansion of drug and 
insecticide resistance which threatens the effectiveness of current 
interventions. As our current drugs and insecticides are rendered less 
and less effective, it is imperative that new tools-whether new drugs 
and vector controls tools or entirely new classes of interventions, 
such as vaccines-be available to ensure that decades of US investment 
to fight malaria are not lost. To this end, PATH has been partnering 
with the US government, private sector, and country partners to drive 
innovation for new tools and strategies to control and eliminate 
malaria, including development of the world's first malaria vaccine for 
young children in Africa. This vaccine-RTS,S-is currently in large-
scale pilot introduction in areas of Ghana, Kenya, and Malawi, and 
could prove to be an important complementary tool to the existing anti-
malarial toolkit.
    Congress should fully fund PMI at $902.5 million, as additional 
resources are critical to the success of PMI's country programs. 
Disruptions of essential health services due to the COVID- 19 pandemic 
are having a catastrophic impact, according to the Global Fund to Fight 
AIDS, Tuberculosis, and Malaria, in Africa, malaria diagnosis and 
treatment has fallen roughly 15 percent during the pandemic, and more 
than 20 percent of facilities have reported stockouts of medicines for 
treating children under 5. In Asia, diagnosis and treatment has fallen 
almost 60 percent due to COVID-19, and 37 percent of facilities have 
reported COVID-19 infections amongst their health workers. Financial 
resources are needed to make greater investments in malaria research 
and development (R&D) for new tools to accelerate progress, such as 
improved diagnostics, novel insecticides, and next-generation vaccines, 
as well as in operational research to optimize the impact of tools as 
they emerge from development. Finally, Congress should exercise its 
oversight of all relevant US agencies that are implementing malaria 
programs to ensure that programs are using high-quality data, ensuring 
efficiency, cost-effectiveness, and progress toward a world free from 
malaria.
Protecting the United States through leadership in global health R&D
    We ask that the Subcommittee continue to affirm its support for the 
role that USAID plays in advancing innovations to ensure that people in 
low-resource settings have access to high-quality health tools. USAID's 
innovation-focused initiatives have shown great success in leveraging 
US investments, and USAID should continue to look for ways to engage 
private-sector expertise and investment. For example, the agency's 
Saving Lives at Birth Grand Challenge has leveraged over $150 million 
from other donors and created a pipeline of over 100 potentially 
lifesaving innovations, like rapid diagnostic tests to detect pre-
eclampsia, new formulas of drugs to stop post-partum hemorrhage, and 
wearable technology to prevent hypothermia in newborns.
    USAID's investments to increase access to new tools are 
complemented by efforts to draw in new private sector resources through 
the Development Finance Corporation (DFC). The DFC's Health and 
Prosperity Initiative, along with two recent initiatives to expand 
vaccine manufacturing in India and Africa in partnership with other 
bilateral and multilateral donors, leverage its abilities to crowd in 
resources from the private sector to make a significant difference in 
the manufacturing capabilities in low- and middle-income countries, 
improving the ability to respond to COVID-19 and future pandemics. 
Reaching pockets of poverty and overcoming weakness in health systems 
demands new technologies, including drugs, vaccines, diagnostics, and 
devices, stronger investments in digital health to guide decision 
making, and more robust manufacturing capabilities in low- and middle-
income countries which will help ensure adequate global supply of 
lifesaving products. We ask the Subcommittee to continue to support the 
DFC's efforts to include innovation its health care strategy and 
recommend that the subcommittee request a report on how investments in 
innovation will drive health development outcomes.
An investment in health, at home and around the world
    With strong funding for global health and development programs 
within USAID and through public-private partnerships, the US government 
is improving access to proven health interventions in the communities 
where they are needed most, while also investing in solutions for 
tomorrow's challenges. Fully funding the International Affairs account 
is a critical opportunity to help countries responding to the current 
COVID-19 pandemic and other threats to health and mobilize domestic, 
corporate, and other partner resources. Through this investment, the US 
can improve the health of populations around the globe and invest in 
global economic growth-ensuring that people everywhere can reach their 
full potential. We appreciate the Subcommittee's consideration of our 
views and urge Members to ensure that the US maintains our position as 
a champion for global health and development.

    [This statement was submitted by Jenny Blair, Manager.]
                                 ______
                                 
   Prepared Statement of the Planned Parenthood Federation of America
    Planned Parenthood Federation of America (``Planned Parenthood'') 
is pleased to submit testimony for the record to the Senate 
Appropriations State, Foreign Operations and Related Programs 
Subcommittee regarding global sexual and reproductive health priorities 
for FY 2022. We respectfully request $1.17 billion for international 
family planning and reproductive health programs, including $74 million 
for the United Nations Population Fund (UNFPA), without onerous and 
unnecessary restrictions and the elimination of policies that undermine 
the health and rights of people around the world, especially the global 
gag rule.
    Planned Parenthood is the nation's leading reproductive health care 
provider and advocate and a trusted, nonprofit source of primary and 
preventive care for people in communities across the U.S. as well as 
the nation's largest provider of sex education. As experts in sexual 
and reproductive health care, we reach 2.4 million people in our health 
centers, 1.1 million people through educational programs, are back by 
17 million supporters, and see 198 million visits to our website every 
year, the majority of which originate outside of the U.S. People come 
to Planned Parenthood for the accurate information and critical 
resources they need to stay healthy and reach their life goals. For 
many patients, Planned Parenthood is their only source of care--making 
Planned Parenthood health centers an irreplaceable part of this 
country's health care system. Through our international arm, Planned 
Parenthood Global, we provide financial and technical support to nearly 
100 innovative partners in nine countries in Africa and Latin America 
for service delivery and advocacy to expand access to reproductive 
health care and empower people to lead healthier lives.
 increasing funding for international family planning and reproductive 
                            health programs
    International family planning and reproductive health programs are 
essential to empowering women and improving the health and lives of 
millions of people. These programs are central to achieving a number of 
U.S. global health goals, including reducing rates of unintended 
pregnancy, maternal, infant, and child mortality, and mother-to-child 
HIV transmission. Globally, 218 million women want to delay or prevent 
pregnancy but face barriers to using modern contraceptive methods.\1\ 
The burden of these challenges falls on Black and Brown women who live 
in low and middle income countries and face the most significant 
barriers to health care access in countries worldwide due to systems 
that are rooted in and reinforce white supremacy, neocolonialism, and 
gender inequality. Addressing this unmet need is key to delivering on 
global health, development, and foreign policy goals. Current funding 
levels make it possible for 27.4 million women and couples to receive 
contraceptive services and supplies, averting 12.2 million unintended 
pregnancies, 4.1 million unsafe abortions, and 20,000 maternal deaths 
\2\ but after 11 years of stagnant funding, more is needed to invest in 
women and girls and truly transform communities and achieve gender 
equality.
    A critical component of U.S. investments in reproductive health is 
the U.S. contribution to the United Nations Population Fund (UNFPA), 
which works in more than 150 countries worldwide, including many where 
USAID does not operate programs. UNFPA promotes human rights standards 
and is working to end preventable maternal deaths, unmet need for 
modern contraception, and harmful practices like gender-based violence, 
female genital mutilation and child marriage. Furthermore, UNFPA is 
essential to delivering maternal and reproductive health care in crisis 
and humanitarian settings, including in places like Yemen, Syria. and 
Venezuela.
    The COVID-19 pandemic has exacerbated existing barriers to 
accessing sexual and reproductive health care. UNFPA estimates that in 
the first year of the pandemic, 12 million women experienced 
disruptions in contraceptive access, with disruptions averaging 3.6 
months and resulting in 1.4 million unintended pregnancies. Increased 
investments for international family planning and reproductive health 
programs are necessary to address pandemic-related disruptions and 
further bolster access to reproductive health care worldwide.
    Planned Parenthood requests a minimum of $1.17 billion for 
international family planning and reproductive health programs, 
including $74 million for the United Nations Population Fund (UNFPA), 
without onerous and unnecessary restrictions. While the President's FY 
2022 budget request took an important first step to increasing funding 
for these accounts, the Senate State, Foreign Operations and Related 
Programs Appropriations bill should go beyond this proposal. The 
requested funding increase would put the U.S. government on track to 
fund its fair share ($1.74 billion) of the global financial commitment 
necessary to address the unmet need for modern contraception by FY2024.
               permanently repealing the global gag rule
    Under the previous administration, the global gag rule (also known 
as the Mexico City Policy) was expanded to an unprecedented level to 
apply to all U.S. global health assistance and even resulted in funds 
from other donors and governments being gagged. The expanded version of 
the policy prohibited foreign organizations from receiving any U.S. 
global health assistance if they provide, counsel, refer, or advocate 
for legal abortion in their country, even if these activities are 
supported solely with non-U.S. funds. This undermined access to many 
critical health care services, silenced advocates, and rolled back 
years of progress on health care access for communities worldwide.
    While the global gag rule is often framed as an issue related to 
abortion, the policy affected providers offering a range of health care 
services, including family planning, maternal and child health, 
nutrition, and HIV/AIDS prevention, care, and treatment. When in place, 
the global gag rule restricts the medical information health care 
providers may offer, limits free speech by prohibiting local citizens 
from participating in public policy debates, and impedes access to 
basic health care by cutting off funding for many of the most 
experienced health care providers. Under previous versions of the 
global gag rule, which more narrowly applied to U.S. international 
family planning funding rather than all global health assistance, the 
global gag rule resulted in increased unintended and high-risk 
pregnancies, unsafe abortions, and maternal deaths. Research published 
on August 1, 2019 in the Lancet found that under President George W. 
Bush, the global gag rule corresponded with a 14% decrease in access to 
modern contraceptives, a 12% increase in pregnancies, and a 40% 
increase in abortion rates, many of which were likely to be unsafe, 
across 26 impacted countries in sub-Saharan Africa.\3\
    Research on the expanded global gag rule, as in effect from 2017-
2020, further demonstrates the policy disrupts the delivery of a range 
of health services in areas of the world that are most in need. Loss of 
funding led to discontinued programs and reductions in services from 
high-quality providers, including those who offer youth-friendly access 
to contraception, treat children for malaria and malnutrition, and 
support pregnant women with HIV prevention and treatment services. 
Research by amfAR shows the global gag rule resulted in many PEPFAR 
implementing partners altering the health services and information they 
provide, including non-abortion related services such as contraception 
and HIV, and their partnerships.\4\ These disruptions were reported in 
31 of the 45 countries surveyed including in areas with high HIV-
prevalence, like South Africa, Eswatini, and Mozambique.\5\ The 
research indicates there may be a disproportionate impact on key and 
marginalized populations, such as adolescent girls, young women, and 
men who have sex with men, who are more reliant on outreach services 
and integrated care models that are adversely impacted by the global 
gag rule because organizations who provide comprehensive reproductive 
health care are also often the ones best able to serve and reach key 
and marginalized populations.
    We welcome the action of the Biden-Harris administration to rescind 
the global gag rule, and call on Congress to take action to protect 
against this policy from returning under future administrations by 
permanently repealing the global gag rule. The looming threat of 
reinstatement of the global gag rule undermines the sustainability of 
global health programs and the pace of progress. Long-term partnerships 
between the U.S. government and local organizations and the communities 
that they serve cannot be built and maintained if there is a change in 
U.S. government policy every time the U.S. presidency changes party 
control.
    Permanent repeal of this policy will help ensure U.S. global health 
programs support countries to expand reproductive health care, build 
sustainable partnerships, and foster civil society participation to 
make lasting and equitable progress on improving health care access and 
outcomes. Ending the global gag rule is also supported by 70% of 
Americans.\6\
    To eliminate the harm of the global gag rule and ensure that 
resources can be effectively deployed to qualified providers of 
comprehensive care and information, Planned Parenthood requests that 
language to permanently repeal the global gag rule be included in the 
FY2022 State, Foreign Operations and Related Programs appropriations 
bill.
        removing barriers that undermine global health programs
    The U.S. commitment to global health, including family planning and 
reproductive health, should be consistent across all programs. Policy 
restrictions that impede human rights and limit the information and 
services available to people to make their own informed decisions about 
their bodies and their lives are a stark example of neocolonialism, 
taking advantage of the uneven relationship between the U.S. and the 
countries that receive foreign aid. To ensure that accurate information 
about family planning and reproductive health and rights is freely 
available and that programs are justly and effectively administered, we 
also recommend the following changes to the State, Foreign Operations 
and Related Programs appropriations:

  --Include language to require the State Department to report on 
        reproductive rights in their annual country reports on human 
        rights.
  --Require that information provided about the use of all modern 
        contraceptives--not just condoms--as part of U.S. funded 
        projects or activities is medically accurate and includes the 
        public health benefits and failure rates.
  --Ensure that funds available in the HIV/AIDS Working Capital Fund 
        are made available for other global health and child survival 
        activities to the same extent as HIV/AIDS pharmaceuticals and 
        other products and not limited to ``child survival, malaria, 
        tuberculosis, and emerging infectious diseases,'' which would 
        increase effective procurement without decreasing funding from 
        any other critical area.
  --Exempt family planning and reproductive health programs from a 
        variety of prohibitions on assistance that can and have been 
        enforced against country governments, consistent with the 
        treatment of child survival, HIV/AIDS, and other disease-
        specific programs.

    Finally, the FY2022 State, Foreign Operations and Related Programs 
bill should delete reference to the Helms Amendment, which prohibits 
the use of U.S. foreign assistance funds for ``the performance of 
abortion as a method of family planning.'' This provision hurts 
millions of people around the world who seek access to care from 
health, gender-based violence and humanitarian programs supported by 
U.S. foreign assistance. It restricts the ability of individuals to 
make their own personal medical decisions and access comprehensive 
reproductive health care. The Helms Amendment has been in the Foreign 
Assistance Act of 1961 since 1973 and has subsequently been reiterated 
in two separate sections of the appropriations bill every year for over 
30 years. Removing the reiterations of this policy in FY2022 
appropriations would be a powerful step toward removing policies which 
control the health care and bodily autonomy of Black and Brown people 
around the world and ensuring U.S. foreign policy expands access to 
quality, comprehensive sexual and reproductive health care services 
including safe, legal, and accessible abortion, for all.
    Planned Parenthood issues these requests in the hopes that we can 
protect and build upon federal investments to make quality sexual and 
reproductive health care accessible so that all people, no matter who 
they are or where they live, can lead healthier lives.
---------------------------------------------------------------------------
    \1\ Sully, et al., Adding It Up: Investing in Contraception and 
Maternal and Newborn Health, 2019, New York: Guttmacher Institute, 
2019.
    \2\ Guttmacher Institute. Just the Numbers: The Impact of U.S. 
International Family Planning Assistance, 2020. https://
www.guttmacher.org/article/2020/07/just-numbers-impact-us-
international-family-planning-assistance-2020
    \3\ Brooks, N., Bedavid, E., & Miller, G. USA aid policy and 
induced abortion in sub-Saharan Africa: an analysis of the Mexico City 
Policy. The Lancet Global Health. 7.8 (2019):E1046-E1053. [Online]. 
https://www.thelancet.com/journals/langlo/article/PIIS2214-
109X(19)30267-0/fulltext#seccestitle \10\ 4 Planned Parenthood Global 
(2019). Assessing the global gag rule: Harms to health, communities, 
and advocacy [Online].
    \4\ amfAR. (2018). Impact of Mexico City Policy in PEPFAR [Online]. 
https://www.amfar.org/pepfar-mexico-city/.
    \5\ amfAR. (2019). How Expanded Mexico City Policy Is Disrupting 
Global HIV Programs [Online]. https://www.amfar.org/infographic-
expanded-mexico-city-policy/.
    \6\ Hart Research Associates. (2020, September 25). Key Findings 
from Survey on Global Gag Rule. Retrieved from https://
www.plannedparenthood.org/uploads/filer_public/6c/59/6c5906ef-4022-
4bbc-b209-403eaf413c88/me12884_ggr_memo_release.pdf
---------------------------------------------------------------------------
    [This statement was submitted by Jacqueline Ayers, Vice President, 
Public Policy and Government.]
                                 ______
                                 
             Prepared Statement of the Refugee Council USA
    Chair Leahy, Vice Chairman Shelby, and members of the subcommittee, 
thank you for the opportunity to submit funding and oversight 
recommendations for Fiscal Year (FY) 2022 on behalf of the 29-member 
organizations of Refugee Council USA (RCUSA)1 dedicated to refugee 
protection, welcome, and integration, and representing the interests of 
refugees, refugee families, volunteers, and community members across 
the country who support refugees and resettlement. By maintaining 
robust funding for international humanitarian assistance for refugees 
and other vulnerable populations, the U.S. strengthens national 
security, foreign policy, economic, and humanitarian interests. The 
U.S. Refugee Admissions Program (USRAP) is a longstanding bipartisan 
humanitarian program that enables the United States to provide 
lifesaving protection to some of the world's most vulnerable people. 
RCUSA recommends the following funding levels for State, Foreign 
Operations, and Related Programs (SFOPs) for the following three 
accounts: $4,118,400,000 for Migration and Refugee Assistance (MRA); 
$5,274,434,000 for International Disaster Assistance (IDA); and 
$50,000,000 for the Emergency Refugee and Migration Account (ERMA). 
RCUSA also recommends that Congress provide sufficient funding to the 
USRAP in order to meet President Biden's commitment to set the annual 
refugee admissions ceiling at 125,000 refugees in FY 2022, and to lay 
the foundation for further growth.
    humanitarian and strategic purposes for assisting refugees and 
                      internally displaced people
    The U.S. government invests in lifesaving humanitarian assistance 
and permanent solutions for refugees and other forcibly displaced 
people in accordance with our national values, international 
obligations, and strategic interests. Forcibly displaced people often 
lack necessary food, water, shelter, healthcare, education, livelihood 
options, and protection. Beyond these grave humanitarian concerns, 
large-scale forced displacement is an urgent strategic and security 
concern for the countries and regions in which displaced people find 
safety. U.S. funding helps to meet the basic human needs of persons 
fleeing persecution while they are displaced; supports permanent 
solutions to their displacement; and assists the countries hosting 
them. By funding these accounts, the U.S. government expresses the 
humanitarian values of the American people while pursuing important 
strategic interests-supporting key ally countries that host refugees, 
relieving pressures that have the potential to destabilize sensitive 
regions, and maintaining our international reputation as a country that 
protects the oppressed, promotes stability, and contributes to orderly, 
safe migration. Under Republican and Democratic administrations alike, 
the U.S. has long leveraged its willingness to resettle a small 
percentage of the world's refugees. In response, host countries often 
provide safe haven, aid, and integration opportunities for the vast 
majority of refugees, including access in host countries to education 
for refugee children and work visas for refugee adults. The strategic 
use of U.S. resettlement and other support to host countries has 
prevented further destabilization in fragile regions, providing many 
with viable alternatives to onward migration. Key strategic allies 
disproportionately affected by forced displacement have benefited, such 
as Jordan, Turkey, Thailand, Kenya, and Uganda.
   three crucial accounts for refugees and forcibly displaced people
    Migration and Refugee Assistance (MRA).--The Migration and Refugee 
Assistance (MRA) Account funds the work of the Department of State's 
Bureau of Population, Refugees, and Migration (PRM). PRM helps to 
ensure that individuals and families fleeing life-threatening 
situations can find temporary protection in countries to which they are 
displaced, often located near their home countries. This funding also 
supports refugees' pursuit of the three durable solutions: voluntary 
repatriation back to their home country; integration into a host 
country; and third-country resettlement when the first two solutions 
are not viable. The crises in Syria and Venezuela continue to escalate 
dramatically, and there are similarly serious humanitarian challenges 
in Afghanistan, Central African Republic, the Democratic Republic of 
Congo, South Sudan, Burma/Myanmar, Iraq, and Central American 
countries. This account is critical to ensure that PRM can continue to 
service currently displaced populations while responding to numerous 
emerging humanitarian crises.
    Overseas Refugee Assistance helps maintain humane, stable 
conditions for refugees and host communities during the period of 
displacement until the refugee crises can be resolved. In a few 
situations, it helps maintain safe, humane operation of refugee camps. 
In the vast majority of refugee situations, funding facilitates the 
host countries' expansion of its community response, builds 
infrastructure to accommodate refugees, and invests in refugees' 
ability to be resilient, self-sufficient, and contributing members of 
the host community's economy. Overseas assistance also covers some 
costs related to refugees' pursuit of durable solutions. We are 
currently facing the worst displacement crisis on record with more than 
80 million displaced persons worldwide, including more than 29.6 
million refugees, forty percent of whom are children.
    Refugee Admissions helps refugees unable to find safety, security, 
and well-being in their home country or a host country to find a new 
life in a third country through resettlement. Among the 29.6 million 
refugees worldwide, UNHCR estimates that 1.45 million refugees need 
resettlement. Actual annual resettlement has amounted to less than 1% 
of the global refugee population. Although the number of refugees 
resettled is proportionally very small, those who need it have no other 
option. They might be from a religious minority, race, nationality, or 
member of a social group that is as oppressed and targeted in the host 
country as it is in their country of origin.
    During the 40-year history of its resettlement program, the U.S. 
has been the global leader among resettlement countries, of which there 
were 29 as of 2019. The U.S. has chosen to exert its global power by 
providing life-saving resettlement to over three million refugees over 
the history of the program. This is one of our nation's proudest and 
longest-standing traditions, including resettling Jewish refugees 
during World War II, Vietnamese refugees in the 1980s, and more 
recently refugees from the Sudan, Bosnia, Bhutan, Burma/Myanmar, Iraq, 
Afghanistan, Syria, and the Democratic Republic of the Congo. Refugees 
undergo rigorous vetting prior to arrival, often lasting eighteen to 
twenty-four months, and once resettled, tangibly contribute to American 
communities.
    Emergency Refugee and Migration Assistance (ERMA).--ERMA, an 
emergency Presidential draw-down account, provides an important safety 
valve during emergencies, allowing the U.S. to meet rapidly occurring 
and unforeseen humanitarian needs. This funding allows the U.S. to 
respond quickly and effectively to unanticipated crises, to relieve 
human suffering and support regional stability. Examples of how ERMA 
has provided lifesaving support in recent years include food, shelter, 
health care and/or protection for internally displaced persons (IDPs) 
and/or refugees from Mali, Sudan and Ethiopia (2012); from Syria 
(2013); and from South Sudan (2014). While the former administration 
did not draw down ERMA, the new administration is expected to do so. 
RCUSA expects the administration to spend down the ERMA account for the 
remainder of FY 2021 and recommends $50 million in funding for FY 2022 
to replenish FY 2021 ERMA draw downs. RCUSA further recommends that the 
authorized funding level for ERMA be raised to $200 million and that 
the Secretary of State be authorized to draw down ERMA funds.
    International Disaster Assistance (IDA).--International Disaster 
Assistance (IDA) is administered by the USAID Bureau for Humanitarian 
Assistance and assists people during natural and human-made disasters. 
Such humanitarian crises cause significant internal displacement and 
regional pressures throughout the world. IDA helps to save lives, 
restore and maintain human dignity, and prevent internally displaced 
persons from having to flee their home countries and become refugees. 
Given the substantial rise in IDPs served through IDA from 40 million 
in 2017 to 45.7 million in 2020, and the number and growing complexity 
of forced displacement crises, we urge a substantial increase for IDA 
to $5.27 billion.
      critical investments in the u.s. refugee admissions program
    In light of urgent resettlement needs, President Biden has 
committed to restoring the USRAP to allow for the admission of 125,000 
refugees in FY 2022. In order to meet this commitment and rebuild the 
USRAP after four years of systematic dismantling, funding needs for 
refugee resettlement are projected to increase substantially in FY 
2022. While the annual refugee admission goal has averaged 95,000 over 
the four decades of the program, with the goal exceeding 200,000 under 
both Democratic and Republican administrations when U.S. humanitarian 
and strategic interests required, the annual goal fell to an all-time 
low of 15,000 under the last administration. Refugees, as newcomers to 
the United States and as individuals who have lost their country, loved 
ones, and virtually all possessions, are in need of transitional 
support to gain self-sufficiency. And just like all of us, they share 
the vulnerabilities and challenges related to COVID-19. Throughout the 
pandemic, however, they have shown their resilience and how they 
contribute to their new communities with many of them employed as 
essential workers in healthcare and the U.S. food supply chain. It is 
critical that the administration and U.S. communities have the capacity 
they need to help refugees integrate and thrive.
    In addition to funding, RCUSA recommends that Congress direct the 
State Department's Bureau of Population, Refugees, and Migration (PRM) 
to ensure expedited processing for unaccompanied refugee minors (URM) 
who are on the verge of aging-out of URM program eligibility, 
particularly in light of USRAP's suspension in admitting URM in the 
previous administration. We further recommend that Congress direct PRM 
to issue regular, quarterly reports to the Appropriations Committee 
about the status of the USRAP and SIV pipelines, ongoing implementation 
of Executive Order 14013, changes to refugee processing and 
adjudications. We also urge Congress to make permanent the Lautenberg 
program, fund the community consultations process, direct PRM to expand 
and improve family reunification (P-3 and I-730) processing, and expand 
and strengthen the Central American Minors (CAM) program.
   an urgent moment to protect u.s.-affiliated persons in afghanistan
    Given the withdrawal of U.S. troops in Afghanistan by September 
11th, 2021, it is incumbent upon the administration to develop 
emergency protection plans for the approximately 17,000 Afghans and 
their derivatives who will remain in danger. While the Afghan Special 
Immigrant Visa (SIV) program has successfully offered protection to 
thousands of Afghan allies from a lifetime of fear or even death, in 
its current state, it is insufficient to provide rapid protection in an 
evolving emergency situation. The program has long been challenged by 
systemic delays and backlogs: despite Congress mandating that 
processing take no more than nine months, the State Department 
estimates that the process takes an average of almost two years. It is 
critical that the administration take steps to ensure that the program 
can operate efficiently moving forward. RCUSA urges that Congress 
allocate at least 20,000 visas in the FY 2022 SFOPS spending bill or 
through another appropriate bill. RCUSA also urges Congress to increase 
the annual allotment of visas for the 1059 program from 50 to 150 
visas. Congress should also conduct oversight into the administration's 
implementation of the President's February Executive Order on 
Rebuilding and Enhancing Programs to Resettle Refugees and Planning for 
the Impact of Climate Change on Migration, which directed a review of 
the SIV program's processes and capacity.
    In closing, RCUSA urges Congress to adopt the above funding levels; 
fund U.S. refugee resettlement to restore U.S. global leadership on 
refugee protection; and approve an additional 20,000 Afghan SIVs and 
ensure the protection of at-risk U.S.-affiliated Afghans. Thank you for 
your consideration.

            FY 2021 Funding Needs for Refugees and Displaced Persons in Department of State Accounts
----------------------------------------------------------------------------------------------------------------
                                                                                   FY 2022
          Refugees and Displaced Persons Accounts            FY 2021 Enacted     President's      FY 2022 RCUSA
                                                                                   Request
----------------------------------------------------------------------------------------------------------------
Recommended Migration and Refugee Assistance..............    $3,432,000,000    $3,845,000,000    $4,118,400,000
International Disaster Assistance.........................    $4,395,362,000    $4,682,362,000    $5,274,434,000
Emergency Migration and Refugee Assistance................          $100,000          $100,000       $50,000,000
----------------------------------------------------------------------------------------------------------------

      
---------------------------------------------------------------------------
    \1\ A list of RCUSA member organizations can be viewed at 
RCUSA.org.
---------------------------------------------------------------------------
    [This statement was submitted by Refugee Council USA.]
                                 ______
                                 
                   Prepared Statement of the Results
    On behalf of RESULTS and our grassroots advocates across the U.S. I 
want to say thank you for the role the Senate SFOPS has played in 
including emergency funding for global vaccines in the December 2020 
COVID relief package and the inclusion of global aid resources in the 
American Rescue Plan Act. We are grateful for the continued U.S. 
investments in some of the highest-impact, effective mechanisms and 
programs that save lives, improve futures, and help countries to 
deliver quality health and education to children and families 
experiencing poverty. I urge you to give particular priority to key 
global health and education efforts in FY22, including: the Global Fund 
to Fight AIDS, TB, and Malaria; bilateral tuberculosis programs; 
maternal and child health, including Gavi, the Vaccine Alliance; and 
nutrition programs in global health; and Basic Education, particularly 
the Global Partnership for Education.
    Global Health--Tuberculosis.--This committee's leadership and 
support for increased global tuberculosis funding over the past 4 
fiscal years must be commended--we have seen and deeply appreciate your 
efforts to raise TB into the spotlight and to increase the resources 
for the USAID bilateral program.
    But unfortunately, for decades before, TB was stuck at the bottom 
of political priority lists, which allowed it to climb to the top of 
the list of global infectious killers. Every year, TB sickens about 10 
million people and causes about 1.4 million deaths. That burden does 
not fall evenly. TB disproportionately impacts people who are already 
in poverty and otherwise pushed to the margins, largely in countries 
facing the consequences of colonialism, resource extraction, and unjust 
global lending policies.
    And now, more than ever, efforts to get ahead of this dire disease 
are critically important for saving lives. As the COVID-19 pandemic 
continues to disrupt and destabilize health systems around the world, 
this ancient killer has once again found stronger footing. Lockdowns 
and fear of COVID-19 stopped many from getting tested and treated for 
tuberculosis (TB). Supply chains for TB medicines and diagnostics have 
been disrupted. And national TB programs have been pushed to the brink 
as staff and funding are pulled to the COVID-19 response.
    Global progress against TB was already slow and fragile. And now 
data is showing that 12 months of COVID-19 has eliminated 12 years of 
TB gains in many countries with high rates of TB.
    But this moment of enormous public health challenge is an 
opportunity to create a better way of working that can fight both 
diseases. We can invest in systems that will not only find and treat 
people for both COVID-19 and TB, but that will help prevent future 
pandemics.
    We must attack the current pandemic and while preparing for the 
next one. In many countries, existing TB programs formed the backbone 
of national and local COVID responses. Infection control, lab capacity, 
respiratory disease expertise, active outreach, and contact tracing 
were all capacities built in TB programs.
    The challenge is that TB programs were already hugely underfunded, 
and COVID further diverted resources. With increased funding and 
adequate staffing, resourcing, and testing supplies, these same 
programs could instead not only bring an end to TB as a global killer, 
but also provide a respiratory disease response platform for future 
pandemics.
    Domestic country budgets have long been the biggest funders of TB 
programs, but now those budgets are stretched thinner due to COVID-19--
even as needs have grown. As an established global leader on TB, USAID 
can play a critical role to support locally led TB programs, rapidly 
adapt and restore critical TB services during the pandemic, prevent a 
dangerous reversal of progress, and strengthen TB programs for the 
future.
    With an increased annual TB budget of $1 billion, USAID could have 
a transformative impact on TB efforts globally while helping build the 
systems needed to prevent the next pandemics. We only need to look at 
the President's Emergency Plan for AIDS Relief (PEPFAR) or the 
President's Malaria Initiative to see that U.S. commitment on a global 
health issue can have a massive impact. With this increased TB budget, 
USAID could:

  --Support local health workers and programs to save more lives from 
        TB and recover momentum against the disease by expanding access 
        to treatment for all forms of TB, including MDR-TB, increasing 
        its support for TB prevention, and making more investments in 
        TB research and development.
  --Expand its list of priority countries, helping even more national 
        TB programs fight both COVID-19 and TB.
  --Expand the integration of TB and COVID-19 testing networks in 
        priority countries by training staff on bidirectional testing, 
        ensuring adequate diagnostic equipment and facilities, and 
        building back up the human resources available to fight both 
        diseases.
  --Channel additional resources to community-based organizations, 
        which are now even more important for maintaining and improving 
        TB services.
  --Address urgent procurement and supply challenges affecting access 
        to TB medications, as well as diagnostics needed for both TB 
        and COVID-19. This relatively modest level of annual investment 
        could have a transformative impact on TB efforts globally, 
        while creating health systems that will help prevent future 
        pandemics.

    An allocation of $1 billion for bilateral TB programs in FY2022 
would allow for a more aggressive response to finding the missing TB 
cases, scale up innovative approaches that reach more people, in more 
regions of the world, and invest more in research and delivery for even 
better TB diagnostics, vaccines, and medications.
    Global Health--Nutrition.--With this committee's bipartisan 
support, anti-hunger programs and child survival have been incredible 
pillars of the U.S. global health programs since the 1980s--helping to 
cut the number of under-five child deaths in half.
    But, pre-COVID-19, malnutrition still contributed to about half of 
the deaths of children under-five. In projections of the increased 
death toll due to COVID-19-related service disruptions, wasting, a form 
of severe malnutrition, is the biggest driver of additional child 
deaths.
    Proper nutrition is critical to healthy growth, laying the building 
blocks for cognitive abilities, motor skills, and socio-emotional 
development. During the first 1,000 days between pregnancy and a 
child's second birthday children's brains grow faster than at any other 
stage of life. This window of rapid development is also a time of 
extreme vulnerability. If a child is fighting a bout of disease such as 
pneumonia or malaria and is already malnourished, the likelihood of 
survival is greatly diminished.
    The obvious role nutrition plays in a child's life makes it even 
more shocking that globally nearly 20 percent of all children under the 
age of five are chronically undernourished or ``stunted.'' That's 149 
million young children failing to grow well each year because they did 
not get the right micronutrients and vitamins needed to thrive-and 
that's before the COVID-19 pandemic caused additional economic 
pressures and disruptions and stress on health systems.
    Overall funding for this crisis has increased, but it remains one 
of the least-addressed global public health challenges. 2021 is a 
critical moment for building partnerships on global nutrition and U.S. 
government leadership is key for gaining the political momentum 
necessary to reach the global goals on nutrition. The consequences of 
early malnutrition are devastating and permanent, but they are also 
entirely preventable.
    We cannot afford to press pause on the crisis of child malnutrition 
while we fight the COVID-19 pandemic. If we want to reach all children 
everywhere, we will need to scale up and accelerate our efforts to 
prevent malnutrition, as well as provide new resources to support 
partner countries to address the impacts of the COVID-19 pandemic.
    An allocation of $300 million for Nutrition within Global Health 
would be a key component of our goal of improving the delivery of the 
``Power 4''--multiple micronutrient supplements for mothers, supporting 
exclusive breast-feeding, scaling up Vitamin A, and expanding 
specialized wasting treatment. These resources would provide leading 
interventions for reducing stunting, reinforce our other investments in 
child survival programs, and set the foundation for improved health and 
gains in economic development.
    Global Partnership for Education (GPE).--Due to the pandemic, the 
number of out-of-school children could grow substantially for the first 
time in decades, while stretched national budgets could hinder 
education quality. At its peak, the number of children out of school 
ballooned to 1.6 billion--about a six-fold increase from the start of 
the pandemic. And many more learners are at risk of falling behind or 
permanently stopping their education. World Vision released a report 
last year estimating 1 million girls may not be able to return to 
school because of adolescent pregnancies occurring during the 
lockdowns.
    The education crisis brought on by COVID-19 threatens the historic 
progress made by communities globally to get millions more children in 
school that was bolstered by this subcommittee's annual support. The 
pandemic only worsens ongoing disparities in global education; decades 
of colonialism, resource extraction, and unjust global lending policies 
have created enormous barriers to education in dozens of lower-income 
countries. Urgent action is needed now to ensure the current education 
crisis does not turn into a permanent catastrophe for an entire 
generation.
    The Global Partnership for Education is on the frontlines of the 
current education crisis. As the pandemic wreaks havoc on school 
systems around the world, GPE has mobilized its largest-ever emergency 
response--becoming the largest provider of education grants in the 
COVID-19 response. GPE has distributed $500 million to help partner 
countries reopen schools safely or enhance remote learning. As a 
result, 355 million children have been able to continue their 
education. GPE is also working in countries with the greatest need. In 
2019, 76% of GPE funding went to countries affected by conflict and 
fragility
    In this high-stakes moment for global education, GPE is the right 
mechanism for donors like the United States to play their part in 
transforming education. This July, the UK government is hosting a 
Global Education Summit where GPE must raise at least US$5 billion for 
2021-2025 to fund country plans to transform education systems for more 
than 1 billion children. U.S. leadership and commitment of a multi-year 
pledge will be critical to ensuring this plan is fully realized.
    A U.S. contribution of $150 million to the Global Partnership for 
Education in FY2022 along with continued strong support of bilateral 
education funding would have a powerful impact on the lives of children 
worldwide, help leverage both domestic and donor resources, and 
demonstrate our government's continued leadership to improving 
education for all.
    ADDITIONALLY--adding language in the fiscal year 2022 SFOPS bill in 
support of GPE's 5-year strategy would send a strong signal to this 
administration about the value of GPE's role in reaching under-served 
and vulnerable populations with access to quality education.
    [This statement was submitted by Crickett Nicovich, Associate 
Director, Policy and Government Affairs.]
                                 ______
                                 
  Prepared Statement of the Rotary's Polio Eradication Advocacy Task 
                            Force for the US
Chairman Coons, members of the Subcommittee:

    Rotary appreciates the opportunity to encourage continued funding 
in FY 2022 to support USAID's Polio Eradication Initiative. These 
efforts support the broader Global Polio Eradication Initiative (GPEI), 
which is an unprecedented model of cooperation among national 
governments, civil society and UN agencies working together to reach 
the most vulnerable children through the safe, cost-effective public 
health intervention of polio immunization. Rotary appeals to this 
Subcommittee for continued support in the amount of $65 million--level 
funding--to recover polio eradication progress disrupted by the COVID-
19 pandemic, to support essential polio eradication strategies and 
innovations that will support the interruption of polio virus 
transmission, and to protect countries which are polio free but which 
remain at risk, and ensure the long term sustainability of a polio free 
world.
           progress in the global program to eradicate polio
    Since the launch of the GPEI in 1988, eradication efforts have led 
to more than a 99.9% decrease in cases. Thanks to this committee's 
support, over 19 million people have been spared disability, and over 
900,000 polio-related deaths have been averted. In addition, more than 
1.5 million childhood deaths have been prevented, thanks to the 
systematic administration of Vitamin A during polio campaigns.
    In 2020, the WHO AFRO region was certified wild polio virus-free 
after four years without detecting any cases, making it the fifth of 
six WHO regions to eliminate the virus. This achievement follows the 
certification of the eradication of Type 3 (WPV3) in October 2019 and 
wild poliovirus type 2 (WPV2) in September 2015. The eradication of 
wild polio virus from regions and eradication of strains of the polio 
virus is further proof that a polio-free world is achievable.
    Only two countries, Afghanistan and Pakistan, have confirmed cases 
of wild polio since August of 2016. As of 3 June 2021, only 2 cases of 
wild polio virus have been confirmed--one each in Pakistan and 
Afghanistan. Significant reductions in detection of virus transmission 
in environmental samples in 2021 are also cause for cautious optimism. 
Both countries are working to capitalize on low levels of virus 
transmission by working to reach missed children, prioritizing 
communities which have had low coverage or which have been resistant to 
immunization; and ensuring thorough microplanning of immunization and 
other eradication activities. In Afghanistan, there are increased 
efforts to target children living in areas which have been 
inaccessible. This ongoing work is challenging within the context of 
the NATO withdrawal of troops and related insecurity.
    Outbreaks of circulating vaccine-derived poliovirus are ongoing in 
several countries across Africa and Asia and require continued focus 
and attention. These were further exacerbated by COVID-19 pandemic-
related disruptions in immunization campaigns. These outbreaks are not 
a failure of the vaccine, but result from a failure to sustain 
sufficiently high levels of routine immunization which causes the live, 
but weakened form of the virus used in the vaccine to revert over time 
to a more virulent, wild-like form. The program has developed a 
specific Strategy for the Response to Type 2 Circulating Vaccine-
Derived Poliovirus, including the use of a new, more genetically stable 
vaccine, the novel oral polio vaccine type 2 (nOPV2), for outbreak 
response.
    The COVID-19 pandemic has posed new challenges for global polio 
eradication activities. In order to protect communities and staff, the 
Global Polio Eradication Initiative paused immunization campaigns and 
other essential activities for several months in 2020. In countries 
that have successfully resumed activities, the programme has developed 
strategies for prevention and control of COVID-19 and is providing 
resources such as masks and hand sanitizer to keep frontline health 
workers protected while ensuring that campaign elements meet physical 
distancing requirements.
    As a result of the pause on activities, and also due to the 
potential exposure to COVID, the number of vulnerable children has 
increased the real threat for wider spread of the virus. UNICEF, WHO 
and Gavi estimate that at least 80 million children under the age of 
one are at risk due to the COVID-19 related disruption to vaccination 
activities. These challenges are further compounded by the 
extraordinary economic and financial constraints in both at-risk 
countries and from donors which may divert essential political and 
financial commitments.
    This combination of progress in the midst of ongoing challenges 
underscores the urgency of continued focus to protect the vulnerable 
gains made toward polio eradication as the COVID-19 pandemic continues 
to disrupt polio immunization and eradication activities; and to stop 
polio virus transmission in these most complex environments while 
sustaining high levels of population immunity in polio free areas. 
Continued support for global surveillance is also essential to monitor 
and detect cases and virus transmission and provide confidence in the 
absence of cases.
        usaid's vital role in global polio eradication progress
    The United States is the leader among donor nations in the drive to 
eradicate polio. Funding provided by Congress contributed ensured 
USAID's continued vital programmatic contributions in 2020.
    USAID remained steadfast in its support for polio eradication and 
adapted to working in a COVID-19 environment despite constraints 
resulting from the COVID-19 pandemic as well as changes in US policy 
toward the World Health Organization in 2020. USAID continued to 
support polio surveillance and the laboratory network through WHO 
wherever limited funds were available. These funds were critical for 
sustaining surveillance wherever possible and catching up once the 
COVID restrictions allowed people and specimens to move as needed.
    In addition, USAID concurred with the decision by the Polio 
Oversight Board to use human resources and physical infrastructure, 
such as surveillance laboratories, to support COVID-19 pandemic 
response, at no additional cost to USAID. This has demonstrated the 
added-value of sustaining the polio system for diseases of public 
health concern and part of USAID's long-term investment approach. 
USAID's support for polio immunization campaigns increased as funding 
shifted to UNICEF for surge staff and communication activities which 
were invaluable polio immunization campaigns and other essential 
eradication activities resumed.
    USAID's support to the CORE Group (NGO) Polio network continued in 
seven of eight countries (India, Nigeria, Ethiopia, Kenya, Somalia, 
South Sudan, and Uganda. The Afghanistan program is tailored to that 
more restricted environment) throughout the year. These NGOs continue 
to promote polio immunization campaigns whenever they are scheduled, 
encourage families to seek vaccination even during COVID and minimize 
disruptions to routine immunization services, and they were able to 
continue their community-based surveillance activities throughout the 
pandemic. In addition, the NGOs became role models and advocates for 
masking, distancing, and handwashing to mitigate COVID-19 transmission, 
they used their long-standing trust in communities to support contact 
tracing, while giving reminders about routine immunization.
USAID Support for improved quality
    USAID worked to identify and address (as locally appropriate) gaps 
or vulnerabilities that may cause setbacks by promoting high quality 
immunization campaigns through better planning and feedback, 
identifying reasons for missed children through independent monitoring 
and post-campaign surveys. USAID also supported tracking of the virus 
through enhanced disease surveillance by communities themselves and 
through health facilities and expanding environmental surveillance to 
reduce the potential for missing low level virus transmission.
USAID staff and Missions
    Virtually, USAID staff continued to provide technical support to 
USAID Missions, Ministries of Health, and coordinated with other donors 
throughout the year. USAID staff reviewed National Emergency Action 
Plans, participated in all polio oversight and technical meetings, and 
continued to promote and disseminate lessons learned across countries 
for overall program improvement. USAID/HQ and Mission staff were 
actively engaged in the development of the updated GPEI Strategy--2022-
2026.
                    fiscal year 2022 budget request
    Rotary respectfully requests $65 million in FY 2022 to support 
USAID's Polio Eradication Activities; the same level of funding 
provided in FY 2021. With Congress' continued support for polio 
eradication in FY 2022, USAID will continue its work to stop polio 
transmission in the remaining polio endemic countries and protect the 
polio-free status of at-risk countries by reaching all children with 
vaccine, and effective Acute Flaccid Paralysis (AFP) and environmental 
surveillance to support rapid case detection and response.
                    the role of rotary international
    Rotary is a global network of leaders who connect in their 
communities and take action to solve pressing problems. Since 1985, 
polio eradication has been Rotary's flagship project, with members 
donating time and money to help immunize nearly 3 billion children in 
122 countries. Rotary's chief roles are fundraising, advocacy 
(including resource mobilization and political advocacy), raising 
awareness and mobilizing volunteers. There are nearly 300,000 members 
throughout the United States who have raised more than US$400 million 
of the more than US$2.2 billion Rotary has contributed to the Global 
Polio Eradication Initiative. This represents the largest contribution 
by an international service organization to a public health initiative 
ever. These funds have benefited 122 countries to buy vaccine and the 
equipment needed to keep it at the right temperature, and support the 
means to ensure it reaches every child. More importantly, tens of 
thousands of our volunteers have been mobilized to work together with 
their national ministries of health, UNICEF and WHO, and with health 
providers at the grassroots level in thousands of communities.
    Rotary also plays a key role in encouraging country level 
accountability. Rotary has National PolioPlus Committees, in the 
endemic countries and over 20 outbreak/at-risk countries. These 
national committees work to keep the spotlight on polio eradication 
amidst competing priority from the community level to the federal 
level.
                     benefits of polio eradication
    Since 1988, tens of thousands of public health workers have been 
trained to manage massive immunization programs and investigate cases 
of acute flaccid paralysis. These trained community health workers and 
the system of national and subnational emergence operations centers 
that support coordination of polio eradication activities are often 
used to support the response for natural disasters and other diseases, 
including the COVID-19 pandemic. Cold chain, transport and 
communications systems for immunization have been strengthened. The 
global network of 145 laboratories and trained personnel established by 
the GPEI also tracks measles, rubella, yellow fever, meningitis, and 
other deadly infectious diseases and will do so long after polio is 
eradicated. Besides the savings of more than $27 billion in health 
costs that has resulted from eradication efforts since 1988, a 
sustained polio free world will generate $14 billion in expected 
cumulative cost savings by 2050, when compared with the cost countries 
will incur for controlling the virus indefinitely. Polio eradication is 
a cost-effective public health investment with permanent benefits. On 
the other hand, as many as 200,000 children could be paralyzed annually 
in the next 10 years if the world fails to capitalize on the more than 
$17 billion already invested in eradication. Success will ensure that 
the significant investment made by the US, Rotary International, and 
many other countries and entities, is protected in perpetuity.
    [This statement was submitted by Anne L. Matthews, Chair, State, 
Foreign Operations, and Related Programs Appropriation Subcommittee.]
                                 ______
                                 
              Prepared Statement of the Save the Children
    Thank you for the opportunity to testify to the significant and 
increasing needs facing the most vulnerable children around the world. 
Save the Children is a nonprofit, child-focused organization working in 
more than 100 countries around the world. We build capacity for 
countries to deliver and provide direct support for health, education, 
protection, food security, livelihoods, and disaster relief for more 
than 197 million children, including 1.1 million here in America.
    Save the Children is grateful to this Subcommittee and Congress for 
supporting strong funding for the international response to COVID-19 in 
multiple bills throughout 2020 and early 2021. These investments are 
critical for slowing the spread of the virus, responding to outbreaks, 
and addressing life-threatening social and economic impacts, such as 
hunger and increased poverty.
    The pandemic, however, still rages in many parts of the world, and 
we are at a crossroads. The World Bank estimates that up to 124 million 
people will be forced into poverty by COVID-19, the first increase in 
more than two decades. The continued spread of COVID-19 and its 
variants threaten access to essential health services, such as 
maternity care for pregnant women and routine immunizations for young 
children. According to the World Food Program, 41 million people in 43 
countries are on the brink of famine due to the confluence of conflict, 
climate change, and increasing food prices and other economic 
challenges--many stemming from the secondary effects of the pandemic. 
An entire generation of children have had their education disrupted, 
and for particularly vulnerable groups like girls and refugees, 
millions may never return to the classroom. These converging and 
compounding crises imperil progress toward the UN's Sustainable 
Development Goals and has shown us all that achievements for the most 
vulnerable are hard won, but incredibly fragile.
    Current budget levels are not sufficient to meet the demands of the 
moment, and Congress must prioritize investments that will promote 
global stability and prosperity and protect a generation of children. 
We understand that Congress has many difficult choices to make, but the 
magnitude of challenges at this time requires us to be bold. The 
world's poorest children will pay the highest price of inaction.
    To meet increased needs for U.S. global leadership and poverty-
focused health, development and humanitarian assistance, investments of 
$69.1 billion in the FY22 Department of State and Foreign Operations 
Appropriations bill are required, including:

  --$984 million for Maternal and Child Health in Global Health 
        Programs;
  --$240 million for Nutrition in Global Health Programs;
  --$5.27 billion for International Disaster Assistance;
  --$4.1 billion for Migration and Refugee Assistance;
  --$1.2 billion for Global Food Security;
  --$1.1 billion for Basic Education, including $150 million for the 
        Global Partnership for Education and $50 million for Education 
        Cannot Wait;
  --$30 million for Combatting Child Marriage; and
  --Support for the President's budget request for USAID Operating 
        Expenses.

    The International Affairs Budget constitutes just one percent of 
federal spending, and significant increases can be provided while 
maintaining fiscal responsibility. Further, the U.S. can and should 
pair increased investments with a diplomatic strategy to encourage 
other donor countries sharing our values to increase their foreign aid 
contributions, making the most out of American taxpayer dollars.
    Maternal and Child Health (FY22 request: $984 million), Nutrition 
(FY22 request: $240 million).--Even before the pandemic, increased 
focus on ending preventable child and maternal deaths was urgently 
needed. The first month after birth carries the highest risk of death 
for newborns and their mothers. We know which interventions will save 
their lives, such as quality antenatal care and skilled birthing 
attendance, yet each year 2.5 million newborns still die, 2.6 million 
babies are stillborn, and more than 300,000 women die as a consequence 
of pregnancy or childbirth. Adding to these existing challenges, the 
emergence of COVID-19 has severely disrupted access to essential health 
services, and as a result, fewer women are receiving critical antenatal 
care or giving birth at health facilities.
    In particular, flexible, bilateral funding for maternal and child 
health has remained relatively flat since FY17--despite strong 
bipartisan support for these programs--and increased resources are 
needed for this category of maternal and child health funding.
    Furthermore, U.S. leadership is needed to convene global 
stakeholders around the goal of ending preventable child and maternal 
deaths. The U.S. should start by undertaking a strategic review of its 
Acting on the Call framework, including meaningful consultations with 
Congress, civil society, USAID Missions, and local organizations and 
stakeholders, and finalize an updated framework that takes into account 
current challenges and progress made since 2014. It should also look to 
co-host a global maternal and child survival conference as a follow-on 
to the 2012 Child Survival Call to Action to galvanize renewed or 
accelerated national and global commitments.
    Children in Emergency and Conflict Situations (FY22 request: $5.27 
billion for International Disaster Assistance and $4.1 billion for 
Migration and Refugee Assistance).--Children are the most vulnerable 
group within any conflict or emergency. The UN estimated that at the 
beginning of 2020, nearly 170 million people needed humanitarian 
assistance globally, which was an increase of about 25 percent from 
2019. In 2021, this number is expected to increase to 235 million, a 40 
percent increase over 2020, with half the disaster-affected population 
being children. Before the pandemic, children were already facing a 
triple-threat to their rights from conflict, climate change, and acute 
food insecurity. International Disaster Assistance (IDA) is vital in 
responding to natural and man-made disasters and addressing the needs 
of children, who are among those most at-risk in such crises. As noted 
earlier, 41 countries are on the brink of famine, including Yemen, 
South Sudan, and Nigeria. U.S. estimates find that up to 900,000 people 
in Ethiopia's Tigray region now face famine conditions amid a deadly 
and worsening conflict.
    Today, nearly 80 million people are estimated to be forcibly 
displaced worldwide, representing an increase of nearly 10 million 
people in just one year, according to UNHCR. Forty percent of those are 
believed to be children. Funding for Migration and Refugee Assistance 
is vital in supporting the State Department's Bureau for Population, 
Refugees, and Migration to provide life-saving assistance to millions 
of refugees and displaced persons. With the world currently 
experiencing the largest number of forcibly displaced persons since 
World War II and the protraction of crises in Venezuela, Myanmar, and 
beyond, increasing funding for MRA is critical to preventing the loss 
of life and creating stability in volatile regions.
    Children are exceptionally vulnerable to violence in humanitarian 
settings, and more data is needed to better understand and address 
their unique protection needs. Save the Children supports exploration 
of a pilot humanitarian Violence Against Children Survey (VACS) in a 
well-established internally-displaced persons or refugee settlement 
camp. VACS have been carried out in development context to help 
illuminate the magnitude, nature, and consequences of violence, which 
helps governments and stakeholders better prevent and respond to 
violence against children.
    Global Food Security (FY22: $1.2 billion).--Feed the Future is a 
dynamic whole-of-government approach that tackles global hunger and 
malnutrition through high-impact solutions improving agricultural 
productivity, expanding markets and trade, preventing child 
malnutrition, and strengthening the resilience of vulnerable people 
over the long term. It has been highly impactful in lifting millions of 
people out of poverty. The program builds on the Food for Peace Title 
II emergency program by targeting the next level of vulnerable 
populations with high-impact interventions that address chronic hunger 
and poverty. Amidst rising food insecurity around the world, funding 
will ensure the program protects successful results in the COVID-19 
context and continue to reduce poverty and child stunting in Feed the 
Future priority countries.
    Basic Education (FY22 request: $1.1 billion, including $150 million 
for Global Partnership for Education and $50 million for Education 
Cannot Wait).--At the height of the pandemic, an estimated 1.6 billion 
students globally--91% of the total--were out of school. For the first 
time in human history, an entire generation of children globally have 
had their education disrupted. Save the Children estimates that up to 
9.7 million children are at risk of dropping out of school due to 
rising levels of child poverty. We have seen that girls face greater 
risks than boys when their schools closed, with many forced into early 
marriage. USAID's education programs ensure that students have the 
necessary skills to be part of the global workforce, have safe learning 
opportunities, and have equitable access to quality education. We also 
support the Global Partnership for Education and Education Cannot Wait 
multilateral programs.
    The Global Partnership for Education (GPE) helps build strong and 
resilient education systems so that more children in the poorest 
countries, especially girls, get the education they need. G7 leaders 
recently endorsed two new global targets to achieve 40 million more 
girls in school and 20 million more girls reading by age 10 by 2026, 
and GPE is an important vehicle through which this ambitious agenda can 
be implemented. Strong U.S. support for GPE is particularly critical 
this year, as the partnership kicks off a five-year replenishment cycle 
and seeks to address the long-term impacts of the pandemic on 
children's learning.
    Education Cannot Wait (ECW) is the first global fund dedicated to 
children's education in emergency settings, providing much needed 
educational support for children who would otherwise be missing out 
during times of conflict and natural disasters. We strongly support 
additional funding for ECW this year given its fast work to respond to 
the education crisis caused by the COVID-19 pandemic.
    Combatting Child Marriage (FY22 request: $30 million).--The 
Combatting Child Marriage account supports programs that lower rates of 
this form of gender-based violence, empower girls, and promote positive 
norm change in communities. Evidence shows that child marriage exposes 
girls to increased violence throughout their lives, denies them access 
to support systems, and perpetuates cycles of poverty and gender 
inequality, with both short- and long-term repercussions for girls' 
education and health. The economic impacts of COVID-19 are projected to 
cause a significant increase in child marriage, on top of the 12 
million that occur each year. The World Bank estimates that global 
gains from ending child marriage could reach more than $500 billion per 
year.
    USAID Operating Expenses (FY22: Support President's budget 
request).--USAID Operating Expenses are foundational and necessary to 
all of the aforementioned program areas. To effectively contribute to 
stable societies and project American values overseas, USAID requires 
fully funded and trained staff. Funding Operating Expenses facilitates 
USAID's efforts to drive innovation, attract and retain skilled 
development talent, oversee program implementation, improve 
transparency and accountability, evaluate results, and apply a strong 
learning agenda for future programming. In addition, local governments 
and organizations are the most knowledgeable about the needs in their 
communities, and we strongly support USAID efforts to promote locally-
led development.
    USAID Operating Expenses also funds key components of the gender 
equality agenda. Increased U.S. investment must be made in gender and 
age disaggregated data to measure progress towards gender equality. 
This account is essential for implementing key provisions of the 
Women's Economic Empowerment and Entrepreneurship Act, which requires 
the integration of gender equality and female empowerment throughout 
USAID programming and that a gender analysis shape all strategies, 
projects, and activities of USAID. Full execution of this requirement 
must be supported by funding for key gender staff positions.
    [This statement was submitted by Christy Gleason, Vice President, 
Policy, Advocacy, and Campaigns.]
                                 ______
                                 
                 Prepared Statement of Special Olympics
Chairman Coons, Ranking Member Graham, and Members of the Committee:

    On behalf of Special Olympics International, we are grateful for 
the opportunity to provide our outside written testimony and 
recommendations for the FY 2022 State Foreign Operations Appropriations 
bill. Specifically, we recommend that the committee allocate 
$10,000,000 over four years for the Special Olympics Young Athletes 
program through the State Department's Diplomatic Programs/Education 
and Cultural Exchange Programs Account.
               about special olympics and young athletes
    As you may know, the mission of Special Olympics is to provide 
year-round sports training and athletic competition in a variety of 
Olympic-type sports for children and adults with intellectual 
disabilities (ID), giving them continuing opportunities to develop 
physical fitness, demonstrate courage, experience joy and participate 
in a sharing of gifts, skills and friendship with their families, other 
Special Olympics athletes and the community.
    Participating in Special Olympics has shown to improve health and 
developmental outcomes, inspire joy, improve self-confidence, bolster 
family relationships, foster inclusion, and improve parents' 
expectations of their children with ID. While this is crucial for 
people with ID of all ages, Special Olympics' traditional sports 
program is only available to athletes ages eight and over.
    To meet the needs of children aged 2 to 7 years old, Special 
Olympics created Young Athletes, a play-based early childhood 
intervention for children with and without ID, in 2005. Young Athletes 
introduces basic sport skills, like running, kicking, and throwing, and 
offers families, teachers, caregivers and people from the community the 
chance to share the joy of sports with all children.
    Young Athletes also provides children of all abilities the same 
opportunities to advance in core developmental milestones. Children 
learn how to play with others and develop important skills for 
learning--such as learning to share, taking turns, following 
directions, and understanding different perspectives and abilities. 
These skills help children in family, community, and school activities. 
The program provides the following benefits as it welcomes children and 
their families into the world of Special Olympics:

  --Motor skills. Children with ID who took part in Young Athletes 
        developed motor skills more than twice as fast as others who 
        did not take part.
  --Social, emotional, and behavioral skills. Children in Young 
        Athletes saw greater increases in social skills and decreases 
        in challenging behaviors, like tantrums or self-harm, compared 
        to those who did not participate.
  --Expectations. Family members reported significant positive changes 
        in their own attitudes and expectations towards their child and 
        those of community members towards their child with ID.
  --Sport readiness. Young Athletes helps children develop the 
        fundamental movement skills that serve as a foundation for 
        participating in sports when they are older.
  --Acceptance. Inclusive play helps children without a disability to 
        better understand and accept others.

    Young Athletes is a fun way for children to become active and 
establish healthy habits for the future. It is critical to teach 
children healthy lifestyle behaviors while they are young as it can 
support children in achieving developmental and educational outcomes, 
while also establishing the foundation for a lifetime of physical 
activity, friendships, and learning.
                             the challenge
    There are over 200 million children under the age of five in low-
and middle-income countries that are at risk of poor developmental 
outcomes, which means they may be delayed in skills like walking, 
talking, or reading\1\. Some of these children with delays in 
development may also be diagnosed with ID. Unfortunately, the link 
between ID and poverty is correlative, and it reinforces vulnerability 
and exclusion. Children who live in poverty are more likely to become 
disabled due to poor access to healthcare, clean water and basic 
sanitation, as well as malnutrition, and dangerous living and working 
conditions\2\. Additionally, once a child is disabled, they are more 
likely to be denied basic resources that would mitigate or prevent 
deepening poverty. Children with ID are destined to perpetuate the 
cycle of poverty if they are unable to access, and participate in, 
early childhood intervention programs, like Young Athletes.
    Throughout the world, public awareness and family education about 
intellectual disabilities is inadequate or simply non-existent. 
Further, families can face stigma, shame and isolation after their 
child is diagnosed with ID. Similarly, children with ID have very 
limited access to critical early childhood interventions and services. 
Approximately 90% of children with disabilities in developing countries 
are not in school\3\. Lack of access, coupled with limiting societal 
views--even in the United States--means we are not recognizing the full 
potential of children with ID.
       expected outcomes: young athletes as a catalyst for change
    Over the last 16 years, Young Athletes has expanded to 130 
countries across Special Olympics' seven regions. In 2019, the program 
offered in-person support to over 575,000 children with and without ID 
(including in the United States), along with virtual and at home 
support during the COVID-19 pandemic in 2020. While significant, these 
numbers represent a small fraction of the approximately 60 million 
children with ID under the age of 15 globally. Now more than ever, 
there is a dire and urgent need for this type of programming.
    Our request for $10,000,000 over four years will support Special 
Olympics Young Athletes outside of the United States and would have an 
immediate impact on the health and development of children with and 
without intellectual disabilities. This funding would significantly 
support Special Olympics in building digital and in-person activities 
to reach our goal to expand programming to impact 1 million children 
with and without ID--a growth of 539,000 children outside of the United 
States--by 2025.
    With an average cost of $40 per child for 8 weeks of participation 
in Young Athletes, reaching our goal will cost nearly $22 million over 
the next four fiscal years. A State Department investment of 
$10,000,000 over four years, which would be complemented by private 
support, would allow Special Olympics to scale Young Athletes quickly 
and effectively in order to bring this critical early childhood program 
to one of the most underserved populations of children around the 
world.
    Young Athletes is a standardized, evidenced-based model that is 
simple to set up, inexpensive to run, and can be implemented in a 
variety of environments. Young Athletes programming takes place in 
homes, schools, and communities, led by families, teachers, and 
volunteers who are supported by Special Olympics training and 
resources. The program follows standardized lessons corresponding to 
foundational skills developed through interactive play and uses the 
Young Athletes Activity Guide and basic sports equipment, which can be 
easily substituted for household items to ensure children in every 
community can participate (e.g. substituting a sport cone with a box or 
a plastic soda bottle filled with sand).
    After two months of participation in Young Athletes, children with 
ID gained seven-months in motor skills and saw significant improvements 
in social skills.\4\ The advantages children with ID gain by 
participating in Young Athletes hold over time. At five and ten month 
follow-ups, children who participated in an 8-week program maintained a 
four-month advantage in development. Moreover, parents and caregivers 
rated their children with ID as having fewer challenging behaviors, 
indicating changes not only in child outcomes but in the parent-child 
relationship as well. Finally, family members reported significant 
positive changes in both their own attitudes towards their child and 
those of community members towards their child with ID.\5\ By 
addressing both the developmental and attitudinal challenges faced by 
families of children with ID, Young Athletes has illustrated the impact 
of early interventions on health and development outcomes.
    For children like Subah, a five-year old from Pakistan, the impact 
of Young Athletes has introduced her to an entirely new world. Subah 
was diagnosed with cerebral palsy as a young child and was not able to 
walk or even sit without the support of a wheelchair. After just three 
months of Young Athletes, Subah is now walking, kicking, and playing 
with her friends at school. Her parents are overjoyed with the power of 
play.
    Young Athletes challenges expectations, forges relationships, 
fosters support networks, and builds crucial skills for young children. 
Young Athletes' impact has a ripple effect that extends benefits beyond 
the participants in the program to the family and community. It 
provides a forum for educating families, changes family perceptions on 
the value and worth of their child and provides opportunities for 
families to come together to share challenges and rewards. In these 
critically important ways, Young Athletes can serve as a catalyst 
around the world and become an important mechanism to enhance social 
inclusion for children--indeed all people--with ID throughout the 
world.
    Thank you again for the opportunity to testify on the FY SFOPS 
FY2022 Appropriations bill. We look forward to working with the 
committee and other programs that will have a positive impact on global 
health, inclusion, and social acceptance for people with intellectual 
disabilities.
                    about timothy p. shriver, ph.d.
    Timothy ``Tim'' Shriver leads the Special Olympics International 
Board of Directors, and together with 6 million Special Olympics 
athletes in more than 200 countries, promotes health, education, and a 
more unified and inclusive world through the joy of sport.
    During his time with Special Olympics, which he joined in 1996, the 
organization has developed proven programming for all aspects of a 
Special Olympics athlete's life: leadership, health, education, and 
family support. His commitment to inclusion is evident in the Special 
Olympics athletes serving on the international Board of Directors, 
hundreds of thousands of health professionals trained in adaptive 
health care protocols, partnerships with organizations like the World 
Health Organization, and Unified Champion Schools creating a Unified 
Generation in which all people are included and accepted.
    Shriver drove the largest expansion of Special Olympics, growing 
the movement from one million athletes to over six million athletes and 
unified partners leading the ``Inclusion Revolution'' around the world. 
Shriver has harnessed the power of Hollywood to challenge unconscious 
bias and share stories of inspiration, co-producing DreamWorks Studios' 
1997 release, Amistad, and Disney Studios' 2000 release, The Loretta 
Claiborne Story. He is Executive Producer of The Ringer, a Farrelly 
Brothers film, Front of the Class, a Hallmark Hall of Fame television 
movie, and The Peanut Butter Falcon released in 2019.
    In 2014, Shriver wrote the New York Times bestseller Fully Alive: 
Discovering What Matters Most, where he shares the life changing impact 
of people with intellectual disabilities and their capacity to inspire 
others to see the world in a more meaningful way. Before joining 
Special Olympics, he cofounded and currently chairs the Collaborative 
for Academic, Social, and Emotional Learning (CASEL). He is a member of 
the editorial board of the Disability and Health Journal. Shriver is 
Founder of UNITE.US, a member of the Council on Foreign Relations, 
President of the Joseph P. Kennedy Jr. Foundation, UNESCO Chair for 
``Transforming the Lives of People with Disabilities, their Families 
and Communities, Through Physical Education, Sport, Recreation and 
Fitness'' at the Institute of Technology, Tralee, Ireland, a member of 
the Bank of America Global Advisory Council, and Co-Founder of Lovin' 
Scoopful Ice Cream Company.
    Shriver earned his undergraduate degree from Yale University, a 
master's degree in Religion and Religious Education from Catholic 
University, and a Doctorate in Education from the University of 
Connecticut. He and his wife Linda Potter live in the Washington, DC 
area and have 5 adult children and 3 grandchildren.
---------------------------------------------------------------------------
    \1\ UNICEF. (2009). Early Childhood Development: A Statistical 
Snapshot Building Better Brains and Sustainable Outcomes for Children. 
New York, NY.
    \2\ Mitra, S., Posarac, A., & Vick, B. (2013). Disability and 
Poverty in Developing Countries: A Multidimensional Study. World 
Development, 41, 1-18.
    \3\ UNICEF. (2014). Global initiative on out-of-school children: 
South Asia regional study.
    \4\ Favazza, P. C., Siperstein, G. N., Zeisel, S., Odom, S. L., & 
Moskowitz, A. L. (2011). Young Athletes intervention: Impact of motor 
development. Washington, DC: Special Olympics, Inc.
    \5\ Smith, A., Ralston, R., Dubois, L., Anderson, T. (2019). The 
impact of Participation in Young Athletes on Families of Children with 
Intellectual Disabilities. Poster presented at the 52nd annual 
Gatlinburg Conference on Research and Theory in Intellectual and 
Developmental Disabilities, San Antonio, TX.

    [This statement was submitted by Tim Shriver, Chairman.]
                                 ______
                                 
                 Prepared Statement of the TB Alliance
    TB Alliance appreciates the opportunity to submit this testimony 
for the record to the Senate State and Foreign Operations 
Appropriations Subcommittee. TB Alliance is a not-for-profit 
organization dedicated to the discovery, development, and delivery of 
better, faster-acting, and affordable tuberculosis (TB) drugs that are 
available to those who need them. Together with stakeholders in the TB 
advocacy community, TB Alliance requests that Congress appropriate $1 
billion to the United States Agency for International Development's 
(USAID) TB program. TB is the second-highest global infectious disease 
killer after COVID-19, causing 1.5 million deaths globally in 2020. 
Unfortunately, TB is poised to again become the greatest single global 
infectious disease killer now that the COVID-19 pandemic is being 
brought under better control. TB, including the rapid spread of drug-
resistant TB, poses a serious health security threat and, 
unfortunately, we do not have the tools (vaccines, drugs and 
diagnostics) we need to end the pandemic.
    The current arsenal of TB drugs, a 100-year-old vaccine, and 
diagnostics pale in comparison to what we have learned is possible in 
the response to the current COVID-19 pandemic. This is not a science 
problem, it is a resource problem. More funding is needed immediately 
for USAID's TB program, which is a key investor in late-stage research 
and development of new TB breakthrough products.
           tb alliance: a tb product development partnership
    TB Alliance is a not-for-profit product development partnership 
(PDP), based in the United States but with a global reach. PDPs develop 
new products for people suffering from diseases and health threats 
underserved by traditional markets. TB is an example of this type of 
global challenge as it is a disease that, although existing in 
virtually every country of the world, primarily impacts poor people 
living in the world's poorest countries. PDPs build partnerships 
between the public, private, academic, and philanthropic sectors and 
play a critical role in developing urgently needed health innovations 
that would otherwise not exist. PDPs, like TB Alliance, are critical to 
achieving global development and health security goals-unfortunately, 
we will not meet the 2030 World Health Organization goals to end TB and 
most likely we will never eradicate TB without a significant investment 
in new tools. PDPs are proven, prolific engines in product development 
and global health progress.
    USAID has been a key research and development (R&D) partner for 
diseases of poverty, including to TB Alliance. Increased investment in 
USAID's TB program-with a portion of this funding being allocated 
specifically to R&D-will help to create impactful new TB treatments and 
products that will pay for themselves multiple times over and free up 
resources for health systems in low- and middle-income countries. 
USAID's TB program plays a unique role in supporting late-stage product 
development that is not found elsewhere in the US government.
    While the National Institutes of Health (NIH) is a more traditional 
research partner for many familiar diseases impacting the United States 
and other high-income countries, its investments in early-stage 
research only advance if the private sector invests in late-stage 
clinical trials, product manufacturing, and delivery of the product to 
patients. Unfortunately, the private sector is not willing to invest to 
any significant degree in poverty related neglected diseases as there 
is no commercial market to incentivize that engagement. This is 
certainly the case with TB, perhaps the quintessential disease of 
poverty that primarily impacts the poorest of the poor in all 
countries, but especially in low- and middle-income countries.
    The COVID-19 pandemic has underscored the power of science. Amazing 
progress can be made in a relatively short period of time when there is 
a concerted, well-funded attack on a disease-but even the massive 
private sector investment in COVID-19 tools would not have happened 
without early investment in research from governments and promises to 
purchase vaccines and end products to make them accessible to patients. 
This is a prime example of how adequate investment can unleash the 
powers of science and technology to conquer a disease. Without enough 
political will or resources we cannot and will not be able to end the 
TB pandemic.
         a success story: a new treatment for drug resistant tb
    In 2019, pretomanid, a drug developed by TB Alliance, was approved 
by the U.S. Food and Drug Administration (FDA). Since TB must be 
treated with a combination of drugs (usually referred to as a regimen), 
pretomanid was developed as part of a novel regimen for the treatment 
of highly drug-resistant forms of TB, including extensively drug 
resistant TB (XDR-TB). With pretomanid, TB Alliance pioneered the 
concept of regimen development for TB-instead of developing a single 
drug to be added to existing treatments, pretomanid was developed as 
part of a specific set of drugs comprising a fixed regimen, in this 
case bedaquiline, pretomanid, and linezolid, together referred to as 
the ``BPaL'' regimen. This approach can markedly accelerate clinical 
development, protect new drugs from developing resistance, and ensure 
that there is rigorous clinical evidence for the use of a specific 
combination. The regimen development model has since become the gold 
standard for TB research and is applicable to developing new therapies 
for other diseases that require treatment with multiple agents.
    Prior to the BPaL treatment regimen, XDR-TB patients were 
traditionally treated with combinations of up to eight antibiotics, 
including daily injections for 18 months or longer, with success rates 
on the order of 25%. BPaL is a three-drug, six-month, all-oral regimen, 
which had a 90% cure rate in the pivotal clinical trial. Pretomanid has 
subsequently been approved by other regulatory agencies including the 
European Commission and the Drug Controller General of India. It is 
only the second drug approved for drug-resistant forms of TB by the FDA 
in more than 40 years, the first approved as a part of a set treatment 
regimen as well as the first to be registered by a not-for-profit.
    TB Alliance initially in-licensed pretomanid in 2002, leading it 
through a full pre-clinical and clinical development program; the FDA 
submission ultimately detailed data from a total of 19 clinical 
studies, of which all but two were fully sponsored by TB Alliance. 
Throughout its development, TB Alliance has collaborated with and 
received significant support from USAID as well as numerous governments 
and philanthropic institutions. Partnerships have included academic and 
civil society organizations as well as the private sector. The vast 
network of partners is representative of the unique PDP capabilities to 
build diverse and effective coalitions to drive global health 
innovation.
    Coordination with private and public sector partners has continued 
since US FDA approval of pretomanid through global commercialization 
partnerships with Viatris, Macleods, Lupin and Hongqi pharmaceuticals 
to ensure global coverage and affordability. Pretomanid was also added 
to the catalog of medicines of the Stop TB Partnership's Global Drug 
Facility, making it available to 150 countries which represent the vast 
majority of the global TB burden. These efforts ensured that pretomanid 
was available around the world as quickly as possible after approval 
and that generic competition was in place to help drive affordability 
and a stable supply. An independent analysis has concluded that the 
savings potential for health systems from the BPaL regimen is between 
$700 million and $1.1 billion in U.S. dollars through the next two 
years, potentially freeing up resources to treat an additional 220,000 
people with TB. The success of pretomanid and the BPaL regimen would 
not have been possible without USAID support.
                               conclusion
    The COVID-19 pandemic has shown us what is possible with the 
appropriate investments and demonstrates the power of innovation 
unleashed by adequate resources. As the Subcommittee considers funding 
for FY 2022, we ask that you include $1 billion for USAID and increase 
investments into R&D so more life-saving treatments like pretomanid can 
be developed and accessed by those who need them most. We look forward 
to working with the Subcommittee on global health initiatives and hope 
that you will consider TB Alliance as a resource. Thank you in advance 
for your time and consideration.
    [This statement was submitted by Dr. Mel Spigelman, President and 
Chief Executive Officer.]
                                 ______
                                 
       Prepared Statement of the U.S. Global Leadership Coalition
                 investing to protect american families
    Chairman Coons, Ranking Member Graham: On behalf of the U.S. Global 
Leadership Coalition--a diverse network of over 500 businesses and NGOs 
and bipartisan leaders from across the country--thank you for the 
opportunity to testify about the important resources provided in the 
State-Foreign Operations Appropriations bill. Today, I ask that you 
support a strong and effective International Affairs Budget funded at 
$71.6 billion in FY22, including no less than $69.1 billion for the 
FY22 State-Foreign Operations Appropriations bill.
    The last time I was physically on Capitol Hill was March 12, 2020. 
I was testifying before the House State-Foreign Operations 
Appropriations Subcommittee in the Rayburn House Office Building just 
hours before Congress closed to the public due to growing concerns 
about the spread of COVID-19 across this country. While the pandemic 
was top of mind, I remember that morning being one of the last 
``normal'' moments before cases surged in America and around the world, 
irrevocably changing lives from Dover to Dakar and from Columbia to 
Chennai.
    Since that day--just over a year ago--there is no question that the 
world has been upended. The global COVID-19 death toll has exceeded 3.9 
million, including more than 600,000 Americans. The pandemic has 
severely impacted the global economy and jobs here at home, and is 
fueling global crises from conflict to hunger to migration.
    I speak for our entire coalition of businesses, NGOs, faith-based 
organizations, veterans, mayors, and community leaders across the 
country in expressing gratitude for Congress's longstanding bipartisan 
support for America's development and diplomacy tools and for your 
personal leadership. In recent years, Members on both sides of the 
aisle have overwhelmingly rejected calls to dramatically cut 
international affairs programs and have worked together to ensure 
strong funding for the International Affairs Budget.
    As we look to the future, this is a critical inflection point. 
America's recovery and our prospects for prosperity and security are at 
stake. But the good news is--we know what we are up against, we know 
what it will take to get this right, and we know on a deeply personal 
level that America's fate is inextricably linked to what happens around 
the world. The reality is that the world has dramatically changed since 
March 2020. That's why it is imperative for our own recovery and our 
future to respond with additional resources for our international 
affairs agencies and programs. I urge this Subcommittee and this 
Congress to meet the moment by ensuring that our relatively small but 
critical investment in development and diplomacy truly reflects the 
urgency of America's health and economic recovery.
Unprecedented Global Needs
    As the last 15 months have made clear, COVID-19 has dramatically 
reshaped the global landscape in new and unforeseen ways with important 
consequences for all Americans. Let me highlight a few examples that 
illustrate the magnitude of the growing global challenges and their 
impact on the lives of Americans here at home.
  --The COVID-19 pandemic pushed nearly 100 million more people into 
        extreme poverty in 2020 compared to before the pandemic, 
        according to new data from the World Bank. Last year, we saw 
        the first increase in global poverty since 1998, not only 
        causing more human suffering, but creating rising migration and 
        mounting instability in the world.
  --The pandemic is expected to cost the global economy over $22 
        trillion in lost output by 2025, and failure to distribute 
        COVID-19 vaccines equitably around the world could cost an 
        additional $9 trillion. America's economic recovery depends on 
        the recovery of low-income and emerging markets that have been 
        hardest hit by the pandemic.
  --COVID-19 has exacerbated armed conflict and extremism, with 
        fatalities caused by militant groups in Africa rising by a 
        third in 2020. Increasing political violence and growing 
        instability around the world has implications for U.S. national 
        security.
  --Since we now know that it only takes 36 hours for a pathogen to 
        spread around the globe and that 70% of the world remains 
        underprepared to prevent, detect, and respond to this type of 
        public health emergency, Americans won't be safe if the rest of 
        the world isn't ready--whether it is responding to COVID-19 or 
        preparing for the next pandemic.
    COVID-19 has wreaked havoc in America and across the globe. Decades 
of progress has been made in building a more stable and prosperous 
world--in Africa, Asia, and Latin America--helping the most vulnerable 
while creating opportunities for our own citizens. But we have seen a 
reversal of this progress, with backsliding continuing each day this 
pandemic goes on. Reversing these trends won't happen overnight and 
will require sustained new investments by the U.S. and our partners 
around the world.
    To better understand the impacts of the COVID-19 pandemic and the 
investment levels needed across the International Affairs Budget to 
protect the health, safety, and economic interests of Americans, the 
USGLC coordinated a strategic Global Needs Assessment with input from a 
broad array of national security and foreign policy experts across the 
political spectrum.
    The needs assessment identifies at least $14 billion in new 
resources across the International Affairs Budget for FY22 to advance 
U.S. health, security and economic interests and mitigate the global 
health and humanitarian impacts of the pandemic. Key investment areas 
identified are:

  --Improving pandemic preparedness;
  --Responding to global health and humanitarian crises; and
  --Bolstering American economic competitiveness and helping countries 
        on their journey to self-reliance.

    The Administration's FY22 International Affairs Budget request is a 
smart proposal that would get us halfway there, but it's abundantly 
clear that more is needed if we are going to keep Americans healthy and 
safe.
America's Recovery at Stake
    Protecting our Health.--With a majority of American adults fully 
vaccinated against COVID-19, life in the United States is slowly 
beginning to return to a semblance of normalcy. While this is an 
important milestone on the road to recovery here at home, we cannot 
forget that this pandemic is far from over around the world and the 
threat from variants puts these gains in jeopardy. From India to 
Brazil, COVID-19 cases are surging, and death tolls are rapidly rising. 
Africa has received less than 2% of COVID-19 vaccines to date according 
to the UN, and at the current rate it is expected to take until 2023 
for 60-70% of Africa's population to be vaccinated.
    The urgency to inoculate the world cannot be understated and 
without U.S. leadership it is more likely collective efforts will fall 
short. The recent G7 announcements from the U.S. and our allies 
pledging 1 billion vaccine doses to those in need is a historic step 
forward. Americans want the U.S. to lead. A recent Kaiser Family 
Foundation poll revealed that 3 in 4 adults believe the U.S. should 
``play at least a major role'' in global vaccine distribution, 
especially if it means America can help other countries without 
depleting the domestic vaccine supply.
    Yet new research shows that additional investments are needed to 
ensure the equitable delivery and distribution of COVID-19 vaccines 
throughout the developing world, particularly in ``last mile'' 
communities. Not to mention the reality that Russia and China are 
taking advantage of this moment to increase their own global 
vaccination efforts to further their own interests abroad, many of 
which do not align with ours.
    Keeping us Safe.--At a time when global crises were already on the 
rise, COVID-19 has increased instability, fueled conflict, and 
exacerbated humanitarian emergencies from hunger to poverty to 
migration. Political violence increased last year in nearly half of the 
world's countries including Yemen and Ukraine, according to the Armed 
Conflict Location & Event Data Project, and the UN's counter-terrorism 
chief recently warned that terrorist groups are exploiting the pandemic 
and appealing to new ``racially, ethnically, and politically motivated 
violent extremist groups.''
    Tragically, the pandemic has not only disproportionately impacted 
the most vulnerable in the developing world but has severely limited 
efforts by the U.S. and others to provide much-needed assistance in 
places like South Sudan. Humanitarian and development assistance are 
cost-effective tools to prevent and reduce conflict--helping to 
stabilize weak and fragile states, stem the drivers of extremism, and 
keep us safe at home.
    Promoting Economic Recovery.--We know that America's road to 
economic recovery is tied to the rest of the world, but COVID-19 has 
disproportionately impacted emerging markets that are critical for U.S. 
businesses to recover and grow. As the world shuttered early in the 
pandemic, U.S. exports to countries in the developing world--countries 
like Brazil, India, and Mexico--fell by as much as 50%. The cost of 
failing to achieve global vaccine equity will hurt advanced economies--
regardless of their own vaccination rates--as much as developing 
countries, and recent studies also suggest that this could harm the 
U.S. economy by up to $670 billion over the next five years.
    We also cannot lose sight of the global competition we faced even 
before COVID-19. On the continent of Africa, China had already 
surpassed the United States a decade ago as the top exporter to close 
to 20 countries--some of the world's fastest growing markets. As a 
member of the Development Advisory Council of the U.S. International 
Development Finance Corporation, I have been pleased to see the DFC's 
new efforts in partnership with Congress to enhance and leverage 
America's development finance toolkit.
Budgeting for a New Reality
    Each year, Congress faces the difficult task of distributing finite 
resources across many priorities. This year is no exception. But the 
consequences of inaction when it comes to fully resourcing our 
international affairs toolkit are simply too great.
    As I think back to my testimony in March 2020 when I talked about 
investing in pandemic preparedness, I often ask myself, what's it 
worth? COVID-19 has taken so much from us as individuals, families, and 
communities over the past 15 months. On a personal note--I recently was 
able to hug my 88-year-old mom and she met my 4-month-old granddaughter 
for the first time during the COVID-19 pandemic. I'm sure many of you 
on the subcommittee have finally been able to hug your parents, 
children, or grandchildren again. So, when we ask ourselves ``what's it 
worth'' to invest 1% of our federal budget to make sure we do what it 
takes to prevent a global pandemic from ever happening again, my answer 
is simple: everything.
    Thank you for your unwavering support of America's international 
affairs programs and your commitment to strengthening the critical 
resources needed to advance America's global leadership. Our coalition 
looks forward to working closely with you and your colleagues in the 
coming weeks and months to ensure that funding for the FY22 State-
Foreign Operations bill reflects the unprecedented challenges and 
opportunities we face today to advance America's interests in the 
world.

    [This statement was submitted by Liz Schrayer, President and CEO.]
                                 ______
                                 
Prepared Statement of the U.S. Overseas Cooperative Development Council
    The U.S. Overseas Cooperative Development Council (OCDC) is 
requesting $18.5 million for the FY2022 Cooperative Development Program 
(CDP) of the Development Assistance account in the FY2022 State-Foreign 
Operations and Related Programs Appropriations bill. For more than five 
decades, USAID has supported the development of cooperatives as part of 
its foreign aid program, mainly through the Cooperative Development 
Program (CDP) that is designed to bring U.S. leadership to the mission 
of capacity building for the development and growth of cooperative 
businesses and cooperative systems around the world. This request for 
$18.5 million is the same as was provided in FY2021.
      who is ocdc and what is our interest in usaid's cdp program?
    The U.S. Overseas Cooperative Development Council (OCDC) has a 
membership of nine U.S. cooperative development organizations (CDOs) 
with expertise in sectors as diverse as agriculture, finance, health, 
energy and information technology. These OCDC members are successful 
U.S. cooperatives who are part of a robust U.S. cooperative sector that 
contributes more than 2 million jobs and over $65 billion in annual 
revenue to the U.S. economy. It is estimated that more than 120 million 
Americans benefit from their membership/participation in one or more of 
the nearly 30,000 cooperatives that exist throughout all sectors of the 
U.S. economy.
    In addition to being leaders in the U.S. domestic cooperative 
community, OCDC members have a shared interest in being champions, 
advocates, and promoters of effective international cooperative 
development. Individually and collectively, they have an impressive 
record of achievement, and they bring many resources to this 
international work from the private sector. They apply their expertise 
and approaches to development in a wide range of countries, settings, 
and sectors. They share their business expertise and send their members 
around the world as volunteers to build sustainable cooperative 
businesses, while also building goodwill for the U.S. And they develop 
trading relationships between cooperatives in the U.S. and those in 
developing countries, which increases jobs at home and security around 
the world. Examples of impacts achieved by OCDC members include:
    Equal Exchange: Fair Trade-certified coffee cooperatives in 
Ethiopia, Rwanda, East Timor, and Central America link thousands of 
smallholder farmers directly with global markets and their premium 
coffee prices.
    Frontier Co-op: Support cooperative member's organic cultivation 
practices, enhance their socio-economic wellbeing, provide education 
facilities, and support the economically disadvantaged at-large in 
member villages in Sri Lanka.
    Genex: Based on a foundation of business consulting provided by 
Genex through CDP funding, more than $94 million of host government 
investments has been leveraged for agriculture cooperatives in South 
Africa.
    Global Communities: Through the establishment of the Agency to 
Support Housing Initiatives, the organization facilitated the building 
of 1,140 new units of cooperative housing at 33 sites in Poland, with 
an estimated 4,560 individuals benefiting from the housing. 
Participating cooperative members contributed over $39 million to 
finance their housing projects, with 34% of the units financed by 
mortgage loans issued by local banks.
    HealthPartners: 46,000 members of health-care co-ops in Uganda now 
have reliable access to care, including bed nets to prevent malaria and 
Zika.
    Land O' Lakes Venture 37: Their work with the dairy sector in 
Rwanda has focused on partnering with cooperatives that have leveraged 
economies of scale through horizontal or vertical integration working 
with each partner to improve operational management, organizational 
governance and business decision-making.
    NCBA CLUSA: The Creating an Environment for Cooperative Expansion 
improves enabling environments, enhances support to cooperatives, and 
improves business performance of cooperatives, in six countries, 
building the capacity of more than 15 local support institutions to 
provide quality cooperative development services, and providing 
targeted technical assistance to more than 60 agricultural and savings 
and credit cooperatives.
    NRECA International: Decades-long relationship with the Philippine 
rural electric community included assistance in the more recent 
recovery from Typhoon Yolanda (Haiyan) that has included work to make 
the Philippines' power distribution infrastructure more storm 
resilient. 49 rural electrification projects in the Philippines provide 
power for 4.3 million co-op members.
    World Council of Credit Unions: In Kenya, WOCCU enrolled over 
30,000 new youth members (18-35) in the past year. Over 84,000 
Agriculture Loans have been issued, totaling to $8.7+ M. 3,000 orphans 
of HIV/AIDS received support and 466 scholarships were given for 
orphans and vulnerable children to attend secondary school.
                       impact of the cdp program
    Compared with other U.S. foreign aid programs, the CDP program has 
received a modest amount of funding and yet it has achieved tremendous 
success as a catalyst in laying an effective base for widespread and 
sustainable international cooperative development. Among the measures 
of the CDP program's success over the years are reports of the 
following impacts:

  --500 cooperatives and credit unions assisted with a combined savings 
        to members of $495 million.
  --Provision of health insurance and services to more than 42,000 
        people in Uganda.
  --Leveraging of more than $94 million of host government investments 
        for agriculture cooperatives in South Africa.
  --Increased member equity among cacao cooperatives in Ecuador, Peru, 
        and the Dominican Republic by more than $4 million; and,
  --Reforms to cooperative law and regulation in Mozambique, Tanzania, 
        Uganda, and Kenya.

    This is only a representative sample of an impressive track record 
for the CDP program. The challenge is to use the CDP program to get 
additional traction for cooperative development that will produce 
similar impacts in other parts of the developing world. Among the 
lessons we have learned is that the CDP program is an important 
resource for demonstrating the positive experience of cooperatives in 
the developed world that can then be replicated to address the economic 
and social challenges of developing countries where cooperatives have 
not had a similar successful history.
      why cooperatives should be an international development tool
    In the quest for a more prosperous, democratic, and inclusive 
world, and amid calls to ``build back better'' post-COVID-19, there has 
never been a better time to increase U.S. investment in cooperative 
development. Through a democratic business model, people-centered 
approach, underlying social justice principles, concern for community, 
and dedication to equitable economic growth, cooperatives bring a 
unique set of solutions to today's most difficult development 
challenges.
    Cooperatives are a dynamic force for self-determination, and they 
contribute to creating communities where all people--including women, 
youth and the most vulnerable--have an opportunity to improve their 
livelihoods. Cooperatives go where for-profit businesses will not--they 
provide economic opportunities and services in places that others find 
unprofitable or too risky. For many poor and isolated people, joining a 
co-op is the best option to help them escape poverty.
    U.S. cooperative development assistance has helped develop 
cooperatives that serve millions across the globe. What results can be 
expected if a greater investment is made? This testimony provides 
evidence that a greater U.S. investment in cooperative development 
will:
create jobs and economic growth in low- to middle-income countries--and 
                           the united states
    Cooperatives offer a proven way for people to control their 
economic livelihoods.

  --In developing and transitional economies, they create jobs, 
        equitable economic growth and social development.
  --Cooperatives allow poor people to pool resources and reduce risks, 
        and allow small farmers and businesses to enjoy advantages of 
        greater scale of production.

  --Cooperative development stems migration by providing economic 
        opportunities for people in their home country.
  --Co-ops provide opportunity and member services otherwise 
        unavailable in remote areas.

    Public-sector assistance helps fund the formation of cooperatives 
in developing economies and, as they grow, these well-managed 
cooperatives develop vital U.S. linkages with corporate foundations, 
non-government organizations and American volunteers. This makes U.S.-
funded cooperative development a win for jobs in the United States:

  --Private-sector jobs at companies in the U.S., such as those 
        involved with coffee and cocoa, rely on supply chains anchored 
        by well-organized cooperatives in developing countries.
  --In turn, successful cooperatives buy U.S. products, which expands 
        export opportunities.
                further democratization across the globe
    A cooperative is a ``learning lab'' where members experience 
democratic governance. Cooperatives are democratically managed through 
``one member-one vote,'' and members elect a board that represents 
their interests and are accountable to them. These lessons spill over 
from local cooperatives into the broader society. Local cooperative 
members learn to vote in elections, work democratically to achieve 
change at all levels of their cooperative organization, and advocate 
for modernization of laws that govern their co-ops.
                        have large-scale impact
    Cooperatives overseas that have been initiated and nurtured through 
U.S. funding are thriving. Additional resources will continue fostering 
development at this impressive scale. For example, U.S. assistance has 
meant that:

  --70 million rural people in the Philippines now have electricity.
  --46,000 health-care co-op members in Uganda have access to reliable 
        care.
  --15 million producers sell milk to more than 144,000 dairy 
        cooperatives in India.
  --Thousands of small farmers in Africa and Central America access 
        global markets through Fair Trade-certified coffee 
        cooperatives.
  --More than 39,000 credit unions meet financial needs of 38 million 
        members across Africa.
  --36,000 farmer cooperatives provide fertilizer and other critical 
        services to rural India.
  --40,000 children in South Asia are learning the basic principles of 
        banking. through a children's cooperative.
              result in trust, sustainability, and growth
    Where trust of for-profit companies is low, cooperatives grow. 
Trust is a basic principle for cooperatives, which are owned, managed, 
controlled, and patronized by their own members. Cooperative banks and 
savings and credit cooperatives were not damaged during the financial 
crisis of 2007-08 and grew in membership because they were seen as more 
risk-averse, sustainable and trustworthy. Income from premiums in the 
global mutual and cooperative insurance sector grew by 30% in the 10-
year period following the onset of the financial crisis, compared to 
17% growth of the total global insurance industry. This growth resulted 
in a 24% increase in jobs globally from 2007 to 2017.
    REQUESTED FUNDING: The U.S. Overseas Cooperative Development 
Council (OCDC) is requesting $18,500,000 for the Cooperative 
Development Program (CDP) in the FY2022 State-Foreign Operations and 
Related Programs Appropriations bill, the same as provided in FY2021.

        REQUESTED BILL LANGUAGE:

        DEVELOPMENT ASSISTANCE: COOPERATIVE DEVELOPMENT PROGRAM

        ``Provided that not less than $18,500,000 shall be made 
        available for USAID cooperative development programs within the 
        Bureau for Development, Democracy, and Innovation.''

        SUGGESTED REPORT LANGUAGE:

        ``The Committee has repeatedly recognized the important role 
        that U.S. cooperatives and credit unions play in overseas 
        programs as a means to lift low-income people out of poverty 
        through their own efforts by mobilizing equity and savings for 
        community-based economic growth. The Committee directs the 
        Agency for International Development to increase the budgetary 
        level of the program for the next five-year agreement to 
        include funding for research on the impact of cooperatives on 
        members and their communities. Due to increased demand for the 
        program and the programmatic impact, the Committee intends to 
        budget for not less than $18,500,000 per year for the next five 
        years.''

    [This statement was submitted by Paul Hazen, Executive Director.]
                                 ______
                                 
Prepared Statement of the U.S. Section of the Pacific Salmon Commission
    Mr. Chairman, and Honorable Members of the Committee, I am Ron 
Allen, Tribal Commissioner and Chair for the U.S. Section Budget 
Committee of the Pacific Salmon Commission (PSC). The U.S. Section 
prepares an annual budget for implementation of the Pacific Salmon 
Treaty. Funding comes from the Departments of State, Commerce, and 
Interior. The integrated budget details program needs and costs for 
Tribal, Federal, and State agencies involved in the Treaty.
    Department of State funding in support of implementing the Pacific 
Salmon Treaty is part of the International Fisheries Commissions line 
item. The FY 2021 funding level was $5,935,000. The U.S. Section 
recommends a funding level of $5,185,000 for FY 2022, which represents 
a $750,000 decrease. These costs provide essential support to implement 
the revised chapters of the annex of the Treaty.
    The Department of State provides funding for the dues to operate 
the bilateral Pacific Salmon Commission Secretariat office in 
Vancouver, British Columbia. The United States and Canada kept the dues 
constant for eleven years. The U.S. Section recommends a $1,000,000 
annual increase in the dues. Canada is expected to match the increase 
in dues. It is anticipated that the annual increase in dues will be 
sufficient to maintain operations over the next ten years. The 
Commission's Finance & Administration Committee works closely with the 
Secretariat staff to keep costs in check. The Secretariat faced 
challenges in recent years to ensure the operation of test fisheries 
necessary for the management of Fraser River sockeye and pink fisheries 
as outlined in Annex 4 Chapter 4 of the Treaty. Declines in the return 
of Fraser River sockeye and changes in the Canadian Use of Fish Policy 
have impacted the viability of the test fisheries.
    The Secretariat faces challenges regarding funding for the pension 
liability as the Secretariat staff ages and retires. Our section urges 
the Department of State to continue covering this liability outside the 
dues structure, consistent with other International Fishery 
Commissions.
    The Department of State provides funding, through an inter-agency 
agreement, with Department of Commerce, National Marine Fisheries 
Service, to support United States participation in the annual meeting 
process and to support staffing of the U.S. Section office. A hallmark 
of the PSC process is the input from affected fishing interests from 
Alaska to Washington, Oregon and Idaho. Maintaining the funding at 
least at current levels is essential to address these challenges.
    Funding to support activities under the Pacific Salmon Commission 
comes from the Departments of Interior, State, and Commerce. The U.S. 
Section can provide an additional budget summary and details to the 
Committee as required. Adequate funding from all three Departments is 
necessary for the United States to meet its Treaty obligations. The 
funds are needed for critical data collection and research activities 
directly related to the implementation of the Treaty and are used in 
cooperative programs between Federal, State, and Tribal fishery 
agencies and the Department of Fisheries and Oceans in Canada. The 
commitment of the United States is matched by the commitment of the 
Government of Canada.
    Mr. Chairman, the United States and Canada established the Pacific 
Salmon Commission, under the Pacific Salmon Treaty of 1985, to conserve 
salmon stocks, provide for optimum production of salmon, and to control 
salmon interceptions. After more than thirty years, the work of the 
Pacific Salmon Commission continues to be essential for the wise 
management of salmon in the Pacific Northwest, British Columbia, and 
Alaska. For example, upriver bright fall Chinook salmon from the 
Hanford Reach of the Columbia River are caught in large numbers in 
Alaskan and Canadian waters. Tribal and non-tribal fishermen harvest 
sockeye salmon from Canada's Fraser River in the Strait of Juan de Fuca 
and in Puget Sound. Canadian trollers off the west coast of Vancouver 
Island catch Washington coastal and Puget Sound Chinook and Coho 
salmon. In the Northern Boundary area between Canada and Alaska, fish 
from both countries are intercepted by the other country.
    The Commission provides a public forum to ensure cooperative 
management of salmon populations. The United States and Canada 
successfully concluded lengthy negotiations to improve management, 
building on and adjusting the coastwide abundance-based management 
regime for Chinook salmon established in the 1999 agreement. The 
revised Coho Chapter also continues to build on a framework for 
abundance-based management. The revised Annex Chapters for Chinook, 
Coho, Chum, Transboundary and Northern Boundary fisheries will be in 
force for the next ten years. The United States and Canada completed a 
revised Fraser River Sockeye and Pink salmon chapter in 2020, which 
will also be in force through 2028.
    Before the Treaty in 1985, fish wars often erupted with one or both 
countries overharvesting fish that were returning to the other country, 
to the detriment of the resource sustainability. At the time the Treaty 
was signed, Chinook salmon were in a severely depressed state because 
of overharvest in the ocean as well as environmental degradation in the 
spawning rivers. Under the Treaty, both countries committed to rebuild 
the depressed runs of Chinook stocks, and they recommitted to that goal 
in 1999 when adopting a coastwide abundance-based approach to harvest 
management. Under this approach, harvest management will complement 
habitat conservation and restoration activities being undertaken by the 
states, tribes, and other stakeholders in the Pacific Northwest to 
address the needs of salmon listed for protection under the Endangered 
Species Act. The 2018 Chinook Chapter continues these commitments. The 
revisions to the Chinook Chapter will continue to build on the progress 
made in previous agreements. The combination of these efforts is 
integral to achieving success in rebuilding and restoring healthy, 
sustainable salmon populations.
    Finally, I ask you to consider the fact that the value of the 
commercial harvest of salmon subject to the Treaty, managed at 
productive levels under the Treaty, supports the infrastructure of many 
coastal and inland communities. The value of the commercial and 
recreational fisheries, and the economic diversity they provide for 
local economies throughout the Pacific Northwest and Alaska, is 
immense. The Commission recently funded an economic study of the 
fisheries that has determined this resource creates thousands of jobs 
and is a multi-billion-dollar industry. The value of these fish to the 
twenty-four treaty tribes in Washington, Oregon, and Idaho goes far 
beyond their monetary value, to the cultural and religious lives of 
Indian people. A significant monetary investment is focused on salmon 
due to the listings of Pacific Northwest salmon populations under the 
Endangered Species Act. Given these resources, we can continue to 
utilize the Pacific Salmon Commission to develop recommendations that 
help with the development and implementation of solutions for 
minimizing impacts on listed stocks. We continue to work toward the 
true intent of the Treaty, and with your support, we will manage this 
shared resource for mutual enhancements and benefits.
    Mr. Chairman, that concludes my written testimony submitted for 
consideration by your committee. I want to thank the Committee for the 
support that it has given the U.S. Section in the past. Please feel 
free to contact me, or other members of the U.S. Section to answer any 
questions you or other Committee members may have regarding the U.S. 
Section of the Pacific Salmon Commission budget.
    [This statement was submitted by W. Ron Allen, Commissioner.]
                                 ______
                                 
  Prepared Statement of U.S. Voters Organized Under the Banner of NO 
 RIGHTS/NO AID: No Rights for Palestinians, Then No U.S. Aid for Israel
Dear Chair Chris Coons and Ranking Member Lindsey Graham:

    We, the undersigned United States voters, write to urge that our 
government end aid to Israel now. There is no valid reason for 
continuing U.S. support for this apartheid regime.
    This has become an urgent matter for a growing number of U.S. 
voters, including the undersigned. Here are the facts.
    Israel controls the entire region of Israel, the West Bank and Gaza 
and the lives of all who live there.
    As soon as the most recent slaughter in Gaza ceased, and the 
world's attention became less intense, Israel launched a campaign of 
retribution against Palestinians for daring to protest earlier in the 
month. ``Operation Law and Order'' swept through Israel and into the 
West Bank making mass arrests of Palestinians to ``settle scores'' and 
``close accounts''. And yet, U.S. leadership was, and continues to be, 
silent as this goes on. How can this be?
    Israel has been illegally taking Palestinian land for more than 50 
years to build Jewish-only settlements while denying Palestinians in 
the West Bank the right to build or even maintain their homes and other 
structures. Considering all the aid and geopolitical support given to 
Israel for decades, the U.S. cannot pretend to not be directly involved 
in these atrocities. Our country is complicit.
    Hoping that fear and hardship will cause Palestinians to abandon 
their land, or perhaps simply out of pure hatred, Jewish settlers in 
the countryside attack Palestinians and burn their crops and fields 
causing costly damage, loss of livelihood and the terror of violent 
harassment. Often this happens with the assistance of the Israeli 
authorities. How can the U.S. honestly pretend to not see and 
understand this for the ethnic cleansing that it is?
    In Netanyahu's final speech to the Knesset as he most recently left 
office he affirmed Israel's true intentions when he said, ``. . . the 
second challenge facing us is to prevent the establishment of a 
Palestinian state that will jeopardize our existence.'' In other words, 
Israel has no intention of ever allowing the Palestinians to have a 
state of their own. How then can the U.S. claim, with any integrity, to 
support a ``two-state solution'' when this ridiculous lip service just 
gives Israel more time to drive out Palestinians and forcibly make the 
entire region Jewish-only?
    Unless the U.S. takes a new course of action right now Israel will 
continue to expel Palestinians from their longtime homes in East 
Jerusalem and convert them to more Jewish-only settler housing. Arieh 
King, a Deputy Mayor of Jerusalem has made it clear this is part of a 
wider strategy of ``installing layers of Jews'' throughout East 
Jerusalem. This policy, Mr. King said, ``is the way to secure the 
future of Jerusalem as a Jewish capital for the Jewish people,'' so 
that future peace negotiators will not ``try to divide Jerusalem and 
give part of Jerusalem to our enemy'' (New York Times 5/12/21). This 
explicit municipal policy in Jerusalem is essentially an explicit 
national policy as well. Pursuant to Israel's Nation State Law adopted 
in 2018 Jews alone are recognized as having supremacy over all others.
    Despite this longstanding history of events, Ranking Member Graham 
recently announced that in the Senate he will make sure that Israel 
gets 1 Billion Dollars MORE from the U.S. this year. Senator Graham, 
you have said that it is good for the United States to do this. 
Respectfully sir, we strongly disagree. It is not good for the United 
States and it is manifestly unjust for the Palestinians.
    Many of the long stated reasons for continuing any aid to Israel 
are no longer valid. Israel does not need protection. After more than 
half a century of U.S. military aid Israel now has one of the most 
sophisticated militaries in the world. U.S. aid also helped Israel 
build its own domestic military industries such that it now ranks as 
one of the top global exporters of arms and surveillance tools in the 
world and Israel is the only country in the region to possess nuclear 
arms.
    Moreover, in the decades of receiving U.S. aid Israel has become a 
wealthy economy, equivalent to several in the European Union. Israel 
does not need our help. Again, in his final speech, Netanyahu boasted 
that, `` . . . we turned it [Israel] into one of the 20 wealthiest 
economies in the world, with our GDP per capita surpassing Britain, 
Germany and France . . .''
    Why then does the U.S. reflexively continue to fund Israel and its 
abhorrent behavior in amounts that exceed $3.8 billion per year? And 
now Ranking Member Graham has promised Israel another $1 billion. This 
makes no sense. Respectfully Senators, it looks to us as if we're being 
duped.
    It is particularly striking that the humanity of the Palestinians 
nevers seems to be part of this foreign aid calculation. It is as if we 
should pretend that Palestinians do not exist in their homeland and 
have no human rights. It is as if we should ignore the nightmare that 
Israel has made Gaza for 2,000,000 people who have no way to escape 
Israel's violence and the deprivation caused by Israel's blockade. 
During the recent nightly pounding from Israeli bombs an English 
teacher in Gaza reported it this way, ``I can't even begin to describe 
the horrors of last night. In the morning, each morning, I can't 
believe we made it out alive.'' Many families did not make it out 
alive.
    It must be a new day in U.S. foreign policy with Israel. For the 
sake of honesty, morality and the universal value of human rights U.S. 
aid to Israel must end.
    Respectfully submitted by the following U.S. Voters on the next two 
pages:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
                  Prepared Statement of the UNICEF USA
    Chairman Coons, Ranking Member Graham, and members of the 
Subcommittee, on behalf of more than 10,000,000 supporters of UNICEF 
USA, I appreciate this opportunity to submit testimony to the 
Subcommittee regarding the United Nations Children's Fund (UNICEF). I 
respectfully ask the Subcommittee to provide a fiscal year 2022 U.S. 
contribution of $134 million to UNICEF's core funding within the 
International Organizations and Programs Account, which is the same 
level that was enacted in the final fiscal year 2021 omnibus agreement.
    I am President and CEO of UNICEF USA. We are a U.S. nonprofit 
organization that advances the global mission of UNICEF by rallying the 
American public to support the world's most vulnerable children. I am 
proud to say that the American public is generous in its support for 
UNICEF: we raised more than $600 million last year in donations and 
gifts-in-kind from U.S. individuals, foundations and corporations.
    We also mobilize our supporters to engage with their Members of 
Congress. In fact, several member offices of the State, Foreign 
Operations subcommittee met with some of our 460 UNICEF volunteers from 
across the country who participated in our virtual Advocacy Week in 
March, sharing their belief in UNICEF and their support for the annual 
appropriation to UNICEF's core resources.
    This year marks UNICEF's 75th anniversary. Since its creation in 
1946, with U.S. partnership and leadership, UNICEF has helped to save 
more children's lives than any humanitarian organization in the world. 
I commend this Subcommittee for its bipartisan leadership to support 
UNICEF, and champion programs that help children around the world. You 
are making a difference.
    This partnership between UNICEF and the U.S. Government has 
achieved positive results for children. UNICEF has helped to cut the 
world's under-five mortality rate by 58% since 1990. Unfortunately, a 
year into the COVID-19 pandemic, the world has gone backward across 
virtually every key measure of child well-being. Up to 1.5 billion 
children and young people have been affected by school closures, and at 
least 1 in 3 schoolchildren have been unable to access remote learning 
while their schools were closed. At least 1 in 7 children and young 
people lived under stay-at-home policies for most of 2020, leading to 
feelings of anxiety, depression and isolation. Rates of child 
malnutrition and food insecurity are on the rise in communities across 
the globe, and up to 56 million children may suffer from wasting by 
2022, not to mention our worry about a looming famine in Northern 
Ethiopia.
    Since the pandemic outbreak, UNICEF has quickly acted to reduce the 
spread of the virus and minimize its impact on children worldwide. 
UNICEF used its data systems to rapidly assess the pandemic's impact on 
children and leveraged its extensive presence across more than 190 
countries and territories, and its dual humanitarian and development 
mandate, to play a key role in the United Nations' coordinated response 
to COVID-19. UNICEF's Supply Division leveraged its logistical 
expertise to ship half a billion items of personal protective equipment 
in support of 138 countries in 2020. A few of UNICEF's accomplishments 
in 2020 include:

  --Providing leadership in the COVAX Facility, leading on the 
        procurement and distribution of COVID-19 vaccines for 92 low- 
        and middle-income countries, and helping those countries 
        prepare for equitably delivering the vaccine to their 
        populations.
  --Distributing critical water, sanitation and hygiene (WASH) services 
        and supplies for 106 million people, including 58 million 
        children.
  --Facilitating training on infection prevention and control for 4 
        million health workers.
  --Supporting community-based mental health and psychosocial 
        interventions in COVID-19 response plans, reaching 78 million 
        children, adolescents, parents and caregivers in 117 countries.
  --Facilitating treatment and care for nearly 5 million children with 
        severe wasting in more than 70 countries.
  --Supporting more than 301 million children, including approximately 
        147 million girls, with remote learning.

    UNICEF's response focuses on countries with existing humanitarian 
crises--working both to prevent transmission and mitigate the 
collateral impacts on children, women and vulnerable populations, 
especially around access to health, nutrition, water and sanitation, 
education and protection.
    Without this core support to UNICEF, programs such as polio 
eradication, basic education, immunizations, anti-malarial bed nets, 
pediatric HIV/AIDS interventions, and protecting children from violence 
and abuse would be put at risk. Moreover, the U.S. contribution to 
UNICEF's core resources is essential to UNICEF's ability to respond 
effectively to global health and humanitarian crises alike. The 
pandemic has demonstrated how essential flexible resources are to 
UNICEF's ability to respond quickly and effectively to such crises and 
to provide countries and communities with the long-term support that 
builds resilience. U.S. Government support for UNICEF's core resources 
ensures that UNICEF has infrastructure and resources on the ground 
before, during and after humanitarian crises.
               unicef's humanitarian impact for children
    UNICEF is a global partner in helping the U.S. Government respond 
to humanitarian crises around the world. Each year, UNICEF's 
humanitarian programs provide millions of children in conflicts and 
other emergencies with a range of life-saving services, including:

  --In 2019, UNICEF assisted in 281 humanitarian situations across 96 
        countries. This assistance included treatment for nearly 54 
        million children for severe acute malnutrition, vaccinations 
        for 41.3 million children against measles and safe water for 
        more than 39 million people.
  --UNICEF supports initiatives to make schools, health centers, water 
        and sanitation facilities--and other services critical to 
        children's well-being--resistant to current and future climate 
        and environmental shocks.
  --Every $1 invested in emergency preparedness equals $4 saved in 
        UNICEF's ability to respond to crises faster, save more lives 
        and reduce costs.
                  unicef supplies and cost reductions
    UNICEF is committed to making every dollar go further to save and 
improve children's lives. Through innovative procurement, market 
strategies and partnerships, UNICEF uses its market power to drive down 
supply prices; in only two years, UNICEF exceeded its projected $670 
million in price savings for strategic supplies over the period of 
2018-2021 by $44.5 million.

  --UNICEF is one of the largest buyers of supplies for children, 
        providing the organization with leverage to negotiate the 
        lowest prices. In 2019, UNICEF procured $3.8 billion in 
        supplies including nearly $545 million in U.S. goods and 
        services.
  --In order to provide long-term protection for children, UNICEF is 
        committed to promoting sustainability and security in supply 
        chains. UNICEF's global supply chain and local presence mean it 
        can get help to where it is needed fast--shipping life-saving 
        supplies almost anywhere in the world within 72 hours.
                          unicef partnerships
    The U.S. Government, the American people and UNICEF have maintained 
a strong partnership since UNICEF's inception. Without a consistent 
U.S. Government voluntary contribution, and the leverage that comes 
from that support through corporations, foundations and other 
governments, UNICEF would not be able to maintain its level of 
leadership in the world for children.
    UNICEF receives no direct funding from the United Nations-all of 
UNICEF's funds come from voluntary contributions from both public and 
private sources. Almost a third of UNICEF's total funding comes from 
non-governmental sources.
    UNICEF's efforts around the world embody the compassion of the 
American people for helping children and families. That is why UNICEF 
enjoys incredible backing from Americans for its mission of child 
survival and development, from children participating in ``Trick or 
Treat for UNICEF'' and ``UNICEF Kid Power,'' to major corporations 
donating money and products. UNICEF USA is proud of its partnerships 
with corporations and nonprofits to save children's lives. Among many 
examples:

  --Kiwanis International, partners with UNICEF to eliminate maternal 
        and neonatal tetanus (MNT) and iodine deficiency disorders. 
        Between 1999 and 2018, the Global MNT Elimination Initiative 
        has helped to vaccinate more than 154 million women against 
        this deadly disease.
  --UNICEF procures vaccines for Gavi and buys all vaccines and related 
        items for global campaigns not covered by Gavi. In 2019, UNICEF 
        reached almost half the world's children under five years old 
        with life-saving vaccines. UNICEF is a major partner of the 
        United States in fighting vaccine-preventable diseases in 99 
        countries, including polio and measles.
  --Rotary International, in partnership with UNICEF, the U.S. Centers 
        for Disease Control, and others through the Global Polio 
        Eradication Initiative, has helped nearly eliminate wild polio 
        worldwide, reducing polio cases by more than 99.9% since 1988.
  --With the American Red Cross, UNICEF helps lead the Measles and 
        Rubella Initiative, working with countries, partners, parents 
        and caregivers to create a world free from measles and rubella.
  --UNICEF is a founding member of the Roll Back Malaria Partnership to 
        support malaria treatment and research, and to expand 
        prevention measures such as long-lasting insecticide-treated 
        bed nets. In 2019, UNICEF procured mosquito nets for 48.1 
        million people in 33 countries-the highest amount in UNICEF's 
        history-including nearly 1.7 million people in humanitarian 
        situations.
  --Microsoft and UNICEF expanded its global learning platform, the 
        Learning Passport, which began as way to ensure displaced and 
        refugee children had access to digital remote learning, to help 
        1.57 billion students affected by COVID-19 continue their 
        education at home.

    UNICEF's impact is also strengthened by maintaining U.S. support 
for bilateral foreign assistance programs. In this regard, UNICEF USA 
supports the fiscal year 2022 funding requested by our partners for 
Iodine Deficiency and Iodine Nutrition ($3.5 million), Maternal and 
Neonatal Tetanus ($2 million), Polio Eradication ($65 million), and 
Gavi ($290 million). Because of the importance of U.S. child survival 
and health programs, our organization also asks the U.S. Congress to 
provide at least $984 million under the Maternal and Child Health (MCH) 
account, at least $240 million for the Nutrition account, and at least 
$540 million for Water and Sanitation account in fiscal year 2022. 
Finally, UNICEF knows that education is critical for children, 
especially now, and can be lifesaving for children in crises. That is 
why we support at least $1.1 billion for the International Basic 
Education account, including $150 million for the Global Partnership 
for Education, and $50 million for Education Cannot Wait.
                               innovation
    Innovation is at the heart of UNICEF's ability to achieve results 
for children and young people. UNICEF is a leader in innovative 
financing or non-traditional mechanisms of raising resources to meet 
children's needs.

  --GIGA, launched by UNICEF and the International Telecommunication 
        Union (ITU) in 2019, is an innovative partnership to connect 
        every young person to the internet, by mapping school 
        connectivity, advising on technical solutions and building 
        affordable, sustainable country-specific financing models.
  --UNICEF has driven and brought to scale numerous product innovations 
        such as portable incubators, accessible latrine slabs for 
        children with disabilities, compressed air for pneumonia, new 
        diagnostic tools, multi-purpose lightweight tents and modular 
        schools.
  --A Cryptocurrency Fund was launched by UNICEF in 2019-the first of 
        any UN Organization-to fund open-source technology benefiting 
        children and young people around the world.
      u.s. support for unicef is helping to improve and save lives
    The U.S. Congress's longstanding and generous support for UNICEF's 
core resources allows UNICEF to partner with the U.S. Government to 
make a real difference in saving children's lives:

  --UNICEF plays a critical role in global efforts to ensure child have 
        access to education, including early childhood development, 
        especially for children in conflict and girls; education helps 
        protect girls from exploitation, child marriage, and abuse. As 
        a result of COVID-19 disruptions, UNESCO estimates that 11.2 
        million additional girls may not return to school. Girls living 
        in conflict contexts are more than twice as likely to be out of 
        primary school as those not affected by conflict.
  --UNICEF has been a world leader in immunizations and is the world's 
        largest provider of vaccines for developing countries. In 2019, 
        UNICEF purchased 2.43 billion doses of vaccines for children in 
        99 countries. UNICEF engages with manufacturers to keep vaccine 
        prices as low as possible, ensuring that vaccines reach even 
        the poorest children and communities.
  --Malnutrition contributes to nearly half of all child deaths and 
        causes stunting that affects a child's physical and cognitive 
        development. Thanks to UNICEF's provision of therapeutic foods, 
        more children have been treated for severe acute malnutrition 
        (SAM) than ever before.
  --UNICEF is engaged in water, sanitation and hygiene (WASH) 
        programming supporting 18.3 additional people gain access to 
        safe drinking water services and 15.5 million additional people 
        gain access to basic sanitation services in 2019.
                               conclusion
    We salute this Subcommittee's has longstanding bipartisan support 
for the well-being of the world's children, especially for child 
survival and for UNICEF, ensuring that children are a priority of U.S. 
foreign assistance funding.
    We believe that UNICEF is an indispensable partner of the United 
States on initiatives to save lives and protect vulnerable children 
around the world. Maintaining the U.S. voluntary contribution to 
UNICEF's core resources at the current level of $134 million will 
enable UNICEF to continue saving and protecting the lives of vulnerable 
children around the world.
    We thank you for your consideration and for helping to ensure that 
every child survives and thrives.
    [This statement was submitted by Michael J. Nyenhuis, President and 
CEO.]
                                 ______
                                 
           Prepared Statement of the Vaccine Alliance (GAVI)
Mr. Chairman, Ranking Member Graham:

    Thank you for the opportunity to provide testimony to the 
Subcommittee on behalf of Gavi, the Vaccine Alliance (Gavi). I 
respectfully request the Committee to provide $290 million as the U.S. 
contribution in fiscal year 2022 to Gavi as part of a four-year, $1.16 
billion commitment (fiscal years 2020-2023), and to provide $984 
million for USAID's Maternal and Child Health account. A commitment 
from the United States at this level will support critical immunization 
efforts around the world and strengthen global health security. It will 
also support the prevention of disease outbreaks, foster stability in 
vaccine markets, and support continued innovation in global health at a 
time when COVID-19 threatens historic gains in health and immunization.
    I would like to thank you, Chairman Coons, Ranking Member Graham, 
and the other members of the Subcommittee for your strong support of 
Gavi. This Committee has been the leader, since our inception in 2000, 
in the United States-Gavi partnership. You have been and continue to be 
an essential part of our success in bringing vaccines to the world's 
most vulnerable and in helping to keep the world safe from infectious 
diseases. Your support for our routine immunization work in low-income 
countries helps protect millions of children from vaccine- preventable 
diseases every year.
                a critical time for routine immunization
    Since 2000, Gavi has driven unprecedented progress in global health 
through one of the most cost-effective public health interventions 
available--vaccines. With support from the United States and other 
donors, Gavi works alongside a range of partners to expand immunization 
access in low-income countries while also strengthening health systems 
and building stockpiles of vaccines against infectious diseases like 
Ebola and yellow fever. In the last two decades, this work has helped 
immunize more than 822 million children, averting more than 14 million 
deaths and giving children around the world a chance at a healthy start 
in life.
    The efforts of Gavi and its partners have protected millions of 
children against deadly yet preventable diseases and have been a major 
factor in nearly halving child mortality since 2000. But these gains 
are fragile. Fifteen million children still miss out on a full course 
of the most basic vaccines, and other disease outbreaks as well as 
increasing fragility and displacement jeopardize the achievements of 
national routine immunization programs and threaten global health 
security. Increasing birth rates in Gavi-supported countries also means 
that a greater number of children must be immunized each year just to 
maintain the same coverage rates. The COVID-19 pandemic has created new 
challenges, increasing the risk of disruptions to vital immunization 
services in the low-income countries Gavi supports and reducing the 
number of planned immunization programs.
    Without continued investment and support, disruptions like these 
could lead to concurrent outbreaks of other deadly infectious diseases, 
further stressing already weakened health systems and jeopardizing 
decades of progress in immunization. Despite these challenges, Gavi has 
set ambitious goals to reach even more children and, with continued 
support and partnership, is well-placed to reach these goals and make 
further progress on closing the immunization gap. Gavi continues to 
play a critical role in supporting routine immunization and preventing 
global infectious disease outbreaks by expanding vaccine access and 
strengthening health systems in low-income countries, work that would 
not be possible without the continued support of the U.S.
          the alliance's 2021-2025 strategy and the road ahead
    Gavi began a new five-year strategic cycle in 2021, with a goal of 
immunizing an additional 300 million children in the 2021-2025 period--
preventing an additional 7-8 million deaths. The USAID-announced pledge 
in February 2020 of $1.16 billion for fiscal years 2020-2023, subject 
to Congressional approval, is crucial to ensuring Gavi can continue the 
programs needed to reach this goal. A $290 million contribution to Gavi 
in fiscal year 2022 would fulfill the third year of that pledge and 
ensure Gavi can continue to reach children with critical immunization 
services.
    Continued support will also help build strong, sustainable health 
systems and enable additional countries to transition out of Gavi 
support and begin fully self-financing their immunization programs, 
joining the sixteen countries around the world that have already 
transitioned. Furthermore, continued support from the U.S. will allow 
Gavi to expand current portfolio of vaccines to as many as 18 diseases 
and invest in critical emergency stockpiles.
                             the gavi model
    Gavi's impact draws on the strength of its partners, all of whom 
play a critical role in the Alliance. This unique model brings together 
donors, including sovereign governments like the United States; 
implementing country governments; private sector partners, 
international organizations such as UNICEF, WHO, and the World Bank; 
and civil society partners to build sustainable, country-led 
immunization programs in lower-income countries.
    Empowering countries to take ownership of their vaccination 
programs is a core component of the Gavi model. Every country that 
receives Gavi support shares the responsibility of vaccinating their 
children and co-finances vaccine costs. As a country's income grows, 
their co-financing obligation also grows until they reach a specific 
Gross National Income cap, at which point they begin to transition out 
of financial support from Gavi. Throughout this process, Gavi provides 
technical support and guidance to ensure transitioning countries have 
the capacity to continue implementing sustainable and equitable vaccine 
programs. Currently, 16 countries have fully transitioned from Gavi 
support with more expected to transition in the coming years.
    Building healthy markets is critical to the long-term success of 
the Gavi mission. Since 2000, Gavi, its partners, and the vaccine 
industry have been working to improve vaccine market certainty by 
pooling demand from Gavi-eligible countries. Gavi's purchasing power 
covers more than half of the annual global birth cohort, enabling it to 
provide a large and reliable market when negotiating vaccine prices. 
These market shaping strategies have also helped attract new 
manufacturers across the world to support Gavi-eligible countries, 
starting from five firms in 2001 to 17 today. Partnership with the 
private sector is also integral to Gavi's model. Leveraging the private 
sector's financial resources, operational expertise, and innovation 
helps the Alliance to deliver on its ambitious coverage and equity 
goals.
                           covid-19 response
    In addition to the United States' historic support for Gavi's 
routine immunization programs, the strong bipartisan support for the $4 
billion contribution to Gavi for COVID-19 vaccine procurement and 
delivery in the fiscal year 2021 Omnibus appropriations bill has 
enabled us to procure COVID-19 vaccines for lower-income economies and 
leverage other donors to make contributions to the Gavi COVAX Advance 
Market Commitment (AMC). Congress' generous support makes the United 
States the largest donor to the Gavi COVAX AMC, and this funding will 
help ensure lower-income economies have equitable access to safe and 
effective COVID-19 vaccines on the same urgent timeline as wealthier 
countries.
    Gavi, in partnership with Coalition for Epidemic Preparedness 
Innovations and the World Health Organization and with support from 
donors, key implementing partners like UNICEF, manufacturers, 
international financial institutions, and others, launched COVAX in 
June 2020. COVAX builds on Gavi's more than two decades of experience 
in immunization and is the only global initiative that is working with 
governments and manufacturers to ensure COVID-19 vaccines are available 
worldwide to both higher-income and lower-income countries. To date, 
COVAX has shipped over 81 million COVID-19 vaccine doses to 129 
countries, including 72 lower-income countries. The U.S.' investment in 
this work is helping to end the acute phase of this pandemic.
    U.S. leadership as host of the Gavi COVAX AMC Investment 
Opportunity launch event in April 2021 further demonstrated the power 
of the U.S. contribution to Gavi for COVID-19 response. The event, 
which launched a 2021 resource mobilization campaign for the AMC, 
raised nearly $400 million in new funding for the AMC and saw several 
dose sharing commitments. This partnership allows Gavi to continue 
leveraging the $4 billion contribution through 2022 to raise additional 
support from other sovereign and private sector donors.
    Only once COVID-19 vaccines are available to priority populations 
in all countries around the world will we truly begin to bring this 
pandemic under control. COVAX aims both to make safe and effective 
vaccines available globally and to bring this pandemic to an end. This 
can happen only after billions of doses are made available to everyone.
             gavi's contribution to global health security
    Immunization is among the most cost-effective ways to prevent 
epidemics and is a crucial component of any global health security 
strategy. As the COVID-19 pandemic has demonstrated, investments in 
global health security are crucial to protect Americans, prevent loss 
of life, and protect the global economy. Gavi plays an important role 
in disease control and strengthening global health security by 
maintaining emergency vaccine stockpiles to respond to outbreaks of 
cholera, meningococcal disease, yellow fever, and Ebola.
    Gavi also works to improve global health security and infectious 
disease prevention and control by building strong health systems in 
Gavi-eligible countries. These investments enable countries to better 
identify, track, and respond to infectious disease threats and to reach 
more children with routine immunization services. Continued 
contributions from the U.S. help ensure this work continues in Gavi-
supported countries, and in turn, makes the world safer for everyone.
                               conclusion
    Continued U.S. investment in global health programs is essential to 
protect people from rising health threats and reducing preventable 
deaths. These programs complement the impact of Gavi- supported 
immunization efforts and are crucial to maintaining health security in 
the United States and around the world.
    A $290 million contribution to Gavi for fiscal year 2022 as part of 
the U.S. $1.16 billion commitment over four years (FY 2020--FY 2023) 
and $984 million for the broader USAID Maternal and Child Health 
account are critical to maintain Gavi's gains. Continued funding for 
Gavi will help expand immunization efforts, support country transitions 
to self-financing vaccine programs, promote program sustainability, and 
strengthen global health security.
    We thank this Subcommittee for its long history of protecting 
global health and other foreign assistance programs.
    Thank you for your consideration.

    [This statement was submitted by Marie-ange Saraka-yao, Managing 
Director of Resource Mobilisation, Private Sector Partnerships & 
Innovative Finance.]
                                 ______
                                 
     Prepared Statement of the Wildlife Conservation Society (WCS)
    Chairman Coons, Sen. Graham, and Members of the Subcommittee, the 
Wildlife Conservation Society (WCS) welcomes the opportunity to provide 
written testimony on FY22 SFOPS and thanks the Committee for restoring 
and growing funding in the FY21 Consolidated Appropriations Act (FY21 
enacted) for international conservation, combating wildlife 
trafficking, and global health accounts. WCS appreciates the leadership 
of Sen.Van Hollen who garnered 25 colleagues in support of these 
accounts; Reps. Meng and Katko who championed a bipartisan letter of 90 
Members; as well as Rep. Espaillat and Sen. Merkley who championed 
letters in support of FY22 climate finance.
    The U.S. is currently grappling with biodiversity, climate, and 
pandemic crises that require an integrated solution. U.S. government 
investments in international conservation programs increase the 
capacity of other nations to protect their natural resources and 
respond to wildlife crimes, extreme weather, and zoonotic disease 
spillover and spread, thereby strengthening governance in developing 
nations. This in turn strengthens U.S. national and economic security. 
As a key implementing partner of U.S. awards, the Bronx Zoo-based WCS 
operates field conservation programs across 60 countries. Funding 
international conservation, global health, and climate programs bolster 
intact ecosystems and help prevent unsafe and illegal trade in 
wildlife, thereby addressing the root causes of zoonotic disease 
spillover.
    USAID Biodiversity.--The U.S. government is a global leader in 
biodiversity, forest, and marine conservation investments delivered 
largely through the USAID Biodiversity Program. These programs conserve 
and protect some of the largest, most at-risk natural landscapes and 
millions of livelihoods dependent upon natural resources. Maintaining 
and restoring natural resources enhances U.S. economic and national 
security interests, reducing conflict over resources and improving the 
stability of trading partners. FY21 enacted included $320,000,000. The 
FY22 President's Budget Request (PBR) would cut the program to 
$217,000,000, while the House mark funds it at $400,000,000. WCS 
recommends $500 million for USAID Biodiversity to support increases to 
regional wildlife conservation programs in Central Africa, the Amazon, 
Guatemala/Belize/Honduras, and South Sudan/Ethiopia.
    USAID Central Africa Program for the Environment (CARPE) is one of 
the largest biodiversity and combating wildlife trafficking programs in 
USAID's portfolio. The WCS-USAID-USFWS CARPE partnership is exemplified 
in the 20+ years of investment in the Republic of Congo's Ndoki 
National Park where park rangers conduct SMART patrols by plane, boat, 
vehicle, and on foot. This has resulted in increases in ivory 
trafficking convictions and sentencing. Elephant numbers in Ndoki Park 
have remained stable since 2006, even while they have plummeted across 
much of Central Africa. WCS values the Social Safeguards in National 
Parks and Protected Areas language included by the eight corners of the 
SFOP and Interior Subcommittees in FY20 and FY21. As you know, 
previously frozen FY18 CARPE funds transferred from USAID to the 
Department of the Interior (DoI) through a 632(b) interagency agreement 
have been successfully awarded with social safeguards terms and are 
being implemented on the ground by partners. FY19 and FY20 CARPE funds 
subject to the 632a transfer to DOI have been secured but await USAID 
internal budgeting clearances that often take 12-18 months to award 
before investments hit the ground. Additional funding to establish and 
implement safeguards programs separate from existing protected area 
management funding would be beneficial. FY21 enacted included 
$43,000,000 for CARPE and $10,000,000 to USFWS. The PBR Biodiversity 
CBJ includes $43,000,000 for CARPE, while the House mark remains 
silent. WCS recommends at least $50 million within the Biodiversity 
Program for CARPE, of which up to $33 million for USAID and not less 
than $17 million transferred to USFWS, the technical agency with 
strategic and implementation expertise.
    Ethiopia and South Sudan share the world's second largest wildlife 
migration of over a million animals migrating across the border of the 
two countries, a spectacle rivaling the wildebeest on the Serengeti. 
South Sudan is grappling with increasing food insecurity, ongoing 
severe flooding, the COVID-19 pandemic, and persistent insecurity and 
intercommunal conflict. There has been an increase in lethality of 
intercommunal conflict due to a lack of access to livelihood 
opportunities for South Sudanese youth.\1\ The U.S. government has 
invested $7.6 million to protect wildlife and spur economic 
opportunities--including ecotourism--in the Boma-Bandingilo landscape. 
FY21 Joint Explanatory Statement SFOPS included ``continued funding for 
wildlife conservation activities in South Sudan, and transboundary 
migration into Ethiopia.'' The PBR includes $2,000,000 in the 
Biodiversity CBJ for the East Africa Regional Program, while the House 
mark remains silent. WCS recommends the following DA Biodiversity 
language: ``Continued funding for wildlife conservation activities in 
South Sudan, and transboundary migration into Ethiopia's Gambella 
landscape.''
    USFWS global priority species investments have continued to be 
bolstered to provide technical natural resources support to counter the 
direct threats they face in the wild. The FY21 enacted included 
$6,000,000 to be transferred to USFWS including $1,500,000 for 
migratory bird conservation. The PBR and the House mark remain silent 
on this. WCS recommends $6 million to USFWS for international wildlife 
conservation efforts within the DA Biodiversity Program.
    U.S. Forest Service International Programs (FS-IP) works with more 
than 50 countries providing valuable expertise to help international 
partners reduce deforestation and land degradation, promote sustainable 
forest management, improve forest restoration and reforestation, and 
enhance the resilience of communities, ecosystems, and economies to 
climate change. Effective forest management at the global level is 
necessary to protect American trade interests-such as the ability of 
domestic timber producers to compete on a level playing field-and to 
ensure the sustainability of critical domestic and foreign natural 
resources. By building capacity among partner countries to identify 
timber sources and determine the legality of shipments prior to export 
and import, as well as developing a global reference database to help 
identify timber sources in order to confirm their legality, FS-IP is 
helping U.S. solid wood and wood products as well as pulp, paper, and 
packaging product exports compete in growing Asian markets. WCS and 
others are recovering forest habitats of endangered Siberian tigers 
with the support of FS-IP. FY21 enacted included $8,000,000. The PBR 
and the House mark remain silent on this. WCS recommends $20,000,000 
million by direct transfer to FS-IP within the DA Biodiversity Program.
    USAID Global Health Security Programs.--Preventing the next 
pandemic of zoonotic origins requires addressing the drivers of 
zoonotic spillover from animals to people and strengthening zoonotic 
surveillance in wildlife. The drivers of spillover include the legal 
and illegal live wildlife trade for human consumption, deforestation 
and land degradation, and agricultural intensification. FY21 enacted 
included $190,000,000 for USAID Global Health Security, including known 
and unknown zoonotic virus data collection and analysis. The PBR 
includes $1,011,686,000 for Global Health Security, including 
$745,000,000 for USAID Global Health Programs and $250,000,000 for 
State Global Health Programs as seed funding for a multilateral entity 
for preparedness and response. The House mark includes $1,000,000,000 
for Global Health Security and a directive that ``Global Health 
Programs'' funding may be made available for a contribution to an 
international financing mechanism for pandemic preparedness. WCS 
recommends the following language: ``$2 billion to Global Health 
Security Programs for bilateral and a new multilateral mechanism to 
prevent the root causes of pandemics of zoonotic origin, including: 
preventing commercial trade in live wildlife and derivatives for human 
consumption; halt deforestation and degradation; grow USAID zoonotic 
spillover surveillance programs; stand up demonstration projects 
integrating USAID Global Health, Food Security and Biodiversity program 
that promotes alternative sustainable nutrition programs to reduce 
zoonotic spillover and spread from wildlife consumption.''
    State INL & USAID's Combating Wildlife Trafficking Program.--
Wildlife trafficking, illegal logging, and IUU fishing are 
transnational organized crimes linked to drug, weapons, and human 
trafficking, and pose similar threats to national security, economic 
prosperity, the rule of law, and the environment.\2\ With field 
conservation programs in 20 of the Focus Countries and all six of the 
Countries of Concern identified by the Department of State Report to 
Congress on Major Wildlife Trafficking Countries,\3\ WCS works in 
partnership with USAID and State INL to implement anti-poaching, law 
enforcement, and capacity building programs around investigations and 
border patrols, prosecutions, and convictions from source sites to 
trafficking bottlenecks to demand countries. Use of small plane aerial 
surveillance, Wildlife Crime Units, and tracking of financial 
transactions are successful strategies that need further investment. 
FY21 enacted included $100,664,000, of which $50,000,000 to INL. The 
PBR includes $92,700,000, while the House mark includes $125,000,000. 
WCS recommends $200,000,000 split evenly between State INL and USAID.
    Northern Triangle's Central America Conservation & Security.--The 
region is experiencing severe weather events and its worst fire season, 
decimating forests, wildlife, and livelihoods of local communities. 
Drought is leading to widespread crop loss. These events are 
contributing to increased irregular migration to the U.S. as 
livelihoods become unsustainable. Narco-ranching accounts for 90% of 
recent deforestation. This is driven by criminals taking land from 
Indigenous Peoples and communities to launder drug money through 
illegal cattle ranches.\4\ The FY21 enacted DA Biodiversity Program 
included $6,250,000 for this region, of which $2,250,000 to DoI. The 
PBR Biodiversity CBJ for Guatemala includes $6,100,000, while the House 
mark remains silent. WCS recommends the following DA Biodiversity 
language: ``At least $7,000,000 for Selva Maya tropical forest 
conservation in Guatemala, Belize and Mexico to support increased 
border cooperation to halt smuggling, address threats from fires, and 
to support the renewal of existing and development of new community 
forest concessions in the Maya Biosphere Reserve (MBR), of which 
$3,000,000 is directed to DoI. The Committee does not support funding 
for logging activities or the construction of roads in national parks 
or the MBR, except for community forest concessions in the MBR and 
temporary road construction in support of such concessions.''
    Drug trafficking through Honduras has increased recently, as 
smugglers lean more heavily on routes across illegal roads from the 
coastline through the rainforest and northward into Guatemala and 
Mexico. An illegal road is being cut through the Rio Platano Biosphere 
Reserve in Honduras, a UNESCO World Heritage Site, as well as 
Indigenous territories. This will facilitate land invasions into the 
biosphere and is likely to be used as a drug-trafficking route.\5\ In 
FY21 enacted the INL section ``notes the importance of the Maya Forest 
areas of Guatemala, Belize, and Mexico and the Moskitia Forest region 
of Honduras. The Committee recommendation includes funds to support the 
comprehensive strategy to support activities to strengthen security and 
governance in these areas that was developed pursuant to the directive 
in H. Rept 116-78, including funds for support of scientific 
investigation, heritage conservation, law enforcement, and sustainable 
tourism.'' WCS is pleased with INL's NOFO for narco-ranching in the 
Moskitia and recommends INL report language: ``The Committee is 
concerned with the increase in jaguar poaching, timber trafficking, 
unregulated cattle, narco-ranching and narco-roads in the Honduras--
Guatemala--Mexico border forest regions and directs $5M for increased 
border cooperation for anti-poaching and counter-fire regimes. The 
Committee recommendation includes funds to support the directive in H. 
Rept 116-78, and H. Rept 116-444 for a comprehensive security, 
governance and conservation strategy for Central America.''
    USAID Sustainable Landscapes mitigates the drivers of deforestation 
& land degradation in the world's largest & most biologically diverse 
tropical forests. Forests cover 30% of the planet's land area, house up 
to 90% of all terrestrial wildlife species, mitigate severity of 
storms, and directly sustain the livelihoods of 1.6 billion people 
worldwide. The U.S. commitment to reducing deforestation & land 
conversion through sustainable management practices is vital to 
protecting essential storehouses of biodiversity & carbon in intact 
forests, as well as the essential goods & services intact forests 
provide people globally, including in the U.S. U.S. government support 
gives developing countries the ability to address the drivers of 
deforestation and degradation, halt illegal logging, and restore 
degraded lands. U.S. jobs are protected by stopping products from 
illegal logging from flooding U.S. markets as unfair competition, which 
costs the U.S. timber industry $1 billion annually. FY21 enacted 
included $135,000,000. The House mark proposes not less than 
$202,500,000 for Sustainable Landscapes. Consistent with the PBR 
Climate CBJ, WCS recommends $232,305,000.
    USAID Adaptation programs build resilience to climate-related 
risks, such as floods, storms, droughts, and sea level rise, including 
by supporting climate-resilient development and improved access to 
climate and weather data and tools. Extreme weather-driven natural 
disasters are a growing risk for communities around the world, and 
amplify existing stresses and vulnerabilities such as famine, floods 
and fires. Loss of natural defenses, including wetlands, mangroves, 
forests, and reefs, also increases vulnerability to and amplifies the 
impact of storms and floods. Weather-driven natural disasters have a 
disproportionate effect on developing countries with fewer resources to 
respond and recover. USAID Adaptation programs reduce human migration 
and social conflict as communities become adaptation-ready and build 
resilience to these risks. FY21 enacted included $177,000,000. The PBR 
Climate CBJ includes $221,928,000, while the House mark includes not 
less than $294,200,000 shall be made available for adaptation programs, 
including in support of the implementation of the Indo-Pacific 
Strategy. Consistent with the House mark, WCS recommends not less than 
$294,200,000.
    Global Environment Facility (the GEF).--America's investment in the 
GEF through the U.S. Treasury, unites 30+ donor countries with 
recipient countries, U.S. corporations and NGOs to support projects in 
170 countries. For every dollar America invests in the GEF it generates 
another $40 from other countries and partners. The GEF has supported 
the improved cooperation and governance of one-third of the world's 
large marine ecosystems. The GEF support has also been critical to 
placing 12 percent of the world's terrestrial area under protection, 
resulting in 3,300 protected areas spanning 2.1 billion acres 
containing at least 700 globally threatened species. Consistent with 
the PBR and the House mark, WCS recommends $149,288,000 for the 
Treasury's fourth and final installment to GEF-7 and to pay arrears.
    Green Climate Fund leverages global contributions to support 
developing countries in transitioning towards low-emissions, climate-
resilient development and amplifies U.S. development funds. The U.S. 
made a multi-year pledge to this institution, mobilizing global support 
to address the impacts of climate change. This pledge has not been 
completed by the Treasury International Programs. As the U.S. 
government restores its leadership role on the global stage, it must 
complete its multi-year pledge to this important institution, which is 
catalyzing climate finance and supporting the implementation of 
adaptation and mitigation programs in the most vulnerable of locations. 
The PBR includes $1,250,000,000 split between State/USAID and Treasury. 
Consistent with the House mark, WCS recommends $1,600,000,000.
---------------------------------------------------------------------------
    \1\ USAID, South Sudan--Complex Emergency Fact Sheet #2, February 
10, 2021. https://www.usaid.gov/sites/default/files/documents/
05.07.2021-----South_Sudan_Program_Map.pdf.
    \2\ U.S. Department of State, 2020 END Wildlife Trafficking 
Strategic Review, Oct. 26, 2020, https://www.state.gov/2020-end-
wildlife-trafficking-strategic-review/.
    \3\ U.S. Department of State, 2020 END Wildlife Trafficking Report, 
Oct. 26, 2020, https://www.state.gov/2020-end-wildlife-trafficking-
report/.
    \4\ Radachowsky, J. (2021, April 10). To confront the U.S. border 
crisis, save Central America's forests. Scientific American. https://
www.scientificamerican.com/article/to-confront-the-u-s-border-crisis-
save-central-americas-forests/
    \5\ Mukpo, A. (2021, May 13). In the Honduran Rio Platano Biosphere 
Reserve, an illegal road for cattle and drugs. Mongabay.https://
news.mongabay.com/2021/05/in-the-honduran-rio-platano-biosphere-
reserve-an-illegal-road-for-cattle-and-drugs/
---------------------------------------------------------------------------
    [This statement was submitted by Kelly Keenan Aylward, Executive 
Director.]
                                 ______
                                 
                Prepared Statement of the World Learning
    Dear Chairman Coons, Ranking Member Graham, and distinguished 
Members of the Subcommittee, I am pleased to submit testimony on behalf 
of World Learning, an education and exchange focused non-profit 
organization based in Brattleboro, Vermont and founded in 1932. At 
World Learning, we believe in the power of diversity, the importance of 
an intercultural perspective, and fostering understanding and 
belonging. Through people-to- people exchange, international 
development, semester-long study abroad, graduate education, 
peacebuilding, and certificate programs, we prepare individuals to be 
effective leaders and community builders in an increasingly globalized 
but polarized world.
    On behalf of World Learning, I respectfully urge you to:

    1. Support a strong and effective approach to U.S. diplomacy and 
development in FY2022 with $69.1 billion or the highest possible 
funding level for the State, Foreign Operations, and Related Programs 
bill.
    2. Increase funding for the U.S. Department of State's Educational 
and Cultural Exchange Programs to $1.1 billion or the highest possible 
funding level in FY2022.
    3. Ensure that Basic Education receives $1.050 billion or the 
highest possible funding level for FY2022.

    As the world begins to reopen and rebuild following the devastation 
caused by the global pandemic, the United States should take a 
leadership role in this effort and help bring people across the globe 
back together. This means appropriately investing in the U.S. 
Department of State and the U.S. Agency for International Development.
       what do we know about investing in u.s. citizen diplomacy?
    U.S. Department of State exchange programs are a proven and cost-
effective way for the United States to share our values, remain 
internationally relevant and competitive, develop American leaders, and 
promote American engagement critical to our prosperity and national 
security. Grassroots exchange programs are an intercultural force for 
good that builds our global reputation and leadership.
    Exchange programs such as the Fulbright Program, the Kennedy-Lugar 
Youth Exchange and Study (YES) Program, the Congress Bundestag Youth 
Exchange (CBYX) Program, and the Future Leaders Exchange (FLEX) create 
transformational opportunities for our young people, helping them not 
only to develop the critical skills they need to succeed in a global 
marketplace, but also to serve as ambassadors of American youth around 
the world. As U.S. Secretary of State Blinken said during his testimony 
before this committee on June 8th: ``One of the best investments we 
make . . . are in our exchange programs, particularly those focused on 
young people.'' These programs also provide opportunities for Americans 
from communities of color to study abroad and diversify the pipeline to 
our foreign service. An increase in funding would enable greater 
progress to this important end.
    Programs including the International Visitor Leadership Program 
(IVLP) and the Young African Leaders Initiative (YALI) bring talented 
leaders from a variety of fields to the United States to expand their 
professional skills and networks and often to solve real problems. For 
example, during the pandemic, World Learning implemented two virtual 
programs within IVLP that had extraordinary results. In one case, a 
program enabling collaboration between a non-governmental organization 
in Utah and authorities in Costa Rica to rescue victims of human 
trafficking led to the arrest of 11 traffickers and the recovery of two 
survivors. Another virtual program that focused on democracy and good 
governance enabled Venezuelan activists to network with their American 
counterparts and to share best practices on engaging youth and 
underrepresented communities in democracy promotion and the political 
process. Without the leadership of the Bureau of Educational and 
Cultural Affairs and their true partnership these results would not 
have been possible. ECA deserves high praise for moving rapidly to 
encourage innovative ways to maintain and build networks during the 
global pandemic.
    U.S. Department of State evaluations repeatedly show that these and 
other participants who visit the United States through exchange 
programs leave with a better impression of our country, the American 
people, and our values. U.S. ambassadors consistently rank exchange 
programs among the most useful catalysts for long-term political change 
and mutual understanding. An increase of $360 million in funding for 
Educational and Cultural Exchanges for FY2022 would enable the exchange 
community to further expand exchange opportunities to include new and 
often marginalized voices from the United States and internationally. 
It would also enable the exchange implementer community to maintain and 
build upon the virtual platforms we have utilized due to the global 
pandemic, and which have demonstrated significant impact and value.
      what do we know about covid-19 and the global learning loss?
    An estimated 26% of the current world population is under the age 
of 15. Undoubtedly, the future development and prosperity of any 
country and the entire world depends on children and youth obtaining 
the skills needed to work together to solve the national and global 
challenges of our present and future. We know that one additional 
school year can increase an individual's earnings by up to 10%. We know 
that every extra year of a mother's schooling reduces infant mortality. 
We know that people who are literate are more likely to participate in 
democratic processes.
    According to UNESCO, the global pandemic disrupted the education of 
over 90 percent of the world's children and youth. This means 1.6 
billion youth experienced learning losses due to the pandemic, which 
could have generational consequences for countries around the globe and 
result in less resilient populations, lower productivity, and worse 
economic prospects.
    The QITABI (Quality Instruction Towards Access and Basic Education 
Improvement) 2 Program, funded by USAID and implemented by World 
Learning aims to improve reading, writing, and social and emotional 
skills for more than 300,000 students in public primary schools across 
Lebanon. Many of these students reside in under-resourced rural areas 
and include Syrian refugees who have struggled with getting to and 
staying in school to learn basic skills. Importantly, QITABI 2 is 
designed to build the Lebanese public education system's institutional 
capacity to promote greater sustainability and self-reliance for better 
education outcomes. During the pandemic, the program pivoted to provide 
Lebanese youth with individual educational boxes and free online 
learning materials.
    World Learning and other dedicated implementers continue to work in 
partnership with USAID to do all that we can to address substantial 
learning losses resulting from COVID-19. USAID should be commended for 
its efforts to pivot in response to the pandemic to support continued 
learning in over 50 countries and reaching over 24 million students. An 
increase in Basic Education funding at this time will enable USAID and 
its implementing partners to reach more vulnerable children and youth, 
rebuild education systems, and counter learning losses exacerbated by 
this pandemic.
    For these reasons, we strongly believe that now is the time to 
reinvigorate and expand the investment in U.S. foreign assistance, and 
specifically in Educational and Cultural Exchanges and Basic Education 
to build a more peaceful and just world. Thank you for your ongoing 
support for these vital programs which enable and demonstrate American 
leadership, and for your consideration of this request.
CAROL L. JENKINS
Ex-Officio Trustee
President and CEO, World Learning, Inc.
    Carol Jenkins is the CEO and President of World Learning Inc., 
which encompasses three distinct brands: The Experiment in 
International Living; School for International Training which includes 
SIT Study Abroad and SIT Graduate Institute; and the nonprofit global 
development and exchange programs of World Learning. Jenkins has served 
in multiple positions at World Learning over more than a decade. She 
first joined in June 2007 as senior director of international programs 
after a 16-year career in humanitarian aid and development. Under 
Jenkins's leadership, World Learning's development portfolio has seen 
revenue increase by 14 percent with continued anticipated growth. She 
oversaw the merger of World Learning's three development and exchange 
offices into one location, leveraging the assets of more than 100 staff 
members. She was named CEO in February 2018. Prior to joining World 
Learning, Jenkins was director of program development for International 
Medical Corps, where she managed a team of technical business 
development professionals to improve the quality of field programs and 
expand the coverage to project recipients. She also previously spent 12 
years working for World Vision, including a period during which she was 
posted in Southern Africa. Jenkins holds a bachelor's degree in 
political science from Messiah College in Pennsylvania. She was a 
fellow at the Luskin School of Public Affairs at University of 
California, Los Angeles, in 2012 and a participant in the Leadership 
Program at the International Civil Society Center. Jenkins is the Chair 
of the Board for the Alliance for International Exchange and serves on 
the Board of InterAction.
    [This statement was submitted by Carol L. Jenkins, CEO and 
President.]
                                 ______
                                 
               Prepared Statement of the World Vision US
    Chairman Coons, Ranking Member Graham, and members of the 
Subcommittee, I am submitting this testimony on behalf of World Vision, 
one of the largest faith-based organizations working in humanitarian 
relief and development. Specifically, I ask that the Subcommittee seeks 
to fund programs within the State, Foreign Operations and Related 
Programs appropriations bill at no less than FY2021 levels, provides at 
least $4.2 billion for Development Assistance, $5.2 billion for 
International Disaster Assistance, $4.1 billion for Migration and 
Refugee Assistance, and $1.2 billion for Feed the Future. World Vision 
also requests the following amounts for additional accounts that are 
within the State, Foreign Operations and Related Agencies 
appropriations bill:

  --USAID Operating Expenses: $1,530,000,000
  --Water and Sanitation: $540,000,000
  --Gender-Based Violence: $200,000,000
  --Combatting Child Marriage: $30,000,000
  --Maternal and Child Health: $984,000,000 (including $290,000,000 for 
        Gavi, the Vaccine Alliance)
  --The Global Fund for AIDS, TB and Malaria: $1,560,000,000
  --Family Planning and Reproductive Health: $665,000,000
  --Displaced Children's and Orphans Fund: $35,000,000
  --Basic Education: $1,100,000,000 (including $50,000,000 for 
        Education Cannot Wait and $150,000,000 for the Global 
        Partnership for Education (GPE)
  --Complex Crisis Fund: $60,000,000

    First, World Vision appreciates Congress' continual commitment, on 
a bipartisan basis, to support foreign assistance and secure the hard-
won gains around the world in maternal and child health, education, 
HIV/AIDS, food security, gender equality, and economic empowerment. 
This is even more important as COVID threatens these gains and the 
progress that has been made spanning decades of international 
development work. We hope that the Subcommittee will once again put 
forward a bill that provides funding in line with global need as well 
as with the leadership the United States has long provided.
    We also hope that the Subcommittee will prioritize programs that 
impact the most vulnerable and marginalized populations, with a focus 
on children. Development is hard work--seeing results takes time. But 
by increasing investments in children, as well as strengthening 
collaboration across U.S. government programs and agencies, we can 
impact the next generation in a dramatic way. This must include 
programs that improve household incomes and resilience, parenting 
skills, and early childhood development.
    At World Vision, we have seen the impact the provision of health 
services such as vaccinations and newborn health initiatives can have 
and how brave and committed community health volunteers work tirelessly 
to save the lives of mothers and children. We have seen how quality, 
safe, and inclusive education--from pre-primary through secondary 
supports children's development of foundational reading, math, and 
social and emotional skills and helps prepare youth for successful 
careers. We have seen how child protection programs-especially the 
prevention of and response to violence against children -can support 
child well-being, promote healthy child development, and even help 
mitigate the harmful effects of migration, displacement, or family 
separation. We have seen how peacebuilding and youth empowerment 
programs supported by the U.S. government prevent conflict and 
disillusionment, particularly among young men. All these investments 
serve a purpose and are in the best interests of the United States and 
the American taxpayer. But they also serve as a recognition of the 
dignity and value of every human life, regardless of birthplace or 
economic status.
    The current need for assistance is at critical levels, and COVID-19 
has exacerbated the fragility of many vulnerable communities and 
populations. World Vision estimates that as many as 30 million children 
are at risk of disease and death because of the indirect impacts of the 
COVID-19 pandemic, such as deadly diseases like malaria, a lack of 
immunization, or increased malnutrition. Catastrophic natural 
disasters, mass atrocities, violence against marginalized populations, 
and protracted armed conflict have driven crises to never before seen 
levels, resulting in increased numbers of forcibly displaced persons. 
Children are often most impacted by conflict--one in four of the 
world's children lives in a conflict or disaster zone--without access 
to adequate shelter, protection, and education, and at high risk of 
experiencing physical, sexual and psychological abuse. In 2021 alone, 
UN OCHA estimates that 235 million people need humanitarian assistance 
and protection, which amounts to 1 in 33 people worldwide. We cannot 
abandon the next generation in their time of greatest need. Women and 
girls are also especially vulnerable in times of conflict and crisis 
and face an increased risk of gender-based violence, child, early and 
forced marriage, and maternal mortality.
    Additionally, we know there are incredible development and global 
health challenges, many that have been exacerbated by COVID-19. Every 
year 5.2 million children under the age of five still die from 
preventable or treatable causes, and 2.1 billion people lack access to 
safely managed drinking water services and 4.5 billion people lack 
safely managed sanitation services. Prior to the COVID-19 pandemic, an 
estimated 258 million children and youth around the world were not in 
school, and nearly 40 percent of primary school age children are not 
acquiring basic literacy and numeracy skills. Now, the United Nations 
estimates that nearly 11 million primary and secondary school learners 
worldwide are at risk of not returning to education at all after school 
closures due to COVID-19. Additionally, as a result of the COVID-19 
crisis, World Vision estimates that up to 85 million more girls and 
boys worldwide may now be exposed to physical, sexual and/or emotional 
violence. While we can look back and celebrate the success of U.S. 
foreign assistance investments, we must be vigilant in reaching the 
most remote corners of the world and the most vulnerable with life-
saving and life-giving support.
    COVID-19 has also further exacerbated the already complicated 
contributing factors of irregular migration from Central America. We 
affirm the Biden Administration's request of $861 million in assistance 
to this region and ask the committee to work in a bipartisan fashion to 
support foreign assistance funding to address the many challenges--
violence, poverty, lack of educational and economic opportunities--that 
are driving irregular migration.
    As we look ahead to needs for Fiscal Year 2022, we ask for at least 
$4.2 billion for Development Assistance (DA). More and more we are 
seeing poverty being driven to fragile states--places that face 
conflict, inadequate governance, frequent disasters, and other issues 
that lead to instability and a lack of resilience. The Development 
Assistance account is vital in these contexts to move countries from 
fragility to resilience, addressing the drivers of conflict, and 
seeking long-term, sustainable solutions. Development Assistance should 
also be increased overall to allow for greater flexibility and improve 
the ability of USAID to respond to unanticipated development needs. DA 
funding has traditionally been very prescriptive. Our goal of community 
and country-led development requires us to rethink this approach.
    Within the development assistance account, we request $30 million 
be made available to combat child marriage globally consistent with 
section 1207 of Public Law 113-4. We recommend $5 million of this 
funding be dedicated to the joint UNICEF and UNFPA Global Program to 
End Child Marriage. Child marriage is a form of gender-based violence 
and a violation of girls' human rights and happens across cultures and 
contexts. With the global spread of COVID-19, we are already seeing 
increases in child marriage due to related containment measures, 
including school closures, limited livelihood opportunities, food 
insecurity, restrictions on movement, and disruptions to essential 
protection and health services for girls. In fact, 2020 saw the 
greatest surge in child marriage rates in 25 years.
    We also ask for the subcommittee's continued support for global 
health programs. These investments save the lives of mothers and 
children and support families to ensure their children are healthy 
enough to attend school, enabling them to gain an education that leads 
to employment in adulthood, and enable women to be more productive in 
the household and earn a livelihood as well. These programs are not 
handouts; they are investments in the long-term economic growth of 
countries that can become U.S. trading partners and develop economies 
which better provide for their own people. Saving lives through health 
interventions, including immunizations, family planning, nutrition, and 
water, sanitation, and hygiene, as well as strong support of the 
frontline health workers delivering so many of these services, is the 
smart and right thing to do.
    USAID's Global Health Program funding for the vulnerable children 
account is provided via the Displaced Children and Orphans Fund (DCOF), 
which delivers financing and technical assistance for the care and 
protection of vulnerable children, particularly those who have been 
separated from their families or are at risk of separation. USAID has 
given particular attention to children who are outside family care, 
those affected by conflict, or those living and working on the street, 
as well as children with disabilities and other highly vulnerable 
children. This funding also supports the implementation of the Global 
Child Thrive Act, passed in 2020, which ensures that early childhood 
development interventions will be implemented in all foreign assistance 
programs aiding vulnerable children and their families. With many 
current conflicts and hardships displacing children around the world, 
this funding is vital to the U.S. response to protect vulnerable 
children.
    Additionally, World Vision requests the subcommittee's support for 
the implementation of activities to address gender-based violence in 
both conflict and non-conflict settings. Gender-based violence occurs 
in many forms including intimate partner violence, child, early, and 
forced marriage, rape, sexual assault, trafficking, female genital 
mutilation/cutting, and so-called ``honor'' killings. In humanitarian 
emergencies, gender-based violence is known to increase as chaos and 
tensions grow within households, communities, and society, impacting 
early one in five women. Given the prevalence of gender-based violence 
in humanitarian emergencies, as well as the predicted impacts of COVID-
19, we request a portion of this appropriation be focused particularly 
to support programs to address GBV in humanitarian contexts through the 
Safe from the Start program at the State Department and USAID.
    Feed the Future is another critical and successful U.S. government 
program that has invested in areas where an estimated 23.4 million more 
people are now living above the poverty line, 3.4 million more children 
live free of stunting, and 5.2 million more families no longer go 
hungry. With nearly 690 million people in the world today are facing 
hunger, and with a growing global population, Feed the Future is 
working to improve agriculture production and markets, while also 
working at the household level to give families the tools they need to 
lift themselves out of poverty. This is especially important as COVID-
19 has severely disrupted livelihoods, incomes, and food supply chains, 
with the World Food Program currently estimating more than 270 million 
people face severe hunger--this is double the pre-pandemic figure. 
These efforts to work with smallholder farmers are critical not only 
for the families and communities where the programs are implemented, 
but also for our own economic growth, which depends on our ability to 
reach emerging markets overseas.
    We also ask for the Subcommittee's support for U.S. Basic Education 
programs, including funding for Education Cannot Wait, a multilateral 
partnership dedicated to education in emergencies and protracted 
crises. In addition to providing children and youth with valuable life 
skills, education serves as a force multiplier in the pursuit of 
comprehensive, sustainable development outcomes. Unfortunately, shocks 
from COVID have led to widespread school closures, and in sub-Saharan 
Africa alone, this disruption has led to increases in teenage pregnancy 
by 62%, with an estimated 1 million girls in this region blocked from 
returning to education due to pregnancy as schools re-open. In addition 
to the benefits that children themselves receive from access to a 
quality education, strong national education sectors and programs are 
also essential for global economic growth. Education is not only the 
right of all children, but it will help bolster partner countries 
towards self-reliance and economic prosperity.
    In light of the COVID-19 pandemic, I would also like to highlight 
the need for increased resources for direct pandemic response. World 
Vision is deeply concerned about the vulnerability of displaced and 
refugee populations to COVID-19, particularly in places with dense 
populations and a lack of health services. Because many of these 
populations are less mobile, the availability of tests to stem the 
spread early, strong contact tracing, and equitable distribution of 
vaccines will be essential to avoid massive infections and deaths. In 
addition, greater support for essential health services and learning 
lessons from past pandemics about the need for community mobilization, 
health worker support (including through the supply of PPE), and faith 
community engagement must be a part of any response. We hope that any 
spending to respond to the pandemic globally doesn't come at the 
expense of existing programs but is designated as emergency spending, 
especially as the full extent of the indirect impacts resulting from 
COVID-19 have not yet been realized and there is the potential for 
additional waves of the virus.
    Thank you for this opportunity to offer testimony to the 
Subcommittee and for your bipartisan leadership in supporting a strong 
foreign assistance budget.
    [This statement was submitted by Robert Zachritz, Vice President 
for Advocacy.]
                                 ______
                                 
             Prepared Statement of the World Wildlife Fund
    Thank you for the opportunity to provide written testimony on the 
Fiscal Year 2022 (FY22) budget. World Wildlife Fund (WWF) is one of the 
world's leading conservation organizations, operating in nearly 100 
countries to ensure a future in which both people and nature can thrive 
by helping to conserve our planet's biodiversity and the natural 
resources upon which we all rely. With the support of over one million 
members in the United States and over five million globally, WWF's 
unique approach integrates global reach and local impact with a 
scientific foundation, promoting innovative solutions to meet the needs 
of people and nature.
    WWF asks the subcommittee to fund global conservation accounts at 
the following FY22 levels:

  --$500 million for Biodiversity Conservation within the U.S. Agency 
        for International Development (USAID) Development Assistance;
  --$50 million for the Central African Regional Program for the 
        Environment (CARPE) within USAID Development Assistance for 
        Biodiversity Conservation
  --$5 million to stop illegal timber trade within USAID Development 
        Assistance for Biodiversity Conservation;
  --$150 million for Combating Wildlife Trafficking programs within 
        USAID Development Assistance and State Department International 
        Narcotics Control and Law Enforcement;
  --$149.3 million for the Global Environment Facility (GEF) as 
        appropriated in Multilateral Assistance, International 
        Financial Institutions;
  --$200 million for Sustainable Landscapes within USAID Bilateral 
        Economic Assistance;
  --$20 million for the Tropical Forest and Coral Reef Conservation Act 
        within Multilateral Assistance, Debt Restructuring;
  --$268.5 million for Clean Energy Programs within USAID Bilateral 
        Economic Assistance;
  --$265.5 million for Adaptation Programs within USAID Bilateral 
        Economic Assistance;
  --$540 million for Water and Sanitation programs;
  --$75 million to address ocean plastic pollution within USAID 
        Development Assistance;
  --At least $2 billion for the Green Climate Fund.

    We thank the subcommittee for past support of international 
conservation and climate programs and urge continued support for these 
programs in FY22 as an essential component of U.S. foreign assistance. 
Increased U.S. investments are needed to respond to a set of 
intertwined challenges--the crisis of global biodiversity and nature 
loss, the global climate crisis, and the global health and economic 
crisis due to the COVID-19 pandemic. All of these crises have roots in 
the loss, degradation, and over-exploitation of nature, and 
conservation investments are among the clearest and most cost-effective 
solutions to addressing them. These programs also support improved 
management of natural resources in developing countries, which are 
highly dependent on these resources for economic growth and the 
livelihoods of local communities. They prevent scarcities of water and 
food, which can exacerbate poverty and instability and contribute to 
conflict, and help to combat illegal trade in natural resources and 
transnational criminal organizations that drive it, reducing 
corruption, financing for illicit activities, and threats to American 
security interests in strategically important regions. We urge the 
subcommittee to consider the significant impact that these modest 
investments have in supporting developing communities and fostering 
stability and sustainable growth, combating transnational organized 
crime, building U.S. competitiveness in overseas markets and 
demonstrating U.S. leadership to tackle global challenges. The 
conservation of tropical forests and other carbon-rich and biodiverse 
ecosystems is also key to slowing and reversing global climate change 
and to preventing the spillover of new zoonotic pathogens that can 
cause future pandemics. For these reasons, U.S. investments to promote 
global conservation should be supported and increased as essential 
elements of our foreign policy and national security agenda.
                       biodiversity conservation
    USAID delivers the largest share of U.S. foreign assistance for on-
the-ground conservation through its robust portfolio of Biodiversity 
Conservation, Combating Wildlife Trafficking, and Forestry programs. 
These programs protect the largest and most at-risk natural landscapes 
and the livelihoods of millions who depend directly on natural 
resources for survival and economic prosperity. By maintaining and 
restoring the natural resources that supply fertile soil, clean water, 
food and medicine, these USAID programs play a critical role in long-
term U.S. foreign policy objectives, promoting stable economics and 
societies around the world. By combatting illegal trade in wildlife, 
timber and fish, they combat transnational criminal organizations and 
prevent unfair global competition from undermining U.S. companies and 
workers. By conserving and restoring tropical forests and other carbon-
rich and biodiverse ecosystems, they also play a critical role in 
efforts to address climate change and prevent the spillover of zoonotic 
diseases. We request $500 million for biodiversity conservation within 
USAID's Development Assistance Account in FY2022, an increase of $180 
million over the FY2021 enacted level. Of these funds, WWF requests 
that $50 million be directed to support the Central Africa Regional 
Program for the Environment (CARPE), an increase of $7 million over 
FY2021, and that $5 million be directed towards USAID and Department of 
State efforts to support implementation of the Lacey Act, an increase 
of $1 million over the FY2021 enacted level.
                     combating wildlife trafficking
    Wildlife trafficking is a transnational organized crime that 
generates up to $23 billion annually in illegal profits, fueling a 
poaching crisis while financing criminal syndicates, armed 
insurgencies, and groups with terrorist ties and corrupting rule of law 
in the developing world. Trafficking in species that can transmit 
zoonotic pathogens also heightens the risk of future pandemics. In 
2016, Congress passed the END Wildlife Trafficking Act and since 2014, 
Congress has funded Combatting Wildlife Trafficking Programs at the 
State Department Bureau of International Narcotics and Law Enforcement 
(INL) and USAID to support strengthening law enforcement, reducing 
demand, and expanded international cooperation. Additional funding is 
needed to expand programs into Latin America and support efforts to 
address trade involving high-risk species for zoonotic spillover. We 
request $150 million for Combatting Wildlife Trafficking Programs in 
FY2022, an increase of $49.3 million over the FY2021 enacted level.
                      global environment facility
    The Global Environment Facility (GEF) partners 183 countries with 
international institutions, civil society, and the private sector to 
enhance environmental governance and fight unsustainable depletion of 
natural resources that lead to food and water shortages, population 
displacement, and other drivers of instability that can result in 
conflict and radicalization. The GEF provides many direct benefits to 
the U.S., including providing economic stability for U.S. jobs and 
supply chains. Every U.S. dollar invested in the GEF leverages an 
additional $40 from public and private partners. With 4,400 projects in 
183 countries, the GEF is the single largest financier of conservation 
investing nearly $20 billion dollars with $92.7 billion in co-financing 
over 27 years. We request $149.3 million for the GEF in FY2022, level 
with the President's request and an increase of $9.3 million over the 
FY2021 enacted level.
            tropical forest and coral reef conservation act
    The Tropical Forest and Coral Reef Conservation Act (TFCCA) is a 
highly successful program that allows eligible countries to relieve 
debt owed to the U.S. Treasury in exchange for commitments to protect 
tropical forests and coral reef ecosystems using local funds. In 2018, 
Congress reauthorized the program and expanded it to include coral 
reefs. TFCCA agreements protect globally important ecosystems while 
strengthening civil society, building local conservation capacity, and 
supporting public-private partnerships in developing countries. They 
have generated nearly $300 million for tropical forest protection in 
over a dozen countries. WWF requests $20 million in FY2022 for the 
TFCCA, an increase of $5 million over the FY2021 enacted level and $5 
million more than the President's request.
                      usaid sustainable landscapes
    Through its Sustainable Landscapes programs, USAID supports efforts 
to halt deforestation and forest degradation, promote sustainable and 
responsible forestry practices, and prevent illegal logging in the 
world's largest and most biologically diverse and carbon rich forests, 
including the Amazon, Central Africa's Congo Basin, and tropical 
forests of Southeast Asia. The large-scale landscapes supported by 
these programs are essential to the livelihoods of local communities 
and Indigenous Peoples, as well as national economies, and play a 
critical global role as massive storehouses of carbon. The destruction 
and degradation of forests due to encroachment by human development and 
agriculture is also a major driver of the spillover of zoonotic 
diseases that can cause pandemics. With deforestation continuing at 
high rates in many regions, including a spike in Brazil's deforestation 
rates and worsening wildfires, WWF requests $200 million for 
Sustainable Landscapes in FY2022, an increase of $65 million over the 
FY2021 level.
                           green climate fund
    The Green Climate Fund (GCF) is the largest international fund 
financing efforts in developing countries to enhance resilience to 
climate change and reduce emissions, working with public and private 
partners and using grants, loans, equity, and guarantees and a country-
driven approach to provide innovative climate solutions in over 100 
countries, particularly Least Developed Countries and African and Small 
Island Developing States. The GCF is unique in its ability to engage 
directly with both public and private sectors in climate-sensitive 
investments and bear significant climate-related risk. In 2014, the US 
pledged $3 billion in initial funding to the GCF, only $1 billion of 
which has been provided. Fulfilling this pledge will be critical to the 
U.S. securing international support for high climate ambition, 
including under the Paris Agreement. WWF requests at least $2 billion 
for the Green Climate Fund in FY2022, $750 million more than the 
President's request. No funds were appropriated for the GCF in FY2021.
                       usaid adaptation programs
    USAID Adaptation Programs help communities in less-developed 
countries to access and use climate and weather data and tools and to 
build their resilience to climate variability and risks, whether from 
sudden events such as floods and storms or from slower-moving events 
such as droughts and sea-level rise. Such extreme weather is increasing 
in severity, posing rising risks to security, stability and economic 
growth in many parts of the world. By helping communities build 
resilience and capacity to adapt, we help alleviate social tensions 
that can give rise to conflict. WWF requests $265.5 million for 
Adaptation Programs within USAID Bilateral Economic Assistance in 
FY2022, an increase of $88.5 million over the FY2021 enacted level.
                      usaid clean energy programs
    Worldwide, 1.1 billion people still lack access to energy, and many 
more suffer from unreliable service, suffering frequent and long power 
outages. USAID works with developing countries to create policy, legal 
and regulatory frameworks in order to attract private investment in 
clean energy, increase energy efficiency, and expand energy access. 
USAID Clean Energy programs work across all aspects of the energy 
sector to build strong energy systems in order to improve energy access 
and power global economic and social progress in the developing world. 
WWF requests at least $268.5 million for Clean Energy Programs within 
USAID Bilateral Economic Assistance in FY2022, an increase of $86.5 
million over the FY2021 enacted level.
                        ocean plastic pollution
    Each year, roughly eleven million metric tons of plastic pollution 
enter the world's oceans, equivalent to a truckload of plastic every 
minute. Congress has recognized the increasing global threat from ocean 
plastic pollution and directed the Department of State and USAID to 
redouble diplomatic and programmatic support for regional and global 
efforts to address the problem, including through grants, technical 
assistance, and new multilateral mechanisms. Increased funding is 
needed to implement this mandate and work with developing countries to 
improve waste management systems and reduce the amount of plastic waste 
making its way into our oceans. WWF requests $75 million from within 
USAID Development Assistance be directed in support of these efforts in 
FY2022, level with the FY 2021 enacted level.
                         global water strategy
    Water-driven stresses undermine economic productivity, governance, 
and social cohesion. Poor management and overuse of freshwater stresses 
food and energy resources, fuels conflicts within and between 
countries, and undermines U.S. development investments. The first 
Global Water Strategy, mandated under the Water for the World Act, was 
submitted to Congress in November 2017 with new strategic objectives on 
water security, including on water resource management and governance. 
The U.S. Department of State and USAID and other relevant Agencies, 
should direct funding to improve water resource management, improve 
cooperation over shared waters, and build resilience to extreme weather 
and disasters. WWF requests $540 million for Water and Sanitation 
programs in FY2022, an increase of $90 million over the FY2021 enacted 
level.
    [This statement was submitted by Will Gartshore, Director, 
Government Affairs And Advocacy.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
